<html>
<title> - ECO-TERRORISM AND LAWLESSNESS ON THE NATIONAL FORESTS</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
         ECO-TERRORISM AND LAWLESSNESS ON THE NATIONAL FORESTS
=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           February 12, 2002

                               __________

                           Serial No. 107-83

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov





                       U. S. GOVERNMENT PRINTING OFFICE
77-615                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho







                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 12, 2002................................     1

Statement of Members:
    Acevedo-Vila, Hon. Anibal, a Delegate in Congress from Puerto 
      Rico, Prepared statement of................................   116
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     8
    Hooley, Hon. Darlene, a Representative in Congress from the 
      State of Oregon............................................    14
        Prepared statement of....................................    15
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     4
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     3
    Nethercutt, Hon. George, Jr., a Representative in Congress 
      from the State of Washington...............................    16
        Prepared statement of....................................    19
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho, Prepared statement of..................    86
        Letter from the Federated Women in Timber submitted for 
          the record.............................................    87
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia.................................     6
        Prepared statement of....................................     7
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................    10
        Prepared statement of....................................    12

Statement of Witnesses:
    Berman, Richard B., Executive Director, The Center for 
      Consumer Freedom...........................................    64
        Prepared statement of....................................    66
    Flora, Gloria, Public Employees for Environmental 
      Responsibility.............................................    95
        Prepared statement of....................................    96
    Hicks, Michael S., Northwest Oregon Area Logging Manager, 
      Boise Cascade Corporation..................................    57
        Prepared statement of....................................    58
    Jarboe, James F., Domestic Terrorism Section Chief, 
      Counterterrorism Division, Federal Bureau of Investigation, 
      Washington. D.C............................................    48
        Prepared statement of....................................    49
    Pendleton, Dr. Michael R., Government Accountability Project.   102
        Prepared statement of....................................   103
    Rosebraugh, Craig, Former Press Officer, Earth Liberation 
      Front......................................................    21
        Prepared statement of....................................    21
        Response to questions submitted for the record...........    29
    Wasley, William F., Director, Law Enforcement and 
      Investigations, Forest Service, U.S. Department of 
      Agriculture................................................    93
        Prepared statement of....................................    93
    Wharton, Porter, III, Senior Vice President of Public 
      Affairs, Vail Resorts, Inc.................................    54
        Prepared statement of....................................    55

Additional materials supplied:
    Conn, P. Michael, Ph.D., Associate Director for Research and 
      Development, Oregon Regional Primate Research Center, 
      Oregon Health Sciences University, Letter and statement 
      submitted for the record...................................   120
    Elde, Robert, Dean, College of Biological Sciences, 
      University of Minnesota, Statement submitted for the record   118
    Kerr, Jeffrey S., General Counsel and Director of Corporate 
      Affairs, PETA Foundation, Letter submitted for the record..   122
    Nichols, Nick, Chairman and Chief Executive Officer, Nichols-
      Dezenhall Communications Management Group, Statement 
      submitted for the record...................................   129



  OVERSIGHT HEARING ON ECO-TERRORISM AND LAWLESSNESS ON THE NATIONAL 
                                FORESTS

                              ----------                              


                       Tuesday, February 12, 2002

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 3:04 p.m., in 
room 1324, Longworth House Office Building, Hon. Scott McInnis, 
[Chairman of the Subcommittee], presiding.

   STATEMENT OF THE HON. SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. The Committee will come to order. Subcommittee 
on Forests and Forest Health is now in order. Under Committee 
Rule 4(g) the Chairman and ranking member can make opening 
statements. In addition, we are recognizing the ranking member 
of the whole Committee, and obviously, the Chairman of the 
whole Committee, for statements as well. If any other members 
of the Committee have statements, they can be included in the 
hearing record under unanimous consent. I will begin with my 
opening remarks.
    Today the Subcommittee on Forests and Forest Health is 
conducting a hearing to explore the growing threat of eco-
terrorism and lawlessness on our national forests. The 
hearing's principal focus will be on the violent and 
increasingly frequent attacks of environmental terrorist groups 
like the Earth Liberation Front and the Animal Liberation 
Front. However, we will also hear from a panel of witnesses 
focusing on the very real problem of timber theft and 
intimidation of Federal land managers on national forests.
    It is the opinion of the Chair of this Subcommittee that 
terrorism, no matter for what message, is unacceptable. It is 
not the proper way to send a message. Some may try and argue 
that one set of issues speaking of the environmental set or the 
timber theft is more important than the other. But the fact is 
both sets of issues are very serious and both merit the 
examination of this Subcommittee. I look forward to the 
important dialogue we are going to have today.
    For the better part of a decade ELF and ALF and other rogue 
elements in the environmental movement have used brute force, 
intimidation and violence to promote an agenda that can only be 
described as radical. They attack Government buildings, homes, 
businesses and research labs with fire bombs, Molotov cocktails 
and timed-detonation devices. And I would urge any of you that 
would like, go ahead and take a look at the website. On the 
front of the web page it shows you how to use a detonation 
device. When it comes to the extensive violence on national 
forests, ELF's objective is as simple as it is unsettling, to 
create an overpowering aura of fear and anxiety that scares the 
American people off their forests or their right to use their 
forests.
    Today, some 10 years and many million of dollars in 
destruction after its emergence, the Earth Liberation Front has 
partially succeeded in achieving that objective in some parts 
of the country. People who legitimately work, live and play in 
these wild places now have no choice but to look over their 
shoulder in fear of a shadowy terror group like ELF.
    Colleagues, the individuals that make up these terror 
groups are not cut from the same fabric as the nature-loving 
hippies of my youth. It would be a serious mistake for anyone 
to dismiss these hard-liners as just misguided young people or 
trust-fund babies with nothing better to do. These people are 
hardened criminals. They are dangerous. They are well funded. 
They are savvy, sophisticated and stealthy. And if their 
violence continues to escalate, it is only a matter of time 
before their parade of terror results in loss of human life.
    I would like to take a moment to show a brief video clip 
that visually demonstrates the kind of violence that we are 
talking about.
    [Video clip shown about the Earth Liberation Front.]
    Mr. McInnis. What is ominous for the ELFs and ALFs of this 
world is the fact that every mainstream environmental 
organization I contacted in conjunction with this hearing, 
groups like the National Wildlife Federation, the Natural 
Resources Defense Council, the Sierra Club, the Wilderness 
Society, and many others, publicly condemned the acts of 
militant environmental groups. These public statements make it 
clear that the Earth Liberation Front and other like-minded 
organizations are on an island all by themselves. ELF's self-
styled Robin-Hood mystique is under assault from every 
direction, even from the individuals who have spent their lives 
promoting environmental protection and stewardship.
    After the Vail fire in October 1998, a statement released 
by Craig Rosebraugh, then spokesman for ELF, who has been 
subpoenaed to testify here today, warned America that the, 
quote, ``Elves were watching,'' unquote. Well, Mr. Rosebraugh, 
I can tell you that today, when it comes to ELF and ALF, the 
FBI is watching, state and local law enforcement is watching, 
Congress is watching, the mainstream environmental group is 
watching, and the public is now fully engaged in watching too.
    It is with this that I would like to remind those in 
attendance that this is not the time or venue for outbursts or 
protests. I know that many of you are passionate about an issue 
before this panel today, but this Subcommittee, our witnesses 
and those in the audience, will observe proper decorum. Thank 
you.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    Today the Subcommittee on Forests and Forest Health is conducting a 
hearing to explore the growing threat of eco-terrorism and lawlessness 
on our National Forests. The hearing's principal focus will be on the 
violent and increasingly frequent attacks of environmental terrorist 
groups like the Earth Liberation Front and Animal Liberation Front. We 
will also hear from a panel of witnesses focusing on the very real 
problem of timber theft and the intimidation of federal land managers 
on the National Forests. Some may try to argue that one set of issues 
is more important than the other, but the fact is, both sets of issues 
are very serious and both merit the examination of this Subcommittee. I 
look forward to this important dialogue.
    For the better part of a decade, ELF, ALF and other rogue elements 
in the environmental movement have used brute-force-intimidation and 
violence to promote an agenda that can only be described as radical. 
They attack government buildings and homes and businesses and research 
labs with firebombs, Molotov-cocktails and timed detonation devices. 
When it comes to their extensive violence on the national forests, 
ELF's objective is as simple as it is unsettling: to create an 
overpowering aura of fear and anxiety that scares the American people 
off of their forests.
    Today, some 10 years and many millions of dollars in destruction 
after its emergence, the Earth Liberation Front has partially succeeded 
in achieving that objective in some parts of the country. People who 
legitimately work, live and play in these wild places now have no 
choice but to look over their shoulder in fear of shadowy terror groups 
like ELF.
    Colleagues, the individuals that make-up these terror groups are 
not cut from the same fabric as the nature loving hippies of my youth. 
It would be a serious mistake for anyone to dismiss these hard-liners 
as just misguided college kids, or trust fund babies with nothing 
better to do. These people are hardened criminals. They are dangerous. 
They are well funded. They are savvy, sophisticated and stealth. And if 
their violence continues to escalate, it is only a matter of time 
before their parade of terror results in lost human life.
    Up until the present, ELF's and ALF's campaign of terror has 
largely succeeded in avoiding the long arm of justice. Nearly every act 
of eco-terrorism committed in the last decade remains unsolved, and too 
often the trail leading to ELF and ALF has grown cold. If there is a 
message today for local, state and federal law enforcement, it is this: 
domestic environmental terrorism must continue to be a national 
priority. These cases need to be solved.
    But while the perpetrators of eco-terrorist attacks have escaped 
justice more often than not, there are promising signs that the tide is 
beginning to turn, and the noose is beginning to tighten. Just 
yesterday, a man was sentenced to 18 years in prison for firebombing 
seven large homes under construction in the Phoenix area in 1999 and 
2000. Earlier this year, two known members of the Animal Liberation 
Front were sentenced to prison terms after police officers caught them 
making a bomb in a parking lot after midnight. Last year, a man 
believed to be associated with ALF was sentenced to 22 years in prison 
for his role in firebombing a Eugene, Oregon car dealership.
    For law enforcement, these are substantial accomplishments. For 
members of ELF and ALF still intent on terrorizing American 
communities, these long prison sentences provide an ominous warning of 
what happens when you get caught.
    Just as ominous for the ELF's and ALF's of this world is the fact 
that every mainstream environmental organization I contacted in 
conjunction with this hearing--groups like the National Wildlife 
Federation, the Natural Resources Defense Council, the Sierra Club, the 
Wilderness Society and many others--publicly eschewed and condemned the 
tactics of militant environmental groups. These public statements make 
it clear that the Earth Liberation Front and other like-minded 
organizations are on an island all by themselves. ELF's self-styled 
Robin Hood mystique is under assault from every direction, even from 
individuals who have spent their lives promoting environmental 
protection and stewardship.
    After the Vail fire in October 1998, a statement released by Craig 
Rosebraugh, then Spokesperson for ELF who has been subpoenaed to 
testify here today, warned America that the ``Elves were watching.'' 
Well, Mr. Rosebraugh, I can tell you today that, when it comes to ELF 
and ALF, the FBI is watching, state and local law enforcement is 
watching, Congress is watching, the mainstream environmental movement 
is watching, and the public is now fully engaged and watching too.
    It is with this that I would like to remind those in attendance 
that this is not the time or the venue for outbursts or protests. I 
know that many of you are passionate about the issue before this panel 
today, but this Subcommittee, our witnesses and those in the audience 
will observe proper decorum. Those who feel compelled to disrupt 
today's proceeding will be immediately removed.
    Thank you.
                                 ______
                                 
    Mr. McInnis. I now recognize the gentleman from Washington, 
Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Chair. First I would ask 
unanimous consent to include in the record the statement of 
Nick Rahall, if I may.
    Mr. McInnis. Without objection.
    Mr. Inslee. Even better, we are going to have Mr. Rahall 
live, which is certainly a treat.
    Mr. McInnis. You may proceed.
    Mr. Inslee. Thank you, Mr. Chair.

STATEMENT OF THE HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Inslee. Mr. Chair, today we are going to hear about 
acts of violence from people all across the political spectrum, 
left to right, pro environment, those who are concerned about 
environmental protection. And they will come from various parts 
of the country and a very wide spectrum of political beliefs.
    But each one of them involved in that violence will have 
one thing in common, and that is that they have decided to 
abandon democracy and embrace violence, and in that decision, 
they are all wrong. And I believe we have a bipartisan 
consensus today on that score and on that belief. And that I 
hope today that our ultimate goal is to recognize that all 
these sources of violence are equally culpable and it is 
equally important for us to find a way to stop it.
    And the reason I say that, if you look at these two 
pictures up here--a picture that Mr. McInnis provided--in the 
back of the Oregon arson, showing destruction of a building. 
Then you look up here, and if you look at this picture of the 
bombed U.S. Forest Service office in Carson City, Nevada, 
apparently by someone who was disenchanted with the 
environmental action of the Forest Service, neither one of 
those can be distinguished as to the fact that they are both 
outrageous and unacceptable violence, because the victims of 
violence don't know any particular political philosophy.
    So it is my hope that today we go through the gamut of 
violent acts from all sides of the political spectrum to decry 
them and to figure out how to stop them.
    Now, let me address if I can, first what provoked Mr. 
McInnis holding this hearing, and that is some of the violence 
from those who believe that the U.S. Government is not doing 
enough to protect environmental quality. To them I would say 
there is a reason for frustration for Federal Government 
inaction on the environment. There is reason for frustration of 
the Federal Government abandoning its commitment to the 
Roadless Area policy, but it is not an excuse for violence. 
There is a reason for frustration for the U.S. Government 
failing to adopt meaningful environmental standards in mining 
law, but it is not an excuse for violence. There is a reason 
for frustration for the administration attempting to roll back 
protections against arsenic and clean water, but it is not a 
reason for violence.
    Where would we have been if Martin Luther King decided that 
violence was the answer rather than instructing and inflaming 
the moral indignation of the Nation? I don't think we would 
have been as far down the road to equality that we are.
    And I would urge those who have been involved in that route 
hopefully to think about it, because I have been a person 
fighting here and a lot of other places to try to encourage 
environmental protection, and I can tell folks involved in that 
violence, it is not effective in our agenda, it is not 
effective in trying to protect our Federal forests. It is 
simply ineffective, and I hope that they will consider that.
    But there is another type of violence from a different 
direction that is going on in our forests. We have something 
over about 200,000 acts of criminality and various incidents 
reported in the Forest Service a year, and they come from a 
variety of sources. But a significant number of those are from 
people who believe that the Federal Government should not be 
acting as vigorously as they do in protecting environmental 
standards, and we will talk about some of those.
    We will hear from Gloria Flora, a ranger from the Humboldt-
Toiyabe Forest, about what she had to go through when she was 
enforcing the law.
    We will hear about the Santa Fe National Forest, where in 
May 2000, a law enforcement officer patrolling the Pecos Canyon 
during a fire restriction period, was dragged out of his car, 
beaten and viciously assaulted on the pavement by four men, who 
apparently believed that the Federal Government had no business 
protecting Federal Government property. The officer underwent 5 
hours of surgery and was in intensive care for several days. We 
will hear about that violence.
    We will hear about the Mark Twain National Forest, where on 
July 31st, 1997 a woman monitoring water quality was beaten and 
tied up, her van was smashed, by individuals posing as 
television crew. There are folks coming from a different angle, 
and we will hear about that nature of violence as well.
    And we will also hear about an ongoing--I am looking for 
the right language to describe just a pattern of criminality of 
the repeated theft of America's trees. And this is really the 
soft underbelly of our Forest Service policy, and I think is a 
silent disease in our national forests. We talk about the pests 
in our national forests. We will be talking today about this 
incredible problem of timber theft, where last year folks stole 
40 red cedars from the Olympic National Forest in the State of 
Washington, which is just one of perhaps up to $100 million 
worth of theft of America's trees.
    So, Mr. Chair, I appreciate your opening this Committee up 
to our broad work today, and look forward to people's 
testimony.
    Mr. McInnis. Mr. Rahall.

   STATEMENT OF THE HON. NICK J. RAHALL, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Mr. Chairman, I first want to commend you for 
agreeing to expand the scope of this hearing to include what I 
view as two very real forms of terrorism. One is threats 
against employees of our Federal land management agencies, and 
the theft of our public resources, as the ranking member, Mr. 
Inslee, has just referred to, such as valuable timber from our 
National Forest System lands.
    It is unfortunate, but it is true, that all too often 
American citizens who are serving their country as dedicated 
public servants working in the Forest Service, the BLM and 
National Park Service, and the Fish and Wildlife Service, have 
been subjected to harassment, intimidation and mental and 
physical abuse during the discharge of their duties. This has 
occurred primarily in the western states and it is often 
perpetrated by groups and individuals associated with radical 
right-wing causes.
    We as lawmakers, and as a Nation, should do more to protect 
Federal employees who face hostile working conditions. This 
type of treatment of Federal land managers is certainly alien 
to the areas that I have the privilege of representing in the 
Congress.
    For instance, in Fayette County in West Virginia, the 
superintendent of the National Park Service's New River Gorge 
National River once served as the president of the local 
chamber of commerce. He was that popular and respected in the 
community, as were all superintendents of that particular park 
unit. And this may come as a surprise to many of my western 
colleagues, but in Williamson, West Virginia the mayor 
presented the key of the city to BLM employees for their 
outstanding work on a project.
    Certainly since 9-11 we have all gained a greater 
appreciation of the brave and selfless service provided to us 
all every day by our fire and police departments and by our 
National Guard. And I believe we need to have that same 
appreciation for those in the Departments of Interior and 
Agriculture, who on a daily basis are in the field on the front 
lines, so to speak, charged with upholding the laws of this 
land. And in fact, it is many of these same employees who are 
now also being called upon to help with homeland security.
    As to the issue of theft of public resources, most of us 
have heard the old saying about not being able to see the 
forest for the trees. Well, these days this is because a good 
many of the trees are being stolen. The growth of illegal tree 
cutting in our national forests warrants a sustained and 
forceful response. Recently, vandals felled more than 40 old-
growth red cedars in Washington's Olympic National Forest. They 
did this to support their drug abuse habit. In fact, the Forest 
Service there estimates that 99 percent of these thefts are 
associated with drugs. We must not allow this practice of 
stealing from taxpayers to continue, and it is occurring not 
only in the west. In the Monongahela National Forest in my home 
State of West Virginia, last year a timber rustling ring stole 
about $250,000 worth of top-quality cherry trees.
    While I am not aware of a concise estimate, the American 
people are literally losing millions of dollars of their 
resources as a result of these activities.
    Terrorism comes in many forms. There is no doubt about it. 
Robbing future generations of Americans of the splendor and the 
grandeur of publicly held natural resources is in my book a 
form of terrorism.
    It is all together fitting and proper that this hearing is 
being held on Abraham Lincoln's birthday. In 1862 he said in an 
address to Congress, and I quote: ``The dogmas of the quiet 
past are inadequate to the stormy present. The occasion is 
piled high with difficulty, and we must rise -- with the 
occasion. As our case is new, so we must think anew, and act 
anew. We must disenthrall ourselves, and then we shall save our 
country.''
    Although the occasion is quite different today, these words 
are quite applicable.
    I look forward to hearing from our witnesses today, 
especially our three distinguished colleagues.
    And thank you, Mr. Chairman, for yielding time to me.
    [The prepared statement of Mr. Rahall follows:]

    Statement of The Honorable Nick J. Rahall II, Ranking Democrat, 
                         Committee on Resources

    Mr. Chairman, I would first like to express my appreciation to your 
agreeing to expand the scope of this hearing to include what I view is 
as two very real forms of terrorism; threats against employees of our 
federal land management agencies, and the theft of the public's 
resources, such as valuable timber, from National Forest System lands.
    It is unfortunate, but true, that all too often American citizens 
who are serving their country as public servants working in the Forest 
Service, the BLM, the National Park Service and the Fish and Wildlife 
Service have been subjected to harassment, intimidation, and mental and 
physical abuse during the discharge of their duties. This has occurred 
primarily in the western states, and is often perpetrated by groups and 
individuals associated with radical right-wing causes.
    We as lawmakers, and as a Nation, should do more to protect federal 
employees who face hostile working conditions. This type of treatment 
of federal land managers is certainly alien to the area I have the 
privilege of representing in the Congress.
    For instance, in Fayette County, West Virginia, the superintendent 
of the National Park Service's New River Gorge National River once 
served as the president of the local chamber of commerce. He was that 
popular and respected in the community, as have all of the 
superintendents of that particular park unit. And this may come as a 
surprise to some of my western colleagues, but in Williamson, West 
Virginia, the mayor presented the key to the city to two BLM employees 
for their outstanding work on a project.
    Certainly, since 9-11, we have all gained a greater appreciation of 
the brave and selfless service provided to us all, every day, by our 
fire and police departments, and by our National Guard. I believe we 
need to have that same appreciation for those in the Departments of the 
Interior and Agriculture who, on a daily basis, are in the field 
charged with upholding the laws of this land. And in fact, it is many 
of these same employees who are now also being called upon to help with 
homeland security.
    As to the issue of theft of public resources, most of us have heard 
the old saying about not being able to see the forest for the trees. 
Well, these days, that is because a good many of the trees are being 
stolen.
    The growth in illegal tree-cutting in our National Forests warrants 
a sustained and forceful response. Recently, vandals felled more than 
40 old-growth red cedars in Washington's Olympic National Forest. They 
did this to support their drug abuse habit. In fact, the Forest Service 
there estimates that 99% of thefts are associated with drugs. We must 
not allow this practice of stealing from taxpayers to continue. And it 
is not occurring only in the West. In the Monongahela National Forest 
in my home State, last year a timber rustling ring stole about $250,000 
worth of top-quality cherry trees.
    While I am not aware of a concise estimate, the American people are 
literally losing millions of dollars of their resources as a result of 
these activities.
    Terrorism comes in many forms. Robbing future generations of 
Americans of the splendor and grandeur of publicly held natural 
resources is in my book a form of terrorism.
    It is altogether fitting and proper that this hearing is being held 
on Abraham Lincoln's birthday. In 1862, he said in an address to 
Congress:
        ``The dogmas of the quite past, are inadequate to the stormy 
        present. The occasion is piled high with difficulty, and we 
        must rise--with the occasion. As our case is new, so we must 
        think anew, and act anew. We must disenthrall ourselves, and 
        then we shall save our country.''
    Although the occasion is quite different, those words are 
applicable today.
    I look forward to hearing from the witnesses.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Rahall.
    And Chairman of the whole Committee, Mr. Hansen. Mr. 
Hansen, you may proceed.

  STATEMENT OF THE HON. JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Hansen. Thank you, Mr. Chairman. I would like to 
associate my remarks with yours and Mr. Inslee, and Mr. Rahall, 
what has been said.
    You know that over 40 years ago I really got ticked off at 
the Farmington City Council where I lived, and those guys made 
me so mad the way they were handling the water system. You know 
what I did? I ran for the City Council. And guess what? I 
became the water commissioner, and so, if you don't like it, do 
something about it. So that is the system we work in. Our 
system is if you don't like something, there is a proper way to 
do it in America, and Mr. Inslee correctly points out about 
things that are frustrating. They are frustrating on both 
sides. And so that is why most of us that are sitting up on 
this dais are here today, because we were very frustrated with 
something that occurred, and so we wanted to make a change.
    We can stand and look at C-SPAN, every day looking at C-
SPAN. One of us is going to get up, and we are going to scream 
and shout and make all kinds of comments about something that 
is wrong, and doggone it, we want to change it. But in America 
to get it done, you have to work within the system. That is the 
way it works.
    And so we come in here. As a past military person years ago 
during the Korean War, I am now the third-ranking man on the 
Armed Services Committee, and I would like to see some things 
changed that I think are better for the enlisted men and the 
junior officers, but the way to do it is within the system.
    You know our Constitution starts by saying ``We the 
people,'' and that is what it is really serious about; it is 
the people that run this show, and we are responsible to you. 
We are responsible to the people. And all this comes down to 
the majority of people, and we see how people vote and what 
they say, and if they like us they keep us in. And so we just 
can't go off on our own and do what we want to do.
    I was down in the White House recently as one of the senior 
members of the Armed Services Committee, and the President said 
to the new Homeland Security man, Governor Ridge, he said, 
``Terrorism is terrorism wherever it is found, and we are going 
to stamp it out,'' because we had made the point, because this 
Committee is constantly getting these areas.
    It was brought up on this film that you showed, Mr. 
Chairman, that the Salt Lake City, my home state, was getting 
more hits than a lot of them, and I have known a lot of those 
people. I have represented a lot of them. Up there in what is 
called Morgan County, we have had somebody throw out dozens of 
mink, those little animals that run around. And guess what? 
They really didn't do them any favors because the coyotes had 
most of them eaten by the next morning. But if that made 
somebody happy that those mink were thrown out, so be it. I 
have seen a lot of situations like that. I have often wondered 
maybe someone who does that should take into consideration the 
biblical term of what is the measure of creation of that 
animal? And maybe the measure of creation of that animal is 
something--if someone wants to wear a mink coat, I think it is 
their privilege to do that. I don't know what else you would 
use them for.
    Anyway, it comes down to the idea that this Government 
moves kind of slow sometimes. Its justice moves slow. And some 
groups start out and they become an irritant. And they are 
irritated by the local cities. And then they become more than 
an irritant, and then they start breaking laws. And so slowly 
and slowly, justice grinds out. And then some of those very 
same people find themselves in a terrible situation. They 
didn't mean to do that. They were just frustrated, as Mr. 
Inslee pointed out, but they went the wrong way to get it done. 
And that frustration led to something that got them in trouble 
with the law, and pretty soon they get in front of a judge or a 
jury, and before long, they are looking out of the wrong side 
of the bars.
    And then they sometimes have a chance to reflect and think 
and wonder, ``Did I do the right thing?'' And many times they 
did not. And that is a terrible lesson to have to learn, and I 
hate to see anybody do that that way. That is not the way we 
want to do business in America, but sometimes that is the way 
we do it.
    So as I look at what has happened and all the situations 
that we have reviewed on this Committee, and I have been on 
this Committee now 21 years, and eventually justice will grind 
out and eventually someone will be very, very sorry that they 
found themselves doing something outside of the bounds of the 
law.
    My comment, Mr. Chairman, to those folks who feel 
frustrated, gosh, and that is all of us I guess, is learn to 
work within the system, and then you can really get something 
done. Of course, if you just want to be nasty and paint walls 
and ruin a person's livelihood and all that, that is up to you 
too, but still on the other hand, you will feel the wrath of 
the system eventually come down upon you.
    And I would like to submit what I really wanted to say for 
the record. Is that all right?
    Mr. McInnis. Thank you, Mr. Chairman. I would ask unanimous 
consent that following their testimony, Congressman Nethercutt, 
Congressman Hooley and Congressman Walden be allowed to join 
the Subcommittee on the dais and to participate in the hearing. 
Any objection?
    Seeing no objection, so ordered.
    I would now like to introduce our witnesses on the first 
panel. On Panel I we have the Honorable Greg Walden, 2nd 
District, State of Oregon; the Honorable Darlene Hooley, 5th 
District, State of Oregon; and the Honorable George Nethercutt, 
5th District of the State of Washington.
    I remind the witnesses that your testimony is limited to 5 
minutes, and, Mr. Walden, I will allow you to proceed.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman, for your 
efforts to investigate the issues of eco-terrorism and 
lawlessness in our national forests. Let me say at the outset 
that regardless of which side of that political spectrum you 
reside, breaking the law to further your views is wrong.
    I represent the people in a district larger than any state 
east of the Mississippi with more than half of those lands 
controlled by the Government. Too often the men and women in 
Federal service have been the targets of intimidation, ridicule 
and abuse by those who blame them for the Federal policies they 
are paid to implement. They and their families deserve better 
than to live in fear that because of the uniform they wear or 
the color of the truck they drive, they somehow are to blame.
    We do not tolerate acts of violence against them, just as 
we must speak out against acts of intimidation against Native 
Americans whose ancestral rights are sometimes in dispute.
    But today I focus my attention on the eco-terrorism of two 
organizations which often jointly claim credit for acts of 
incredible destruction in my State. Let us call ELF and ALF for 
what they truly are: terrorist organizations. Their combatants 
wear no uniform. They blend with the civilian population. They 
destroy private and government property. They teach others how 
to conduct dangerous and illegal acts, and they try to 
intimidate those who speak against them.
    Both Congresswoman Hooley and I are now featured on an 
affiliate's website.
    I am sure some may question my inclusion of the Animal 
Liberation Front in my testimony. However, several terrorist 
acts nationwide and within my district have been jointly 
claimed by both groups' spokespersons. When Mr. Rosebraugh 
stepped down as ELF's spokesperson, David Barbarash, the 
spokesperson for ALF, filled the void from his location in 
Vancouver, British Columbia. Two of the three specific acts I 
will be referring to today were jointly claimed by ELF and ALF.
    Mr. Chairman, my district has seen three acts of terrorism 
committed by ELF or ELF/ALF in recent years. Numerous other 
acts of violence and destruction of private property remain 
unclaimed, but appear in the recent ALF 2001 Year-End Direct 
Action Report. On July 21, 1997 an arson fire at Cavel West 
meat packing plant in Redmond, Oregon resulted in $1.4 million 
in damage, a jointly claimed act.
    According to Captain Wayne Shortreed of the Redmond Police 
Department, at one point the blaze was so hot that it 
threatened a propane storage facility approximately 100 yards 
away in a densely populated area.
    Four months later this firebombing was followed by a 
November 29th, 1997 joint-claimed attack on several BLM horse 
corrals in Burns, Oregon, also in my district. This direct 
action resulted in over $450,000 in damage and the release of 
539 horses and burros. It also resulted in the scuttling of a 
planned adoption of 100 wild horses and 40 burros that had been 
scheduled to take place on December 6th and 7th of that year.
    And on December 27th, 1998 ELF firebombed the U.S. Forest 
Industries headquarters in Medford, Oregon, causing more than 
$900,000 in damage. It is this last attack on U.S. Forest 
Industries, claimed only by ELF, that I would like to focus on 
in my testimony today.
    On the morning of December 28th, the employees of U.S. 
Forest Industries arrived at work to find their offices 
smoldering. The scene is reminiscent of what we saw of the 
damaged part of the Pentagon after September 11th, although it 
didn't take a jetliner to destroy this office. An ELF firebomb 
did the job. And while fortunately there was no loss of life, 
the destruction was just as severe.
    As pictures speak louder than words, I thought it might be 
helpful to see the damage inflicted on U.S. Forest Industries.
    This first picture on my right you will see shows the 
aftermath of the firebomb on the exterior of the building with 
the yellow crime-scene tape.
    In the second picture you see the interior devastation from 
the attack, though it is hard to see because the intensity of 
the fire has blackened the walls. Company files, office 
equipment, all destroyed to further someone's political agenda.
    Amazingly, Mr. Chairman, and by sheer force of will, U.S. 
Forest Industries' operations were shut down for only 4 hours 
on that Monday because the company was able to relocate its 15 
employees to its mill operations plant in White City, Oregon. 
In the words of U.S. Forest Industries' President, Jerry 
Bramwell, quote, ``We didn't want to give ELF the satisfaction 
of putting us out of business.'' End quote.
    It didn't take long for ELF to claim responsibility for 
this attack, as this January 16th, 1999 ELF press release 
illustrates. We had to delete the expletives used in the ALF 
press release, as such language isn't appropriate for this 
hearing. I would like to read, however, some excerpts from this 
release.
    In the second paragraph the press release states, and I 
quote: ``To celebrate the holidays we decided on a bonfire. 
Unfortunately for U.S. Forest Industries it was their corporate 
office headquarters in Medford, Oregon.''
    The press release then states in the fourth paragraph: 
``This was done in retribution for all the wild forests and 
animals lost to feed the wallets of greedy''--expletive 
deleted--``like Jerry Bramwell, U.S.F.I. President.''
    And the attack was not because USFI was harvesting timber 
from public lands. No, they were harvesting timber off private 
lands in Colorado.
    The so-called communique continues, and I quote: ``This 
action is payback and it is a warning to all other responsible, 
we do not sleep and we won't quit.'' End quote.
    Clearly, Mr. Chairman, the threat remains.
    Mr. Chairman, if there are still some out there who feel 
that these acts by ELF and ALF should not be classified as 
terrorist acts, perhaps this next poster will sway their 
opinion.
    This is an enlargement of a page taken straight from ELF's 
website. As you can see, the title of the page is ``Setting 
Fires with Electrical Timers, an Earth Liberation Front 
Guide.'' I think the intent of the guide is dramatically and 
blatantly clear. They are actively enlisting and training 
others to carry out additional attacks in our country.
    Now ELF and ALF claim that no human or non-human animal 
will be hurt by their attacks. But this assertion is 
incredulous in light of the severity and violent nature of many 
attacks perpetrated over the last 4 years.
    I think an editorial in the January 24th, 1999 edition of 
the Portland ``Oregonian'' said it best when it stated, quote: 
``ELF's followers think they have the power to plan their 
violence so that no [''human or non-human animal``] will ever 
be hurt. What are they going to say if man, woman or child just 
happens to be in the wrong place when ELF makes its next 
statement by fire. There is no sense in what ELF offers to the 
world and no honor.''
    Mr. Chairman, I couldn't agree more with the words 
expressed in this editorial. It is only a matter of time before 
an innocent life is lost in a future ELF or ALF attack. That is 
why it is imperative to treat all acts of terrorism equally. 
The terrorists behind the attacks of September 11th, 2001 and 
December 27th, 1998, both used terror and destruction to 
further their cause.
    Terrorism is terrorism whether it is international, 
domestic, economic, religious, social or environmental. So I 
call on our Justice Department to redouble its efforts to track 
down, apprehend and convict those responsible for these acts. 
Time to break up this terrorist network too.
    Mr. Chairman, I commend you once again for holding this 
hearing. Thank you.
    [The prepared statement of Mr. Walden follows:]

 Statement of The Honorable Greg Walden, a Representative in Congress 
                        from the State of Oregon

    Thank you Mr. Chairman for your efforts to investigate the issues 
of eco-terrorism and lawlessness on our national forests. Let me say at 
the outset, that regardless of which side of the political spectrum you 
reside, breaking the law to further your views is wrong.
    I represent the people in a district larger than any state east of 
the Mississippi with more than half of the lands controlled by the 
government. Too often the men and women in the federal service have 
been the targets of intimidation, ridicule and abuse by those who blame 
them for the federal policies they are paid to implement. They and 
their families deserve better than to live in fear that because of the 
uniform they wear or the color of the truck they drive that somehow 
they are to blame.
    We do not tolerate acts of violence against them. Just as we must 
speak out against acts of intimidation against Native Americans whose 
ancestral rights are in dispute.
    But today I focus my attention on the eco-terrorism of two 
organizations, which often jointly claim ``credit'' for acts of 
incredible destruction in my state.
    Let's call ELF and ALF for what they truly are--TERRORIST 
ORGANIZATIONS. Their combatants wear no uniform. They blend with the 
civilian population. They destroy private and government property. They 
teach others how to conduct dangerous and illegal acts. And they try to 
intimidate those who speak against them.
    Both Congresswoman Hooley and I are now featured on their 
affiliate's website.
    I am sure some may question my inclusion of the Animal Liberation 
Front (ALF), in my testimony. However, several terrorist acts 
nationwide and within my district have been jointly claimed by both 
group's spokespersons. When Mr. Rosebraugh stepped down as the ELF 
spokesperson, David Barbarsh, the spokesperson for ALF, filled the void 
from his location in Vancouver, British Columbia. Two of the three 
specific acts I will be referring to today, were jointly claimed by 
ELF/ALF.
    Mr. Chairman, my district has seen three acts of terrorism 
committed by ELF or ELF/ALF in recent years. Numerous other acts of 
violence and destruction of private property remain un-claimed, but 
appear in the recent ALF 2001 Year-End Direct Action Report. On July 
21, 1997 an arson fire at Cavel West meatpacking plant in Redmond, 
Oregon resulted in $1.4-million in damage, a jointly claimed act.
    According to Captain Wayne Shortreed of the Redmond Police 
Department, at one point the blaze was so hot that it threatened a 
propane storage facility approximately 100 yards away in a densely 
populated area.
    Four months later, this firebombing was followed by a November 29, 
1997 jointly claimed attack on several BLM horse corrals in Burns, 
Oregon, also in my district. This direct action resulted in over 
$450,000 in damage and the release of 539 horses and burros. It also 
resulted in the scuttling of a planned adoption of 100 wild horses and 
40 burros that had been scheduled to take place on December 6-7, 1997.
    And, on December 27, 1998 ELF firebombed the U.S. Forest Industries 
headquarters in Medford, Oregon causing more than $900-thousand in 
damage. It is this last attack on U.S. Forest Industries, claimed only 
by ELF, that I'd like to focus on in my testimony.
    On the morning of December 28, 1998, the employees of U.S. Forest 
Industries arrived at work to find their offices smoldering. The scene 
is reminiscent of what we saw of the damaged part of the Pentagon after 
September 11th. It didn't take a jetliner to destroy this office, an 
ELF firebomb did the job. And while fortunately there was no loss of 
life, the destruction was just as severe.
    As pictures speak louder than words, I thought it might be helpful 
to see the damage inflicted on U.S. Forest Industries.
    This first picture you see shows the aftermath of the firebomb on 
the exterior of the building with the yellow, crime-scene tape.
    In this second picture you see the interior devastation from the 
attack, though it's hard to see because the intensity of the fire has 
blackened the walls. Company files, office equipment, all destroyed to 
further someone's political agenda.
    Amazingly, Mr. Chairman, and by sheer force of will, US Forest 
Industries operations were shutdown for only four hours on Monday, 
December 28 because the company was able to relocate its 15 employees 
to its mill operations plant in White City, Oregon. In the words of 
U.S. Forest Industries President, Jerry Bramwell, ``We didn't want to 
give ELF the satisfaction of putting us out of business. ``
    It didn't take long for ELF to claim responsibility for this attack 
as this January 16, 1999 ALF press release illustrates. We had to 
delete the expletives used in the ALF press release; as such language 
is not appropriate for this hearing. I would like to read some excerpts 
from this release. In the second paragraph the press release states:
        ``To celebrate the holidays we decided on a bonfire. 
        Unfortunately for US Forest Industries it was at their 
        corporate office headquarters in Medford, Oregon.''
    The press release then states in the fourth paragraph: ``This was 
done in retribution for all the wild forests and animals lost to feed 
the wallets of greedy (expletive deleted) f--ks, like Jerry Bramwell, 
U.S.F.I. President.''
    The attack was not because USFI was harvesting timber from public 
lands--no, they were harvesting timber off of private lands in 
Colorado.
    The so-called ``communique'' continued--and I quote: ``This action 
is payback and it is a warning to all others responsible, we do not 
sleep and we won't quit.'' End quote.
    Clearly, Mr. Chairman, the threat remains.
    Mr. Chairman, if there are still some out there who feel that these 
acts by ELF/ALF should not be classified as terrorist acts, perhaps 
this next poster will sway their opinion.
    This is an enlargement of a page taken straight from ELF's website 
(www.earthliberationfront.com). As you can see, the title of the page 
is ``Setting Fires with Electrical Timers: An Earth Liberation Front 
Guide.'' I think the intent of the guide is dramatically and blatantly 
clear. They're actively enlisting and training others to carry out 
additional attacks in our country.
    Now, ELF and ALF's claim that no ``human or non-human animal'' will 
be hurt by their attacks. But this assertion is incredulous in light of 
the severity and violent nature of many attacks perpetrated over the 
last four years.
    I think an editorial in the January 24, 1999 edition of the 
Oregonian said it best when it stated ``...ELF's followers think they 
have the power to plan their violence so that no [``human or non-human 
animal``] will ever be hurt. What are they going to say if man, woman 
or child just happens to be in the wrong place when ELF makes its next 
statement by fire. There is no sense in what ELF offers to the world 
and no honor.''
    Mr. Chairman, I couldn't agree more with the words expressed in 
this editorial. It is only a matter of time before an innocent life is 
lost in a future ELF/ALF attack. That is why it is imperative to treat 
all acts of terrorism equally. The terrorists behind the attacks of 
September 11, 2001 and December 27, 1998 both used terror and 
destruction to further their cause.
    Terrorism is terrorism whether it is international domestic, 
economic, religious, social or environmental. I call on our Justice 
Department to redouble its efforts to track down, apprehend and convict 
those responsible for these acts. It's time to break up this terrorist 
network, too.
    Mr. Chairman, I commend you once again for holding this hearing and 
I yield back the balance of my time.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Walden.
    Ms. Hooley

   STATEMENT OF THE HON. DARLENE HOOLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Ms. Hooley. Thank you, Mr. Chairman.
    It is very appropriate that we are gathered here today on 
the birthday of Abraham Lincoln, one of our country's greatest 
leaders. His career and the turbulent times he brought the 
Nation through exemplifies a need to foreswear violence in the 
name of political causes and abide by the rule of law.
    In the wake of an 1837 mob lynching of an abolitionist 
newspaper editor, Lincoln urged his fellow Americans to let 
reverence for the law become the political religion of the 
Nation, to let legislators and judges chosen by the people, 
rather than lynch mobs motivated by passion and hatred, decide 
important issues.
    In the end Lincoln's philosophy was vindicated. Our Nation 
remains united and we are committed by the rule of law.
    But there is a minority of Americans who refuse to abide by 
this covenant. They believe the rule of law does not apply to 
them, and in the forests and communities of Oregon and the 
western United States, their actions are a rapidly growing 
problem.
    Oregon has seen a growing number of incidents of eco-
terrorism. Last year a Boise Cascade building in my district 
was burned down by ELF on Christmas Day. While eco-terrorists 
claim that they don't want to harm people, they need to sit 
down with the volunteer firefighters who were roused from their 
bed on Christmas morning to fight the blaze they started. One 
of those firefighters, Paul Evans, who is also mayor of the 
city, told me he barely escaped from the inferno before the 
roof of the building collapsed.
    Last year poplar trees involved in a research project at 
Oregon State University were destroyed. And there are more 
stories.
    Unfortunately, neither side of the battle over the 
environment has a monopoly on the use of violence. Both 
environmentalists and those who oppose increased protections of 
our natural resources have resorted to illegal tactics to 
advance their causes. Federal land managers have been harassed, 
intimidated and threatened by those who are opposed to 
environmental protections.
    Let me be clear. Using violence or intimidation in the name 
of a political cause is wrong. In a democracy we fight for 
change at the ballot box and in the halls of our legislature.
    Eco-terrorism poses additional challenges to the law 
enforcement community. It is a well-known fact that very few 
eco-terrorists have been caught. These groups have no formal 
organization. They act in small terror cells which are 
autonomous from one another. Because these crimes are 
investigated with limited resources and manpower, local law 
enforcement officials have little success in successfully 
closing these cases.
    Along with my colleague from Oregon, Congressman Walden, I 
have sought to reverse the current situation by sponsoring H.R. 
2583, the Environmental Terrorism Reduction Act. This bill 
would provide Federal assistance where it is needed most, at 
the local level. It would establish the Attorney General to 
establish a national clearinghouse for information of 
incidences of eco-terrorism, with the hope that the 
investigators stay ahead of the curve in preventing additional 
acts of terror.
    In addition, H.R. 2583 would establish the Environmental 
Terrorism Reduction Program in the Department of Justice. This 
program would authorize the Attorney General to designate any 
area as a High-Intensity Environmental Terrorism Area, and we 
know these happen in groups. After making such a designation, 
local law enforcement agencies would access Federal funding to 
assist them in solving and preventing these types of crimes in 
the future. This program is similar to the Department of 
Justice's high-Intensity Drug-Trafficking Area, better known as 
HIDTA, which has been extraordinarily useful in Oregon and 
other states in helping to make our communities better places 
to live.
    Mr. Chairman, and Mr. Ranking Member, again thank you for 
the opportunity to appear before the Committee. I urge you and 
the rest of the Committee to co-sponsor H.R. 2583 and assist 
Congressman Walden and I in getting this legislation approved.
    Thank you for your time.
    [The prepared statement of Ms. Hooley follows:]

Statement of The Honorable Darlene Hooley, a Representative in Congress 
                        from the State of Oregon

    Thank you Mr. Chairman.
    It is very appropriate that we are gathered here today on the 
birthday of Abraham Lincoln, one of our country's greatest leaders. His 
career--and the turbulent times he brought the nation through--
exemplify the need to foreswear violence in the name of political 
causes and abide by the rule of law.
    In the wake of an 1837 mob lynching of an anti-slavery newspaper 
editor, Lincoln urged his fellow Americans to ``let reverence for the 
laws . . . become the political religion of the nation,'' to let 
legislatures and judges chosen by the people, rather than lynch-mobs 
motivated by passion and hatred, decide matters.
    In the end, Lincoln's philosophy was vindicated. Our nation remains 
united, and we are committed to the rule of law.
    But as is always the case, there is a minority of Americans who 
refuse to abide by this covenant. They believe the rule of law does not 
apply to them, and in the forests and communities of Oregon and the 
Western United States, their actions are a rapidly growing problem.
    Violence or intimidation directed against a Forest Service 
employee--or arson in the name of protecting the environment--are not 
lawful acts. They are crimes--and their perpetrators should be 
apprehended and prosecuted to the fullest extent of the law.
    Obviously, there are laws in place prohibiting assault or 
threatening harm against any individual, whether he or she is an 
environmental activist or a Forest Service employee. It is inexcusable 
that a Park Service ranger would have to live in fear of having their 
home or office bombed, or that someone monitoring water quality on 
public land could be beaten and left for dead.
    These are just some of the crimes on federal land which have 
occurred in the past few years. As such, I strongly urge the members of 
the Committee to ensure that our local, state, and federal law 
enforcement officials are effectively upholding the law in this regard.
    That said, eco-terrorism poses additional challenges for the law 
enforcement community.
    It is a well-known fact that very few eco-terrorists, especially E-
L-F representatives, have been caught. These groups have no formal 
organization, and act in small terrorist cells which are autonomous 
from one another. Because these crimes are investigated with limited 
resources and manpower, local law enforcement officials have little 
success in successfully closing these cases.
    Along with my colleague from Oregon, Congressman Greg Walden, I 
have sought to reverse the current situation by sponsoring H.R. 2583, 
the Environmental Terrorism Reduction Act. This bill would provide 
federal assistance where it is needed most, at the local level.
    H.R. 2583 would first require the Attorney General to establish a 
national clearinghouse for information on incidents of eco-terrorism, 
with the hope that investigators stay ahead of the curve in preventing 
additional acts of terror.
    It should be noted the Bureau of Alcohol, Tobacco, and Firearms 
(ATF) already maintains a data-base of information on every explosive 
device found or triggered in the United States. As we consider moving 
this bill forward, it should be perfected to ensure the clearing house 
contain input from ATF so as not to reinvent the wheel.
    In addition, H.R. 2583 would establish the Environmental Terrorism 
Reduction Program in the Department of Justice.
    This program would authorize the Attorney General, upon 
consultation with the heads of Federal, State, and local law 
enforcement agencies and the Governor of each applicable State, to 
designate any area as a high intensity environmental terrorism area. 
After making such a designation local law enforcement agencies could 
access federal funding to assist them in solving and preventing these 
types of crimes in the future.
    This program is similar to the Department of Justice's High 
Intensity Drug Trafficking Area program (HIDTA), which has been 
extraordinarily useful in Oregon and other states in helping make our 
communities better places to live.
    Mr. Chairman and Mr. Ranking Member, thank you again for the 
opportunity to appear before the Committee. I would urge you and entire 
panel to co-sponsor H.R. 2583, and assist Congressman Walden and I in 
getting this legislation approved by the Judiciary Committee.
                                 ______
                                 
    Mr. McInnis. Thank you, Congresswoman.
    Mr. Nethercutt, you may proceed.

      STATEMENT OF THE HON. GEORGE R. NETHERCUTT, JR., A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Nethercutt. Thank you, Mr. Chairman. And I want to 
thank you and the ranking member, Mr. Inslee, for taking the 
initiative to conduct this hearing today, and I thank the 
members of the Subcommittee for your attention to this panel of 
witnesses.
    If I may, I would like to have my prepared statement made 
part of the record, and I will do my best to summarize it here 
in the 5 minutes that you have allotted to us.
    Mr. Chairman, Agroterrorism and the reprehensible actions 
of radical environmentalists have for too long been perceived 
as local concerns concentrated in particular geographic areas. 
The sheer scope of this criminal activity escapes the focus it 
deserves, with arson, vandalism and intimidation often 
occurring in rural areas with limited press coverage. So we are 
left with anecdotal evidence and a little sense of the vast 
criminal conspiracy that connects the members of organizations 
such as ALF and ELF.
    I would ask that some documents be included in the record, 
if I may, which I hope would help the Subcommittee in 
considering this issue.
    The first item is a letter to me from the National Center 
for Public Policy Research, along with copies of correspondence 
exchanged with national environmental groups about their 
positions on violent activism.
    Second I am providing a Department of Agriculture report on 
the extent of animal and plant terrorism incidents at USDA 
funded facilities, with recommendations for improving security. 
And this report especially responds to a requirement I 
sponsored in fiscal year 2001, and represents only the very 
first tentative efforts by Federal agencies to grapple with 
this problem.
    And third I am providing the 2001 Year-End Direct Action 
Report from the Animal Liberation Front.
    As members of the Subcommittee may know, I represent the 
State of Washington, a State that is blessed with vast and 
beautiful natural resources and a vibrant biotechnology 
industry. We have agriculture, and science, and forestry, that 
has been under assault by radical environmental groups for 
years in our State, and constituents of mine have been very 
concerned with actions that threaten their lives and their 
livelihood.
    I have had a chance to talk with a number of scientists, 
research scientists who have been in the business for many 
years, and one in particular struck a chord with me. She was a 
middle-aged woman who had been working in medical research for 
years and had been physically threatened by radicals and was 
fearful of her safety. And she said to me, ``Congressman, I'm 
just trying to cure breast cancer, and these people in these 
groups are trying to intimidate me from doing the work that I 
think will help humanity.''
    Another scientist from my district, an agricultural 
research scientist, literally fled from this country, went to 
Australia for a year, after receiving death threats to his 
family.
    So these are people who want to make our lives better, who 
want to improve society, who want to help other people, and 
they are being intimidated in the research industry by people 
who have little care for humanity.
    In May of 2001 it sort of came to a boiling point for me. 
The Horticultural Center at the University of Washington, not 
in my district but in my beautiful State, was burned to the 
ground. The University Center for Urban Horticulture was burned 
down. The direct cost of that crime was $5.3 million. I met 
today with a scientist from that facility, who is heartbroken 
and said his colleagues are heartbroken, by not only the 
violent act that burned down this building, but from the 
standpoint that the research that they had conducted over the 
years was destroyed. It has an impact in the real world, in the 
real scientific world.
    So what I have done is introduced legislation. It is H.R. 
2795, the Agroterrorism Prevention Act. And I want to commend 
Congressman Cunningham and Congressman Chambliss for their work 
in crafting this bill.
    What it does, in summary, is it enhances the penalties for 
this kind of destructive act by organizations like ELF and ALF. 
It provides an increase in penalty for violation from 1 year to 
5 years in prison. And a new penalty is added for the use of 
explosives or arson, recognizing that firebombing, as 
Congressman Walden said, is the preferred act in this kind of 
activity. We expand the restitution requirements and allow a 
possible death penalty, a sentence for violations that causes 
somebody to die. And it is only a matter of time, Mr. Chairman, 
until somebody is going to die. And the law ought to be strong 
enough to deal with that kind of destructive behavior that is 
likely to cause death in the days ahead.
    I know my time is up, but I just want to say this. We 
provide assistance in this bill, not only for enhanced 
penalties but we are going to help the research facilities in 
this country protect themselves from this kind of activity 
where people come in and they tip over trays of scientific 
research and destroy years of work and experiments that are 
paid for by the taxpayer. Federal research is provided all 
across this country in universities and other institutions with 
taxpayer dollars. When those are destroyed, that destroys and 
wastes taxpayer dollars.
    I have two charts to show to the Subcommittee. The first 
one, Mr. Chairman, shows that University of Washington facility 
and the fire, before and the after. This is a horticultural 
center, and it was destroyed to the tune of $5.3 million in 
damages. The chart shows the self-reported terrorism from ALF 
and ELF in 2001. The red states are the ones that have been 
targeted by these two organizations in the last year.
    Let me close with this quote. These are words attributed to 
ALF following an attack on the property of a Michigan 
veterinarian working with fur farmers. Quote: ``We must all act 
our consciousness and inflict economic harm upon all of those 
who are responsible for the destruction of the earth and its 
inhabitants. We encourage others to find a local Earth raper 
and make them pay...The only language these people understand 
is money. We must inflict economic sabotage on all Earth rapers 
if we are ever to stop the madness we live in. To do so is not 
a crime, it is a necessity.''
    One other quote that this Committee ought to understand and 
appreciate. In a recent magazine interview, Mr. Rosebraugh 
showed his sympathy with the victims of September 11, noting: 
``Anyone in their right mind would realize the United States 
had it coming.''
    One of his ELF associates was more direct. Quote: ``I 
cheered when the plane hit the Pentagon. Those people are in 
the business of killing people. It was like, sorry [expletive] 
happen.''
    I urge this Committee to favorably report out legislation 
like the Agroterrorism Prevention Act, and bills like Ms. 
Hooley and Mr. Walden have sponsored and proposed.
    And I am grateful that this Committee has taken the time to 
address this issue. Thank you.
    [The prepared statement of Mr. Nethercutt follows:]

Statement of The Honorable George R. Nethercutt, Jr., a Representative 
                in Congress from the State of Washington

    Mr. Chairman, I would like to thank you and the ranking member for 
taking the initiative to conduct this hearing today. Agroterrorism and 
the reprehensible actions of radical environmentalists have for too 
long been perceived as local concerns, concentrated in particular 
geographic regions. The sheer scope of this criminal activity escapes 
the focus it deserves, with arson, vandalism and intimidation often 
occurring in rural areas, with limited press coverage. We are left with 
anecdotal evidence and little sense of the vast criminal conspiracy 
that connects the members of organizations such as the Animal and Earth 
Liberation Fronts.
    I would ask to include in the record three items which I believe 
may be helpful to the Subcommittee in considering this issue. The first 
item is a letter to me from the National Center for Public Policy 
Research, along with copies of correspondence exchanged with national 
environmental groups about their positions on violent activism. Second, 
I am providing a Department of Agriculture report on the extent of 
animal and plant terrorism incidents at USDA funded facilities, with 
recommendations for improving security. This report responds to a 
requirement I sponsored in fiscal year 01, and represents only the very 
first tentative efforts by Federal agencies to grapple with this 
problem. Third, I am providing the 2001 Year-End Direct Action Report 
from the Animal Liberation Front.
    I represent Washington state, which is blessed with rich natural 
resources and a vibrant biotechnology industry. Agriculture, forestry 
and science have been under assault by radicals for years in our state, 
and constituents have long expressed their concerns with criminal 
activity that threatens both their lives and their livelihood.
    I met with one scientist who told me that she has been physically 
threatened by radicals and fears for her safety. ``Yet, all I want to 
do is cure breast cancer,'' she says. Another scientist, from my 
district, fled with his family to Australia for a year after receiving 
death threats. These are people who want to make our lives better, cure 
diseases, make agriculture more sustainable and less ecologically 
damaging. But organizations like the Earth Liberation Front have put a 
bulls-eye on them.
    In May of 2001, I finally had enough. At 3am on May 21, 2001, the 
University of Washington Center for Urban Horticulture was burned to 
the ground. In the twisted logic of the eco-terrorists, the 
Horticulture Center had done wrong by seeking to advance the protection 
and hardiness of urban forests and wetlands. The results of that crime 
are evident in this display. This facility suffered $5.3 million in 
physical damage--some faculty members lost a lifetime of work that day, 
and that cost is inestimable. That same day, a poplar tree farm in 
Oregon was firebombed with almost identical incendiary devices. The 
interstate connections were made perfectly clear by that simultaneous 
action, and persuaded me that a strong federal response was required to 
contain this terrorism.
    I will be eager to hear from Mr. Rosebraugh later this afternoon. 
Too many members of his organization lurk in the shadows, unwilling to 
engage in honest debate, but all to willing to resort to arson. I 
suspect that the purported intellectual underpinnings of this 
radicalism are insufficiently developed to weather the public 
condemnation that must accompany the associated violence. But before we 
go further, it may be helpful to have at least some sense of the ALF/
ELF mind set.
    In recent and telling magazine interview, Mr. Rosebraugh showed his 
sympathy with the victims of September 11, noting: ``Anyone in their 
right mind would realize the United States had it coming.'' One of his 
ELF associates was more direct: ``I cheered when the plan hit the 
Pentagon. Those people are in the business of killing people. It was 
like, Sorry, [expletive] happens.'' The connection with September 11 is 
not unwarranted, for like the murders in New York and Pennsylvania, 
members of these shadowy organizations have no respect for human life 
and will stop at nothing in pursuit of their dark vision of the future.
    How best to deal with this home-grown brand of Al Qaeda? I propose 
that we use the model that has worked so well in Afghanistan. Improve 
our intelligence. Free the hands of law enforcement authorities. 
Isolate terrorists from allies and assistance. Cut off their funding. 
Give them no rest and no quarter.
    National environmental groups need to know, you are either with us 
or against us. You need to choose which side you are on, and know we 
will be watching. Financing and harboring terrorists is no different 
from directly committing the acts. These dangerous and misguided 
zealots must be left without aid or comfort. This is the moral 
framework.
    I have introduced legislation, H.R. 2795, the Agroterrorism 
Prevention Act, which would provide the necessary legal framework. I 
must here acknowledge the unflinching support of the lead cosponsors on 
this bill, Duke Cunningham and Saxby Chambliss. Our bill would broaden 
current definitions to protect all plant and animal research, enhance 
penalties for animal or plant enterprise terrorism, allow the FBI to 
investigate crimes under the Racketeer Influenced Corrupt Organizations 
Act, and establish an incident clearinghouse to strengthen local law 
enforcement efforts. The bill would also establish a research security 
program to extend technical assistance, threat and risk assessments to 
research universities.
    Current law provides federal protection for some animal research, 
but H.R. 2795 would also include all plant research, including advanced 
genetic techniques, increasingly the targets of terror. We seek to 
broaden protection for facilities presently covered by the Animal 
Enterprise Terrorism Act, to include any commercial or academic 
enterprise that uses plants or animals. The ALF would now violate this 
section of federal law by bombing a livestock research lab, but not the 
Cattlemen's Association office down the street. We seek to end that 
inconsistency and would also expand the threshold for triggering 
violation of the act by recognizing ancillary economic damages.
    Penalties for violations would be increased from one year to five 
years, and a new penalty is added for the use of explosives or arson, 
recognizing that firebombing is the preferred tactic of these groups. 
We expand restitution requirements and allow a possible death penalty 
sentence for violations resulting in a death. Firebombing is not a 
precise science, and I fear it is only a matter of time before a 
botanist is in the wrong place at the wrong time. This activity should 
be made a RICO predicate to give the FBI the tools it needs to unravel 
the web of criminal conspiracy. A information clearinghouse, 
administered by the FBI, would enhance Federal, state and local law 
enforcement efforts to draw connections from fragmentary evidence.
    For too long, agroterrorism has been the stuff of anecdotes--short 
stories in the local paper, with no clear pattern or sense of the true 
scope of the activity. Yet, as this next chart makes clear, 
agroterrorism is a vast national problem. Each dot on this map 
represents one self-reported incident by the ALF/ELF during 2001.
    Finally, H.R. 2795 would provide authorization for the National 
Science Foundation to provide competitively awarded grants to colleges 
and universities. We have a responsibility to protect our public 
investment in research, and this authorization would provide some 
initial ``lessons learned'' to educate the hardening of public research 
facilities.
    Ultimately, the physical damage is secondary to the threat to 
innovation and scientific discovery. The academic disciplines that seek 
to improve human health, our food supply, and the environment are at 
greatest risk. Intimidation and violence have a predictable and 
unwelcome result, a chilling effect on scientific investigation and an 
impediment to discoveries that will improve our lives.
    I would like to close with a few select words attributed to the 
ALF, following an attack on the property of a Michigan veterinarian 
working with fur farmers:
    ``We must all act our consciousness and inflict economic harm upon 
all of those who are responsible for the destruction of the earth and 
its inhabitants. We encourage others to find a local Earth raper and 
make them pay . . . The only language these people understand is money. 
We must inflict economic sabotage on all Earth rapers if we are ever to 
stop the madness we live in. To do so is not a crime, it is a 
necessity.''
    Mr. Chairman, thank you again for holding this hearing and for 
supporting efforts to drain this fetid swamp of extremism.
                                 ______
                                 
    Mr. McInnis. I thank the members, and as the members know, 
you're welcome to join us at the dais if you would like. Also 
from the Committee, we have had other members that have come in 
and sat at the dais. Is there any objection to any other member 
sitting at the dais?
    I see no objection, so ordered.
    Our next witness has been subpoenaed to the Committee. It 
was with reluctance that we issued the subpoena, but the 
witness refused to appear in front of the Committee 
voluntarily. His response was that he had no desire to 
cooperate with the same state that is directly responsible for 
ongoing murder and exploitation of life both within this 
country and internationally.
    He has responded to the subpoena, and I would now call him 
to the stand. Mr. Rosebraugh.
    Mr. Sugarman. Mr. Chairman, I would ask your permission for 
me to sit next to my client, since he is the only person. I 
would appreciate it.
    Mr. McInnis. Counsel, it is my practice to have you--you 
may sit behind your client, but I don't allow counsel to sit at 
the table with your client.
    Mr. Sugarman. Very well. Thank you for considering my 
request.
    Mr. McInnis. Mr. Rosebraugh, if you would please stand and 
raise your right hand, I would like to administer the oath.
    Do you solemnly swear or affirm that the testimony you are 
about to give is the truth, the whole truth and nothing but the 
truth, so help you God?
    Mr. Rosebraugh. I do.
    Mr. McInnis. Thank you, Mr. Rosebraugh. You may be seated.
    Mr. Rosebraugh, we allow you a period of 5 minutes for an 
opening statement or oral statement, and in addition to that, 
you will also be allowed to submit for the written record 
additional comments if you wish. You may proceed, Mr. 
Rosebraugh.

  STATEMENT OF CRAIG ROSEBRAUGH, FORMER PRESS OFFICER, EARTH 
  LIBERATION FRONT, ACCOMPANIED BY STUART A. SUGARMAN, ESQ., 
                             L.L.C.



    Mr. Rosebraugh. I don't have any opening statement. Thank 
you.
    [The prepared statement of Mr. Rosebraugh follows:]

 Statement of Craig Rosebraugh, Former Press Officer, Earth Liberation 
                                 Front

        When a long train of abuses and usurpations, pursuing 
        invariably the same object, evinces a design to reduce [the 
        people] under absolute despotism, it is their right, it is 
        their duty, to throw off such government, and to provide new 
        guards for their future security.

        The oppressed should rebel, and they will continue to rebel and 
        raise disturbance until their civil rights are fully restored 
        to them and all partial distinctions, exclusions and 
        incapacitations are removed.

                         Thomas Jefferson, 1776

    On April 15, 1972, I came into this world as a child of two 
wonderful parents living in Portland, Oregon. Growing up in the Pacific 
Northwestern region of the United States, I had the privilege of easy 
access to the natural world. Much of my childhood was spent in the 
fields and forested areas behind our home, playing and experiencing 
life in my time of innocence. I had no knowledge of societal problems, 
especially those pertaining to the natural environment.
    Throughout my childhood and adolescent years, the education I 
received from my parents, schools, popular media and culture instilled 
in me a pride for my country, for my government, and everything the 
United States represented. I was taught about the great American 
history, our Constitution, Bill of Rights, and our legacy of being at 
the forefront of democracy and freedom. I considered myself to be just 
an average boy taking an active part in the popular American pastimes 
of competitive sports, consumer culture, and existing within a classic 
representation of the standard, middle-class suburban lifestyle.
    Upon graduating from high school, I became exposed to new forms of 
education and ideas. Resulting from my exposure to people from 
differing socio-economic backgrounds and beginning college, I found my 
horizons beginning to widen. For the first time in my life, I was 
presented with the notion of political and social conflict coupled with 
the various issues contained within both categories. It was alarming 
yet, at the same time, invigorating as I began to feel passion burn 
within me.
    George Bush, Sr. had just thrust the United States into what became 
known as the Gulf War. Now, as I was raised with a certain absolutist 
support of my country and government, my first inclination was to wave 
the stars and stripes and support unconditionally this noble pursuit of 
``promoting democracy and freedom'' in the ``less fortunate'' and 
``uncivilized'' lands. Yet, as I began to look further into the matter, 
I found myself asking questions such as why are we there? Why are we 
killing civilians? What is the true motive behind the conflict? After 
extensive research, I came to the logical and truthful conclusion that 
natural resources and regional power were the primary motives.
    As news from independent sources slowly filtered out, I became 
increasingly horrified at the slaughter of Iraqi civilians by the U.S. 
military. With NO WAR FOR OIL as my personal guiding statement, I 
joined the local anti-war protests and movement existing in Portland, 
Oregon. Little did I realize that this first political activity would 
lead me to a life of devotion to true justice and real freedom.
    While my anti-war involvement progressed, I also began to 
understand the disastrous relationship our modern society has with the 
many animal nations. Out of an interest inspired both by independent 
reading and through early college courses, I became involved with a 
local animal advocacy organization. At first, I attended meetings to 
hear the numerous arguments for the rights of animals and further my 
own education. The more I learned, the more compelled I felt to involve 
myself fully in working for animal protection. My activities went from 
merely attending meetings, rallies, and protests to organizing them. Of 
all the issues I had learned about during the six years I spent with 
that organization, I focused the majority of my time, research, and 
interest on fighting against the use of animals in biomedical and 
scientific experimentation.
    While a great percentage of the public in the United States had 
been convinced that animal research progressed and continues to improve 
human health, I soon realized that this myth was not only untruthful 
and single sided, but the work of a slick public relations campaign by 
the pharmaceutical industry in coordination with federal agencies such 
as the National Institutes of Health. I also learned that just like the 
factory farm industry, the use of animals for human entertainment and 
for the fashion industry, animal experimentation was motivated first 
and foremost by profits. Furthermore, I learned how the government of 
the United States not only economically supports these various 
institutions of exploitation and slaughter, but how it continues to 
perpetuate and politically support the dangerous lie that animal 
research saves human lives. My support for various governmental 
policies was slowly fading.
    And then memories of innocence were torn away. In the early 1990s, 
I learned that the lush natural acreage I used to play in as a child 
had been sold to a development firm. It intended to bulldoze the entire 
area and create a virtual community of homes for the upper middle class 
to wealthy. Within two years, the land as I knew it was no more. The 
visual reminder I used to appreciate, the one that would take me back 
to the years when the fields and trees were my playground, was stolen 
by a development corporation who saw more value in the land as 
luxurious houses than for its natural beauty and life.
    I remember asking myself, what would happen to the various wildlife 
who made the area their home for so many years? Where would the deer, 
coyotes, skunks, wild cats, mice, raccoons, opossums, and others go? It 
was obvious that the developers had not even considered these 
questions. Rather, it appeared, the main pursuit of the corporation was 
working towards building incredibly large homes as close as possible to 
one another for maximum financial gain.
    As the 1990s progressed, I became increasingly aware of the 
relationship between social and political problems in the United 
States. No single issue was truly independent but rather was affected 
by many others. In my work with the local animal advocacy organization, 
I realized that exploitation and destruction at the hands of human 
domination over animals also involved much more. Economics, politics, 
sociology, psychology, anthropology, science, religion, and other 
disciplines all played a significant role in understanding this 
unhealthy and unbalanced relationship between humans and other animals. 
But, by far the most important realization I made was that the problems 
facing animals, the problems facing the natural environment, and those 
affecting humans all came from a primary source. Understanding this 
crucial connection, I co-founded a non-profit organization in 1996 
dedicated to educating the public on this fundamental realization.
    During the mid-1990s, through continued formal and informal 
education, I also began to understand that the history I had learned 
growing up was only one story of many. I gained insight into the fact 
that everything I had learned about the origins of the United States of 
America had been purely from the viewpoint of the colonists and 
European settlers. Thus, the history I was taught was from the 
perspective of the privileged white man, which not only told a mere 
fraction of the story, but also provided an extreme amount of 
misinformation as well.
    I was never taught that the origins of this country were based upon 
murder, exploitation, and ultimate genocide. My teachers neglected to 
mention the fact that the white European settlers nearly annihilated 
the various indigenous peoples who had existed on this land for ages. 
Instead, I was taught about Thanksgiving and Columbus Day. I bought 
into this version of American history so much that I vividly recall my 
excitement over creating a paper model of one of Columbus' ships years 
ago.
    No one ever seemed to provide the insight to me that the settlers, 
immediately upon their arrival, immediately enslaved the natives, and 
forced them to work and assist the European powers in their quest for 
gold and spices. Likewise, I failed to ever have access to a true 
African-American history that began when blacks were captured and 
shipped as property to this land to work as slaves for white men.
    While I was taught about the so-called ``Great American 
Revolution,'' it was never mentioned that this war for independence 
against the European powers only served and benefited the privileged 
white male. Of course, all white men were privileged to some degree; 
however, many were enslaved initially just like the natives and blacks. 
Women, natives, blacks, and, to a limited degree, poor whites were 
considered property, bought, sold, and owned by the affluent white 
hierarchy.
    In school, my teachers did explain to me the importance of the U.S. 
Constitution and the Bill of Rights and how our forefathers drew up 
these documents to serve the people. This, I learned, was the 
foundation of our supposed great democracy. Yet, in reality, these 
items were created by the white power structure and only served to 
benefit the privileged members of white society. Women, blacks, 
natives, and poor white men still were not enfranchised nor had any 
accessibility to self-determination and freedom. Land ownership--a 
notion completely foreign and absurd to most of the indigenous--became 
a deciding factor of power and privilege for white men. Those without 
land lacked the opportunity for the vote, for ultimate power and 
respect.
    As more and more settlers pushed westward through the country, the 
government committed endless treaty breaches and violations, stealing 
land that whites had allotted to the indigenous. Perhaps one of the 
most disturbing facts was that these original agreements made between 
various indigenous nations and the United States government were 
supposed to have international standing. Each of the indigenous 
populations was recognized at the time each document was signed as 
being a sovereign nation and, yet, the U.S. government still exerted 
its power and domination to steal land for eventual development and 
drainage of resources. This genocide against the varied Native American 
nations by the United States continues today with innocent people such 
as Leonard Peltier being imprisoned for years simply due to the 
government's perception of him as a political threat. Free Leonard 
Peltier!
    On July 4 annually, U.S. citizens celebrate the founding of our 
country, most either blatantly forgetting or ignorant of the true 
issues surrounding that date. The fact that the United States as a 
nation systematically committed mass genocide against the indigenous of 
these lands, to catastrophic extremities, is certainly no cause for 
celebration. Rather, it should be a time for mourning, for remembrance, 
and, most of all for education of our children so we are not doomed to 
repeat the mistakes of the past.
    The plight of blacks and women throughout U.S. history, although 
perhaps not as overtly catastrophic, still constituted outright mass 
murder, enslavement, exploitation, and objectification. Early on, white 
European settlers found that natives were much more difficult to 
enslave and manage due to their ability to maintain at least partial 
elements of their cultures. When blacks began to first arrive on slave 
ships, chained in the darkness below the decks, white settlers 
theorized they would make better slaves because they would be further 
removed from their cultures. Thus, the enslavement of blacks began in 
this land and would, in its overt form, last for a couple hundred 
years. During this time and well beyond, blacks were considered 
property to be bought, sold, traded, used, and disposed of at will.
    Even after the abolitionist movement, which began in the 1820s, 
blacks continued to be considered second-rate citizens, restricted from 
voting and experiencing the free life which whites were accustomed. 
When the modern U.S. civil rights movement began in the 1940s, it took 
some twenty years of constant hardship and struggle to achieve some 
reform in the fascist policies of the United States. Even though blacks 
``won'' the right to vote and exist in desegregated zones, there still 
was an absence of overall freedom, never any actual resemblance of 
equality. Today, the saga continues. While African Americans have made 
incredible progress in obtaining certain rights and privileges, there 
continues to be a more hidden, underlying discrimination that is every 
bit as potent. We can see a clear example by taking an honest look at 
the prison industrial complex and understanding who continues to be 
enslaved in mass to make that industry financially viable. Free Mumia 
Abu Jamal! Free the Move 9! Free all the political prisoners in the 
United States!
    A similar and equally unfortunate history has and continues to 
haunt women in U.S. society. Also once considered property, women were 
not even able to vote in this country until the 1920s. Even after, they 
continued to be faced with a patriarchal society consisting of white 
men in power. While women have made many wonderful advances for 
themselves, they still exist today in the United States under that same 
sexist and patriarchal society. A quick glance at the profiles of the 
federal government as well as top CEOs from U.S. corporations fully 
illustrates this reality.
    When I co-founded the non-profit organization in Portland, Oregon, 
in 1996, I was becoming more aware that the similarities in the human, 
environmental, and animal advocacy movements stemmed from this rich 
U.S. history, not of glory, freedom and democracy, but of oppression in 
its sickest forms. I began to also realize that just as the U.S. white 
male power structure put itself on a pedestal above everyone else, it 
also maintained that attitude toward the natural environment and the 
various animal nations existing within it. As a society, we have 
continuously acted towards these natural life forms as though we owned 
them, therefore giving us the right to do whatever we wanted and could 
do to them.
    Particularly, with the advent of the industrial revolution in the 
United States, the destruction of the natural world took a sharp turn 
for the worse. The attitude, more so than ever, turned to one of 
profits at any cost and a major shift from sustainable living to 
stockpiling for economic benefit. This focus on stockpiling and 
industrial productivity caused hardship on communities, forcing local 
crafters and laborers to be driven out of business by overly 
competitive industries. Additionally, with this new focus on 
sacrificing sustainable living for financial gain, natural resources 
were in greater demand than ever. Semi-automatic to automatic 
machinery, production lines, the automobile, the roadway system, 
suburbs, and the breakup of small, fairly self-sufficient communities 
all came about, at least in part, due to the industrial revolution. 
This unhealthy and deadly transgression of course was supported and 
promoted by the U.S. government, always eager to see growth in the 
domestic economy.
    All of this set the stage for the threatening shortage of natural 
resources and the massive environmental pollution and destruction 
present today in the United States. In cities such as Los Angeles, 
Detroit, and Houston, the air and soil pollution levels are so extreme 
people have suffered and continue to face deadly health problems. 
Waterways throughout the country, including the Columbia Slough in my 
backyard, are so polluted from industries it is recommended that humans 
don't even expose themselves to the moisture let alone drink 
unfiltered, unbottled water. The necessary and crucial forests of the 
Pacific Northwestern region of the country have been systematically 
destroyed by corporations such as Boise Cascade, Willamette Industries, 
and others within the timber industry whose sole motive is profits 
regardless of the expense to the health of an ecosystem. In Northern 
California, the sacred old growths, dreamlike in appearance, taking 
your breath away at first glance, have been continuously threatened and 
cut by greedy corporations such as Pacific Lumber/Maxxam. The same has 
occurred and still is a reality in states including Washington, Oregon, 
Idaho, and Colorado.
    The first National Forests were established in the United States 
more than a century ago. One hundred fifty-five of them exist today 
spread across 191 million acres. Over the years, the forest products 
industry has decimated publicly owned National Forests in this country, 
leaving a horrendous trail of clearcuts and logging roads. Commercial 
logging has been responsible for annihilating nearly all of the 
nation's old growth forests, draining nutrients from the soil, washing 
topsoil into streams, destroying wildlife habitat, and creating an 
increase in the incidence and severity of forest fires. Only an 
estimated 4percent of old growth forests in the United States are 
remaining.
    The National Forests in the United States contain far more than 
just trees. In fact, more than 3,000 species of fish and wildlife, in 
addition to 10,000 plant species, have their habitat within the 
National Forests. This includes at least 230 endangered plant and 
animal species. All of these life forms co-exist symbiotically to 
naturally create the rich and healthy ecosystems needed for life to 
exist on this planet.
    The benefits of a healthy forest cannot be overrated. Healthy 
forests purify drinking water, provide fresh clean air to breathe, 
stabilize hillsides, and prevent floods. Hillsides clearcut or 
destroyed by logging roads lose their ability to absorb heavy rainfall. 
If no trees exist to soak up moisture with roots to hold the soil, 
water flows freely down slopes, creating muddy streams, polluting 
drinking water, strengthening floods, and causing dangerous mudslides. 
Instead of valuing trees and forests for being necessary providers of 
life, the U.S. Forest Service and commercial logging interests have 
decimated these precious ecosystems.
    The timber corporations argue that today in the United States more 
forests exist than perhaps at any time in the last century or more. It 
doesn't take a forestry specialist to realize that monoculture tree 
farms--in which one species of tree, often times non-native to the 
area, is grown in mass in a small area for maximum production'do not 
equate to a healthy forest. Healthy forests are made up of diverse 
ecosystems consisting of many native plant and animal species. These 
healthy ecosystems are what grant humans and all other life forms on 
the planet with the ability to live. Without clean air, clean water, 
and healthy soil, life on this planet will cease to exist. There is an 
overwhelming battery of evidence that conclusively shows that we are 
already well on our path toward massive planetary destruction.
    The popular environmental movement in the United States, which 
arguably began in the 1960s, has failed to produce the necessary 
protection needed to ensure that life on this planet will continue to 
survive. This is largely due to the fact that the movement has 
primarily consisted of tactics sanctioned by the very power structure 
that is benefiting economically from the destruction of the natural 
world. While a few minor successes in this country should be noted, the 
overwhelming constant trend has been the increasingly speedy 
liquidation of natural resources and annihilation of the environment.
    The state sanctioned tactics, that is, those approved by the U.S. 
government and the status quo and predominantly legal in nature, 
rarely, if ever, actually challenge or positively change the very 
entities that are responsible for oppression, exploitation, and, in 
this case, environmental destruction. Throughout the history of the 
United States, a striking amount of evidence indicates that it wasn't 
until efforts strayed beyond the state sanctioned that social change 
ever progressed. In the abolitionist movement, the Underground 
Railroad, public educational campaigns, in addition to slave revolts, 
forced the federal government to act. With the Suffragettes in the 
United States, individuals such as Alice Paul acting with various forms 
of civil disobedience added to the more mainstream efforts to 
successfully demand the vote for women. Any labor historian will assert 
that in addition to the organizing of the workplace, strikes, riots, 
and protests dramatically assisted in producing more tolerable work 
standards. The progress of the civil rights movement was primarily 
founded upon the massive illegal civil disobedience campaigns against 
segregation and disenfranchisement. Likewise, the true pressure from 
the Vietnam anti-war movement in this country only came after illegal 
activities such as civil disobedience and beyond were implemented. 
Perhaps the most obvious, yet often overlooked, historical example of 
this notion supporting the importance of illegal activity as a tool for 
positive, lasting change, came just prior to our war for independence. 
Our educational systems in the United States glorify the Boston Tea 
Party while simultaneously failing to recognize and admit that the 
dumping of tea was perhaps one of the most famous early examples of 
politically motivated property destruction.
    In the mid-1990s, individuals angry and disillusioned with the 
failing efforts to protect the natural environment through state 
sanctioned means, began taking illegal action. At first, nonviolent 
civil disobedience was implemented, followed by sporadic cases of 
nonviolent property destruction. In November 1997, an anonymous 
communique was issued by a group called the Earth Liberation Front 
claiming responsibility for their first-ever action in North America.
    Immediately, the label of ecoterrorism appeared in news stories 
describing the actions of the Earth Liberation Front. Where exactly 
this label originated is open for debate, but all indications point to 
the federal government of the United States in coordination with 
industry and sympathetic mass media. Whatever the truth may be 
regarding the source of this term, one thing is for certain'the 
decision to attach this label to illegal actions taken for 
environmental protection was very conscious and deliberate. Why? The 
need for the U.S. federal government to control and mold public opinion 
through the power of propaganda to ensure an absence of threat is 
crucial. If information about illegal actions taken to protect the 
natural environment were presented openly to the public without biased 
interpretation, the opportunity would exist for citizens to make up 
their own minds about the legitimacy of the tactic, target, and 
movement. By attaching a label such as ``terrorism'' to the activities 
of groups such as the Earth Liberation Front, the public is left with 
little choice but to give into their preconceived notions negatively 
associated with that term. For many in this country, including myself, 
information about terrorism came from schools and popular culture. Most 
often times, the definition of terrorism was overtly racist associated 
frequently in movies and on television shows with Arabs and the others 
our government told us were threatening. Terrorism usually is connected 
with violence, with politically motivated physical harm to humans.
    Yet, in the history of the Earth Liberation Front, both in North 
America and abroad in Europe, no one has ever been injured by the 
group's many actions. This is not a mere coincidence, but rather a 
deliberate decision that illustrates the true motivation behind the 
covert organization. Simply put and most fundamentally, the goal of the 
Earth Liberation Front is to save life. The group takes actions 
directly against the property of those who are engaged in massive 
planetary destruction in order for all of us to survive. This noble 
pursuit does not constitute terrorism, but rather seeks to abolish it.
    A major hypocrisy exists when the U.S. government labels an 
organization such as the Earth Liberation Front a terrorist group while 
simultaneously failing to acknowledge its own terrorist history. In 
fact, the U.S. government by far has been the most extreme terrorist 
organization in planetary history. Some, but nowhere near all, of the 
examples of domestic terrorism were discussed earlier in this writing. 
Yet, further proof can be found by taking a glimpse at the foreign 
policy record of the United States even as recently as from the 1950s.
    In Guatemala (1953-1990s) the CIA organized a coup that overthrew 
the democratically elected government led by Jacobo Arbenz. This began 
some 40 years of death squads, torture, disappearances, mass 
executions, totaling well over 100,000 victims. The U.S. government 
apparently didn't want Guatemala's social democracy spreading to other 
countries in Latin America.
    In the Middle East (1956-1958) the United States twice tried to 
overthrow the Syrian government. Additionally, the U.S. government 
landed 14,000 troops to purportedly keep the peace in Lebanon and to 
stop any opposition to the U.S. supported Lebanese government. The U.S. 
government also conspired to overthrow or assassinate Nasser of Egypt.
    During the same time, in Indonesia (1957-1958), the CIA tried to 
manipulate elections and plotted the assassination of Sukarno, then the 
Indonesian leader. The CIA also assisted in waging a full-scale war 
against the government of Indonesia. All of this action was taken 
because Sukarno refused to take a hard-line stand against communism.
    From 1953 to 1964, the U.S. government targeted Cheddi Jagan, then 
the leader of British Guiana, out of a fear he might have built a 
successful example of an alternative model to the capitalist society. 
The U.S. government, aided by Britain, organized general strikes and 
spread misinformation, finally forcing Jagan out of power in 1964.
    In Cambodia (1955-1973), Prince Sihanouk was severely targeted by 
the U.S. government. This targeting included assassination attempts and 
the unpublicized carpet bombings of 1969 to 1970. The U.S. government 
finally succeeded in overthrowing Sihanouk in a 1970 coup.
    The examples continue. From 1960 through 1965, the United States 
intervened in Congo/Zaire. After Patrice Lumumba became Congo's first 
Prime Minister following independence gained from Belgium, he was 
assassinated in 1961 at the request of Dwight Eisenhower. During the 
same time in Brazil (1961-1964), President Joao Goulart was overthrown 
in a military coup, which involved the United States. Again, the 
alleged reasoning for U.S. participation amounted to a fear of 
communism or, more importantly, anything that threatened this country's 
way of life. In the Dominican Republic (1963-1966), the United States 
sent in 23,000 troops to help stop a coup which aimed at restoring 
power to Juan Bosch, an individual the U.S. government feared had 
socialist leanings.
    Of course, no one should forget about Cuba. When Fidel Castro came 
to power in 1959, the United States immediately sought to put another 
government in place, prompting some 40 years of terrorist attacks, 
bombings, a full-scale military invasion, sanctions, embargoes, 
isolations, and assassinations.
    In Chile, the U.S. government sabotaged Salvador Allende's 
electoral campaign in 1964. In 1970, the U.S. government failed to do 
so and tried for years later to destabilize the Allende government 
particularly by building up military hostility. In September 1973, the 
U.S. supported military overthrew the government with Allende dying in 
the process. Some 3,000 people were executed and thousands more were 
tortured or disappeared. In Greece during the same period (1964-1974), 
the United States backed a military coup that led to martial law, 
censorship, arrests, beatings, torture, and killings. In the first 
month, more than 8,000 people died. All of this was executed with 
equipment supplied by the United States.
    Back in Indonesia in 1965, fears of communism led the United States 
to back multiple coup attempts, which resulted in a horrendous massacre 
against communists. During this time the U.S. embassy compiled lists of 
communist operatives, as many as 5,000 names, and turned them over to 
the Army. The Army would then hunt down and kill those on the list.
    The U.S. Government also has had its dirty hands connected to East 
Timor (1975 to present). In December 1975, Indonesia invaded East Timor 
using U.S. weapons. By 1989, Indonesia had slaughtered 200,000 people 
out of a population between 600,000 and 700,000.
    In Nicaragua (1978-1989), when the Sandinistas overthrew the Somoza 
dictatorship in 1978, the U.S. government immediately became involved. 
President Carter attempted diplomatic and economic forms of sabotage 
while President Reagan put the Contras to work. For eight years, backed 
by the United States, the Contra's waged war on the people of 
Nicaragua.
    Continuing on with Grenada (1979-1984), the United States 
intervened to stop a 1979 coup led by Maurice Bishop and his followers. 
The United States invaded Grenada in October 1983, killing 400 citizens 
of Grenada and 84 Cubans. Of course the Libya example (1981-1989) must 
be mentioned. In the 1980s, the United States shot down two Libyan 
planes in what Libya regarded as its air space. The United States also 
dropped bombs on the country killing more than people including 
Qaddafi's daughter. Yet that wasn't enough as the U.S. government 
engaged in other attempts to eradicate Qaddafi. This included a fierce 
misinformation campaign, economic sanctions, and blaming Libya for 
being responsible for the Pan Am flight 103 bombing without any sound 
evidence. The U.S. government, also in 1989, bombed Panama, leaving 
some 15,000 people homeless in Panama City. Thousands of people died 
and even more were wounded.
    Prior to the October 7, 2001, invasion of Afghanistan by the United 
States, the U.S. government had intervened there from 1979 to 1992. 
During the late 1970s and most of the 1980s, the U.S. government spent 
billions of dollars waging a war on a progressive Afghani government, 
merely because that government was backed by the Soviet Union. More 
than one million people died, three million were disabled, and five 
million became refugees.
    In El Salvador (1980-1992), the United States supported the 
government, which engaged in electoral fraud and the murder of hundreds 
of protesters and strikers. These dissidents, who had been trying to 
work within the system, took to using guns and declared a civil war in 
1980. The U.S. government played an active role in trying to stop the 
uprising. When it was over in 1992, 75,000 civilians had been killed 
and the United States had spent six billion dollars.
    In Haiti, from 1987 through 1994, the United States supported the 
Duvalier family dictatorship. During this time, the CIA worked 
intimately with death squads, torturers, and drug traffickers. 
Yugoslavia must also be mentioned, as no one should ever forget the 
United States' responsibility for bombing that country into 
annihilation.
    In the early 1990s, the U.S. government continuously bombed Iraq 
for more than 40 days and nights. One hundred seventy-seven million 
pounds of bombs fell during this time on the people of Iraq. The 
remaining uranium deposits from weapons resulted in massive birth 
defects and incidences of cancer. Between 1990 and 1995, the United 
States was directly responsible for killing more than 500,000 Iraqi 
children under the age of five due to economic sanctions. Additionally, 
due to these sanctions, coupled with the continuous U.S. bombing that 
has occurred on Iraq since the Gulf War, more than 1.5 million innocent 
Iraqi people have been killed.
    These few examples since 1950 of U.S.-sponsored and organized 
terrorism are horrendous, and, unfortunately, these massive murderous 
tactics continue today. On October 7, 2001 the U.S. government began a 
full-scale military invasion of Afghanistan without even providing a 
shred of factual evidence linking Osama Bin Laden or Al Qaida to the 
attacks in this country on September 11. To date, well over 4,000 
innocent Afghani civilians have been killed by the U.S. government in 
this massive genocidal campaign. All along, U.S. government officials 
have claimed to possess concrete evidence proving the guilt of both Bin 
Laden and Al Qaida, but repeatedly said they cannot release this 
``proof'' as doing so may endanger the lives of U.S. military 
personnel. This simply makes no sense, as there could not be any 
justifiable threat to U.S. personnel if they weren't already in 
inexcusable positions, violating the sovereignty of internationally 
recognized nations.
    The Taliban, which the United States help put into power in 1994, 
have stated repeatedly to the U.S. government and the world that it 
would hand over Bin Laden to an international court if the United 
States provided proof of his guilt. The United States refused and 
instead claimed the Taliban was not cooperating and was therefore 
harboring terrorists.
    Can you imagine what would have happened if, prior to September 11, 
2001, a structure in Kabul were bombed and the Taliban immediately 
suspected CIA director George Tenet as the prime suspect? Would the 
United States hand over Tenet to the Taliban if requested if there was 
not substantial evidence provided of his guilt? Even if the Taliban 
supplied any shred of evidence, the United States still would refuse to 
hand over Tenet or any privileged citizen to an international court 
because the United States does not abide by them or agree to them. 
Regardless, the U.S. government believes that it has the right to 
provide no evidence of Bin Laden's or Al Qaida's guilt to the Taliban 
or the world before launching a massive genocidal campaign against 
Afghanistan civilians.
    The true motives and the identities of those involved both in 
September 11, 2001 and October 7, 2001 are known only to a select few 
in power. However, evidence does exist in media sources as mainstream 
as the BBC (reported on September 18, 2001) that suggests the U.S. 
government was planning a military invasion of Afghanistan to oust the 
Taliban as early as March 2001. Furthermore, the intended deadline for 
the invasion was set for not later than October of the same year. The 
October 7, 2001, invasion by the United States into Afghanistan appears 
to have been right on schedule.
    This war against terrorism, otherwise known as Operation Enduring 
Freedom, is the latest example of U.S. based terrorism and imperialism. 
It is clear that the events of September 11, 2001, were used as a 
chance for the U.S. government to invade Afghanistan, to attempt to 
increase U.S. regional and global power in addition to open up the 
much-sought-after oil reserves in the Middle East and Central Asia. The 
bonus, of course, was that this mission has given the United States the 
opportunity to target and attempt to annihilate any anti-U.S. sentiment 
within that region. As the war against terrorism expands, so does the 
possibility of more U.S. military bases and more security for the 
global economic powers.
    If the U.S. government is truly concerned with eradicating 
terrorism in the world, then that effort must begin with abolishing 
U.S. imperialism. Members of this governing body, both in the House and 
Senate as well as those who hold positions in the executive branch, 
constitute the largest group of terrorists and terrorist 
representatives currently threatening life on this planet. The only 
true service this horrific organization supplies is to the upper 
classes and corporate elite.
    As an innocent child, I used to have faith in my government and 
pride in my country. Today I have no pride, no faith, only 
embarrassment, anger, and frustration. There are definite and 
substantiated reasons why the U.S. government is not only disliked but 
hated by populations in many nations around the globe. The outrage and 
anger is justified due to the history of U.S. domestic and foreign 
policies.
    Here in the United States, the growth of the empire, of capitalism, 
and of industry, has meant greater discrepancies between the wealthy 
and poor, a continued rise in the number of those considered to be a 
threat to the system, as well as irreversible harm done to the 
environment and life on the planet. Corporations in the United States 
literally get away with murder, facing little or no repercussions due 
to their legal structures. The U.S. government, which sleeps in the 
same bed as U.S. corporations, serves to ensure that the ``business as 
usual'' policies of imperialism can continue with as little friction as 
possible. Anyone questioning the mere logic of this genocidal culture 
and governing policy is considered a dissident and, more often than 
not, shipped off to one of the fastest growing industries of all, the 
prison industrial complex.
    Internationally, U.S. policies have amounted to the same, often 
times worse, forms of violence. As I demonstrated herein with examples 
since 1950, the foreign policy track record has included genocide, 
assassinations, exploitation, military action, and destruction. 
Disguised as promoting or protecting freedom and democracy, U.S. 
foreign policies aim to directly control and conquer, while gaining 
power, finances, and resources.
    U.S. imperialism is a disease, one that continues to grow and 
become more powerful and dangerous. It needs to be stopped. One of the 
chief weapons used by those protecting the imperialist policies of the 
United States is a slick, believable propaganda campaign designed to 
ensure U.S. citizens do not question or threaten the ``American way of 
life.'' Perhaps the strongest factor in this campaign is the phenomenon 
of capitalism. By creating a consumer demand for products, 
corporations, greatly aided by the U.S. government, can effectively 
influence people's dreams, desires, wants, and life plans. The very 
American Dream promoted throughout the world is that anyone can come to 
the United States, work hard, and become happy and financially secure. 
Through the use of the propaganda campaign designed, promoted, and 
transmitted by the U.S. ruling class, people are nearly coerced into 
adopting unhealthy desires for, often times, unreachable, unneeded, and 
dangerous consumer goods. Through impressive societal mind control, the 
belief that obtaining consumer products will equal security and 
happiness has spread across the United States, and much of the planet 
at this point, like some extreme plague. The fact that the policies of 
the United States murder people on a daily basis is unseen, forgotten, 
or ignored, as every effort is made by people to fit into the 
artificial model life manufactured by the ruling elite.
    A universal effort needs to be made to understand the importance 
and execution of abolishing U.S. imperialism. This by no way refers to 
simply engaging in reformist efforts, rather, a complete societal and 
political revolution will need to occur before real justice and freedom 
become a reality. The answer does not lie in trying to fix one specific 
problem or work on one individual issue, but rather the entire pie 
needs to be targeted, every last piece looked upon as a mere 
representation of the whole.
    If the people of the United States, who the government is supposed 
to represent, are actually serious about creating a nation of peace, 
freedom, and justice, then there must be a serious effort made, by any 
means necessary, to abolish imperialism and U.S. governmental 
terrorism. The daily murder and destruction caused by this political 
organization is very real, and so the campaign by the people to stop it 
must be equally as potent.
    I have been told by many people in the United States to love 
America or leave it. I love this land and the truly compassionate 
people within it. I therefore feel I not only have a right, but also an 
obligation, to stay within this land and work for positive societal and 
political change for all.
    I was asked originally if I would voluntarily testify before the 
House Subcommittee on Forests and Forest Health at a hearing focused on 
``ecoterrorism.'' I declined in a written statement. U.S. Marshals then 
subpoenaed me on October 31, 2001 to testify at this hearing on 
February 12, 2002, against my will. Is this hearing a forum to discuss 
the threats facing the health of the natural environment, specifically 
the forests? No, clearly there is not even the remotest interest in 
this subject from the U.S. government or industry. The goal of this 
hearing is to discuss methodologies to improve the failed attempts law 
enforcement have made since the mid-1990s in catching and prosecuting 
individuals and organizations who take nonviolent, illegal direct 
action to stop the destruction of the natural environment. I have no 
interest in this cause or this hearing. In fact, I consider it a farce.
    Since 1997, the U.S. government has issued me seven grand jury 
subpoenas, raided my home and work twice, stealing hundreds of items of 
property, and, on many occasions, sent federal agents to follow and 
question me. After this effort, which has lasted nearly five years, 
federal agents have yet to obtain any information from me to aid their 
investigations. As I have never been charged with one crime related to 
these so-called ecoterrorist organizations or their activities, the 
constant harassment by the federal government constitutes a serious 
infringement on my Constitutional right to freedom of speech. This 
Congressional Subcommittee hearing appears to be no different, 
harassing and targeting me for simply voicing my ideological support 
for those involved in environmental protection.
    I fully praise those individuals who take direct action, by any 
means necessary, to stop the destruction of the natural world and 
threats to all life. They are the heroes, risking their freedom and 
lives so that we as a species as well as all life forms can continue to 
exist on the planet. In a country so fixated on monetary wealth and 
power, these brave environmental advocates are engaging in some of the 
most selfless activities possible.
    It is my sincere desire that organizations such as the Earth 
Liberation Front continue to grow and prosper in the United States. In 
fact, more organizations, using similar tactics and strategies, need to 
be established to directly focus on U.S. imperialism and the U.S. 
government itself. For, as long as the quest for monetary gain 
continues to be the predominant value within U.S. society, human, 
animal, and environmental exploitation, destruction, and murder will 
continue to be a reality. This drive for profits at any cost needs to 
be fiercely targeted, and those responsible for the massive injustices 
punished. If there is any real concern for justice, freedom, and, at 
least, a resemblance of a true democracy, this revolutionary ideal must 
become a reality. ALL POWER TO THE PEOPLE. LONG LIVE THE EARTH 
LIBERATION FRONT. LONG LIVE THE ANIMAL LIBERATION FRONT. LONG LIVE ALL 
THE SPARKS ATTEMPTING TO IGNITE THE REVOLUTION. SOONER OR LATER THE 
SPARKS WILL TURN INTO A FLAME!
                                 ______
                                 
    [Mr. Rosebraugh's response to questions submitted for the 
record follow:]

   Response to questions submitted for the record by Craig Rosebraugh

    These are Craig Rosebraugh's responses to questions posed on 3/1/2 
by a person or persons unknown. In the event any response is deemed 
non-responsive, Mr. Rosebraugh asserts the following objections, 
rights, and privileges in declining to answer all questions posed at 
the 12 February 2002 Subcommittee on Forests and Forest Health hearing 
and to all questions posed by a person or persons unknown by mail and 
facsimile on 1 March 2002:
    Mr. Rosebraugh asserts his right to have the subcommittee's 
clearcut ruling on all objections interposed, and to have an 
opportunity to respond before a citation issues should the subcommittee 
communicate its intent to overrule any objections.
    Congress shall make no law respecting an establishment of religion, 
or prohibiting the free exercise thereof; or abridging the freedom of 
speech, or of the press; or the right of the people peaceably to 
assemble, and to petition the Government for a redress of grievances. 
First Amendment to U.S. Constitution.
    No person shall be held to answer for a capital, or otherwise 
infamous crime, unless on a presentment or indictment of a Grand Jury, 
except in cases arising in the land or naval forces, or in the Milita, 
when in actual service in time of War or public danger; nor shall any 
person be subject for the same offence to be twice put in jeopardy of 
life or limb; nor shall be compelled in any criminal case to be a 
witness against himself, nor be deprived of life, liberty, or property, 
without due process of law; nor shall private property be taken for 
public use, without just compensation. Fifth Amendment to U.S. 
Constitution.
    The enumeration in the Constitution, of certain rights, shall not 
be construed to deny or disparage others retained by the people. Ninth 
Amendment to U.S. Constitution.
    The powers not delegated to the United States by the Constitution, 
nor prohibited by it to the States, are reserved to the States 
respectively, or the people. Tenth Amendment to the U.S. Constitution.
    A committee of Congress can have no general powers to probe the 
affairs of the citizen.
    The penumbral constitutional right to privacy.
    The question is double and/or complex, please rephrase it.
    The question is asked for an improper purpose, and/or is 
prejudicial and/or is designed to make witness commit perjury, 
contempt, or state untruths.
    Mr. Rosebraugh is entitled to a transcript of the 12 February 2002 
hearing, and to any other statements made on the record under oath by 
Mr. Rosebraugh to avoid inconsistent testimony under oath.
    The question is not pertinent or relevant to an authorized subject 
matter of the hearing.
    The bounds of the power of the committee have been exceeded.
    The subcommittee, committee, or the House of Representatives are 
not authorized to conduct this hearing or conduct this investigation.
    House rules and committee rules do not authorize these questions.
    The subcommittee has failed to properly apply the House Rule 
XI(k)(5) to the effect that it shall investigate the witness in 
executive session if a public hearing might unjustly injure the 
reputation of a witness.
    No probable cause existed for the issuance of the subpoena.
    The question is unnecessary for the investigation.
    1) Do you view violence against individuals, organizations and 
other enterprises that work and play on the national forests as a 
legitimate means of seeking public policy change, specifically with 
respect to management of the nation's forests?
    Yes.
    2) Do you believe that destroying Forest Service property is a 
legitimate means of pursuing public policy change?
    Yes.
    3) You claim to have never had any role in an ELF related attack, 
and yet you loudly proclaim the virtues of ``direct action'' against 
government and industry. If you believe so deeply in ELF's cause, so 
much that you encourage and recruit others to partake in that cause, 
why aren't you willing to engage in the acts of environmentally 
motivated aggression yourself?
    I do not adopt any factual assumptions made in the preamble to your 
question. I would not be effective as a spokesperson if I were so 
involved.
    4) There is a widely held belief that, if ELF's attacks continue to 
increase in frequency and magnitude as they have in recent years on the 
national forests and other places, it is very likely only a matter of 
time before human life is lost. The FBI has said this, as have many 
others. Do you share in the view that it's just a matter of time before 
someone is badly hurt or killed by the ELF?
    I do not adopt any factual assumptions made in the preamble to your 
question. I do not know.
    5) Do you still agree with this statement attributed to you in The 
Bear Deluxe Magazine? ``If you are talking about fires, and the use of 
incendiary devices, there is the danger of people being near or inside 
that building, or the fire could spread to another building. There are 
always dangers.''
    I do not adopt any factual assumptions made in your question. Yes.
    6) In late October 1996, a Forest Service truck was firebombed, and 
an incendiary device that failed to detonate was found planted atop the 
roof of the Willamette National Forest Building. Fortunately, the 
device was located and removed and no one was injured. Are you familiar 
with this attack on the Willamette National Forest? You claim that ELF 
seeks to protect all life on earth, yet if this device had detonated, 
it is possible--indeed probable--that someone could have been seriously 
injured or killed. How can ELF reasonably claim to defend all life, and 
yet so routinely and recklessly endanger it?
    I do not adopt any factual assumptions made in the preamble to your 
question.
    See all objections, rights, and privileges asserted above.
    7) Do you find it disconcerting that, when ELF firebombed forestry 
research labs at the Universities of Washington and Minnesota in 2001 
and 2002 respectively, the fire quickly spread to other areas on both 
campuses, potentially endangering lives in buildings not targeted by 
ELF? In the case of the University of Washington, the fire spread to an 
adjacent library. And in the case of the University of Minnesota, the 
man-made fire spread to a soils testing center in the near vicinity.
    I do not find it disconcerting that ELF firebombed, without 
physically harming anyone, research into genetic modification of our 
natural world for profit. Genetic engineering is a threat to life on 
this planet. As to the other factual allegations, I do not know whether 
or not they are true, so I do not feel comfortable commenting on them.
    8) Are you personally concerned that one day an ELF or ALF 
perpetrated attack will wind up killing or wounding someone?
    No, I am more concerned with massive numbers of people dying at the 
hands of greedy capitalists if such actions are not taken.
    9) Do the Earth Liberation Front and the Earth Liberation Front's 
North American Press Office have a tax status? Are they non-profits?
    9a) I do not know. Can't you ask the IRS?
    9b) I do not know. Can't you ask the Oregon Secretary of State?
    10) Do the Earth Liberation Front and the Earth Liberation Front 
North American Press Office receive outside donations that fund 
operations, income for ELF press office employs, travel expenses, legal 
expenses or other incidental costs? IF so, what are the sources of 
these donations?
    I do not know.
    11) Has the North American Earth Liberation Front ever received 
direct financial support from any animal rights or environmental groups 
to support program activities?
    I do not know.
    12) Has the Earth Liberation Front Press Office ever received 
contributions from the People for the Ethical Treatment of Animals? Did 
you ever sign, endorse, cash or deposit a check from PETA on behalf of 
the Earth Liberation Front Press Office?
    I do not recall.
    13) To the best of your knowledge, has the Earth Liberation Front 
or the Earth Liberation Front North American Press Office ever filed 
income tax returns with the IRS?
    I do not know.
    14) Did you have any prior knowledge whatsoever that the Earth 
Liberation Front intended to destroy the Vail lodge with fire?
    See all objections, rights, and privileges asserted above.
    15) Subsequent to the attacks, have you had any conversations, 
received any written or electronic communications, or acquired any 
first or second hand information through any means identifying the 
perpetrators of the Vail arson?
    See all objections, rights, and privileges asserted above.
    16) Hypothetically, if you would have had prior knowledge or after 
the fact knowledge about the Vail arson, or any other ELF attack, would 
you report it to the authorities?
    See all objections, rights, and privileges asserted above.
    17) Do you know who Michael Conn is?
    Michael Conn is a researcher at the Oregon Regional Primate 
Research Center in Beaverton, Oregon. Conn wastes hundreds of thousands 
of federal taxdollars torturing and killing monkeys, a practice which 
has in no way benefited human health.
    18) Were you ever arrested for trespassing on the Oregon Regional 
Primate Center where Mr. Conn works?
    See all objections, rights, and privileges asserted above.
    19) Why was there an index card with Mr. Conn's name and home 
address in your residence? Was either ELF or ALF planning to take 
``direct action'' against Mr. Conn or his property? If not, why was Mr. 
Conn's name and address in your possession?
    See all objections, rights, and privileges asserted above.
    20) Leslie James Pickering is the new spokesperson for the Earth 
Liberation Front. To the best of your knowledge, has Mr. Pickering ever 
been involved in, had prior knowledge about, aided, abetted or in any 
way assisted in the commission of an ELF or ALF attack?
    See all objections, rights, and privileges asserted above.
    21) David Barbarash is the spokesperson for ELF's sister 
organization, the Animal Liberation Front. To the best of your 
knowledge, has Mr. Barbarash ever been involved in, had prior knowledge 
about, aided, abetted or in any way assisted in the commission of an 
ELF or ALF attack?
    See all objections, rights, and privileges asserted above.
    22) Rodney Adam Coronado was convicted for his role in a 1992 arson 
at Michigan State University. To the best of your knowledge, has Mr. 
Coronado been involved in, had prior knowledge about, aided, abetted or 
in any way assisted in the commission of an ELF or ALF attack since 
1992?
    See all objections, rights, and privileges asserted above.
    23) In a September 7, 2001 AP story you said of the February 12 
hearing: ``These people are trying to stop the work of the Earth 
Liberation Front. I'm not going to participate in any effort that is 
going to incarcerate any of the people involved in the ELF or stop 
their work.'' Do you have specific information that might lead to the 
incarceration of members of the Earth Liberation Front? If not, why are 
you afraid of saying something that might lead to the incarceration of 
ELF members? Is this the reason you chose to repeatedly plead the 5th 
Amendment in response to questions offered by Members of Congress 
during the February 12th hearing?
    a) No
    b) I do not accept your factual assumption in this question. It is 
clear you want to incarcerate ELF members. I was stating that I was 
uninterested in helping you.
    c) I do not recall.
    24) As you know, several members of this Committee wrote a number 
of national environmental groups, urging them to publicly condemn eco-
terrorism, ELF, and, by extension, you. As you also know, all of the 
organizations did. Does this lack of support among national 
environmental groups frustrate you? What would you say in response to 
their condemnations of ELF and ALF?
    Are you asking what I know or telling me? Did you really ask them 
to condemn me or did your letter not even mention me? Are you sure all 
of the organizations did, or are you exaggerating? Did you select only 
groups which must rely on the good graces of Congress for ``success?''
    a) No
    b) Throughout the history of social movements globally, struggles 
have relied upon a variety of tactics, both legal and illegal in 
nature. I would hope that if those groups are actually concerned with 
stopping the destruction of the natural environment, they would 
understand and support this diversity.
    25) In your press statement about the Vail lodge firebombing, you 
said that the area slated for ski-area expansion was some of the last, 
best lynx habitat in North America. Do you know how long it has been 
since anyone--environmentalists, biologists, wildlife enthusiasts--has 
seen a lynx in the area that you called some of the last, best habitat 
for the lynx in North America?
    No I do not, but that is irrelevant to the fact that the area is 
some of the last, best Lynx habitat in North America.
    26) What role if any did you play in creating, writing and speaking 
in the Earth Liberation Front training video ``Igniting the 
Revolution?'' Who paid the production costs? What was the underlying 
purpose of this video?
    a) I spoke in it.
    b) I do not recall.
    c) Educating the public
    27) In that video, and in a number of interviews and other written 
accounts, you talk about how ELF prefers arson to all other forms of 
``direct action'' because it inflicts maximum economic and symbolic 
damage on the target. Please elaborate on this.
    I think this is accurate. I have no further elaboration to offer.
    28) In the ELF's recruitment video and in other public documents, 
you also talk about the need to attack symbols of corporate capitalism 
that promote the spread of what you call ``the destructive American 
Dream.'' Is this correct?
    Yes.
    29) When you were still serving as the Earth Liberation Front's 
Spokesperson, a Q & A page appeared on ELF's website called 
``Frequently Asked Questions About the ELF.'' Is this document familiar 
to you? Did you write this? If not, do you know who did?
    I do not recall.
    30) In the ``Frequently Asked Questions'' piece the authors listed 
Mt. Rushmore, the Statue of Liberty and Wall Street on a short list of 
``forms and symbols of capitalism [that] can be targeted successfully 
to greatly influence the impact the capitalist state has on life.'' 
Remember, in your video and in other places you have frequently said 
that firebombing is the best tactic to use in a direct action. Taken 
together, aren't you encouraging ELF's cronies to go out and firebomb 
the Statue of Liberty? Since ELF has shown no signs of slowing down 
since 9-11, do you still think that, on an abstract level, it would be 
a good or desirable thing for the ELF to attack other symbols of 
capitalism in New York City, like Wall Street offices?
    a) I don't know.
    b) Yes.
    31) Ted Kazcinski, the Unabomber, admitted in Court that he located 
his last two murder victims on published Earth First! hit lists. 
Kazcinski is now listed on an Earth Liberation Front related Website 
(www.spiritoffreedom.org.uk/elf.htm) as a ``Prisoner of War.'' Do you 
consider Kazcinski a ``Prisoner of War'' and a comrade-in-arms in the 
struggle against corporate capitalism?
    See all objections, rights, and privileges asserted above.
    32) In your opinion, is Kazcinski a member of the Earth Liberation 
Front?
    See all objections, rights, and privileges asserted above.
    33) How do you explain this quote taken directly from an ELF-
related website (www.spiritoffreedom.org.uk/elf.htm)? ``Donations of 
support (for Kazcinsky) are needed and sincerely appreciated. If you'd 
like to send support funds, please write Dr. Kazcinski (if you'd like 
to include a few blank sheets of lines writing paper, NO stamps, it 
would help him avoid other bureaucratic hassles as well). Thereafter 
please send donations as a postal money order, blank cheque, etc. 
(including his name and ID number), DIRECTLY to the address listed 
below.''
    My explanation is that there is an attempt to raise donations for 
Dr. Kazcinski.
    34) How long has ELF asked its membership to write and make 
donations to Kazcinski? How does this support for the Unabomber square 
with ELF's purported adherence to non-violence toward humans?
    a) I am not aware of the ELF asking its membership to make 
donations to Dr. Kazcinski.
    b) I don't know.
    35) The Oregonian reported recently that you are attending school 
at Goddard College and that your master's thesis is ``Rethinking 
Nonviolence: Arguing for the Legitimacy of Armed Struggle.'' With 
regard to your thesis, what do you mean by ``armed struggle?'' 
``Armed'' in what way? In your thesis, will you argue that the time has 
come for armed resistance against the U.S. government?
    a) a movement involving political violence.
    b) I am not arguing for one specific sort of political violence.
    c) I don't know, it's still a work in progress.
    36) Jeffrey Luers was sentenced last year to 23 years in prison on 
ecoterrorism-related charges. Have you ever met or had any direct or 
indirect contact with Mr. Luers? What advice would you give this young 
man as he wastes away in prison for the next 2-plus decades? Are you at 
all concerned that your fate may be the same as Mr. Luers?
    See all objections, rights, and privileges asserted above.
    I don't know.
    no.
    37) When Luers was asked how he first became involved in eco-
terrorism in a recent interview conducted by EarthFirst! Journal, he 
responded: ``I was radicalized by anti-authoritarian, anarchist beliefs 
as well as animal rights. I got involved first in 1997 working for 
CalPIRG and canvassing for the Sierra Club'' Power cedes nothing 
without demand. The only way to bring about change is to fight for 
it... Using fire does two things. It destroys 'the targets,' which not 
only stops the destructive practice they are engaged in, but also 
causes severe economic damage to those responsible. It also receives 
media attention. Nothing is more effective at drawing attention to an 
issue than violence'' The mainstream media has been all over it, and 
sympathetic. I've been given a forum to radicalize other people.'' Do 
you share these sentiments?
    See all objections, rights, and privileges asserted above.
    38) On January 29, 2002, ELF took credit for firebombing the 
University of Minnesota's Microbial and Plant Genomics Research Center, 
which at the time was under construction. According to the Dean of the 
University's College of Biological Sciences, the building was being 
built to house genomics research focused on ``finding ways to reduce 
use of pesticides and fertilizers in agriculture, find renewable 
alternatives to fossil fuels, identify new strategies for cleaning the 
environment, and preserve ecosystems.'' In what way is reducing 
reliance on pesticides and looking for clean energy alternatives bad 
for the environment?
    I don't know how those objectives would be bad, but I don't take 
the dean's words as gospel.
    39) What gives the ELF the right to impose its incredibly narrow 
view of environmentalism on researchers at the University of Minnesota 
who have literally spent their lives searching for ways to keep our 
environment safe, clean and healthy? What's more, what gives ELF's 
henchman the right to firebomb another person's property based on 
differences of opinion about what constitutes ``true 
environmentalism?''
    I do not agree with your factual assumptions and biased opinions. I 
am not convinced that researchers at the U of Minnesota have literally 
spent their lives searching for ways to keep our environment safe, 
clean, and healthy. I believe the ELF has the right to uphold natural 
law, protecting those substances which allow all of us to survive on 
the planet--clean air, clean water, and clean, healthy soil.
    B) see answer to 39a.
    40) The Southern Poverty Law Center, a renowned organization 
dedicated to the preservation and enhancement of civil rights, had this 
to say about the Earth Liberation Front in its Summer 2001 Intelligence 
Report: ``ELF's use of underground violence strongly resembles ex-
Klansman Louis Beam's concept of `leaderless resistance.' The ELF is 
compiosed of autonomous and secretive `cells' that initiate terrorist 
acts independently, and do not communicate with or even know one 
another'' like most groups on the radical right today, the ELF sees 
global capitalism as the enemy'' There is an obvious ideological gulf 
separating the radical right, with its racist and fascist appeals, from 
the left-wing, environmentalist Earth Liberation Front, which advocates 
'equality, social justice and'' compassion for all life.' But when it 
comes to the current economic and political system, the two groups 
increasingly find themselves on the same side.'' How do you feel about 
ELF being compared to the Klu Klux Klan? Is this an accurate 
comparison? Do you feel a kinship of cause with ``racists and 
fascists,'' as the Southern Poverty Law Center contends?
    A) That is ridiculous and insulting. I would expect the Southern 
Poverty Law Center to have more intelligence than that.
    B) No.
    C) No.
    41) Please define ``direct action.''
    A) Something done or accomplished without intermediary agents or 
conditions.
    42) Do acts of eco-terrorism typically follow after a call for 
``direct action?''
    I don't know.
    43) When the ELF called for ``direct action'' to protest this 
hearing, and included the photos, names, and addresses of Members of 
Congress on the same website (www.protectcivilliberties.com), what was 
its purpose? Were they seeking to intimidate the Members of this 
Subcommittee and the witnesses?
    A) I was not aware that the ELF ``called for ``direct action'' to 
protest this hearing.''
    B) I do not know.
    44) Did you play any role in the construction of the aforementioned 
website calling for ``direct action'' in conjunction with this hearing? 
Did you ever have a conversation with anyone regarding the construction 
of www.protectcivilliberties.com?
    A) yes.
    B) I don't recall.
    45) You claim that our environment has gotten progressively dirtier 
over the years. But the facts don't support that. The facts tell us 
that air quality has improved by 64% from 1970-2000, toxins released 
have declined by 45% between 1988 and 1998, and erosion was reduced 32% 
between 1982 and 1997. Presently, few trees are harvested off the 
National Forests than has been the case in a very, very long time. 
Isn't it true that ELF's rationale for firebombing homes and schools 
and government buildings is grounded in lies and self-serving 
propaganda rather than in facts?
    No. I question the truth of the above stated ``facts.''
    46) In an ABC News interview last year, you said that ``every 
single social movement that has actually gained success has used a 
variety of tactics.'' In your mind, then, is ELF's relationship with 
mainstream environmental groups akin to a one-two punch? If so, what is 
your response to the countless environmental organizations who 
condemned ELF, and by extension you, prior to the February 12 hearing? 
Do you feel any disdain for mainstream environmentalists based on their 
unwillingness to take direct action to protect the environment?
    A) No.
    B) I am not aware of countless environmental organizations 
codemning me and ELF prior to the February 12 hearing. I prefer to 
respond to groups after I know what they have said. Can you please send 
me each organization's response?
    C) No.
    47) An Indiana based Internet news-service (Nuvo.net) ran a story 
on ELF following an April 30, 1999 ELF attack on construction and 
logging equipment associated with a highway expansion project near 
Bloomington, Indiana. The story featured the comments of an individual 
associated with an environmental group called Valley Watch. With regard 
to ELF's attack on the construction site, he said'' ``As a non-violent 
environmental activist, I can tell you that's not my style. But we're 
all upping our pressure these days, and I can certainly understand the 
frustration that leads someone to take these kinds of actions'' I'm not 
going to condone ELF, but I'm not going to condemn them either. After 
all, violence against property is not violence against people.'' 
Publicly, the vast majority of mainstream environmental groups have 
condemned ELF, and you personally for that matter. Do you think a lot 
of mainstream above ground environmental groups share the sentiments of 
this individual from Valley Watch, public condemnations 
notwithstanding?
    I have no idea.
    48) On April 30, 2000 ELF, through you Mr. Rosebraugh, took credit 
for sabotaging construction and logging equipment used for a highway 
expansion project 45 miles from Indianapolis, Indiana. Do you remember 
issuing a statement of credit for ELF in conjunction with the Indiana 
attack?
    I don't recall.
    49) In an interview with an Indiana Internet news provider 
(www.nuvo.net) following the aforementioned attack, you went beyond 
merely admitting that ELF was responsible for the April 30 siege. You 
told the news outlet this: ``I wouldn't be surprised to see more ELF 
direct action in the future over there.'' Those comments are 
interesting because exactly two months later, on June 30, ELF took part 
in a large-scale tree spiking in the same great State of Indiana, just 
as you had forecasted. Your prediction of additional attacks on April 
30 was one of three things: (1) an incredibly good guess; (2) a 
prescient moment on your part; or (3) the product of direct knowledge 
that ELF would attack again in the area. Which one was it: a good 
guess, a prescient moment or direct knowledge?
    A good guess.
    50) Who first contacted you about serving as the spokesperson for 
the Earth Liberation Front? How did he/she contact you?
    Jesus Christ
    It was a spiritual sort of thing.
    51) During the time you served as spokesperson for the Earth 
Liberation Front, how did you support yourself?
    muffins.
    52) During your time with the Earth Liberation Front Press Office, 
how large was the staff? If there were other staff, were they 
volunteers or working on a paid basis?
    See all objections, rights, and privileges asserted above.
    53) Why did you resign as a spokesperson for the Earth Liberation 
Front?
    To step back from the spotlight and allow others to come forward 
and demonstrate their ideological and philosophical support of the ELF.
    54) Do you still communicate with the Earth Liberation Front and 
Animal Liberation Front Press Offices? If so, how often?
    See all objections, rights, and privileges asserted above.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Rosebraugh.
    Under those circumstances, we will now proceed with 
questions from the Committee, and I will begin the questions.
    Are you currently affiliated with the Earth Liberation 
Front?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, did you play any role in 
creating, writing or speaking in the Earth Liberation Front 
training video ``Igniting the Revolution?''
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, is that your voice on that 
training film?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, do you share in the view that 
it is just a matter of time before someone is badly hurt or 
killed by the Earth Liberation Front?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, you have retained counsel. Who 
is paying your attorney fees to be represented today?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Are those fees being paid by the Earth 
Liberation Front?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. McInnis. Do you agree with this statement, Mr. 
Rosebraugh? Quote: ``If you are talking about fire and the use 
of incendiary devices, there's a danger of people being near or 
inside the building, or the fire could spread to another 
building. There are always dangers,'' unquote.
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. McInnis. Do you acknowledge that you made that 
statement, that is a quote given by you?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, do you find it disconcerting 
that when Earth Liberation Front members firebombed forestry 
research labs at the Universities of Washington and Minnesota 
in 2001 and 2002, respectively, the fire quickly spread to 
other areas on both campuses, potentially endangering lives and 
buildings not targeted by Earth Liberation Front?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Do the Earth Liberation Front and the Earth 
Liberation Front's North American press office have tax status?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Are they nonprofits?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. McInnis. Do the Earth Liberation Front and the Earth 
Liberation Front North American Press Office receive outside 
donations that fund operations income for ELF press office 
employees, travel expenses, legal expenses or other incidental 
costs?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. McInnis. If so, what are the sources of those 
donations?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Does the North American Earth Liberation Front 
ever receive direct financial support from any animal rights or 
environmental groups to support program activities?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, do you know a Michael Kahn?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, were you ever arrested for 
trespassing on the Oregon Regional Primate Center where Mr. 
Kahn works?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. The Committee's information, Mr. Kahn is a 
special assistant to the president of the Oregon Health and 
Sciences University. According to published reports, the FBI 
found a file card in Mr. Rosebraugh's home during a court-
ordered search, with Mr. Kahn's name and home address written 
on it. According to Mr. Kahn, Mr. Rosebraugh had been 
previously arrested for trespassing at Mr. Kahn's university 
research lab.
    Mr. Rosebraugh, why was there an index card with Mr. Kahn's 
name and home address in your residence?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Was either ELF or ALF planning to take direct 
action against Mr. Kahn or his property?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Are you planning any future acts that would 
violate the law of the state or the United States?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, do you know a Leslie James 
Pickering?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Is Mr. Pickering the new spokesman for the 
Earth Liberation Front?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. To the best of your knowledge has Mr. 
Pickering ever been involved in, had prior knowledge, aided, 
abetted, or in any way assisted in the commission of an ELF or 
ALF attack?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. Inslee. Mr. Chair, may I make an inquiry?
    Mr. McInnis. Yes.
    Mr. Inslee. I note that the witness has provided a 
statement to the Committee. And I am wondering if the Committee 
has given any thought whether the witness has waived his Fifth 
Amendment privileges by essentially providing information. And 
I make that point of inquiry. I don't know how we are going to 
resolve this at this moment, but in the event that a court ever 
investigates this, I would like to make it a point that the 
witness has provided information, and that may result in a 
waiver of his Fifth Amendment rights in regard to the 
Committee's inquiry.
    It is something that, Mr. Rosebraugh, I think you should 
consider, and obviously your counsel as well. From my knowledge 
of it, my understanding of the law is that once the witness has 
provided information pursuant to request, and you have arrived 
as a result of subpoena, that you have in fact waived that 
right. And I just wonder if you or your counsel might address 
that issue because this may come up at a later legal context, 
and I would invite you to address that or your attorney to, if 
you think that is appropriate, Mr. Chair.
    Mr. McInnis. I am not clear, Mr. Inslee. Are you directing 
a question? I would be happy to yield some time to you. Are you 
directing a question to Mr. Rosebraugh?
    Mr. Inslee. Well, I think it would be important for the 
Committee to give Mr. Rosebraugh or his attorney--tell us why 
you have not waived the Fifth Amendment since you have provided 
this Committee with information?
    My understanding is, at least in certain context, once a 
witness has provided information subject to an inquiry--and you 
have arrived as a result of subpoena--you no longer have the 
right to claim the Fifth Amendment privilege. And I think 
perhaps for future reference, perhaps you or your attorney 
should address that issue for the Committee. If I may inquire 
that, Mr. Chair?
    Mr. McInnis. Mr. Inslee, that would be appropriate during 
your questioning.
    Let me also advise counsel that counsel is not allowed to 
testify in front of the Committee. Counsel's rights in front of 
the Committee are restricted to advising your client of legal 
rights that he has, and even that advice is restricted simply 
to the constitutional amendment of self-incrimination. So, 
counsel won't be able to answer that, but if you would like to 
direct your questions at a later point, Mr. Inslee, you are 
more than welcome to.
    Mr. Inslee. Are you done with your inquiry or would you 
like to--
    Mr. McInnis. No. I will reclaim my time.
    Let me ask of the witness here. In September 7th, 2001 
Associated Press said that you said of today's hearing: ``These 
people are trying to stop the work of the Earth Liberation 
Front. I'm not going to participate in any effort that is going 
to incarcerate any of the people involved in ELF or stop their 
work.''
    Mr. Rosebraugh, do you have any specific information that 
might lead to the incarceration of members of the Earth 
Liberation Front?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Mr. Rosebraugh, if not, are you concerned that 
any of the statements that you might make might lead to the 
incarceration of an Earth Liberation member?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. For the record, and to make it very clear to 
the witness, any person who has been summoned as a witness 
before a duly authorized congressional Committee, who, quote: 
``refuses to answer any question pertinent to the question 
under inquiry,'' unquote, subject to fine, imprisonment of up 
to 1 year, 2 United States Code 192.
    Do you still refuse to answer the questions that were 
presented to you?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. McInnis. Mr. Inslee, you may proceed.
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Rosebraugh, you heard my concern about the issue of 
waiver of the Fifth Amendment. I would ask either you or your 
counsel to address this issue.
    Mr. McInnis. Mr. Inslee, let me clarify for you that 
counsel is not before this Committee as a witness. The counsel 
will not be allowed to testify on behalf of his client. If Mr. 
Rosebraugh wishes to answer your question, he may. Counsel's 
role in here is strictly restricted to advising his client of 
his constitutional right under the Fifth Amendment.
    Mr. Inslee. I appreciate you trying to save Mr. Rosebraugh 
some legal fees.
    Mr. Rosebraugh, let me just ask you. Why do you believe you 
have not waived the Fifth Amendment, even though you have 
already provided the Committee information through a rather 
comprehensive statement?
    Mr. Rosebraugh. Sir, on that particular question, I'll take 
the Fifth Amendment.
    Mr. Inslee. Might call that a Catch-22, it sounds like.
    Mr. Rosebraugh. You might.
    Mr. Inslee. I just want to ask you a few questions, and 
perhaps it is more of a statement than anything, but I just 
want to read you a statement about Martin Luther King.
    Mr. King was dealing with frustration about Federal 
Government policies back in the '60's, and he said, quote: 
``The limitation of riots, moral questions aside, is that they 
cannot win and their participants know it. Hence, rioting is 
not revolutionary but reactionary because it invites defeat. It 
involves an emotional catharsis, but it must be followed by a 
sense of futility.'' Close quote. Do you agree with that 
statement?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. Inslee. Mr. Rosebraugh, are you familiar with a group 
of people in the State of Washington a couple years back who 
were concerned about the treatment of animals, and they had a 
couple choices available to them. They could go down and burn a 
building down or blow something up, or they could work through 
the democratic process and bring in an initiative. And they 
brought an initiative and they changed the law regarding 
trapping of animals, prohibited trapping in certain 
circumstances of cougars and the like, and they succeeded in a 
democratic method of changing the law of the State of 
Washington. Rather than doing it through violence, they did it 
through the ballot box. Are you familiar with that?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. Inslee. Is it fair to say you are going to take the 
Fifth Amendment of everything we ask you here today?
    Mr. Rosebraugh. Again, sir, I will take the Fifth 
Amendment.
    Mr. Inslee. Thank you, Mr. Chair.
    Mr. McInnis. Mr. Hansen?
    Mr. Hansen. I have no questions.
    Mr. McInnis. Mr. Holt?
    Mr. Holt. I think it would not be productive to ask 
questions at this time. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Peterson?
    Mr. Peterson. I will pass.
    Mr. McInnis. Ms. McCollum?
    Ms. McCollum. Thank you, Mr. Chair. I am just curious.
    This written testimony, sir, written testimony supplied to 
the U.S. House Subcommittee on Forests and Forest Health for 
the February 12th, 2002, Hearing on Eco-terrorism. Your name is 
on it, that it is submitted to the House on February 7th, 2002. 
Is this your document?
    Mr. Rosebraugh. Well, I submitted a document. I am not sure 
if that particular document is the one I submitted.
    Ms. McCollum. Well, we usually don't fool around with 
evidence.
    So, Mr. Chair, I won't bother to ask any questions. But let 
me just read a couple lines from the last page of this 
document.
    Mr. McInnis. Perhaps it would be appropriate if the 
document were shown to the gentleman so he can affirm that that 
is the document that they have submitted. Would some member of 
the staff take a copy?
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. McInnis. That way we know what we are talking about so 
we won't have that issue come up later.
    Ms. McCollum. I am sure we are thorough, Mr. Chair. Your 
staff is very careful.
    Mr. McInnis. I know, but I want to make it very clear.
    Mr. Rosebraugh, is that in fact the document that you 
submitted to the Committee?
    Mr. Rosebraugh. Well, I have not had a chance to read it 
over yet. I'll take the Fifth.
    Mr. McInnis. You may proceed, Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. And I was reading 
through this rather quickly, but page 11 really caught my 
attention to my colleagues here. Second to the last paragraph.
    Quote: ``I fully praise those individuals who take direct 
action, by any means necessary, to stop the destruction of the 
natural world and threats to all life.''
    Last paragraph, quote: ``It's my sincere desire that 
organizations such as the Earth Liberation Front continue to 
grow and prosper in the United States. In fact, more 
organizations, using similar tactics and strategies, need to be 
established to directly focus on U.S. imperialism and the U.S. 
Government itself.'' End of quote.
    Mr. Chair, you have before you something that we are going 
to be submitting into the record from the University of 
Minnesota. Our College of Biological Sciences suffered an 
attack, and that's what it was, on January 28th, by the Earth 
Liberation Front. They took full claim for this action. It has 
been in the newspaper, it has been widely reported. On the 
morning of Saturday, January 26th, incendiary devices were 
placed in a construction trailer. There was $250,000 worth of 
damage done that does not include the loss of research which 
has not been totaled yet. There were no deaths or injuries, but 
it is not uncommon for faculty and graduate students to work in 
labs after hours, evenings and weekends. The University of 
Minnesota is an extraordinarily urban setting.
    So, Mr. Chair, our witness doesn't even appear to want to 
even state for the record that these are his words that he 
provided for the Committee. I quote again from his testimony on 
page 11. ``It is my sincere desire that organizations such as 
the Earth Liberation Front continue to grow and prosper in the 
United States. In fact, more organizations, using similar 
tactics and strategies, need to be established to directly 
focus on U.S. imperialism and the U.S. Government itself.''
    Mr. Chair, the State of Minnesota, as we are meeting, is 
meeting in their legislative session, and they are looking at 
passing state versions of the terrorist bill such as are before 
us.
    Mr. Chair, thank you for the hearing. It is most 
unfortunate that the witness now will not recognize his own 
words that he provided the Committee.
    Mr. McInnis. Do I have any other member of the Committee 
that wishes to ask questions? Yes, Mr. Duncan, you may proceed.
    Mr. Duncan. I won't ask any questions, Mr. Chairman, but I 
do--and I don't waste the time of the Subcommittee, but I do 
want to thank you for calling this hearing, and I want to 
associate myself with your remarks and those of Chairman 
Hansen, particularly his remarks about working within the 
system. There is a right way to do things and there is a wrong 
way to do things, and there is a legal way to do things and an 
illegal way.
    And I have noticed for several years now that environmental 
extremism in this country has hurt, has very much hurt the poor 
and the lower income and the working people of this country by 
destroying jobs and driving up prices. That is who these people 
are hurting. And they are really hurting the cause that they 
profess to believe in by resorting to violence and the 
extremism that causes I think most people to think that they 
probably sick, and probably need some help to resort to the 
tactics that these people have used.
    And so I thank you for calling this hearing and I hope we 
can move on very quickly to the legitimate witnesses, who have 
the guts and the courage to stand up for what they believe in, 
and not hide behind the Fifth Amendment. Thank you very much.
    Mr. Inslee. Will the gentleman yield just for a minute?
    Mr. Duncan. Well, let me say this. I think, Mr. Inslee, 
that you may have had a good point about the waiving the Fifth 
Amendment privilege when you made your statement a while ago.
    Mr. Inslee. I appreciate that comment. I just want to 
elaborate on something you said about, that I agree with, in 
that this type of action is damaging to those, including 
myself, who have been working on environmental values in U.S. 
Congress.
    And the reason I said that is instead of looking at issues 
today, why the U.S. Forest Service has not historically 
enforced environmental laws, why they have only done so when 
required to by the courts, why the administration has taken 
some actions on environmental issues that we believe of 
damaging to the environment, instead of focusing on those 
issues, here we are today focusing on the fact that these folks 
burned down an educational building in the University of 
Washington. That does not help the environmental movement in 
this country. It hurts it. And that is why being angry about 
this, the folks that ought to be the angriest about it are 
those like myself who are fighting to protect the roadless 
area, who are fighting for clean water acts, who are fighting 
for mining reform. And that is why this is a bipartisan issue 
because this does not help our agenda.
    And I appreciate your comment. Thank you.
    Mr. McInnis. Ms. Hooley?
    Ms. Hooley. No questions.
    Mr. McInnis. Mr. Simpson?
    Mr. Simpson. Thank you, Mr. Chairman.
    And I would just I guess respond a little bit. I don't 
think the administration, quite frankly, has been anti-
environmental by any stretch of the imagination. In fact, many 
of the things we've been doing have been in accordance with the 
law because the previous administration and their roadless 
policy did not follow the law as the law is written. But I just 
want to say--
    Mr. McInnis. Mr. Simpson, Mr. Simpson, I would like to 
restrict our remarks to the witness and not a debate amongst 
members.
    Mr. Simpson. We will, and I appreciate that.
    I just want to say it is very nice to have a witness who 
has such concise and consistent testimony.
    [Laughter.]
    Mr. Simpson. You don't find that very often, but it is also 
nice to have a witness that is so proud of the work that he 
does that he refuses to talk about it.
    Mr. McInnis. Mr. Tancredo?
    Mr. Tancredo. Thank you, Mr. Chairman.
    Just two quick questions in light of Mr. Inslee's remarks.
    Mr. Rosebraugh, you have heard Mr. Inslee articulately 
state the concern he has about the damage that he believes your 
lack of responsiveness here today may have on the environmental 
movement.
    With that in mind, would you now take the opportunity to 
disavow any of the statements that you submitted to this 
Committee through your written testimony?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. Tancredo. Would you take this opportunity to advise 
those groups that do take the law into their own hands, commit 
acts of violence to further their own cause, would you take 
this opportunity to ask them to stop that, and recognizing 
that, as Mr. Inslee says, they are doing no justice to your 
cause?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. Tancredo. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Hayworth.
    Mr. Hayworth. Thank you, Mr. Chairman.
    Mr. Rosebraugh, when we look at the written statement that 
has your name attached to it, despite your Fifth Amendment 
response, appears to be authentic from you, and hearing the 
gentlelady from Minnesota read from it, I am especially struck 
by the final statements in all capital letters for emphasis. 
Let me quote now:
    ``ALL POWER TO THE PEOPLE. LONG LIVE THE EARTH LIBERATION 
FRONT. LONG LIVE THE ANIMAL LIBERATION FRONT. LONG LIVE ALL THE 
SPARKS ATTEMPTING TO IGNITE THE REVOLUTION. SOONER OR LATER THE 
SPARKS WILL TURN INTO A FLAME!''
    Mr. Rosebraugh, is that a call to revolutionary action?
    Mr. Rosebraugh. I will take the Fifth Amendment on that 
question.
    Mr. Hayworth. Mr. Rosebraugh, do you believe that arson and 
violence are reasonable expressions in a free society?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. Hayworth. Mr. Rosebraugh, I would bring to your 
attention and that of the full Committee and those who join us 
today, the lead story in my hometown newspaper, ``The Arizona 
Republic.'' ``Preserves Arsonist Sentenced 18 Years for 
Torching Homes.'' This man, Mark Sands, convicted and sentenced 
yesterday by U.S. District Judge Susan Bolton, had something to 
say that perhaps would be advisable to take into account, 
especially those who may be inclined toward violence and 
anarchy and eco-terrorism.
    Quoting Mark Sands now, convicted of these fires. Quote: 
``I believe then, and yes, it was arrogant, that the fires and 
threats would make a difference.'' Continuing his quote: 
``There is no environmental or religious excuse for terrorism 
of any kind.'' Close quote.
    Yes, a witness does have a right to plead the Fifth 
Amendment, to talk about the necessity of doing so to ensure 
against self-recrimination. It is constitutional, but the irony 
that we see here today is the employment of the Fifth Amendment 
in a way where if one's name is attached and one has the 
courage of one's convictions, shouldn't it follow that they 
have the courage to risk conviction?
    I have no further questions, Mr. Chairman.
    Mr. McInnis. The Chair points out to the Committee at this 
point in time, just because someone pleads the Fifth Amendment 
doesn't mean that the individual is entitled to the Fifth 
Amendment for the specific question that has been asked, so I 
would advise the members that if you feel a question, that you 
would like to ask him a question of which pleading the Fifth 
Amendment would not be an appropriate response, we do intend to 
take full course on this matter, any legal counsel subsequent 
to the meeting. So I would advise the Committee to ask those 
questions.
    So, Mr. Otter, if you have any questions, you may proceed.
    Mr. Otter. Well, thank you very much, Mr. Chairman.
    I guess I don't have any questions, because I believe I 
have already heard the response that I am going to get. But I 
would just make an observation, and that is, that it seems just 
a little uncommitted, I guess, to the cause for the very person 
who will now run and hide behind the Constitution and the laws 
of the United States, thought so little of them when they were 
the laws and the Constitution that protected other people's 
properties and other people's rights. There is no commitment 
there, and don't fool yourself into thinking there is one.
    Thank you, Mr. Chair.
    Mr. McInnis. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman.
    I am tempted to ask the witness, given his response to the 
various questions, if he is in any way related to Ken Lay.
    [Laughter.]
    Mr. Walden. Who seems to be taking his own share of Fifth 
Amendment answers. Are you in any way related?
    Mr. Rosebraugh. I'll have to take the Fifth Amendment on 
that, sir.
    Mr. Walden. I thought maybe you would. Mr. Rosebraugh, you 
say that the environmental movements failed to ensure the 
necessary protection either to ensure life on this planet will 
continue to survive. What protections are needed?
    Mr. Rosebraugh. I'll take the Fifth Amendment on that 
question.
    Mr. Walden. Is there something in that question that would 
somehow incriminate you by answering?
    Mr. Rosebraugh. Sir, on that question I'll take the Fifth 
Amendment.
    Mr. Walden. What actions can society, industry or 
government officials take that would satisfy the needs you've 
outlined in your testimony?
    Mr. Rosebraugh. I will take the Fifth Amendment on that 
question.
    Mr. Walden. There is something in my question that would 
cause you to incriminate yourself?
    Mr. Rosebraugh. Once again, I'll take the Fifth Amendment.
    Mr. Walden. You state there are a large number of 
threatened endangered species present on national forests 
because large-scale destruction of their habitat has decimated 
their ecosystem. Studies indicate the large number of 
threatened endangered species present on the national forest is 
because these forests represent a refuge of the habitats 
required.
    What evidence do you have that the national forests are 
decimated ecosystems rather than havens of refuge for stresses 
species?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. Walden. Do you see any positive role for science in 
society today?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. Walden. Is there anything in that question that would 
cause you to incriminate yourself before this Committee?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. Walden. How would you see it appropriate for humans to 
seek knowledge of the world around us?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. Walden. Mr. Rosebraugh, are you familiar with the 
recent communique from the Earth Liberation Front claiming 
responsibility for the arson of a construction site on the St. 
Paul campus of the University of Minnesota?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. Walden. Are you familiar with any of the communiques, 
some of which bear your name regarding the arson that occurred 
in Oregon in the last half a dozen years?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. Walden. Have you ever given an interview to anybody in 
the press regarding any of ELF's activities?
    Mr. Rosebraugh. I will take the Fifth Amendment.
    Mr. Walden. Mr. Chairman, I want to go back to something my 
colleague from Arizona said, quoting from testimony supplied by 
Mr. Rosebraugh to the Committee.
    And again, in emphasis it says: ``ALL POWER TO THE PEOPLE. 
LONG LIVE THE EARTH LIBERATION FRONT. LONG LIVE THE ANIMAL 
LIBERATION FRONT. LONG LIVE ALL THE SPARKS ATTEMPTING TO IGNITE 
THE REVOLUTION. SOONER OR LATER THE SPARKS WILL TURN INTO A 
FLAME!''
    Mr. Rosebraugh, I am quoting from what is supposed to be 
your testimony. Is that an accurate quote from your testimony?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. Walden. You won't even tell us if the testimony I am 
reading from that bears your name is your own testimony to this 
Committee?
    Mr. Rosebraugh. Like I just said, sir, I'll take the Fifth 
Amendment.
    Mr. Walden. And this is the testimony that was again 
provided for your review, but you can't tell us whether these 
are your words?
    Mr. Rosebraugh. Once again I'll take the Fifth Amendment.
    Mr. Walden. Was I correct in hearing though earlier, you 
did indicate that you did submit testimony to this Committee; 
is that not correct?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. Walden. So now you won't even tell us whether or not 
what you told us before is correct?
    Mr. Rosebraugh. As comical as it may seem, I will take the 
Fifth Amendment.
    Mr. Walden. This is a very serious question. I am trying to 
figure out if this is your testimony. My Ken Lay comment might 
have been comical on its face for some.
    Mr. Chairman, I see no further point in proceeding with 
this witness at this time. All we get is the Fifth Amendment. 
So I yield back whatever time I may have left.
    Mr. McInnis. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Rosebraugh, are you a citizen of the United States of 
America?
    Mr. Rosebraugh. I'll take the Fifth Amendment.
    Mr. Nethercutt. Were you to answer that question, 
therefore--
    Mr. McInnis. Mr. Nethercutt, may I interrupt for a moment, 
please?
    Mr. Nethercutt. Sure.
    Mr. McInnis. Thank you. I appreciate you yielding to the 
Chair.
    Counsel, it may be an appropriate time for you to advise 
your client. Obviously, there are questions being asked here 
which do not fall under the protection of the Fifth Amendment. 
For example, ``Do you believe in science?'' ``Are you a citizen 
of the United States of America?''
    If counsel would like a moment to visit with his client, I 
will allow that. I want counsel to be advised we will pursue 
this type of behavior in front of Congress. It is not going to 
be acceptable behavior. There are questions he can answer, as 
counsel knows, that fall outside the scope of that protection. 
Does counsel wish to advise his client?
    [Pause as Mr. Sugarman advises Mr. Rosebraugh.]
    Mr. McInnis. Obviously, it is the Committee's intent not to 
have you incriminate yourself but to have a legitimate 
discussion, and I would advise the witness that this is exactly 
the kind of forum under which you are allowed to project some 
of your views and we can have those kind of discussions. 
Clearly, we have very intense debate over on the floor of the 
House of Representatives, and we are able to carry those out in 
a civil way, and I would hope that we could do that today.
    Mr. Nethercutt, if you would like to proceed or start again 
with your question?
    Mr. Nethercutt. Well, I would restate my question, sir. Are 
you a citizen of the United States of America?
    Mr. Rosebraugh. Yes, sir.
    Mr. Nethercutt. And do you agree that the United States 
Constitution is the law of the land?
    Mr. Rosebraugh. I'll take the Fifth Amendment on that 
question.
    Mr. Nethercutt. So in taking the Fifth Amendment on that 
question, you, by answering affirmatively to that question, 
would you believe that you would be somehow incriminating 
yourself; is that correct?
    Mr. Rosebraugh. I'll take the Fifth Amendment to that one 
as well.
    Mr. Nethercutt. Mr. Chairman, I think that is an answerable 
question.
    Mr. McInnis. Let me tell you what the intent of the 
Committee is, Mr. Nethercutt. Obviously, the witness has no 
intention of cooperating in any sense whatsoever, and it is not 
a surprise. But it is not without repercussions. There are 
legal repercussions to the action that the gentleman is taking.
    What we will do is we will submit written questions. Makes 
it easier for us, more difficult for him. We will submit 
written questions to the witness, under which we will ask the 
witness to answer. If the witness refuses to answer or pleads--
by pleading the Fifth Amendment, we will resubmit the 
questions. If he at that point in time refuses, then this 
Committee will meet and go over those questions and have a vote 
on whether to issue a contempt of Congress. I fully intend to 
proceed with that.
    Fortunately, today we have a number of witnesses who are 
very cooperative and who want to discuss this matter with us. I 
think this is a waste of time. Again, not a surprise. I do want 
to wrap this up.
    Mr. Rosebraugh, you have a couple of people that you 
probably know who were just sentenced in Santa Cruz, 
California. And I want you to know that here's what their 
response was at the sentencing. Pausing frequently to keep his 
composure Whyte told the Court, ``I have a lot of regret for 
what I've done. I know there are better ways to go about 
creating change.''
    He was one of yours. He's now come across.
    Another one, Schnell. ``I still definitely believe in 
compassion toward animals. I am ready to make a change in my 
life, ready to take responsibility. I have much regret.''
    Mr. Rosebraugh, I look forward to the day that you cross 
that line and put your energy and your efforts into a 
constructive fashion, because, frankly, as Mr. INSLEE said, you 
can be to the benefit of the environmental movement instead of 
taking away from the credibility of the organization that I 
suppose you probably believe pretty strongly in.
    If there are any additional questions of the Committee--I 
will be submitting written questions--I invite any member of 
the Committee to submit questions to the chief-of-staff and--
pardon me, Mr. Otter, do you have a question?
    Mr. Otter. Mr. Chairman, may I inquire of the Chair?
    Mr. McInnis. Yes.
    Mr. Otter. Would that be within the next 5 days?
    Mr. McInnis. Well, we are not limited, but just for the 
logistics in the next 5 or 10 days, if you would submit written 
questions that you would like submitted to the witness, we will 
proceed with that.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. Inslee. Mr. Chairman?
    Mr. McInnis. Yes, Mr. Inslee?
    Mr. Inslee. I just wanted to advise the Committee, since we 
have been talking about this, I asked counsel to check with the 
parliamentarian, the House parliamentarian, who advised that 
giving a written statement does not waive the Fifth Amendment, 
and I just think this is something we ought to as a Committee 
look at and try to get resolution of before our next meeting. 
Because the opinion I ventured may or may not be accurate. The 
parliamentarian seems to think it is not. So I think we just 
need to get that resolved before our next meeting.
    Mr. McInnis. Mr. Inslee, I agree with you. The written 
questions does not require the witness to waive his Fifth 
Amendment rights. We are not asking him to waive those rights. 
What the written questions do is allow us to differentiate 
between questions which legitimately fall within the Fifth 
Amendment and those questions which fall outside the ability of 
the witness to plead the Fifth Amendment.
    So my point in submitting the--let me say here, Fifth 
Amendment to protect another person. Fifth Amendment privileges 
are personal and cannot be invoked on behalf of another person, 
which he has invoked during this questioning. They cannot be 
invoked on behalf of a corporation, which he has done in this 
questioning, or of an artificial entity.
    So my point is, we will submit him written questions. I 
suppose he will probably take the Fifth, although I hope he 
doesn't, but if he does, we will then determine with a 
Committee meeting which of those questions fall within his 
rights of the Fifth and which fall outside of it. Those that 
fall outside of it, I will then ask the Committee for a vote of 
contempt of Congress on those particular questions, but we are 
not asking him to waive his right, nor do we think he has 
waived his right by receiving written questions.
    I thank the witness. The witness is excused.
    Mr. McInnis. And now I will introduce the witnesses on our 
third panel. On Panel III. and the Committee I think will find 
this a little more constructive. On Panel III we have Mr. James 
Jarboe, Section Chief, Domestic Terrorism/Counterterrorism 
Planning Section, Federal Bureau of Investigation; Mr. Porter 
Wharton III, Senior Vice President of Public Affairs, Vail 
Associates, Inc., and a long-time friend of mine, welcome; Mr. 
Michael Hicks, Northwest Oregon Area Logging Manager, Boise 
Cascade Corporation; Mr. Rick Berman, Executive Director of The 
Center for Consumer Freedom.
    Now, I would like to do the same with the new panel. If you 
would just please stand and raise your right hand, I will 
administer the oath.
    Do you solemnly swear or affirm that the testimony you are 
about to give is the truth, the whole truth and nothing but the 
truth, so help you God?
    Members of Panel III. I do.
    Mr. McInnis. Thank you, you may be seated.
    I remind the witnesses again about the 5-minute rule, and I 
would ask Mr. Jarboe for his statement. You may proceed, sir.

 STATEMENT OF JAMES F. JARBOE, SECTION CHIEF, COUNTERTERRORISM 
DIVISION, DOMESTIC TERRORISM/COUNTERTERRORISM PLANNING SECTION, 
       FEDERAL BUREAU OF INVESTIGATION, WASHINGTON, D.C.

    Mr. Jarboe. Thank you, Mr. Chairman, and Committee members. 
I have submitted a written statement. I won't read that to the 
record in the interest of time, but I would like to make a 
couple very short comments before we begin, and then I'll be 
happy to answer any questions.
    First of all, the FBI considers the definition of 
``terrorism'' to be unlawful use or threatened use of violence 
by a group or individual committed by--
    Mr. McInnis. If I might, I am sorry. This microphone 
doesn't work so well. Could you begin your statement again, and 
a little closer to the mike? Thank you, sir.
    Mr. Jarboe. Certainly. Again, in the interest of time, I 
won't read my written statement, but I will submit that.
    I'd like to define ``terrorism'' as far as the FBI's 
perspective goes. Terrorism is the unlawful use or threatened 
use of violence by a group of individual committed against 
persons or property to intimidate or coerce a government, the 
civilian population, or any segment thereof, in furtherance of 
political or social objectives.
    If Mr. Rosebraugh had chosen to testify, I'm sure he would 
have told the panel, which is evident from his written 
statement, that he and ALF/ELF do not consider the actions that 
they take to be acts of violence.
    These direct actions, I submit, are acts of violence. You 
can ask any fireman who's responded to one of the arsons, and 
is more eloquently stated by the Members of Congress who 
testified before me, have covered that territory.
    We can also ask the business persons whose businesses are 
destroyed, the new homeowners whose homes are destroyed by 
arson before they're completed, whether they believe ALF/ELF 
actions are acts of violence. I would submit that they would.
    We can document approximately or in excess of $43 million 
of damage from 1996 to the present that have taken place by 
these acts of violence and acts of lawlessness, not to mention 
the untold amount of time and money and effort that's been lost 
through the destruction of research projects, and we have no 
way of knowing what would have been the results of those 
research projects, should they have come to completion, how 
beneficial that would have been to society.
    The way we're attacking the ALF/ELF issue is primarily 
through our Joint Terrorism Task Force, as we have 44 JTTFs 
throughout the FBI right now in 44 of our 56 field offices. 
With additional funding that we've recently received, we are 
pushing to get JTTFs in all 56 field offices by the end of this 
year.
    There have been a small number of arrests. I know that's 
very frustrating to the public. It's very frustrating to us as 
well. There are a few reasons why that happens. Constitutional 
guarantees, it's a thin line to walk between constitutionally 
guaranteed activity and criminal activity, and we must make 
every effort not to step over that line and violate citizens' 
rights.
    We also have learned, and everyone I believe is aware, that 
there's no defined hierarchal structure within ALF/ELF. It's a 
very loose knit group, a cell, persons, two, three, four get 
together, plan an act, do it, and then claim it on the part of 
ALF/ELF without a hierarchical structure as you would find in 
La Cosa Nostra or some other organized crime entity. Very, very 
difficult to get into the group and do routine investigations 
that we'd like to in a more sophisticated level.
    The major concern I have with this group, is if you look at 
the history of the ALF movement, ELF movement, the Animal 
Liberation Front, et cetera, they started out rather peaceful 
in their demonstrations to stop fox hunting in England. Same 
thing on the environmental front for ELF. But over the course 
of time, splinter groups within the body have been frustrated 
with the lack of action or lack of intensity of action on the 
part of the main body, have split off and have taken more 
intense action, more violent action, if you will. This 
splintering has continued over the course of time, and it is 
still continuing.
    What we have seen in other civil disturbance areas is as 
time passes, those who become frustrated with the quote/unquote 
mainstream of these elements will take the next step. If this 
continues, then the violence that we've seen now is just a 
shadow of what's coming, and I think that's probably the most 
dangerous thing that we can see on the future horizon, and we 
certainly are putting a tremendous amount of effort into 
slowing this down and stopping it.
    The only thing that we've had to really put us behind what 
we expected to have in place by now are the events of September 
11th, when we threw every resource that we had into that 
attack, and followed shortly after by the anthrax attack.
    We're regrouping now, and ALF/ELF is at the top of my list 
as far as domestic terrorism issues to address, and I can 
ensure the members here that this issue will be addressed.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jarboe follows:]

    Statement of James F. Jarboe, Domestic Terrorism Section Chief, 
       Counterterrorism Division, Federal Bureau of Investigation

    GOOD MORNING CHAIRMAN MCINNIS, VICE-CHAIRMAN PETERSON, CONGRESSMAN 
INSLEE AND MEMBERS OF THE SUBCOMMITTEE. I AM PLEASED TO HAVE THE 
OPPORTUNITY TO APPEAR BEFORE YOU AND DISCUSS THE THREAT POSED BY ECO-
TERRORISM, AS WELL AS THE MEASURES BEING TAKEN BY THE FBI AND OUR LAW 
ENFORCEMENT PARTNERS TO ADDRESS THIS THREAT.
    THE FBI DIVIDES THE TERRORIST THREAT FACING THE UNITED STATES INTO 
TWO BROAD CATEGORIES, INTERNATIONAL AND DOMESTIC. INTERNATIONAL 
TERRORISM INVOLVES VIOLENT ACTS OR ACTS DANGEROUS TO HUMAN LIFE THAT 
ARE A VIOLATION OF THE CRIMINAL LAWS OF THE UNITED STATES OR ANY STATE, 
OR THAT WOULD BE A CRIMINAL VIOLATION IF COMMITTED WITHIN THE 
JURISDICTION OF THE UNITED STATES OR ANY STATE. ACTS OF INTERNATIONAL 
TERRORISM ARE INTENDED TO INTIMIDATE OR COERCE A CIVILIAN POPULATION, 
INFLUENCE THE POLICY OF A GOVERNMENT, OR AFFECT THE CONDUCT OF A 
GOVERNMENT. THESE ACTS TRANSCEND NATIONAL BOUNDARIES IN TERMS OF THE 
MEANS BY WHICH THEY ARE ACCOMPLISHED, THE PERSONS THEY APPEAR INTENDED 
TO INTIMIDATE, OR THE LOCALE IN WHICH PERPETRATORS OPERATE.
    DOMESTIC TERRORISM IS THE UNLAWFUL USE, OR THREATENED USE, OF 
VIOLENCE BY A GROUP OR INDIVIDUAL BASED AND OPERATING ENTIRELY WITHIN 
THE UNITED STATES (OR ITS TERRITORIES) WITHOUT FOREIGN DIRECTION, 
COMMITTED AGAINST PERSONS OR PROPERTY TO INTIMIDATE OR COERCE A 
GOVERNMENT, THE CIVILIAN POPULATION, OR ANY SEGMENT THEREOF, IN 
FURTHERANCE OF POLITICAL OR SOCIAL OBJECTIVES.
    DURING THE PAST DECADE WE HAVE WITNESSED DRAMATIC CHANGES IN THE 
NATURE OF THE TERRORIST THREAT. IN THE 1990s, RIGHT-WING EXTREMISM 
OVERTOOK LEFT-WING TERRORISM AS THE MOST DANGEROUS DOMESTIC TERRORIST 
THREAT TO THE COUNTRY. DURING THE PAST SEVERAL YEARS, SPECIAL INTEREST 
EXTREMISM, AS CHARACTERIZED BY THE ANIMAL LIBERATION FRONT (ALF) AND 
THE EARTH LIBERATION FRONT (ELF), HAS EMERGED AS A SERIOUS TERRORIST 
THREAT. GENERALLY, EXTREMIST GROUPS ENGAGE IN MUCH ACTIVITY THAT IS 
PROTECTED BY CONSTITUTIONAL GUARANTEES OF FREE SPEECH AND ASSEMBLY. LAW 
ENFORCEMENT BECOMES INVOLVED WHEN THE VOLATILE TALK OF THESE GROUPS 
TRANSGRESSES INTO UNLAWFUL ACTION. THE FBI ESTIMATES THAT THE ALF/ELF 
HAVE COMMITTED MORE THAN 600 CRIMINAL ACTS IN THE UNITED STATES SINCE 
1996, RESULTING IN DAMAGES IN EXCESS OF 43 MILLION DOLLARS.
    SPECIAL INTEREST TERRORISM DIFFERS FROM TRADITIONAL RIGHT-WING AND 
LEFT-WING TERRORISM IN THAT EXTREMIST SPECIAL INTEREST GROUPS SEEK TO 
RESOLVE SPECIFIC ISSUES, RATHER THAN EFFECT WIDESPREAD POLITICAL 
CHANGE. SPECIAL INTEREST EXTREMISTS CONTINUE TO CONDUCT ACTS OF 
POLITICALLY MOTIVATED VIOLENCE TO FORCE SEGMENTS OF SOCIETY, INCLUDING 
THE GENERAL PUBLIC, TO CHANGE ATTITUDES ABOUT ISSUES CONSIDERED 
IMPORTANT TO THEIR CAUSES. THESE GROUPS OCCUPY THE EXTREME FRINGES OF 
ANIMAL RIGHTS, PRO-LIFE, ENVIRONMENTAL, ANTI NUCLEAR, AND OTHER 
MOVEMENTS. SOME SPECIAL INTEREST EXTREMISTS--MOST NOTABLY WITHIN THE 
ANIMAL RIGHTS AND ENVIRONMENTAL MOVEMENTS--HAVE TURNED INCREASINGLY 
TOWARD VANDALISM AND TERRORIST ACTIVITY IN ATTEMPTS TO FURTHER THEIR 
CAUSES.
    SINCE 1977, WHEN DISAFFECTED MEMBERS OF THE ECOLOGICAL PRESERVATION 
GROUP GREENPEACE FORMED THE SEA SHEPHERD CONSERVATION SOCIETY AND 
ATTACKED COMMERCIAL FISHING OPERATIONS BY CUTTING DRIFT NETS, ACTS OF 
``ECO-TERRORISM'' HAVE OCCURRED AROUND THE GLOBE. THE FBI DEFINES ECO-
TERRORISM AS THE USE OR THREATENED USE OF VIOLENCE OF A CRIMINAL NATURE 
AGAINST INNOCENT VICTIMS OR PROPERTY BY AN ENVIRONMENTALLY ORIENTED, 
SUBNATIONAL GROUP FOR ENVIRONMENTAL-POLITICAL REASONS, OR AIMED AT AN 
AUDIENCE BEYOND THE TARGET, OFTEN OF A SYMBOLIC NATURE.
    IN RECENT YEARS, THE ANIMAL LIBERATION FRONT (ALF) HAS BECOME ONE 
OF THE MOST ACTIVE EXTREMIST ELEMENTS IN THE UNITED STATES. DESPITE THE 
DESTRUCTIVE ASPECTS OF ALF'S OPERATIONS, ITS OPERATIONAL PHILOSOPHY 
DISCOURAGES ACTS THAT HARM ``ANY ANIMAL, HUMAN AND NONHUMAN.'' ANIMAL 
RIGHTS GROUPS IN THE UNITED STATES, INCLUDING THE ALF, HAVE GENERALLY 
ADHERED TO THIS MANDATE. THE ALF, ESTABLISHED IN GREAT BRITAIN IN THE 
MID-1970s, IS A LOOSELY ORGANIZED MOVEMENT COMMITTED TO ENDING THE 
ABUSE AND EXPLOITATION OF ANIMALS. THE AMERICAN BRANCH OF THE ALF BEGAN 
ITS OPERATIONS IN THE LATE 1970s. INDIVIDUALS BECOME MEMBERS OF THE ALF 
NOT BY FILING PAPERWORK OR PAYING DUES, BUT SIMPLY BY ENGAGING IN 
``DIRECT ACTION'' AGAINST COMPANIES OR INDIVIDUALS WHO UTILIZE ANIMALS 
FOR RESEARCH OR ECONOMIC GAIN. ``DIRECT ACTION'' GENERALLY OCCURS IN 
THE FORM OF CRIMINAL ACTIVITY TO CAUSE ECONOMIC LOSS OR TO DESTROY THE 
VICTIMS' COMPANY OPERATIONS. THE ALF ACTIVISTS HAVE ENGAGED IN A 
STEADILY GROWING CAMPAIGN OF ILLEGAL ACTIVITY AGAINST FUR COMPANIES, 
MINK FARMS, RESTAURANTS, AND ANIMAL RESEARCH LABORATORIES.
    ESTIMATES OF DAMAGE AND DESTRUCTION IN THE UNITED STATES CLAIMED BY 
THE ALF DURING THE PAST TEN YEARS, AS COMPILED BY NATIONAL 
ORGANIZATIONS SUCH AS THE FUR COMMISSION AND THE NATIONAL ASSOCIATION 
FOR BIOMEDICAL RESEARCH (NABR), PUT THE FUR INDUSTRY AND MEDICAL 
RESEARCH LOSSES AT MORE THAN 45 MILLION DOLLARS. THE ALF IS CONSIDERED 
A TERRORIST GROUP, WHOSE PURPOSE IS TO BRING ABOUT SOCIAL AND POLITICAL 
CHANGE THROUGH THE USE OF FORCE AND VIOLENCE.
    DISAFFECTED ENVIRONMENTALISTS, IN 1980, FORMED A RADICAL GROUP 
CALLED ``EARTH FIRST!'' AND ENGAGED IN A SERIES OF PROTESTS AND CIVIL 
DISOBEDIENCE EVENTS. IN 1984, HOWEVER, MEMBERS INTRODUCED ``TREE 
SPIKING'' (INSERTION OF METAL OR CERAMIC SPIKES IN TREES IN AN EFFORT 
TO DAMAGE SAWS) AS A TACTIC TO THWART LOGGING. IN 1992, THE ELF WAS 
FOUNDED IN BRIGHTON, ENGLAND BY EARTH FIRST! MEMBERS WHO REFUSED TO 
ABANDON CRIMINAL ACTS AS A TACTIC WHEN OTHERS WISHED TO MAINSTREAM 
EARTH FIRST!. IN 1993, THE ELF WAS LISTED FOR THE FIRST TIME ALONG WITH 
THE ALF IN A COMMUNIQUE DECLARING SOLIDARITY IN ACTIONS BETWEEN THE TWO 
GROUPS. THIS UNITY CONTINUES TODAY WITH A CROSSOVER OF LEADERSHIP AND 
MEMBERSHIP. IT IS NOT UNCOMMON FOR THE ALF AND THE ELF TO POST JOINT 
DECLARATIONS OF RESPONSIBILITY FOR CRIMINAL ACTIONS ON THEIR WEB-SITES. 
IN 1994, FOUNDERS OF THE SAN FRANCISCO BRANCH OF EARTH FIRST! PUBLISHED 
IN THE EARTH FIRST! JOURNAL A RECOMMENDATION THAT EARTH FIRST! 
MAINSTREAM ITSELF IN THE UNITED STATES, LEAVING CRIMINAL ACTS OTHER 
THAN UNLAWFUL PROTESTS TO THE ELF.
    THE ELF ADVOCATES ``MONKEYWRENCHING,'' A EUPHEMISM FOR ACTS OF 
SABOTAGE AND PROPERTY DESTRUCTION AGAINST INDUSTRIES AND OTHER ENTITIES 
PERCEIVED TO BE DAMAGING TO THE NATURAL ENVIRONMENT. 
``MONKEYWRENCHING'' INCLUDES TREE SPIKING, ARSON, SABOTAGE OF LOGGING 
OR CONSTRUCTION EQUIPMENT, AND OTHER TYPES OF PROPERTY DESTRUCTION. 
SPEECHES GIVEN BY JONATHAN PAUL AND CRAIG ROSEBRAUGH AT THE 1998 
NATIONAL ANIMAL RIGHTS CONFERENCE HELD AT THE UNIVERSITY OF OREGON, 
PROMOTED THE UNITY OF BOTH THE ELF AND THE ALF MOVEMENTS. THE ELF 
POSTED INFORMATION ON THE ALF WEBSITE UNTIL IT BEGAN ITS OWN WEBSITE IN 
JANUARY 2001, AND IS LISTED IN THE SAME UNDERGROUND ACTIVIST 
PUBLICATIONS AS THE ALF.
    THE MOST DESTRUCTIVE PRACTICE OF THE ALF/ELF IS ARSON. THE ALF/ELF 
MEMBERS CONSISTENTLY USE IMPROVISED INCENDIARY DEVICES EQUIPPED WITH 
CRUDE BUT EFFECTIVE TIMING MECHANISMS. THESE INCENDIARY DEVICES ARE 
OFTEN CONSTRUCTED BASED UPON INSTRUCTIONS FOUND ON THE ALF/ELF 
WEBSITES. THE ALF/ELF CRIMINAL INCIDENTS OFTEN INVOLVE PRE-ACTIVITY 
SURVEILLANCE AND WELL-PLANNED OPERATIONS. MEMBERS ARE BELIEVED TO 
ENGAGE IN SIGNIFICANT INTELLIGENCE GATHERING AGAINST POTENTIAL TARGETS, 
INCLUDING THE REVIEW OF INDUSTRY/TRADE PUBLICATIONS, PHOTOGRAPHIC/VIDEO 
SURVEILLANCE OF POTENTIAL TARGETS, AND POSTING DETAILS ABOUT POTENTIAL 
TARGETS ON THE INTERNET.
    THE ALF AND THE ELF HAVE JOINTLY CLAIMED CREDIT FOR SEVERAL RAIDS 
INCLUDING A NOVEMBER 1997 ATTACK OF THE BUREAU OF LAND MANAGEMENT WILD 
HORSE CORRALS NEAR BURNS, OREGON WHERE ARSON DESTROYED THE ENTIRE 
COMPLEX RESULTING IN DAMAGES IN EXCESS OF FOUR HUNDRED AND FIFTY 
THOUSAND DOLLARS AND THE JUNE 1998 ARSON ATTACK OF A U.S. DEPARTMENT OF 
AGRICULTURE ANIMAL DAMAGE CONTROL BUILDING NEAR OLYMPIA, WASHINGTON, IN 
WHICH DAMAGES EXCEEDED TWO MILLION DOLLARS. THE ELF CLAIMED SOLE CREDIT 
FOR THE OCTOBER 1998, ARSON OF A VAIL, COLORADO, SKI FACILITY IN WHICH 
FOUR SKI LIFTS, A RESTAURANT, A PICNIC FACILITY AND A UTILITY BUILDING 
WERE DESTROYED. DAMAGE EXCEEDED TWELVE MILLION DOLLARS. ON 12/27/1998, 
THE ELF CLAIMED RESPONSIBILITY FOR THE ARSON AT THE U.S. FOREST 
INDUSTRIES OFFICE IN MEDFORD, OREGON, WHERE DAMAGES EXCEEDED FIVE 
HUNDRED THOUSAND DOLLARS. OTHER ARSONS IN OREGON, NEW YORK, WASHINGTON, 
MICHIGAN AND INDIANA HAVE BEEN CLAIMED BY THE ELF. RECENTLY, THE ELF 
HAS ALSO CLAIMED ATTACKS ON GENETICALLY ENGINEERED CROPS AND TREES. THE 
ELF CLAIMS THESE ATTACKS HAVE TOTALED CLOSE TO $40 MILLION IN DAMAGES.
    THE NAME OF A GROUP CALLED THE COALITION TO SAVE THE PRESERVES 
(CSP), SURFACED IN RELATION TO A SERIES OF ARSONS THAT OCCURRED IN THE 
PHOENIX, ARIZONA AREA. THESE ARSONS TARGETED SEVERAL NEW HOMES UNDER 
CONSTRUCTION NEAR THE NORTH PHOENIX MOUNTAIN PRESERVES. NO DIRECT 
CONNECTION WAS ESTABLISHED BETWEEN THE CSP AND ALF/ELF. HOWEVER, THE 
STATED GOAL OF CSP TO STOP DEVELOPMENT OF PREVIOUSLY UNDEVELOPED LANDS, 
IS SIMILAR TO THAT OF THE ELF. THE PROPERTY DAMAGE ASSOCIATED WITH THE 
ARSONS HAS BEEN ESTIMATED TO BE IN EXCESS OF $5 MILLION.
    THE FBI HAS DEVELOPED A STRONG RESPONSE TO THE THREATS POSED BY 
DOMESTIC AND INTERNATIONAL TERRORISM. BETWEEN FISCAL YEARS 1993 AND 
2003, THE NUMBER OF SPECIAL AGENTS DEDICATED TO THE FBI'S 
COUNTERTERRORISM PROGRAMS GREW BY APPROXIMATELY 224 PERCENT (TO 1,669--
NEARLY 16 PERCENT OF ALL FBI SPECIAL AGENTS). IN RECENT YEARS, THE FBI 
HAS STRENGTHENED ITS COUNTERTERRORISM PROGRAM TO ENHANCE ITS ABILITIES 
TO CARRY OUT THESE OBJECTIVES.
    COOPERATION AMONG LAW ENFORCEMENT AGENCIES AT ALL LEVELS REPRESENTS 
AN IMPORTANT COMPONENT OF A COMPREHENSIVE RESPONSE TO TERRORISM. THIS 
COOPERATION ASSUMES ITS MOST TANGIBLE OPERATIONAL FORM IN THE JOINT 
TERRORISM TASK FORCES (JTTFS) THAT ARE ESTABLISHED IN 44 CITIES ACROSS 
THE NATION. THESE TASK FORCES ARE PARTICULARLY WELL-SUITED TO 
RESPONDING TO TERRORISM BECAUSE THEY COMBINE THE NATIONAL AND 
INTERNATIONAL INVESTIGATIVE RESOURCES OF THE FBI WITH THE STREET-LEVEL 
EXPERTISE OF LOCAL LAW ENFORCEMENT AGENCIES. GIVEN THE SUCCESS OF THE 
JOINT TERRORISM TASK FORCE (JTTF) CONCEPT, THE FBI HAS ESTABLISHED 15 
NEW JTTFS SINCE THE END OF 1999. BY THE END OF 2003 THE FBI PLANS TO 
HAVE ESTABLISHED JTTFS IN EACH OF ITS 56 FIELD OFFICES. BY INTEGRATING 
THE INVESTIGATIVE ABILITIES OF THE FBI AND LOCAL LAW ENFORCEMENT 
AGENCIES, THESE TASK FORCES REPRESENT AN EFFECTIVE RESPONSE TO THE 
THREATS POSED TO U.S. COMMUNITIES BY DOMESTIC AND INTERNATIONAL 
TERRORISTS.
    THE FBI AND OUR LAW ENFORCEMENT PARTNERS HAVE MADE A NUMBER OF 
ARRESTS OF INDIVIDUALS ALLEGED TO HAVE PERPETRATED ACTS OF ECO-
TERRORISM. SEVERAL OF THESE INDIVIDUALS HAVE BEEN SUCCESSFULLY 
PROSECUTED. FOLLOWING THE INVESTIGATION OF THE PHOENIX, ARIZONA ARSONS 
NOTED EARLIER, MARK WARREN SANDS WAS INDICTED AND ARRESTED ON 6/14/
2001. ON 11/07/2001, SANDS PLEADED GUILTY TO TEN COUNTS OF EXTORTION 
AND USING FIRE IN THE COMMISSION OF A FEDERAL FELONY.
    IN FEBRUARY 2001, TEENAGERS JARED MCINTYRE, MATTHEW RAMMELKAMP, AND 
GEORGE MASHKOW ALL PLEADED GUILTY, AS ADULTS, TO TITLE 18 U.S.C. 
844(I), ARSON, AND 844(N), ARSON CONSPIRACY. THESE CHARGES PERTAIN TO A 
SERIES OF ARSONS AND ATTEMPTED ARSONS OF NEW HOME CONSTRUCTION SITES IN 
LONG ISLAND, NY. AN ADULT, CONNOR CASH, WAS ALSO ARRESTED ON FEBRUARY 
15, 2001, AND CHARGED UNDER THE SAME FEDERAL STATUTES. JARED MCINTRYE 
STATED THAT THESE ACTS WERE COMMITTED IN SYMPATHY OF THE ELF MOVEMENT. 
THE NEW YORK JOINT TERRORISM TASK FORCE PLAYED A SIGNIFICANT ROLE IN 
THE ARREST AND PROSECUTION OF THESE INDIVIDUALS.
    ON 1/23/2001, FRANK AMBROSE WAS ARRESTED BY OFFICERS OF THE 
DEPARTMENT OF NATURAL RESOURCES WITH ASSISTANCE FROM THE INDIANAPOLIS 
JTTF, ON A LOCAL WARRANT OUT OF MONROE COUNTY CIRCUIT COURT, 
BLOOMINGTON, INDIANA, CHARGING AMBROSE WITH TIMBER SPIKING. AMBROSE IS 
SUSPECTED OF INVOLVEMENT IN THE SPIKING OF APPROXIMATELY 150 TREES IN 
INDIANA STATE FORESTS. THE ELF CLAIMED RESPONSIBILITY FOR THESE 
INCIDENTS.
    ON SEPTEMBER 16, 1998, A FEDERAL GRAND JURY IN THE WESTERN DISTRICT 
OF WISCONSIN INDICTED PETER YOUNG AND JUSTIN SAMUEL FOR HOBBS ACT 
VIOLATIONS AS WELL AS FOR ANIMAL ENTERPRISE TERRORISM. SAMUEL WAS 
APPREHENDED IN BELGIUM, AND WAS SUBSEQUENTLY EXTRADITED TO THE UNITED 
STATES. ON AUGUST 30, 2000, SAMUEL PLEADED GUILTY TO TWO COUNTS OF 
ANIMAL ENTERPRISE TERRORISM AND WAS SENTENCED ON NOVEMBER 3, 2000, TO 
TWO YEARS IN PRISON, TWO YEARS PROBATION, AND ORDERED TO PAY $364,106 
IN RESTITUTION. SAMUEL'S PROSECUTION AROSE OUT OF HIS INVOLVEMENT IN 
MINK RELEASES IN WISCONSIN IN 1997. THIS INCIDENT WAS CLAIMED BY THE 
ALF. THE INVESTIGATION AND ARREST OF JUSTIN SAMUEL WERE THE RESULT OF A 
JOINT EFFORT BY FEDERAL, STATE AND LOCAL AGENCIES.
    ON APRIL 20, 1997, DOUGLAS JOSHUA ELLERMAN TURNED HIMSELF IN AND 
ADMITTED ON VIDEOTAPE TO PURCHASING, CONSTRUCTING, AND TRANSPORTING 
FIVE PIPE BOMBS TO THE SCENE OF THE MARCH 11, 1997 ARSON AT THE FUR 
BREEDERS AGRICULTURAL CO-OP IN SANDY, UTAH. ELLERMAN ALSO ADMITTED 
SETTING FIRE TO THE FACILITY. ELLERMAN WAS INDICTED ON JUNE 19, 1997 ON 
16 COUNTS, AND EVENTUALLY PLEADED GUILTY TO THREE. HE WAS SENTENCED TO 
SEVEN YEARS IN PRISON AND RESTITUTION OF APPROXIMATELY $750,000. THOUGH 
THIS INCIDENT WAS NOT OFFICIALLY CLAIMED BY ALF, ELLERMAN INDICATED 
DURING AN INTERVIEW SUBSEQUENT TO HIS ARREST THAT HE WAS A MEMBER OF 
ALF. THIS INCIDENT WAS INVESTIGATED JOINTLY BY THE FBI AND THE BUREAU 
OF ALCOHOL, TOBACCO AND FIREARMS (BATF).
    RODNEY ADAM CORONADO WAS CONVICTED FOR HIS ROLE IN THE FEBRUARY 2, 
1992, ARSON AT AN ANIMAL RESEARCH LABORATORY ON THE CAMPUS OF MICHIGAN 
STATE UNIVERSITY. DAMAGE ESTIMATES, ACCORDING TO PUBLIC SOURCES, 
APPROACHED $200,000 AND INCLUDED THE DESTRUCTION OF RESEARCH RECORDS. 
ON JULY 3, 1995, CORONADO PLED GUILTY FOR HIS ROLE IN THE ARSON AND WAS 
SENTENCED TO 57 MONTHS IN FEDERAL PRISON, THREE YEARS PROBATION, AND 
RESTITUTION OF MORE THAN $2 MILLION. THIS INCIDENT WAS CLAIMED BY ALF. 
THE FBI, BATF AND THE MICHIGAN STATE UNIVERSITY POLICE PLAYED A 
SIGNIFICANT ROLE IN THE INVESTIGATION, ARREST, AND PROSECUTION.
    MARC LESLIE DAVIS, MARGARET KATHERINE MILLET, MARC ANDRE BAKER, AND 
ILSE WASHINGTON ASPLUND WERE ALL MEMBERS OF THE SELF-PROCLAIMED ``EVAN 
MECHAM ECO-TERRORIST INTERNATIONAL CONSPIRACY'' (EMETIC). EMETIC WAS 
FORMED TO ENGAGE IN ECO-TERRORISM AGAINST NUCLEAR POWER PLANTS AND SKI 
RESORTS IN THE SOUTHWESTERN UNITED STATES. IN NOVEMBER 1987, THE GROUP 
CLAIMED RESPONSIBILITY FOR DAMAGE TO A CHAIRLIFT AT THE FAIRFIELD SNOW 
BOWL SKI RESORT NEAR FLAGSTAFF, ARIZONA. DAVIS, MILLET, AND BAKER WERE 
ARRESTED IN MAY 1989 ON CHARGES RELATING TO THE FAIRFIELD SNOW BOWL 
INCIDENT AND PLANNED INCIDENTS AT THE CENTRAL ARIZONA PROJECT AND PALO 
VERDE NUCLEAR GENERATING STATIONS IN ARIZONA; THE DIABLO CANYON NUCLEAR 
FACILITY IN CALIFORNIA; AND THE ROCKY FLATS NUCLEAR FACILITY IN 
COLORADO. ALL PLEADED GUILTY AND WERE SENTENCED IN SEPTEMBER 1991. 
DAVIS WAS SENTENCED TO SIX YEARS IN FEDERAL PRISON, AND RESTITUTION TO 
THE FAIRFIELD SNOW BOWL SKI RESORT IN THE AMOUNT OF $19,821. MILLET WAS 
SENTENCED TO THREE YEARS IN FEDERAL PRISON, AND RESTITUTION TO 
FAIRFIELD IN THE AMOUNT OF $19,821. BAKER WAS SENTENCED TO ONE YEAR IN 
FEDERAL PRISON, FIVE MONTHS PROBATION, A $5,000 FINE, AND 100 HOURS OF 
COMMUNITY SERVICE. ASPLUND WAS ALSO CHARGED AND WAS SENTENCED TO ONE 
YEAR IN FEDERAL PRISON, FIVE YEARS PROBATION, A $2,000 FINE, AND 100 
HOURS OF COMMUNITY SERVICE.
    CURRENTLY, MORE THAN 26 FBI FIELD OFFICES HAVE PENDING 
INVESTIGATIONS ASSOCIATED WITH ALF/ELF ACTIVITIES. DESPITE ALL OF OUR 
EFFORTS (INCREASED RESOURCES ALLOCATED, JTTFS, SUCCESSFUL ARRESTS AND 
PROSECUTIONS), LAW ENFORCEMENT HAS A LONG WAY TO GO TO ADEQUATELY 
ADDRESS THE PROBLEM OF ECO-TERRORISM. GROUPS SUCH AS THE ALF AND THE 
ELF PRESENT UNIQUE CHALLENGES. THERE IS LITTLE IF ANY HIERARCHAL 
STRUCTURE TO SUCH ENTITIES. ECO-TERRORISTS ARE UNLIKE TRADITIONAL 
CRIMINAL ENTERPRISES WHICH ARE OFTEN STRUCTURED AND ORGANIZED.
    THE DIFFICULTY INVESTIGATING SUCH GROUPS IS DEMONSTRATED BY THE 
FACT THAT LAW ENFORCEMENT HAS THUS FAR BEEN UNABLE TO EFFECT THE 
ARRESTS OF ANYONE FOR SOME RECENT CRIMINAL ACTIVITY DIRECTED AT FEDERAL 
LAND MANAGERS OR THEIR OFFICES. HOWEVER, THERE ARE SEVERAL ONGOING 
INVESTIGATIONS REGARDING SUCH ACTS. CURRENT INVESTIGATIONS INCLUDE THE 
10/14/2001 ARSON AT THE BUREAU OF LAND MANAGEMENT WILD HORSE AND BURRO 
CORRAL IN LITCHFIELD, CALIFORNIA, THE 7/20/2000 DESTRUCTION OF TREES 
AND DAMAGE TO VEHICLES AT THE U.S. FORESTRY SCIENCE LABORATORY IN 
RHINELANDER, WISCONSIN, AND THE 11/29/1997 ARSON AT THE BUREAU OF LAND 
MANAGEMENT CORRAL IN BURNS, OREGON.
    BEFORE CLOSING, I WOULD LIKE TO ACKNOWLEDGE THE COOPERATION AND 
ASSISTANCE RENDERED BY THE U.S. FOREST SERVICE IN INVESTIGATING 
INCIDENTS OF ECO-TERRORISM. SPECIFICALLY, I WOULD LIKE TO RECOGNIZE THE 
ASSISTANCE THAT THE FOREST SERVICE IS PROVIDING WITH REGARD TO THE 
ONGOING INVESTIGATION OF THE 7/20/2000 INCIDENT OF VANDALISM AND 
DESTRUCTION THAT OCCURRED AT THE U.S. FORESTRY SCIENCE LABORATORY IN 
RHINELANDER, WISCONSIN.
    THE FBI AND ALL OF OUR FEDERAL, STATE AND LOCAL LAW ENFORCEMENT 
PARTNERS WILL CONTINUE TO STRIVE TO ADDRESS THE DIFFICULT AND UNIQUE 
CHALLENGES POSED BY ECO-TERRORISTS. DESPITE THE RECENT FOCUS ON 
INTERNATIONAL TERRORISM, WE REMAIN FULLY COGNIZANT OF THE FULL RANGE OF 
THREATS THAT CONFRONT THE UNITED STATES.
    CHAIRMAN MCINNIS AND MEMBERS OF THE SUBCOMMITTEE, THIS CONCLUDES MY 
PREPARED REMARKS. I WOULD LIKE TO EXPRESS APPRECIATION FOR YOUR 
CONCENTRATION ON THE ISSUE OF ECO-TERRORISM AND I LOOK FORWARD TO 
RESPONDING TO ANY QUESTIONS.
                                 ______
                                 
    Mr. McInnis. Thank you very much.
    Mr. Wharton, we will turn to you, sir.

   STATEMENT OF PORTER WHARTON III, SENIOR VICE PRESIDENT OF 
               PUBLIC AFFAIRS, VAIL RESORTS, INC.

    Mr. Wharton. Thank you, Mr. Chairman.
    On the morning of October 19th, 1998, at approximately 3:30 
a.m. the first of eight fires were set. At 4 a.m. the first 
alarms came into Vail dispatch, and by 4:20 a.m. the first 
firefighters were on their way up the dirt road to the 11,200 
foot ridgeline where the fires raged at two locations a mile 
and a half apart.
    By 4:40 a.m. the first firefighters were on the scene. What 
they were confronted with was five buildings, three ski lifts 
engulfed in flames. Hampered by a lack of water on the 
ridgeline, six inches of fresh snow, and fires that by the time 
had almost an hour's head start, their task was virtually 
impossible.
    Eventually 195 firefighters from 11 fire departments and 
our company were engaged throughout the night and into the day. 
They came for six counties and stayed for over 8 hours engaged 
in the battle.
    When the morning sun rose over the Gore Range it 
illuminated a shocking amount of damage. Foremost was the 
complete loss of the resort's flagship on-mountain restaurant, 
Two Elk, a 24,000 square foot majestic log structure with 
seating for over 500 people.
    Four additional buildings housing dining and ski patrol 
functions were also totally consumed. Three chairlifts were 
damaged. The total value of lost assets was over $12 million, 
making this the most costly act of eco-terrorism in this 
country's history.
    Most fortunately, only one of the almost 200 firefighters 
involved was injured. And a hunter, who had left his friends at 
their nearby campsite to sleep in a small restroom for building 
for warmth, awoke to find himself in the only structure not 
engulfed in flames. As one witness to the carnage said later, 
``The only thing we can be thankful for is that we aren't 
having services.''
    Former Governor Roy Romer was the first to call the fires 
an act of terrorism.
    Then on Wednesday, October 21st, 2 days after the fires, an 
e-mail was received by Colorado Public Radio. The e-mail, 
purportedly sent by ELF, the Earth Liberation Front, claimed 
responsibility for the fires.
    Why had Vail drawn the attention of ELF? Three days before 
the fires a Federal Court had given final approval for the 
construction of the Category III expansion of the ski area. The 
expansion had been controversial, with some environmentalists 
opposing it for reasons including possible impacts to Canadian 
lynx habitat, even though no lynx had been seen in the area 
since 1973.
    The expansion had been contemplated since the resort's 
founding in 1962. It was desired by our guests, supported by an 
overwhelming majority of our community. The approval process 
took over 7 years and $5 million in expenditures by our 
company. It was the most scrutinized ski area expansion in 
history, with over 65 studies conducted on soil, air, wildlife, 
water and other issues. Two administrative reviews, three court 
challenges, all supported the expansion. It was approved by 
four Federal agencies, one State agency and two local 
governments.
    But ELF did not accept the results of this exhaustive 
process. The ELF communique stated the fires had been set, 
quote, ``...on behalf of the lynx.'' And then our guests were 
warned, quote, ``For your safety and convenience, we strongly 
advise skiers to choose other destinations.''
    The property damage has now been repaired, but the scars on 
our community and our company remain. A former Vail mayor said 
at the time, quote: ``This was not only an attack against Vail 
Resorts, this was an attack against the people who live and 
work in Eagle County,'' end quote. It is the wealthy visitors 
to Vail that are a part of our image, but when the guests are 
gone, there are 30,000 hardworking very normal people that 
remain in the valley they call home. Those are the people that 
ELF terrorized. The sense of violation and the feelings of 
outrage remain today.
    The investigation is still open. No arrests have been made.
    ELF boasts it is above the laws of this country and claimed 
they were, quote, ``...effecting social change.'' And that, 
quote, ``...decreasing profits by destroying property has been 
very effective,'' end quote. But let's call it what it really 
is. No matter what the supposed justification, this was 
terrorism. This is a fringe group, saying in essence that they 
are more important than the laws that are the foundation of 
this society and this country.
    Any effort on the part of this administration and this 
Congress to assure homeland security must include a response to 
domestic environmental terrorism. These faceless, cowardly 
criminals must be stopped. If they are not, more property will 
be destroyed. More threats of extortion and worse will be 
issued. More law-abiding citizens will live in fear, and 
eventually, inevitably, there will be loss of life. It's a 
miracle it hasn't happened already.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wharton follows:]

   Statement of Porter Wharton, III, Senior Vice President of Public 
                      Affairs, Vail Resorts, Inc.

    On the morning of October 19, 1998, at approximately 3:30 a.m., the 
first of eight fires were set. At 4:00 a.m., the first alarms came into 
Vail dispatch and by 4:20 a.m., the first firefighters were on their 
way up the dirt road to the 11,200 foot ridgeline where the fires raged 
at two locations a mile and a half apart.
    By 4:40 a.m., the first firefighters were on the scene. What they 
were confronted with was five buildings and three ski lifts engulfed in 
flames. Hampered by a lack of water on the ridgeline, six inches of 
fresh snow and fires that by that time had almost an hour's head start, 
their task was virtually impossible.
    Eventually 195 firefighters from 11 fire departments and our 
company were engaged throughout the night and into the day. They came 
from six counties and stayed for over eight hours engaged in the 
battle.
    When the morning sun rose over the Gore Range, it illuminated a 
shocking amount of damage. Foremost was the complete loss of the 
resort's flagship on-mountain restaurant, Two Elk. A 24, 000 square 
foot majestic log structure, with seating for 550.
    Four additional buildings housing dining and ski patrol functions 
were also totally consumed. Three chairlifts were damaged. The total 
value of lost assets was over $12 Million, making this the most costly 
act of eco-terrorism in this country's history.
    Most fortunately, only one of the almost 200 firefighters involved 
was injured. And a hunter who had left his friends at their nearby 
campsite to sleep in a small restroom building for warmth awoke to find 
himself in the only structure not engulfed in flames. As one witness to 
the carnage said later, ``The only thing we can be thankful for is that 
we aren't having services.''
    Former Colorado Governor Romer was the first to call the fires an 
act of terrorism. Then, on Wednesday October 21st, two days after the 
fires, an e-mail was received by Colorado Public Radio
    The e-mail, purportedly sent by ELF, the Earth Liberation Front, an 
eco-terrorist group responsible for tens of millions of dollars of 
destruction across Europe and the United States, claimed responsibility 
for the fires.
    Why had Vail drawn the attention of ELF? Three days before the 
fires, a federal court had given final approval for the construction of 
the Category III expansion of the ski area. The expansion had been 
controversial, with some environmentalists opposing it for reasons 
including possible impacts to Canadian Lynx habitat--even though no 
lynx had been seen in the area since 1973.
    The expansion had been contemplated since the resort's founding in 
1962. It was desired by our guests and supported by an overwhelming 
majority of our community. The approval process took over seven years 
and five million dollars in expenditures by our company. It was the 
most scrutinized ski area expansion in history with over 65 studies 
conducted on soil, air, wildlife and water issues. Two administrative 
reviews and three court challenges all supported the expansion. It was 
approved by four federal agencies, one state agency and two local 
governments.
    But ELF did not accept the results of this exhaustive process. The 
ELF communique stated the fires had been set, ``'' on behalf of the 
lynx. Putting profits ahead of Colorado's wildlife will not be 
tolerated. This action is just a warning.'' And then our guests were 
warned, ``For your safety and convenience, we strongly advise skiers to 
choose other destinations.''
    The property damage has now been repaired. But the scars on our 
community and our company remain. A former Vail mayor said at the time, 
``This was not only an attack against Vail Resorts, this was an attack 
against the people who live and work in Eagle County.'' It is the 
wealthy visitors to Vail that are a part of it's image, but when the 
guests are gone, there are 30,000 hard-working very normal people that 
remain in the valley they call home. Those are the people ELF 
terrorized. The sense of violation and the feelings of outrage remain.
    The investigation is still open. No arrests have been made
    ELF boasts it is above the laws of this country and claimed they 
were, ``'' effecting social change.'' And that, ``'' decreasing profits 
by destroying property has been very effective.'' But let's call it 
what it really is. No matter what the supposed justification, this was 
terrorism. This is a fringe group saying in essence that they are more 
important than the laws that are the foundation of this society and 
this country. Any effort on the part of this administration and this 
Congress to assure homeland security must include a response to 
domestic environmental terrorism. These faceless, cowardly criminals 
must be stopped.
    If they are not, more property will be destroyed. More threats of 
extortion and worse will be issued. More law-abiding citizens will live 
in fear. And eventually, inevitably there will be a loss of life. It's 
a miracle it hasn't happened already.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Wharton.
    Mr. Hicks?

 STATEMENT OF MICHAEL S. HICKS, NORTHWEST OREGON AREA LOGGING 
               MANAGER, BOISE CASCADE CORPORATION

    Mr. Hicks. I'm Michael S. Hicks--
    Mr. Hansen. [Presiding] Would you get a mike over by there, 
Mr. Hicks, if you would, please? Thank you.
    Mr. Hicks. I'm the Northwest Oregon Area Logging Manager 
for Boise Cascade Corporation. We own or manage over 2.3 
million acres of forest land, using science-based state-of-the-
art practices. We are a major distributor of office products 
and building products, and we also manufacture building 
products and paper products to meet the demands of the American 
public. Over 19,000 people work for Boise Cascade in the United 
States.
    My office is in Monmouth, Oregon. I manage 160,000 acres of 
timberland, and our field office is home to 25 to 30 
professional foresters, engineers, biologists and support 
staff.
    Thank you for allowing me to provide my testimony on 
domestic terrorism. The title of the hearing is ``Eco-terrorism 
and Lawlessness in the National Forests.'' However, from my 
perspective, we are dealing with just plain terrorism and 
lawlessness. There is no prefix such as ``eco'' that anyone can 
put before the word ``terrorism'' that justifies a cause. 
Terrorism is terrorism, plain and simple.
    It does have an impact on how we approach our business, 
especially when it comes to Federal timber sales. I would like 
to explain the basis for that concern.
    I am here today to relate my experience with domestic 
terrorism that was carried out against our company on Christmas 
Day 1999. Our office was burned to the ground by an arson fire. 
The evil and the cowardly elves of the Earth Liberation Front, 
ELF, had brought their gift of terror to our lives. ELF, 
through their spokesman at the time, Craig Rosebraugh, claimed 
the responsibility for the fire. The claim was verified by ATF 
and FBI investigators.
    It was reported on December 31st, 1999 by the ``Oregonian'' 
newspaper that Craig Rosebraugh himself was, quote, ``Pleased 
with the arson,'' end quote. Incendiary devices placed on 
opposite sides of the building by the arsonists had ignited the 
fire. It was clear that ELF had sized up our facility and had 
known the office to burn easily once ignited.
    The firefighters, many of whom were volunteers, had to 
separate an outside wall from the building to extinguish the 
fire. It was difficult and dangerous work. They were trying to 
pull down a wall while preventing the firemen from getting 
trapped by the falling wall. We gained renewed appreciation for 
the dedication and the bravery of our firefighters on that 
chilly Christmas morning.
    After the fire was out, one of the first things I salvaged 
from the office was a display case with an American flag from 
the office of one of our foresters, who was also a Gulf War 
veteran and active in the Marine Reserves. This was a flag that 
had draped his father's coffin, and I know how important it was 
to him and to the rest of us.
    There was many hazards associated with salvaging what 
personal items and office files and equipment we could. We had 
to contend with broken glass, floors that gave way, and 
ceilings that had fallen down and were resting on file 
cabinets.
    This was not an attack on a corporate entity. This was an 
attack on all the individuals of our office. We all lost 
personal items that are important to our professional lives. We 
lost photographs, collectibles, art work and professional 
certificates.
    As far as the company was concerned, the attack did not 
alter our business strategy. It did change how we view 
security. We take security much more seriously now. Our new 
office contains state-of-the-art security. We all became more 
keenly aware of the security risks we have on our lands, at our 
mills, and around our equipment.
    As a result of the arson fire, the company chose to rebuild 
using materials such as concrete, steel and aluminum, which are 
nonflammable and nonrenewable energy consuming. Ironically, 
when the effects of the air pollution from the fire, added to 
the use of energy-consuming nonrenewable building products, the 
effects on the ecosystem are increased.
    The 1999 was not the company's first experience with 
lawless behavior by radical activists, but a few terrorists 
will not stop our efforts to be good stewards of the land, or 
stop us from providing quality products that the public 
demands. The domestic terrorists have only strengthened our 
resolve. After an event like an arson fire, we look at life 
differently, but we must continue managing our forest lands. 
After all, they aren't going anywhere.
    We also manage our Federal, state and private timber sales 
differently. We have seen the results of lawless activities in 
the national forests firsthand. We recognize that we are at an 
increased risk of being a target.
    In summary, ELF burned our office building. They admit it. 
ELF is a terrorist organization willing to break the laws that 
we all live and work by. The terrorists did have an impact on 
how we view the world from a security perspective. They also 
cost the company a million and a half dollars to replace our 
office building. But the primary impact of burning our office 
was on the personal lives of our staff.
    In addition, the arson also placed my staff, the 
firefighters and myself in harm's way, and as it's been said 
many times here today, sooner or later someone's going to get 
injured or killed.
    We only hope that the cowards are caught and held 
accountable for their terror and destruction they have caused. 
Congress should recognize these are terrorists, and they should 
be sought out, prosecuted to the full extent of the law.
    Thank you for the opportunity to comment on such an 
important and timely topic.
    [The prepared statement of Mr. Hicks follows:]

 Statement of Michael S. Hicks, Northwest Oregon Area Logging Manager, 
                       Boise Cascade Corporation

    Mr. Chairman and committee members:
    I am Michael S. Hicks, Northwest Oregon Area Logging Manager for 
Boise Cascade Corporation. Boise Cascade owns or controls over 2.3 
million acres of forest land using science based, state-of-the-art 
forestry practices. In addition to being a major distributor of office 
products and building products, Boise Cascade also manufactures 
building products and paper products to meet the demands of the 
American public. Over 19,000 people work for Boise Cascade in the 
United States.
    My area in Monmouth, Oregon is part of the Western Oregon Region 
with the regional office located in Medford Oregon. In my position as 
Logging Manager, I am responsible for obtaining a reliable source of 
log supply for our three Northwest Oregon veneer mills. The logs are 
obtained from our own lands, from contracts sold by a number of 
government and private sellers, and from open market log deliveries. My 
responsibilities also include the management of 160,000 acres of 
timberland and management of a staff of 25 to 30 professional foresters 
and biologists. Our office is a field office, primarily housing field 
foresters, engineers, field biologists, and administrative support 
staff.
    Thank you for allowing me to provide my testimony on domestic 
terrorism. The title of this hearing is Ecoterrorism and Lawlessness on 
National Forests. However, from my perspective, we are dealing with 
just plain TERRORISM AND LAWLESSNESS. It really does not matter what 
the cause is, or how one's actions are justified. There is no prefix 
anyone can put before the word terrorism that justifies a cause. We are 
a nation of laws and due process. Terrorism is terrorism, plain and 
simple.
    I am here today to relate my experience with domestic terrorism, as 
I call the activities that were carried out against our company. It was 
Christmas morning, 1999 and this was to be the first time my wife and I 
would enjoy the chance to sleep in on Christmas morning since the 
1970's. However, the phone rang at about 5:15 A.M. It was our local 
Boise Cascade Employee Relations Manager telling me our office was on 
fire.
    Needless to say, my string of early awakenings on Christmas morning 
remained intact. This time, however, it wasn't because of kids or 
grandkids running around to see what Santa and his elves had brought. 
As we found out a few days later, it was elves of a different stripe. 
The evil and cowardly elves of the Earth Liberation Front (ELF) had 
brought their gift of terror to our lives. ELF, through their 
spokesperson at the time, Craig Rosebraugh, claimed responsibility for 
the fire. Their claim was verified by ATF and FBI investigators.
    That Christmas morning was cold and dry, made even colder by a 
stiff wind from the north. ELF could not have had better conditions to 
start a fire. When I arrived about 25 minutes after receiving the call, 
the fire had been burning for over an hour. The roof had caved in and 
the firefighters were busy trying to put out several hot spots. 
Incendiary devices placed on opposite sides of the building by the 
arsonists, presumably for maximum effect, had ignited the arson fire. 
Our office was primarily wood construction with many interior walls 
lined with cedar. The office was built in 1978 and the construction was 
meant to display the wood products industry. The alcoves in the front 
and rear provided corners for maximum ignition heat and the vents above 
the ignition point allowed the fumes and flames to carry throughout the 
dry, wood framed attic. It was clear that ELF had sized up our facility 
and had known their standard fire setting practices would cause the 
office to burn easily, once ignited.
    There were at least three alarms called during the fire, with many 
firefighters working several sides of the 7500 square foot structure. 
After a quick look, I called my boss to give him an update and then 
started to call all my staff. One by one, the staff--and in many cases 
their families--came in during the morning, interrupting their holiday 
festivities. We all stared in disbelief and wandered around as close as 
the firefighters dared to let us. The fire departments were concerned 
about our safety as we instinctively moved closer and closer, driven by 
the need to save what we could. Throughout the early morning we 
comforted each other and tried to comprehend what was happening. At the 
time, we did not know it was an arson fire. As we gazed at the 
smoldering rubble, we all wondered what we could have done to prevent 
it.
    The fire department kept us from entering the perimeter, but I was 
able to engage a fireman on the periphery about how things were going 
and when they thought it would be contained and finally extinguished. 
As I was discussing the situation with the firefighter, I noticed one 
area containing all our easements, lease documents, real estate papers, 
rights-of-way files and other important files. It was not heavily 
damaged by the fire, but was getting a lot of water going in and around 
it. I asked the fireman if there was any way we could get a tarp over 
the file cabinets to protect them from water damage. We broke out the 
remaining glass of the window and crawled in to the office and draped a 
tarp over the cabinet. We were very fortunate that the fire originated 
well away from this area. With the exception of a little water in the 
file cabinets, these files were saved from fire or water damage. I wish 
we could have done the same for many others.
    Several hot spots were particularly difficult to extinguish. The 
firefighters, many of them volunteers, had to separate the outside wall 
from the building to extinguish the fire. It was difficult and 
dangerous work. They were trying to pull the wall down while preventing 
the firemen from getting trapped by the falling wall. They pulled an 
exterior wall down in at least two locations. After seeing all the 
dangers up close, I remember thinking that morning about all the 
hazards the firemen endured. We gained a renewed appreciation for the 
dedication and bravery of our firefighters on that chilly Christmas 
morning.
    By late morning the fire was declared out. The fire marshal 
indicated he wanted us to stay away from an area he thought might have 
been the source of the fire, the copy machine room. With the caution to 
stay clear of this area, we were allowed to enter and retrieve what we 
could salvage. Because safety is one of our company's core values, we 
held a safety meeting before we embarked on the salvage project. One of 
the first things I brought out was a display case with a folded 
American flag from the office of Sergeant Major Rudy Frazzini, one of 
our foresters, who is also a Gulf War veteran and active in the Marine 
Reserves. This was the flag that had draped his father's coffin, and I 
knew how important this was to Rudy and the rest of us. I made sure it 
was safe in the seat of my pickup.
    Many of the staff had to postpone their Christmas activities to 
spend the day salvaging all the items they could. It was especially 
tough on four of my grandchildren because we were due to open presents 
with them at 10:00 A.M. in the morning and they had to wait until I 
arrived that evening. The fire was on a Saturday and we were expecting 
rain by the following Monday. We knew we had to get everything under 
cover by then. We worked all day Saturday and came back on Sunday to 
move as much as we could to our mill site. Our goal was to salvage the 
files and what we could for our temporary quarters. I recall pulling 
out file drawers that were still smoldering and attempting to 
extinguish the embers so that we could salvage the files. We filled a 
large room (approximately 2000 square feet) in the nearby veneer mill 
with file drawers, computers in varying degrees of meltdown, and other 
office equipment that we thought we could salvage. There were many 
hazards associated with salvaging all the usable remains of a fire. We 
had to contend with broken glass, floors that gave way, and overhead 
ceilings that had caved in and were resting on file cabinets. We 
contended with the ever-present tangle of wires, debris and remnants of 
the ceiling and roof trusses. The conditions were difficult for 
salvaging, but we worked cautiously and had a good share of the 
salvageable material removed by Sunday evening.
    On Monday our access to the office and its contents was cut off 
completely by investigators from the FBI and ATF, as well as the Oregon 
State Police. Not only could we not get close to the rubble, we could 
not even talk to any of the investigators. The Federal folks were quite 
focused and extremely professional in their investigation. The evidence 
gathered and the fine work by the Federal agencies eventually led to 
confirmation that ELF did, in fact, start the fire. As noted earlier, 
ELF, through their spokesman, Craig Rosebraugh, claimed responsibility 
for the fire, and their claim was independently confirmed by Federal 
investigators.
    When you think about losing your home to fire, what is the first 
thing you wish you could save, assuming all the family members and pets 
are out? In my house, my first concern would be the irreplaceable art 
work, family heirlooms, and of course, all the photos and slides of 
family and friends. Our offices are very much like our homes. Many of 
us spend as much time in our office as we do our home. We have 
collectibles, art and other individual items that reflect ourselves. 
The very personal nature of our offices being destroyed by a cowardly 
arson attack has as much of an emotional impact as losing one's home. 
That may sound too strong, but the point is we all lost personal items 
that were important to our professional lives that make us balanced and 
productive contributors to our society.
    In my case, I lost a whole file drawer of photographs and slides 
taken over a 25-year career. These pictures were a great treasure to me 
and I was able to salvage little of that precious drawer. I clearly 
remember welling up with tears, looking at the fused mass of pictures 
and shriveled slides, thinking that this history of my work life, much 
like a daily journal, is gone. I had intended to use these pictures to 
write my professional history when I retired. I just do not think about 
it any more because I get depressed. In addition, I was very proud of 
my contributions to various boards and organizations. The certificates 
recognizing those contributions were hanging on my wall, as I am sure 
they do in many of your offices. They were all incinerated into a pile 
of ash and rubble. I did manage to salvage one thing I treasured and 
brought it with me today to the hearing on Ecoterrorism and Lawlessness 
in National Forests. I hold a copy of the proceedings on hearings of 
the sale of timber from Federal lands held in the spring of 1979. I was 
able to testify at a similar Congressional hearing and was given a copy 
of those proceedings. It is a little worse for wear, but that was one 
little treasure I did get to keep.
    Other colleagues have similar stories, such as one who lost the 
only photo he has of his two very pregnant daughters posing tummy to 
tummy. Another person lost a one-of-a-kind map of the original railroad 
route that accessed the heart of our forest lands during the times when 
the only access was by railroad. One person lost the picture of his 
father dressed in his army uniform, and a diploma with the summa cum 
laude banner was damaged. Numerous family pictures and small mementos 
were lost. This was not just an attack on a corporate entity; it was an 
attack on all the individuals who called our office home for 40 to 60 
hours a week. Our personal possessions were destroyed. Our lives were 
severely disrupted.
    As far as the corporation was concerned, the attack did not alter 
our business strategy. We were up and running within a week, on the 
first operating day in January, with all new copies of contracts, an 
office, phones, and all the office equipment necessary to keep us in 
business. It did, however, change how we view security. We take our 
security much more seriously than we did before December 25, 1999. Our 
new office contains state-of-the-art security measures inside and out. 
We all have a heightened sense of awareness. We lost our sense of 
security and became more keenly aware of the risks we have on our 
lands, at our mills, and around our equipment. The timber industry is a 
proud and industrious segment of society. Even though the industry has 
been battered on many fronts, it is still relatively strong and viable 
with an incredible will to survive. A few terrorists will not stop our 
efforts to be good stewards of the land, or stop us from providing 
quality products the public demands. The domestic terrorists have only 
strengthened our resolve to remain a strong, viable part of the U.S. 
economy.
    To replace the office, we went through months of analysis, 
negotiations, and internal discussions before we settled on a structure 
that was very much the same floor layout as before, but very different 
in building design. Since ELF attacked our facility, security has 
become a huge factor in how we site, secure and manage our facilities. 
Existing streets, access, cooperation of local government, and current 
zoning of adjacent properties all played into our decision to relocate 
in the same spot as before. In the end, we were not going to allow 
terrorists to dictate where we conduct business.
    The company spent approximately $1.5 million dollars replacing the 
office and contents. A significant portion of that cost was expended on 
internal and external security. Boise Cascade has been a target once; 
we felt we could once again be in someone's cross hairs. As a result of 
the arson fire, the company chose to build using more materials such as 
concrete, steel, and aluminum, which are non-flammable and non-
renewable energy consuming. Ironically, when the effects of the air 
pollution from the fire are added to the use of energy consuming non-
renewable building products, the effects on the ecosystem are doubled. 
ELF impacted our lives, as well as our office building, and now we are 
more cautious. Life goes on and we are continuing to harvest, plant and 
nurture our forests for future generations. Our mills continue to make 
and distribute high quality forest products that we all use. After such 
an event, we look at life differently, but we must continue managing 
our forestlands. After all, they are not going anywhere.
    We also manage our timber sales differently, as this 1999 arson was 
not our company's first experience with lawless behavior by radical 
activists. For example, our company has experienced these negative 
effects on our operation in southern Oregon in the early 1990s with the 
Sugarloaf timber sale on the Siskiyou National Forest. During logging 
operations we hired extra security and our operations were delayed. We 
even had protesters force one of our contractor's log trucks to come to 
a halt so an accomplice could lock himself underneath the truck. Trees 
were spiked with metal spikes. We have seen the results of lawless 
activities in the National Forests firsthand. From our perspective, 
purchasing timber from the National Forests has increased Boise 
Cascade's risk of being targeted by organizations like ELF.
    In summary, ELF burned our office building. It was reported on 
December 31, 1999 by the Oregonian newspaper that Craig Rosebraugh 
received the ELF communique and that ``he was pleased with the arson.'' 
ELF is a terrorist organization willing to break laws that we all live 
and work by. Boise Cascade lost little time getting back to the 
business of growing, harvesting, planting, and nurturing the forests in 
our charge. It did not change the company's desire to meet our 
customer's wood, paper and office products needs in the market place.
    The terrorists did have an impact on how we view the world from a 
security perspective. And it also cost the company $1.5 million. The 
primary impact of burning our office was on the personal lives of our 
staff. However, it also placed my staff, the firefighters, and me in 
harm's way, and it is only a matter of time before someone is seriously 
injured or killed. We have biologists who frequented that office at all 
hours of the night, coming or going on their rounds to survey for 
Spotted Owls and Marbled Murrelets. Any one of those workers could have 
been present, and injured or killed by ELF's terrorist activities.
    Our personal and professional losses cannot be measured, so we are 
moving on. We only hope the cowards are caught and held accountable for 
the terror and destruction they have caused. Congress and others should 
recognize that these groups are terrorists and these group should be 
sought out and prosecuted to the full extent of the law.
    Thank you for the opportunity to comment on such an important and 
timely topic.
                                 ______
                                 
    [A chart attached to Mr. Hicks' statement follows:]
    [GRAPHIC] [TIFF OMITTED] T7615.003
    
    Mr. Hansen. Thank you, Mr. Hicks.
    Mr. Berman.

STATEMENT OF RICHARD BERMAN, EXECUTIVE DIRECTOR, THE CENTER FOR 
                        CONSUMER FREEDOM

    Mr. Berman. Thank you.
    I'm going to abbreviate the remarks that I've submitted to 
the Committee.
    It's not known that--it's known to many people that on 
September 11th, when we had the tragedies in New York and at 
the Pentagon, that a joint communique was issued by ALF and 
ELF, and I read from it.
    ``Activists working in the interest of both the Animal 
Liberation Frontline and the Earth Liberation Frontline torched 
a Tucson, Arizona McDonald's, causing more than $500,000 in 
damage.''
    This release, this press release, joint press release by 
ALF and ELF, as I say, was issued on the same day. Total 
insensitivity by these organizations, obviously not caring what 
the public reaction would be to a group announcing this kind of 
domestic terrorism when we had just suffered something hours 
before. I think it says something about who we're dealing with 
when we start to talk about these groups. The underground ELF 
and ALF like to brag publicly about their felonies. ALF, as it 
has been mentioned here before, released a report in January, 
claiming responsibility for 137 crimes in 2001, and causing an 
estimated $17.3 million in damage.
    It doesn't appear that ALF and ELF will stop with damage to 
people and businesses with whom they disagree. They are 
aggressively new criminals to their gang. Incredibly, the 
groups' leaders have begun to distribute ``how to'' manuals on 
the Internet, describing how to build bombs and incendiary 
devices, how to destroy fields of genetically engineered food 
crops, and how to commit arson, thievery, and other felonies 
without leaving clues at the crime scene. There is even a 
volume on the easiest ways to sink a ship.
    Any 10-year-old with a computer can download much of this 
reading material. For a few dollars and the cost of postage, 
ALF spokesperson, their current spokesperson, David Barbarash, 
will mail the rest of the materials to anyone who asks. I have 
submitted a copy of Mr. Barbarash's disturbing catalog for the 
record.
    Equally troubling is the extent to which some eco-
terrorists and animal rights criminals have managed to garner 
support both philosophical and financial from aboveground 
activist organizations, including those that enjoy the same tax 
benefits as our Nation's religious organizations and 
universities.
    Between 1994 and 1995, for instance, People for the Ethical 
Treatment of Animals, known as PETA, gave over $70,000 to an 
ALF criminal named Rodney Coronado, who was convicted of arson, 
a felony in connection with the $1.7 million firebombing of a 
Michigan State University research facility. This amount, by 
the way, is more than 10 times the total that the same 
organization, PETA, devoted to animal shelters during those 2 
years. In addition, both PETA and its president, Ingrid 
Newkirk, are acknowledged financial supports of an organization 
called ``No Compromise,'' which operates on behalf of and for 
the underground supporters of the Animal Liberation Front. I 
have just seen their tax returns for the fiscal year 2000. 
During that year PETA gave $1,500 to the North American Earth 
Liberation Front. They didn't even try to hide it. Now, 
considering that nobody claims to lead or direct the Earth 
Liberation Front, it's curious that PETA was able to cut them a 
check.
    I question--if you get a check and you can deposit it, you 
must have a bank account, and if you have a bank account, there 
must be someone who is an officer of the organization.
    I think PETA, as an example, should be one of those 
organizations that eventually loses its tax exempt status if it 
is able to participate in funding of organizations like this.
    Also during fiscal year 2000, PETA gave $5,000 to the Josh 
Harper Support Committee. This is again information that just 
came to me within the last 24 hours. Josh Harper is an ALF-
affiliated criminal who hosts an Internet video magazine full 
of ALF propaganda. He's been arrested a half dozen times and 
was convicted in 1998 for an assault on a police officer, and 
spent 45 days in jail for this assault.
    Another eco-criminal, Dave Foreman, pled guilty in 1991 to 
felony conspiracy in a plot to blow up the power lines of three 
nuclear power generating stations. Mr. Foreman was a co-founder 
of the radical Earth First organization, and this is the group 
from which the Earth Liberation Front split during a 1992 
meeting in England. Among its other claims to fame, Earth First 
actually published the newsletter articles in their journal 
from which the Unabomber, Ted Kaczinsky, chose his last two 
victims.
    Now, here is a current issue of ``Earth First.'' It's the 
current issue of ``Earth First.'' I'd like to read to you from 
a section that shows pictures of people that are called ``Most 
Wanted Eco-terrorists.'' Toward the bottom of the article, 
underneath the picture of many men and women, it says, ``The 
earth is not dying. It is being killed, and the people who are 
killing it have names and addresses.'' And that's what you have 
here, names and addresses of people from universities, 
industries, business in general.
    Now, just so that you don't think that's an anomalous, 
once-in-a-while, or I should say once-in-a-long-while 
occurrence, there's another group called SHAC. SHAC stands for 
Stop Huntingdon Animal Cruelty. SHAC is an organization that 
has terrified anyone connected with supporting Huntingdon Life 
Science, which is a British firm that does animal research to 
try and find cures for breast cancer, Alzheimer's, Parkinson's 
disease and other diseases which can only be found--cures can 
only be found through some animal testing, most of which is 
done on rodents.
    And what they have done, is they have gone after people who 
are investors in the organization. There is a gentleman by the 
name of Parker Quillen, who holds less than a 10 percent 
interest in the organization, Huntingdon Life Science. And 
reading from the website, the SHAC website, it suggests he 
drives a bright blue Audi coupe, license plate number, gives 
his license plate number. He's 6 feet, 180 pounds, in his 40's, 
has glasses and wears a cap. He has a blond wife, Joan, black 
and white dog named Barney. Usually he goes out of town on 
weekends and comes back on Sundays around 5:30 p.m. Then it 
gives his home address and his two home phone numbers.
    An organization called the Ruckus Society was started by 
another Earth First co-founder named Mike Roselle. This group 
was largely responsible for the 1999 anti-World Trade 
Organization protest in Seattle, which ended in mass rioting 
and the destruction of various businesses. The Ruckus Society 
trains young activists in the techniques of ``monkey-
wrenching,'' which when applied, result in property crimes of 
enormous financial cost.
    The Ruckus Society and the Rainforest Action Network, which 
is another outfit founded by--
    Mr. McInnis. [Presiding] Mr. Berman?
    Mr. Berman. Yes, sir?
    Mr. McInnis. We need to wrap up. I know that you had a--
    Mr. Berman. I am sorry, sir. I'll be done in 30 seconds.
    Just want you to know that these organizations have 
received contributions from the Ted Turner Foundation, the Ben 
& Jerry's Foundation. They have received money from the Tides 
Foundation, which in turn has been funded by the Ford 
Foundation.
    And as a close to my testimony, I know this is not the 
proper Committee of jurisdiction, but I would hope that 
somebody would take a look at the tax-exempt status of some of 
these organizations that are either directly or indirectly 
funding some of this domestic terrorism.
    [The prepared statement of Mr. Berman follows:]

Statement of Richard B. Berman, Executive Director, Center for Consumer 
                                Freedom

    Mr. Chairman, Members of the Subcommittee, my name is Richard 
Berman. I am the Executive Director of the Center for Consumer Freedom, 
a nonprofit organization based in Washington, DC. The Center does not 
accept and has never received government funds.
    On behalf of American restaurant operators and food producers, I 
would like to thank you for holding this hearing today. Eco-terrorism 
is indeed alive and well in the United States of America, and it shares 
a common heritage with violent animal-rights extremism. These radical 
movements have been responsible for well over 1,000 documented criminal 
acts in the U.S., most of which would be prosecuted as felonies if the 
perpetrators could be brought to justice.
    I am not talking about peaceful protest, pickets, sign waving, 
slogan chanting, or forms of civil disobedience that are protected by 
the First Amendment. Rather, America's present environmental and 
animal-rights terrorists have committed arsons, assaults, vandalism on 
a massive scale, and a host of other property crimes that cripple food 
producers and resource providers, and occasionally lay waste to entire 
restaurants.
    On September 11th of last year, on the very day America mourned the 
loss of thousands of lives to foreign terrorists, our own home-grown 
version (the Earth Liberation Front and the Animal Liberation Front, 
known as ``ELF'' and ``ALF'') took joint credit for firebombing a 
McDonald's restaurant in Tucson, Arizona.
    There is no doubt now, and the FBI concurs, that the Earth 
Liberation Front is associated with the Animal Liberation Front. 
Special Agent David Szady (now the U.S. counterintelligence executive) 
has told CNN that ``by any sense or any definition, this is a true 
domestic terrorism group, that uses criminal activity to further their 
political agenda.''
    During the past three years alone, ELF and ALF have claimed 
responsibility for smashing bank windows, torching a chicken feed 
truck, burning a horse corral at a Bureau of Land Management facility, 
firebombing dealer lots full of sport utility vehicles, destroying 
valuable scientific laboratory equipment and many years worth of 
irreplaceable research documents, ``spiking'' trees in the Pacific 
Northwest, and even setting bombs under meat delivery trucks.
    There should be no sympathy for intentionally committed felonies of 
this magnitude. Eco-terror and animal-rights crimes have become 
everyday events in America, yet they are among our most under-reported 
and least-punished offenses.
    Members of the Subcommittee, on rare occasions the criminals 
responsible for these violent and unlawful acts are captured. Just two 
weeks ago a pair of animal-rights terrorists were sentenced to prison 
terms for attempting to blow up a dairy truck near San Jose, 
California. They were caught red-handed, with home-made bombs just as 
deadly as those being exploded by other terrorists in the Middle East. 
But the vast majority of crimes like these go unpunished. The 
underground ELF and ALF even have the gall to brag publicly about their 
felonies. ALF actually released a report in January, claiming 
responsibility for 137 crimes in 2001, and causing an estimated $17.3 
million in damage.
    ALF and ELF won't stop with damage to people and businesses with 
whom they disagree. Rather, they are aggressively recruiting new 
criminals to their vicious gang. Incredibly, the group's leaders have 
begun to distribute ``how-to'' manuals on the Internet, describing how 
to build bombs and incendiary devices, how to destroy fields of 
genetically-engineered food crops, and how to commit ``arson,'' 
``thievery,'' and other felonies without leaving clues at the crime 
scene. There is even a volume on the easiest way to sink a ship.
    Any 10-year-old with a computer can download much of this reading 
material. For a few dollars and the cost of postage, ALF 
``spokesperson'' David Barbarash will mail the rest of the materials to 
anyone who asks. Mr. Chairman, I have submitted a copy of Mr. 
Barbarash's disturbing catalog for the record.
    Equally troubling is the extent to which some eco-terrorists and 
animal-rights criminals have managed to garner support, both 
philosophical and financial, from above-ground activist organizations, 
including those that enjoy the same tax benefits as our nation's 
churches and universities.
    Between 1994 and 1995, for instance, People for the Ethical 
Treatment of Animals gave over $70,000 to an Animal Liberation Front 
criminal named Rodney Coronado, who was convicted of arson, a felony, 
in connection with the $1.7 million firebombing of a Michigan State 
University research facility. This amount, by the way, is more than ten 
times the total that the same organization (PETA) devoted to animal 
shelters during those two years. In addition, both PETA and its 
president, Ingrid Newkirk, are acknowledged financial supporters of an 
organization called No Compromise, which operates on behalf of, and for 
the ``underground'' supporters of the Animal Liberation Front.
    PETA raised over $15 million last year from the general public, all 
of it tax-exempt. When will PETA be held accountable?
    Another eco-criminal, Dave Foreman, pled guilty in 1991 to felony 
conspiracy in a plot to blow up the power lines of three nuclear power 
generating stations. Mr. Foreman was a co-founder of the radical 
``Earth First!'' organization, the group from which the Earth 
Liberation Front split during a 1992 meeting in the United Kingdom. 
Among its other claims to fame, Earth First! actually published the 
newsletter articles (in the Earth First! Journal) from which 
``Unabomber'' Ted Kaczinsky chose his last two victims.
    An organization called the Ruckus Society was started by another 
Earth First! co-founder named Mike Roselle. This group was largely 
responsible for the 1999 anti WTO protests in Seattle, which ended in 
mass rioting and the destruction of Starbucks and McDonald's 
restaurants. The Ruckus Society trains young activists in the 
techniques of ``monkeywrenching'' which, when applied, result in 
property crimes of enormous financial cost.
    The Ruckus Society and the Rainforest Action Network (another 
outfit founded by Mr. Roselle) are tax-exempt organization that have 
enjoyed contributions from such mainstream sources as Ted Turner and 
Ben & Jerry's. When will this breeding ground for environmental 
criminals be held accountable?
    Ruckus, by the way, also gets funding from a San Francisco outfit 
called the Tides Foundation, which distributes other foundations' money 
while shielding the identity of the actual donors. Our tax law permits 
this sort of money-laundering. If the public is prevented from learning 
where a tax-exempt organization like the Ruckus Society gets their 
money, then the legal loopholes that permit foundations like Tides to 
operate as it does should be closed.
    Mr. Chairman, these are all serious charges that I am making, and I 
urge this Committee to fully investigate the damage that ALF, ELF, and 
other like-minded terrorist groups have caused to American businesses, 
American livelihoods, and the American psyche. I would also urge the 
appropriate Congressional committee to explore the tax-exempt status of 
groups that have helped to fund--directly or indirectly--these domestic 
terrorists.
    Thank you, Mr. Chairman, for holding this hearing.
                                 ______
                                 
            inventory of exhibits to mr. berman's testimony
    1. Joint ``communique'' from the Earth Liberation Front and the 
Animal Liberation Front, issued on September 11, 2001, taking 
responsibility for the fire-bombing of a McDonald's restaurant in 
Tucson, AZ: http://groups.google.com/
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d18051f1a19551b572b262c4127092e05040b060e19413e1f091905044c190f06075753041f050e074e585f53194e5b2a1a0f0409030644070b1e0244070319">[email&#160;protected]</a>souri. 
edu
    2. New York Post article from June 14, 2001 describing significant 
damage to a Bank of New York branch in Suffolk County, NY
    3. Earth Liberation Front ``communique'' taking responsibility for 
torching a U.S. Bureau of Land Management horse corral facility near 
Susanville, CA: http://www.earthliberationfront.com/news/2001/
011015c1.html
    4. AP story from July 21, 2001, linking ELF criminals to the arsons 
of a police station and a Chevrolet sport utility vehicle dealer. One 
suspect, Jeffrey Luers, was later convicted and sentenced to 22 years 
in prison for crimes including the SUV attack.
    5. ELF ``communique'' related to a tree-spiking crime in the Nez 
Perce National Forest (November 5, 2001): http://
www.earthliberationfront.com/news/2001/011105c1.html
    6. ALF press release related to the arson of a chicken feed truck 
owned by Rose Hill Farms in North Vernon, IN (July 4, 2000): http://
www.animalliberation.net/news/00/000704m1.html
    7. ALF press release related to the destruction of nearly $1 
million in property at an agricultural biotechnology laboratory on the 
campus of Michigan State University (December 31, 1999): http://
www.animalliberation.net/news/99/991231c1.html
    8. AP story detailing (August 13, 1991) how Earth First! co-founder 
Dave Foreman pled guilty to felony conspiracy in connection with a plot 
to blow up power lines serving three nuclear facilities. He was given a 
suspended sentence, and his felony conviction was replaced with a 
misdemeanor plea upon the completion of his probation.
    9. Article from the San Francisco Chronicle describing the 
sentencing of ALF terrorists Peter Schnell and Matthew Whyte for the 
attempted arson of trucks belonging to a dairy distributor (January 29, 
2002): http://www.sfgate.com/cgi -bin/article.cgi?file=/chronicle/
archive/2002/01/29/MN29394.DTL
    10. Scripps-Howard news story about an Earth Liberation Front 
attack on a warehouse used to store biotech cotton, published in the 
Sacramento Bee on March 5, 2001. The story describes, among other 
things, the 1992 spin-off of the Earth Liberation Front (ELF) from 
Earth First!
    11. Excerpt from the transcript of the ``guilty plea'' hearing of 
convicted ``Unabomber'' Theodore Kaczynski, held in Sacramento, 
California on January 22, 1998 (United States vs. Theodore Kaczynski). 
Kaczynski willingly agreed with the prosecution's assertion that he 
used an article published in the Earth First! Journal to choose at 
least one of the victims of his fatal mail bombs. http://www.cdfe.org/
guilty.htm
    12. Excerpt from an Internet web page titled ``About No 
Compromise,'' archived on May 15, 1999. No Compromise is an 
organization which publishes a journal on behalf of ``underground'' 
members of the Animal Liberation Front. Among the group's ``Steering 
Committee'' is at least one acknowledged ALF terrorist. Among the 
group's listed financial supporters are Ingrid Newkirk and her 
organization, People for the Ethical Treatment of Animals (PETA). 
http://web.archive.org/web/19990501135838/http://www.enviroweb.org/
nocompromise/about.html
    13. A page from the 1995 annual tax return (form 990) of People for 
the Ethical Treatment of Animals (PETA), showing a $45,200 payment for 
the ``support committee'' of Rodney Coronado, a felon. Mr. Coronado was 
convicted of arson in federal court for the 1992 firebombing of a 
Michigan State University research lab.
    14. Another page from PETA's 1995 annual tax return, showing a 
$25,000 ``loan'' to Rodney Coronado's father, Ray Coronado. In a 
telephone call on February 5, 2002, the elder Coronado acknowledged 
that the money was a gift, not a loan, and was used for his son's 
ultimately failed legal defense.
    15. Cover page for PETA's tax return (form 990) for the fiscal year 
ending July 31, 2000 (the most recent year available). It shows a one-
year income of over $15.8 million, all of it tax exempt. In that same 
year, PETA spent over $17 million, and still had $4 million left over 
in assets. This form is available on-line from the California Attorney 
General's Office ``charities search'' web site. http://167.10.5.131/
Ct0401--0500/0439/1MTSWW8.PDF
    16. Tax return pages from 1999 and 2000 showing $592,000 in 
payments from The Foundation to Support Animal Protection (FSAP) to the 
Physicians Committee for Responsible Medicine (PCRM). These were the 
only grants made by FSAP during those years. FSAP is housed at PETA's 
Norfolk, Virginia headquarters, and is co-chaired by PETA president 
Ingrid Newkirk and PCRM president Neal Barnard.
    17. Letter (2 pages) co-signed by PCRM president Neal Barnard and 
former ALF ``spokesperson'' Kevin Kjonaas. Mr. Kjonaas is presently the 
leader of ``Stop Huntingdon Animal Cruelty'' (SHAC), an animal-rights 
organization which has been responsible for arsons, physical assaults, 
millions of dollars in property damage, and over a hundred other 
criminal acts in the U.S. and the United Kingdom.
    18. One page from a ``Stop Huntingdon Animal Cruelty'' (SHAC) 
Internet web site, advocating the harassment of specific employees of 
Quilcap Corporation, because the company owns a 10% stake in Huntingdon 
Life Sciences (HLS). Information is given on the targets' physical 
description, spouses, family pets, unlisted phone numbers, and even 
license plate numbers. http://www.october29.org/shacusa/investor--
oct22.htm
    19. Descriptions from two SHAC web pages wherein ALF terrorists 
take credit for vandalism, breaking-and-entering, cradit-card fraud, 
and grand larceny. These crimes were perpetrated against Mr. Warren 
Stephens, whose investment company bailed out Huntingdon Life Sciences 
after its British investors had been so terrorized by SHAC that they 
pulled their financing of HLS. While ALF took credit for these crimes, 
SHAC publicized them, suggesting that the two are connected if not 
identical. Kevin Kjonaas leads SHAC. He was previously the 
``spokesperson'' for ALF. http://www.october29.org/shacusa/news--
jan3.htm: http://www.october29.org/shacusa/news--jan6.htm
    20. A copy of the ``Black Cat Distro'' catalog (in its entirety), 
created and circulated on the Internet by ALF ``spokesperson'' David 
Barbarash. Mr. Barbarash sells arson manuals, how-to guides on building 
incendiary devices, handbooks on destroying biotech food crops, and 
other publications that advocate illegal activity. Some of these 
materials are written by avowed ELF and ALF members; others were 
written by Earth First! members, including that group's founders. While 
Mr. Barbarash lives in Canada, he does accept orders from the United 
States. www.tao.ca/otter/Black--Cat--Distro--Catalogue.pdf
    21. Internet web site pages showing two $50,000 payments (1997 and 
1999) from the (Ted) Turner Foundation to the Ruckus Society. http://
www.turnerfoundation.org/turner/forest97-2.html: http://
www.turnerfoundation.org/turner/habitat99-2.html
    22. Internet web page showing a $100,000 payment from the Ben & 
Jerry's Foundation to the Ruckus Society, during the year 2001: http://
www.benjerry.com/foundation/funding.html
    23. Page from the 1999 annual tax return of the Tides Foundation, 
showing a $5,000 payout to the Ruckus Society. Because of the Tides' 
nature as a pass-through grantor, there is no legal way to determine 
where this money originated. Tides isn't legally obligated to tell. 
http://www.tidesfoundation.org/form--990.cfm
    24. A published profile of the Ruckus Society from 
www.ActivistCash.com, including quotes from its leaders about the 
nature and necessity of violence. Mr. Berman's organization publishes 
this web site. http://www.consumerfreedom.com/activistcash/org--
detail.cfm?ORG--ID=188
    25. Transcript of a Fox News Channel segment (February 12, 2001) 
dealing with the tactics of the Rainforest Action Network, an 
organization founded by Mike Roselle, a former Earth First!er who also 
co-founded the Ruckus Society: http://www.ranamuck.org/foxnews.htm
    26. ``Government's Sentencing Memorandum'' (in its entirety) from 
The United States of America vs. Rodney Coronado. Submitted July 31, 
1995 by United States Attorney Michael H. Dettmer. The Hon. Richard A. 
Enslen presided. http://www.cdfe.org/Sentencing--Memo.pdf
    27. ``Setting Fires With Electrical Timers: An Earth Liberation 
Front Guide'' (in its entirety), a how-to manual on building and 
detonating incendiary devices. This document is available on the 
Internet and can be printed by any 10-year-old with a computer. http://
www.earthliberationfront.com/library/elf--manual300.pdf
    28. End-of-year report (in its entirety) released by ALF 
``spokesperson'' David Barbarash on January 12, 2002. The report smugly 
detailing 137 crimes committed by both ELF and ALF terrorists, which 
resulted in an estimated $17.3 million in damages. Note: this is ALF's 
estimate. Actual property damage totals are likely several times 
higher. http://www.animalliberation.net/library/2001DirectActions.pdf
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7615.004
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7615.005
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7615.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7615.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7615.008
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7615.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7615.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7615.011
                                 
    Mr. McInnis. Thank you, Mr. Berman.
    We will being with the questions. I will start with 
questioning. Mr. Jarboe, can you give me an idea--first of all, 
what is the statute of limitations on the fire in Vail, and are 
we making progress on resolution?
    Mr. Jarboe. Yes, sir. The fire in Vail is still under 
investigation, as all of these other incidents that have been 
discussed here today. We'll pursue those until we get subjects 
in custody.
    Mr. McInnis. And the priority within the FBI, are they 
devoting the resources that are necessary to get ahead of this 
thing?
    Mr. Jarboe. Yes, sir. The No. 1 priority in the Domestic 
Terrorism Program, which I run, is ALF/ELF. Actually, the only 
thing that has slowed us down and put us behind schedule is the 
unfortunate attack on September 11th, and then the anthrax 
issue in October that affected Congress so badly. That has put 
us behind because all of our resources have been put into those 
investigations. We're now getting those resources back 
regrouping, and we intend again to have ALF/ELF at the top of 
our list of terrorist groups that we're going after.
    Mr. McInnis. Mr. Wharton, are you aware of the status of 
the fire investigation; are you satisfied?
    Mr. Wharton. We have been in regular contact with local FBI 
officers, who have assured us that it is a priority and that it 
is very much an open investigation.
    Mr. McInnis. And what was the amount of damages, because 
see, I hear from 12 to 25 million. Can you give me a--
    Mr. Wharton. The lost assets were 12 million. The higher 
figures include loss of business from other local businesses, 
their estimations, but the actual loss of assets was $12 
million.
    Mr. McInnis. Now, I think it was important, as you just 
mentioned, Mr. Wharton, that a number of people, the little 
tee-shirt shop downtown, people like that, that suffered as a 
result of this shortsighted action.
    Mr. Wharton. And those people by and large, at least from 
the anecdotal information I've received, weren't covered by 
loss-of-business insurance, et cetera, because it's just so 
hard to quantify.
    Mr. McInnis. Mr. Hicks, very briefly, have you ever had any 
employee injured as a result of say a steel rod put into a tree 
or some other type act of environmental terrorism?
    Mr. Hicks. Not that I'm aware of.
    Mr. McInnis. And, Mr. Berman, you obviously have spent a 
lot of time on researching these different affiliates. 
Summarize again for very briefly, the Animal Liberation Front 
is tied in with the Earth Liberation Front, is tied in with 
PETA, that is tied in. Can you go ahead and walk me through 
that? Are they in fact--they all have fingers into each other? 
Do they have corresponding boards?
    Mr. Berman. There are people who serve on the same boards. 
There is funding that goes back and forth. Some of the groups 
have been spun off to create a different persona.
    I think one of the classics is that PETA created the 
Physicians Committee for Responsible Medicine. The Physicians 
Committee for Responsible Medicine is funded by a foundation 
that is--that only has PETA money. And the two people who 
decide where the money goes is the president of the Physicians 
Committee for Responsible Medicine and the president of PETA. 
And when you ask the Physicians Committee for Responsible 
Medicine are they connected to PETA, they say, ``Oh, no, we 
have no connection at all.'' Except that's where they get the 
money.
    Now, the Physicians Committee for Responsible Medicine has 
in turn co-signed a letter with the fellow Kevin--Kevin 
Kjonaas, who used to be the spokesperson for ALF. He is now the 
spokesperson for SHAC, which is the group that is going after 
any investor of Huntingdon Life Science.
    So you can trace it from PETA--and I know this is somewhat 
confusing if you don't see it on paper--you can trace it from 
PETA to their foundation, to the Physicians Committee on 
Responsible Medicine, to SHAC, which is the group that is going 
after people who work for companies, and displaying their 
information and family information on the Internet and 
suggesting that people ought to do something with it. That is 
pretty seedy at best.
    Mr. McInnis. And, Mr. Berman, two things. One, this 
physicians group you talk about, is that endorsed by the 
American Medical?
    Mr. Berman. The American Medical Association has trashed 
their reputation. In fact, by their own admission, they have 
less than 5 percent of their membership as physicians. I would 
tell you that the Physicians Committee of Responsible Medicine 
is neither.
    Mr. McInnis. And, Mr. Berman, would you provide for the 
Committee kind of a stick chart of the answer that you have 
just give to me, so that we can have it laid out in front of us 
what your investigation has revealed?
    Mr. Berman. I will be happy to do that.
    Mr. McInnis. Thank you.
    Mr. Inslee?
    Mr. Inslee. Thank you.
    Mr. Jarboe, I want to ask about some of the other victims 
of violence that we talked about. For instance, the group that 
was in the Forest Service office that was bombed in Carson 
City. You are familiar with that incident, I assume?
    Mr. Jarboe. Yes.
    Mr. Inslee. In 1997 the Justice Department reported to 
Congress that they recommended, quote, ``Continued vigorous 
investigation of these crimes, adequate protection for Federal 
officials who have been threatened, and vigorous prosecution of 
individuals who resort to violence in the name of some higher 
cause,'' close quote.
    How has the FBI responded to that recommendation?
    Mr. Jarboe. That instance and those issues are handled by 
our Criminal Division which comes outside the domestic 
terrorism issue. It's assault of a Federal officer. I can--I'll 
be happy to supply a written response and the figures that 
you're interested in, but since I don't work in that arena, I'd 
hesitate to give you specific figures and specific actions that 
that other division is taking at this time.
    Mr. Inslee. I would appreciate that. If you can do that, I 
would be appreciative. Has the FBI ever arrested anyone for 
criminal activity directed at Federal land managers or their 
offices?
    Mr. Jarboe. And again, outside the terrorism issue, that's 
handled by the Criminal Division. I'm going to have to defer to 
them, and I will get those answers for you.
    Mr. Inslee. As far as how we define terrorism, let's say 
somebody was angry at the Forest Service for enforcing the 
Endangered Species Act. Let's say that it reduced timber 
harvest on their land, and that they were angry about that, 
they thought that was wrong. And they got together with a group 
of people who thought it was wrong to enforce the Endangered 
Species Act. And they caused--and they put a bomb in a Forest 
Service office and blew it up like happened in Carson City. 
Would that be considered terrorism as the way the FBI looks at 
it?
    Mr. Jarboe. What you have to look at is the motivation 
behind the criminal act itself. If the motivation was to induce 
over--a long-term change in the Government or political 
entities, or social environment with a political agenda at the 
heart of the motivation, then it would become--come under the 
terrorist umbrella. If it's just a one-time act, irritation at 
an individual, or a specific one instance without looking at 
the long-term social change, then it would not.
    Mr. Inslee. Do you think that the Federal Government's 
response from a law enforcement standpoint ought to be the same 
in that situation as what occurred in the Vail arson situation; 
should there be the same vigor of investigation, for instance?
    Mr. Jarboe. I do, absolutely. And regardless of whether it 
falls under the Criminal Division or the Terrorism Division, 
generally, the agents, especially in the smaller areas, they're 
covered by the RAs, it's the same investigator working under 
the same rules with the same enthusiasm and the same push from 
management to go out, find the perpetrators, get the legal 
evidence you need to go to a court of law and get them 
convicted.
    Mr. Inslee. Mr. Wharton, if I can ask you, you and your 
group have been the victim of a criminal act. Would you suggest 
to us that we treat other victims of other criminal acts, even 
if they're Government employees, who sort of are attacked by 
the other end of the ideological spectrum, should we treat 
those with equal respect, sanctity in an investigation?
    Mr. Wharton. Yes, sir, I would say so.
    Mr. Inslee. We appreciate your comment in that regard, and 
we will try to do that.
    Mr. Berman, I wanted to ask you some questions about some 
folks that you've pointed a rather stark, accusatory finger at. 
I want to ask you about those questions. And the reason is, is 
that I think we've learned a couple things in our history. One, 
that we need to be very vigorous in our investigation of 
terrorism, and two, we need to be fairly cautious and careful 
on who we convict without adequate evidence, if you will. And 
you've pointed your finger at quite a number of groups: Ben & 
Jerry's Ice Cream, the Ford Foundation, and the People for 
Ethical Treatment of Animals. And I guess, are you asserting 
that the Ben & Jerry's folks have been involved in any criminal 
conduct?
    Mr. Berman. I'm suggesting, sir, that they've directed 
money to organizations like the Ruckus Society, which train 
people in police confrontation tactics, and the Ruckus Society 
exists to train people at ELF in monkey-wrenching, and there's 
evidence of their operating together, and the police have 
indicated that the Ruckus Society was basically the group that 
was responsible for the violent protests in Seattle and here in 
Washington some months ago connected with trade organization 
meetings.
    Mr. Inslee. So I guess the answer to my question would be 
no, you are not asserting that then; is that correct?
    Mr. Berman. The answer is, is that they are giving money to 
organizations that participate in those activities. I don't 
think that they are giving money with the express purpose of 
funding those activities, but they are giving money for 
purposes of sustaining the organization, which may or may not 
have a direct--direct use when it comes to training people.
    Mr. Inslee. Well, Mr. Berman, have you filed any criminal 
complaint with any law enforcement agency against the folks 
associated with Ben & Jerry's Ice Cream, the Ford Foundation or 
the People for the Ethical Treatment of Animals?
    Mr. Berman. No, sir, that's not my role.
    Mr. Inslee. Well, that is kind of curious to me because you 
have come forward to this Committee, and you are pointing these 
accusatory fingers at groups that you are ideologically 
against. You are selling lobbies for the tobacco industry and 
the restaurant industry, and against Mothers Against Drunk 
Driving, because you are against reducing the blood alcohol 
system. And it bothers me that you come forward and point these 
fingers in this Committee at groups you are opposed to 
without--you are telling me you have never filed a charge 
against these folks criminally. If you want to point this 
finger, why haven't you filed some charge criminally against 
these groups?
    Mr. McInnis. Mr. Inslee, I believe that the witness has 
appropriately answered the question. You asked him the question 
if he felt there was criminal intent of Ben & Jerry's for 
example. He said no. He said they had given funding to those, 
so obviously he is not going to file a criminal complaint. All 
we are doing now is getting to the point where, Mr. Inslee, 
with all due respect, it appears to me to be a little 
intimidation of the witness, and--
    Mr. Inslee. Well, I appreciate the Chair's editorial 
comment, but the question stands, and I would like the witness 
to answer it. If you can answer my question?
    Mr. McInnis. What was the question, Mr. Inslee?
    Mr. Berman. I would be happy to answer. I think I know the 
question, and I thank the Chair for interceding.
    I make no apologies about various clients that I have, but 
more importantly, Mr. Inslee, I am not the agency that should 
bring a criminal complaint against anyone. I did not allege 
that the Ford Foundation was connected with any terrorist 
activity. I said that the Ford Foundation had given money to 
another foundation, which is the Tides Foundation. If I failed 
to say that, let me interject that. They gave money to the 
Tides Foundation, who in turn gives money to the Ruckus 
Society.
    Ben & Jerry's gave money directly to Ruckus, but I don't 
know that Ben & Jerry's--well, in fact, being that you--being 
that you're inquiring this directly, perhaps I can tell you, at 
least in one case, what the money was supposed to be used for, 
and then you can--you can determine for yourself whether or not 
this was a proper expenditure of funds.
    I hope you'll just allow me just 1 minute while I flip 
through some tax returns here. Well, here we are. This is the 
Turner Foundation, 1999, ``$50,000 to the Ruckus Society for 
support of direct action training camps designed to train grass 
roots advocates in the development of integrated strategic 
campaigns.''
    Well, that's a lot of weasel words, but at the end of the 
day the Ruckus Society challenges people--excuse me--trains 
people to challenge police, and the police will tell you that 
that is what the Ruckus Society is all about. In fact, I think 
they appropriately named themselves Ruckus.
    I am not suggesting to you that Ted Turner or the people 
that sit on the Turner Foundation are anarchists. But I am 
telling you that the people who get this money use it for 
activities that you would not approve of, or I trust you 
wouldn't approve of.
    Mr. Inslee. Mr. Berman, I want to read a quote that has 
been attributed to you, and if it is inaccurate, I hope you 
will tell me. I read an interview with you in a magazine called 
``The Chain Leader.'' It is a restaurant trade publication. And 
it said, referring to the pro-vegetarian--by the way, of which 
I am not, I eat meat, wanted to let you know that--and you 
allegedly said, quote, ``Our offensive strategy is to shoot the 
messenger. We've got to attack their credibility as 
spokespersons,'' close quote.
    Now, I want to tell you, I had some concerns to make sure 
that this hearing focused on the folks who are really 
responsible for violence, and it didn't turn into a situation 
where people just sort of threw barbs at their political 
enemies. First off, was that your quote? And if so, two, in 
fact, is that your offensive strategy, to attack the 
credibility of your political enemies?
    Mr. Berman. Well, it is a strategy to--to reposition people 
who have a pristine image which is undeserved. And so if in 
fact people have been guilty of crimes against society, I think 
it's fair to let the general public know about those crimes, 
and not let them go unreported. If that's shooting the 
messenger, then I'm guilty of it.
    Mr. Inslee. Thank you, Mr. Berman. I think that was a very 
candid answer.
    Mr. Berman. Thank you, sir.
    Mr. McInnis. Mr. Peterson.
    Mr. Peterson. Thank you. I would like to thank all the 
panelists for their good testimony.
    Mr. Jarboe, in your testimony you mentioned a few 
organizations specifically. About how many eco-terrorism groups 
does the FBI believe now operate in the United States, and 
which are the most dangerous?
    Mr. Jarboe. The most dangerous right now are the ALF/ELF. 
They're the most active. They cause most of the destruction 
that has been mentioned. SHAC is out there. Justice Department 
is out there. And if you want to go into all of the domestic 
terrorism groups, we'll get outside the eco-terrorism into the 
National Alliance, the Aryan Nations. There are a long litany. 
I can supply you with a whole long list of domestic terrorism 
groups, but right now as far as activity, destruction and 
danger to the public at large, I would put ALF/ELF at the top.
    Specifically, the white supremacists, the Aryan Nations, 
and then those affiliates are on point individually, and with 
individual action more dangerous because they purposely go out 
to harm individuals or kill them. ALF/ELF says they don't do 
that, but if you take the totality of it, a one-time event 
versus the whole structure, then ALF/ELF by and large is the 
most active, most prolific group we're now looking at.
    Mr. Peterson. Can you describe the profile of a typical ELF 
member?
    Mr. Jarboe. I don't know if there is any typical profile.
    Mr. Peterson. What sort of education, background, age range 
and so on?
    Mr. Jarboe. You have young. You have old. You have well 
educated. You have poorly educated. You have idealists who 
have--disenfranchised with society. It runs the gamut. If you 
want to call a typical member, they would be a young person or 
the young idealist. Mr. Rosebraugh is probably as typical as 
you're going to get.
    Mr. Peterson. With the current activity that you said is 
increasing, do you think it's possible eventually that result 
in loss of life could happen from their actions?
    Mr. Jarboe. Absolutely. If they continue with the road that 
they're going down, I'm sure there will be. Testimony was made 
earlier by the Congresswoman about a fireman who just barely 
made it out of a fire alive. And we've had witnesses, firemen, 
who have testified similarly. They were beams, and that they 
tested those beams after the fire was extinguished. If they had 
been up there another minute or two, they would have fallen to 
the floor and right in the middle of the fire. If they 
continue, someone's going to get hurt or killed.
    Mr. Peterson. Well, thank you. I really appreciate your 
testimony, and I hope you will keep this Committee informed of 
what we need to know in the future.
    Mr. Jarboe. Yes, sir.
    Mr. Peterson. Mr. Wharton, you talked about the $12 million 
to the facility. But what do you think was the estimated damage 
to the community and the loss of business and the loss of 
tourism? Anybody estimated the overall--
    Mr. Wharton. There have been estimates, Congressman, and 
they have ranged in the area of $25 million and above, but as I 
said earlier, it's a very difficult figure to try and 
calculate. I would say though on just the--the emotional and 
psychological damage, it's been severe. It was something that 
shook individuals, the entire community to their core. And that 
hasn't healed.
    Mr. Peterson. How long before you were back in business?
    Mr. Wharton. We actually opened the mountain on time. We 
replaced temporarily Two Elk with a temporary structure for 
that ski season. The lifts were up and operating, so we opened 
the operation on time just through a herculean effort on the 
part of our company and our community.
    Mr. Peterson. Again, thank you for coming here today and 
sharing your horrible experience with us.
    Mr. Berman, I want to congratulate you. You were just kind 
of chastised for what you are doing, but I want to congratulate 
you for telling it like it is. I mean when we give money to 
organizations, if they become less than appropriate, then we 
should be apologizing and removing our resources. But when 
organizations and national leaders give money routinely, and 
prestigious foundations give money routinely to organizations 
who get on the criminal side, I think the world needs to know 
that. It will influence behavior.
    We all know that a lot of our very liberal foundations give 
to organizations that the forefathers who raised those fortunes 
would be absolutely rolling over in their graves for. We see it 
all the time.
    What if anything did the Animal Liberation Front have to do 
with the violent October 29th protest in Little Rock, Arkansas, 
and are ELF and SHAC made up of the same group of lawbreakers?
    Mr. Berman. Well, I mentioned earlier about the listing of 
Parker Quillen's address and the information about his family 
on the Internet. Another investor in Huntingdon Life Science 
was Warren Stephens, who is an investment banker, and who 
basically bailed out Huntingdon Life Science because it was 
about to go under. The SHAC organization targeted Warren 
Stephens, targeted his home in New York, bragged on the 
Internet about trashing his home in New York, because he was an 
investor in the company.
    They went after employees of Huntingdon Life Science in 
Little Rock where the Stephens' operation is located. SHAC 
again has as its apparent leader, Kevin Kjonaas, who spells his 
name different ways, and Kevin Kjonaas was the spokesperson for 
ALF prior to him moving over to SHAC. It's difficult for me to 
tell you what their real formal connection is other than the 
fact that it goes back to one of the earlier comments, that 
there is this trading of personnel, there's this trading of 
money. There are people who sit on joint boards. And at the end 
of the exercise, it's all about the same effort.
    I believe that the U.S. Attorney's Office is involved, 
heavily involved, because of the Little Rock demonstration 
against Stephens and their employees.
    Mr. Peterson. I certainly hope so. I wish I had more time, 
but I will wait for another round.
    Mr. McInnis. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Jarboe, can you estimate how many other--how many 
universities and colleges have been victimized by arson and 
vandalism?
    Mr. Jarboe. I can't give you a specific today, but it's 
numerous across the country. It's not located--or just isolated 
in one location. Universities typically do research. They are a 
prime target, not only the animal research, but then--now we're 
looking at genetic engineering, and genetic engineering is 
becoming a field that's more popular now than it was years ago, 
and now the ELF folks are starting to target that. I can get 
you a specific number if you would wish.
    Mr. Simpson. I would appreciate that.
    Mr. Hicks, has your company experienced acts involving 
property destruction other than the Monmouth fire that you 
talked about?
    Mr. Hicks. Yes, we have, Congressman. We had a timber sale 
in Southern Oregon called the Sugarloaf Timber Sale. Over 100 
spikes were found from tree spiking.
    Mr. Simpson. Let me ask you a question. What happens when a 
chain saw hits a tree spike?
    Mr. Hicks. Well, it breaks the chain first thing. But I've 
never actually had it happen. I've hit a fence or two with a 
chain saw, and it hangs things up. I think the greater danger 
is in the sawmills and the veneer plants. All of our logs go to 
veneer plants that are in our area, and they have both sawmills 
and veneer plants in Southern Oregon. So they did find some of 
the spikes when they hit the lathe, and most of which they knew 
they were looking for spikes. And they had metal detectors out 
in the yard when they were scaling the logs to determine if 
they were there. So they found most of them, but they did hit 
some--some did hit the lathe, and they damage a lathe knife.
    Mr. Simpson. Has the company experienced unlawful 
activities that may not rise to the level of these terrorist 
type activities that we are talking about?
    Mr. Hicks. Yes. Certainly the kind of activities that I was 
mentioning with the Sugarloaf sale. We also had RAN, Rainforest 
Action Network, breach our security at our Boise Corporate 
office, got up on the roof. I'm not exactly sure what their 
intent was. Our office is a small field office and it's not a 
corporate office. So I don't know exactly what their intent 
was, but I know they caught them up on the roof.
    We had situations where we were trying to access our own 
fee ground, and the groups--I don't know if they claimed 
anything; they did have stickers around with a RAN note on 
the--or ``RAN'' stenciled on the sticker, where they had pulled 
up some culvert pipe on BLM ground and ruined the culvert. And 
then they also--presumably it was the same bunch--dug a ditch 
across the road while it was raining, and caused some erosional 
damage to a fill slope. They put up tripods, these three-legged 
things, so that when you take it down, it's dangerous for the 
guy up there, so presumably you won't take it down. They put 
these up to delay our operations. They've had rocks, obstacles, 
old car bodies they put in the road to delay operations. 
They've stopped a log truck so an accomplice could climb under 
the truck and chain himself to the truck. So it's mostly delay 
tactics and that sort of thing.
    Mr. Simpson. And RAN is the Rainforest Action Network?
    Mr. Hicks. That's correct.
    Mr. Simpson. Do you consider them an organization like ELF 
and ALF?
    Mr. Hicks. I don't know that they've risen to the level of 
terrorism. I know that they've done unlawful type of acts in 
terms of breaching our security and trying to disrupt our 
operations. I would defer to the FBI here as to whether they're 
terrorism or just unlawful or not. That's not my area.
    Mr. Simpson. Mr. Jarboe?
    Mr. Jarboe. There's a fine line between lawful activity and 
unlawful. I'm not looking at the Rainforest folks right now as 
a terrorist group. What I do have in my section is a member of 
our Office of General Counsel, an attorney, and he's extremely 
critical because we're looking at a very fine line between 
First Amendment rights and unlawful activity. Anything that we 
do, any case we open, any investigation we start, it has to be 
run through our counsel to make sure it meets all the 
parameters to be an investigation. Again, we want to lean far 
to the conservative side, and not step over or even get too 
close to the line where we're going to step on somebody's civil 
liberties and civil rights.
    Mr. Simpson. And I appreciate that, because I agree with 
that. I think people ought to have the right to protest things. 
They ought to have the right to protest forest sales and other 
types of things. That is their First Amendment rights to do so. 
But when they engage in illegal activities of trying to stop 
it, that is where they cross the line.
    What bothers me, I guess, is just a general statement. I 
don't know if anybody can answer or not, is that we get this 
North American Animal Liberation Front press office 2001 Year-
End Direct Action Report, which reports all the activities that 
they have engaged in and taken credit for. Marshall Farms, 30 
beagles and 10 ferrets rescued, claimed by ALF. It goes on and 
on, including fires and burnings and all that kind of stuff. 
How this stuff can get out on the Internet, and be put out on 
the Internet, where an organization is taking credit for 
something like this, and it doesn't seem like we can do 
anything about it. I guess it kind of surprises me that we can 
get terrorist camps in other places but we have trouble getting 
them here in the United States. And that is really not a 
question because we are out of time.
    Mr. McInnis. Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman. Mr. Chairman, before I 
begin, I had a opening statement prepared, and I would like 
that, as well as a letter that I received from the Federated 
Women in Timber of Summerville, Oregon. I would ask unanimous 
consent that that be included in the record.
    Mr. McInnis. Without objection, so ordered.
    [The prepared statement of Mr. Otter follows:]

 Statement of Hon. C.L. ``Butch'' Otter, a Representative in Congress 
                        from the State of Idaho

    Thank you, Mr. Chairman, for holding this hearing today. This is a 
timely hearing on an issue that for far too long has been over looked. 
It is deeply troubling that as our nation battles the evils of 
terrorism abroad, we also face serious threats at home from so called 
eco-terrorists. These troubled individuals chose the despicable tools 
of violence and terrorism in the name of environmentalism.
    I know first-hand the kind of destruction these terrorists 
perpetrate. Twice during the last year, the Biotechnology Laboratory at 
the University of Idaho in my district was attacked. On March 5th the 
University of Idaho biotech building was attacked by ELF who spray-
painted painted the elevators, walls and windows. Again on June 10th 
the ELF - Night Action Kids cell claimed responsibility for painting 
the outside of the building with a message: ``Go Organic.'' All told 
these events caused over $20,000 damage to the University of Idaho 
Biotech Building.
    In 1992 my district was also under attack from Earth First. 
Activists arrived in mid-July to protest road building in the Cove and 
Mallard areas. Fearing damage to road building equipment or tree 
spiking, the Forest Service responded by marshaling a force of federal 
law officers. The Nez Perce Forest Service spent more than $260,000 to 
protect the public and the resources from this group.
    I know of individuals and institutions who have been victims of ELF 
actions and are reluctant to step forward today and discuss what 
happened to them for fear of repercussions. This is just not right. No 
one should have to live in fear of attacks for doing an honest days 
work. I appreciate those who have come forward today to testify and 
help build a record for the committee.
    Because of these attacks and concerns, I joined Congressman 
Nethercutt as a co-sponsor of H.R. 2795 the Agroterrorism Prevention 
Act of 2001. 1 look forward to working with the committee as it 
considers all of the eco-terrorism prevention legislation. It is my 
hope we can pass meaningful reform that will deter these harmful 
actions.
    Eco-terrorists not only cause millions of dollars in damage to 
public and private resources, they injure innocent people in the 
process and pose a serious threat to innovation and scientific 
discovery. We must not allow this threat to society and to science to 
go unpunished.
    I would like to submit comments from the Federated Women in Timber 
for the record.
    Thank you, Mr. Chairman.
                                 ______
                                 
    [A letter from the Federated Women in Timber of 
Summerville, Oregon submitted for the record follows:]
                       FEDERATED WOMEN IN TIMBER
             68069 Hunter Rd <bullet> Summerville, OR 97876
                              503-534-5345

House of Representatives
Committee on Natural Resources
U.S. Capitol
Washington, D.C.

February 6, 2002

Dear Mr. Chairman;

    The federal government has a responsibility to protect rural 
America with the same intensity that it finds itself preparing for in 
urban areas. The increasing number of senseless, targeted attacks on 
federal land .holdings, timber companies, public and private buildings, 
recreational areas as well as American citizens by self proclaimed eco-
terrorists need to receive the scrutiny and vigorous prosecution that 
the victims of these senseless acts have long requested. .
    The heightened awareness and required national security measures 
following the terrorists attacks of September 2001, have extreme 
significance to the communities who have, for two decades, suffered at 
the hands of home grown domestic terrorists. Over the last few years 
there have been. an increasing number of violent, destructive acts 
targeting recreational facilities, natural resource providers and 
medical research facilities. A few examples: a half million dollar fire 
at a Medford, Oregon timber company, a $12 million dollar fire at a ski 
resort in Vail, Colorado, $100,000 worth of fence damage in Wyoming, 
equipment and buildings destroyed at a vaccine lab in Wisconsin, damage 
to the Mexican consulate in Boston, arson fires In Indiana and 
Michigan, construction site damage in New York and thousands of life 
threatening tree spikes throughout our national forests. These and 
other atrocities total over $42 million dollars of damage alone in just 
the 11 contiguous western states since 1980.
    Local govemments are voicing concerns about the particular 
vulnerability of communities in rural, heavily forested and recreation 
areas. These communities have concems regarding the health of our 
national forests and the potential for devastating human caused forest 
fires. The conditions of federally owned land, particularty in the west 
are a disaster waiting to happen. The deterioration of these public 
lands are due to an excessive accumulation of fuel loads during 
prolonged periods of ``hands-off' forest management practices. These 
fires threaten the safety of residents, the protection of private 
property, air quality arc the water supplies of rural watersheds.
    Extreme voices in the environmental movement have been slow and 
often resistant to denounce these vicious attacks, and by this 
conspicuous hesitation, have colored their own efforts and illuminated 
some underlying core values. Rural Americans have been aware for two 
decades of environmental efforts to stop, at any cost, activity on 
public or private property. These efforts have created an extremely 
volatile situation. A focused group of special-interest citizens have 
waged a rural cleansing war on America and its food and fiber 
producers. This practice has repeatedly been enabled with the blessings 
of an intentionally mis-informed public and a sometimes willing, 
sometimes unsuspecting federal government Environmental groups have 
fanned a flame of destruction toward America's rural residents and the 
nation's breadbasket. That devastation is currently being perpetrated 
by environmental zealots, armed with an almost religious conviction 
and, unfortunately, very few actual facts.
    Terrorism is terrorism. It is defined as ``the use of violence and 
intimidation, especially for political purposes''. By any other name 
that is environmental extremism. Prior to 9-II, there appeared to be 
some degree of tolerance and accommodation for these acts, despite the 
fact that they undermine orderly disposition of public issues and 
disrupt community safety. Left unchecked, as they have been, the nature 
and intensity of these violent acts have escalated. President Bush has 
asked other countries to eliminate the terrorists within their borders 
and has even offered our help achieve that end. It is America's duty to 
clean its own backyard of terrorists as well. There is no distinction 
between whether these criminal, malicious attacks are perpetrated on 
Americans by foreign nationals or natural born citizens of this 
country. If these acts of terror are taught, sanctioned or enabled by 
others, those who enable, in cum, are just as guilty of acts of terror 
against Americans as those who would perform these lawless acts.
    Thank you for this opportunity to address this important issue. We 
appreciate all you and your fellow congressmen do on our behalf.


Sincerely,

Colleen MacLeod
Federated Women in Timber
                                 ______
                                 
    Mr. Otter. Thank you very much.
    Gentlemen, first let me thank you all very much for being 
here, especially those of you folks--and I am especially glad 
you are here from the FBI, sir--but especially you folks that 
represent private industry, because I know that industry and 
institutions, relative to this very hearing, in my district 
were threatened with reprisal if they came before this 
Committee and testified. And so I take my hat off to you, Mr. 
Wharton, to you, Mr. Hicks, and to you, Mr. Berman, for being 
here, because you are speaking for a lot of people that simply 
either they are CEOs or the presidents of the universities or 
whoever it was, asked that their testimony not be offered in 
front of this Committee. And you are speaking for some very 
courageous people, and I appreciate that.
    Mr. Hicks, let me ask you, has the fire which you 
experienced in Oregon resulted from a change in the Forest 
Practices Act and your buying from the Forest Service?
    Mr. Hicks. Well, it certainly changed the way we look at 
pursuing Federal timber sales or any sales as far as that goes. 
We're a lot more cautious about how we pursue sales, and when I 
instruct the crew that's going out and look at these sales, if 
it's a particularly controversial sale, we may not--we may not 
pursue it as hard. We'll maybe discount for delays and extra 
security costs, and any kind of extra cost that we might assume 
that are going to be involved in that completion of that sale. 
But we have not stopped looking at sales. We've just looked at 
them a lot more cautiously.
    Mr. Otter. Speaking of security, how has that changed; how 
has this terrorist attack against your corporation changed your 
regard for safety and the way you feel about it?
    Mr. Hicks. Well, after listening today, I'm a little more 
concerned about my own safety, after listening to some of the 
comments. But we've increased our security around our 
facilities. Our new office has complete video coverage inside 
and out. We've got, in some cases where there wasn't all-night 
guards, there are now. Fencing and such things like that are up 
in some areas where they weren't, or they're contemplated. It's 
just a whole new ballgame in terms of how we view security.
    When we're out in the woods, if we view traffic out there, 
we try to get people to mark down license plates and understand 
who's out and about. So it's just a raised consciousness of 
everybody within our organization.
    Mr. Otter. Mr. Wharton, when you rebuilt--you did rebuild, 
right?
    Mr. Wharton. Yes.
    Mr. Otter. When you rebuilt, what kind of materials did you 
rebuild the lodge that was burned down by terrorists?
    Mr. Wharton. Well, that was part of the irony, Congressman. 
It was with logs.
    Mr. Otter. Logs that you had to buy from the Forest 
Service?
    Mr. Wharton. I don't know honestly whether it was from the 
Forest Service or not, but there were--
    Mr. Otter. You make my point, sir.
    Mr. Wharton. Yes.
    Mr. Otter. Is that it is kind of a self-defeating effort.
    Mr. Wharton. Actually, if I recall correctly, more logs 
were used in the reconstruction of Two Elk than were cut down 
in the ski area expansion that the ELF was protesting.
    Mr. Otter. Once again, Mr. Hicks, do you know a Rick 
Bailey? Are you familiar with that name?
    Mr. Hicks. I know who he is.
    Mr. Otter. Who is he?
    Mr. Hicks. I don't know the organization he's with. He's an 
environmental type from over in Northeast Oregon area. He's--
predominantly was involved with the Snake River issues. I 
happened to see him at a leadership thing, and he made his 
case. He was a likable sort of a guy, but he was very much 
pushing an agenda.
    Mr. Otter. I see. And can you tell me if he was arrested 
here not too long ago for stealing timber from the National 
Forest Service?
    Mr. Hicks. I read that in a bulletin of some sort, and I 
couldn't tell you right now what it was. It was where he was 
arrested for stealing some firewood, and frankly, I don't know 
all the details of that. I think I could get you the names of 
somebody that does though.
    Mr. Otter. Thank you. I would like to pursue, Mr. Berman, 
if I might, with you something that Mr. Simpson stated. How do 
these people stay on the Internet? Who keeps them on the 
Internet? I mean are they--who is their service provider? Are 
they provided this service by America Online or how can they 
have these catalogs for terrorism on the Internet?
    Mr. McInnis. Let me remind the panel and my colleagues that 
we need to kind of keep within the time restrictions only in 
that we have one--
    Mr. Otter. I apologize.
    Mr. McInnis. We have another panel, and I assume we want to 
give them a fair opportunity before the 6 o'clock vote. So if 
you can answer that very briefly, then we will proceed with Mr. 
Nethercutt.
    Mr. Berman. There is a provider in Canada, a hosting 
service in Canada, which I assume is beyond the reach of the 
FBI. But there's also a domestic organization called Enviro 
Link, E-n-v-i-r-o, Link, which hosts the main ALF website. And 
that is an organization providing technical assistance to, call 
it domestic terrorism, call it legitimate discourse, if you 
will, but they are providing Internet services to ALF.
    Mr. Otter. Thank you, sir.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. McInnis. Mr. Nethercutt, you may proceed.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Thanks, gentlemen, for being here today and for your 
testimony.
    Mr. Jarboe, let me ask you about H.R. 2795, the 
Agroterrorism Prevention Act that I have introduced and I 
referenced in my testimony. Will that help the FBI deal with 
some of the problems that we have had illustrated and testified 
to here today?
    Mr. Jarboe. I would defer specific comment to the bill to 
the Department of Justice as the parent. What we would like in 
general is more teeth to laws that are out there, to give us 
more flexibility in our actions. If we are restricted, then 
what we can do is obviously going to be restricted. If laws are 
introduced to make it more flexible for us, then we have more 
flexibility.
    Mr. Nethercutt. Would the RICO connection or provision 
assist the FBI in sort of getting to the source of some of 
these terrorist groups?
    Mr. Jarboe. The RICO statutes are one that we are looking 
at as a possibility to apply to our investigation, yes, sir.
    Mr. Nethercutt. Mr. Wharton, this particular bill has a 
provision for the hardening of facilities, for establishing a 
research facility--program I should say, that would assist 
facilities in watching for terrorist acts and recording them 
and so forth. Would that assist you folks in Vail, sort of this 
new late-generation determination of what is the highest and 
best security for facilities like this and others?
    Mr. Wharton. I would think so, sir. I mean when this 
happened to us, honestly, we were totally unprepared. We had 
never anticipated anything like this happening. We consulted a 
number of security experts and security firms from around the 
country who expressed not a lot of optimism in being able to 
cover an area that is literally thousands of miles and dozens 
of buildings, scattered literally all over the countryside. So 
it has been a challenge for us to try and figure out the right 
way to respond to this. So any assistance that we might have 
toward that end, I think would be helpful.
    Mr. Nethercutt. This measure also provides for a 
clearinghouse at the FBI that would really quantify and get on 
a network the incidents of situations like Vail and University 
of Washington and others, and local activities by ELF and ALF 
and other terrorist groups.
    Would that be helpful to anybody on the panel? I assume 
that would assist the FBI, but it would also, I assume assist 
the police force in Vail or in Oregon or elsewhere to be aware 
of the threat nationwide and be able to be prepared for it. 
Would you agree with that?
    Mr. Wharton. I certainly would agree very much. Again, when 
this happened to us, we started getting on the Internet, making 
phone calls, researching through the media of other companies 
and individuals that had been the subject of this type of an 
attack, just so we could try to, as quickly possible, learn as 
much as we could, and that was a challenge. And it took us some 
time to try and see what resources were out there.
    Mr. Nethercutt. Is that your experience, Mr. Hicks, in 
Oregon?
    Mr. Hicks. We have a similar situation. We have woods 
deputies out in the woods. The more they get together and share 
information, the better job they can do with each other and 
within the--I'm sorry--within the law enforcement realm. So the 
more, the better. We're going to have a better result.
    Mr. Nethercutt. Have the other three witnesses, besides Mr. 
Jarboe, had a chance to look at legislative fixes or assistance 
to this problem, specifically H.R. 2795; have you looked at it; 
are you aware of it?
    Mr. Berman. I have not, sir.
    Mr. Nethercutt. Mr. Chairman, I yield back my time.
    Thank you, gentlemen.
    Mr. McInnis. Thank you. And I thank the panel. I appreciate 
you showing here today.
    Mr. Inslee. Mr. Chair, are we getting another round 
briefly? I have another couple questions if I may.
    Mr. McInnis. OK. Go ahead, Mr. Inslee, but remember, in 
fact, I think you have most of the interest in the panel. My 
guess is we won't run beyond 6 o'clock.
    Mr. Inslee. A couple questions if I may.
    Mr. Jarboe, one of the witnesses, the tobacco industry 
lobbyist has pointed some pretty stark accusatory fingers--
    Mr. McInnis. Mr. Inslee, the Chair is not going to allow 
that remark to stand. Now, you want to--
    Mr. Inslee. Well, excuse me, Mr. Chair, but I will make 
such remarks as I deem appropriate and I think Mr. Berman has 
told us--
    Mr. McInnis. Well, Mr. Inslee, I am--
    Mr. Inslee. --and I will continue to ask questions as I 
deem fit.
    Mr. McInnis. Mr. Inslee, I will adjourn the Committee if 
you want to proceed with this type of behavior.
    Mr. Inslee. I appreciate the Committee's--
    Mr. McInnis. We do now have a member of--but you owe 
respect to this panel. We do not have a member of this panel 
who has identified themselves or appeared on behalf of the 
tobacco industry. That remark is simply intended to inflame the 
witness. It is derogatory toward the witness and it has no 
place in this hearing.
    Now, if you wish to proceed with a second round, and 
address the witnesses as they should be addressed, you have 
lots of freedom and a broad area of which you can ask 
questions. If not, we will adjourn this panel, and we will 
proceed to the next panel.
    Mr. Inslee. Mr. Chair--
    Mr. McInnis. That is your choice.
    Mr. Inslee. Let me respond to your statement. In fact, I 
heard Mr. Berman express pride, pride that he has represented 
the tobacco industry, and that is fine. It was an entirely 
accurate characterization.
    Mr. McInnis. That is fine, Mr. Inslee.
    Mr. Inslee. Why don't you let me ask my question and see 
if--
    Mr. McInnis. Mr. Inslee, this panel is excused.
    I thank the panel for--
    Mr. Inslee. Mr. Chair, excuse me--
    Mr. McInnis. I am not taking any response from the panel.
    Mr. Inslee. Excuse me, Mr. Chair. I must object to that.
    Mr. McInnis. Mr. Inslee, Mr. Inslee, for some reason, I 
think you are confused as who is the Chairman of this 
Committee.
    Mr. Inslee. No, I am only confused as to why you are 
cutting off--
    Mr. McInnis. I do not intend to proceed--
    Mr. Inslee. --an appropriate question--
    Mr. McInnis. I do not intend to proceed with the Committee 
on Forest and Forest Health with you getting into some kind of 
diatribe on tobacco. That is not in place here.
    Mr. Inslee. Why don't I--
    Mr. McInnis. Now, if you want to ask a question dealing 
with the issue at hand without your little preamble on tobacco 
lobbyists or whatever that was, you may proceed. If not, let's 
get on to the next panel and move on with our business.
    Mr. Inslee. Let me ask a question, Mr. Jarboe.
    There has been some accusations by unidentified people I 
guess here today, that various groups have been associated with 
terrorist activity. That is a fairly strong charge to make. I 
am convinced that there are terrorists afoot here and have been 
involved in significant, severe, and potentially catastrophic 
violence, one of them at the University of Washington.
    But I want to ask about this assertion that some of these 
groups are involved in that. Is there any evidence that you are 
aware of to suggest that the Ford Foundation has been involved 
in terrorist activity?
    Mr. Jarboe. No.
    Mr. Inslee. Is there any evidence that Ben & Jerry's or the 
foundations with which Ben & Jerry's is associated, have been 
involved in terrorist activities?
    Mr. Jarboe. No, I have none.
    Mr. Inslee. Is there any suggestion that the Mothers 
Against Violence--excuse me--Mothers Against Drunk Driving have 
been involved in terrorist activities?
    Mr. Jarboe. No, sir.
    Mr. Inslee. Is there any suggestion that Mr. Ted Turner or 
the Turner Foundation have been involved in terrorist 
activities?
    Mr. Jarboe. No, I have no information.
    Mr. Inslee. Thank you, Mr. Jarboe.
    Mr. McInnis. Mr. Jarboe, I take it that you have no 
information, that includes today's Committee hearing, that 
there has been no information presented to you that would make 
you change your answer?
    Mr. Jarboe. That is correct, Mr. Chairman.
    Mr. McInnis. Thank you very much.
    Let me, in all fairness, I want to give this next panel an 
appropriate time, so this panel is excused. Thank you. Sorry 
you had to sit through a little difference on the Committee, 
but it makes it interesting.
    And we will now ask the fourth panel to proceed to the 
table. On Panel IV we have Mr. Wasley, Director, Law 
Enforcement and Investigations, USDA, Forest Service; Ms. 
Gloria Flora, Public Employees for Environmental 
Responsibility; and Dr. Pendleton, Government Accountability 
Project.
    Again, with this panel, I am also going to ask you to take 
the oath as we have the previous members.
    Panel, we need to proceed here. If you would, please, raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give is the truth, the whole truth and nothing but the 
truth, so help you God?
    Members of Panel IV. I do.
    Mr. McInnis. Thank you. You may be seated.
    Mr. Wasley will proceed. If you would just take note of the 
5-minute rule, I would appreciate it. Thank you.

  STATEMENT OF WILLIAM WASLEY, DIRECTOR, LAW ENFORCEMENT AND 
 INVESTIGATIONS, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Wasley. Mr. Chairman, I had a prepared statement. In 
lieu of reading that, I would just submit it for the record, if 
you are so inclined to accept it.
    Mr. McInnis. Certainly we will accept written statements, 
and we do allow you 5 minutes for summarization, if you would 
like, or we can just proceed.
    Mr. Wasley. We would just proceed.
    [The prepared statement of Mr. Wasley follows:]

     Statement of William F. Wasley, Director, Law Enforcement and 
  Investigations (LEI), Forest Service, U.S. Department of Agriculture

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    My name is Bill Wasley, and I am the Director of the Forest Service 
Law Enforcement and Investigations (LEI) program. Thank you for the 
opportunity to appear before you today to discuss eco-terrorism acts on 
Forest Service facilities and how the Agency is addressing employee 
safety.
    The Forest Service manages approximately 192 million acres of land 
in the United States. Protecting people and natural resources is part 
of our mission. This mission has become more difficult over the years 
as crimes occurring on national forests and to federal property have 
increased, especially criminal acts against research projects and 
government facilities. LEI is responsible for protecting and serving 
the public and agency employees; protecting natural resources and other 
property under the jurisdiction of the Forest Service; and cooperating 
with other law enforcement agencies.
Escalation of Incidents
    Over the past 10 years, destructive civil disobedience and 
destructive criminal acts have increased, damaging resources and 
placing people in harm's way. Destructive criminal acts have primarily 
been related to protests against commercial logging activity on 
National Forest System (NFS) lands. These acts have included the 
illegal occupation of NFS lands and roads that place protestors at 
great risk; spiking trees designated for cutting; damaging or 
destroying natural resources, public roads, and facilities; damaging 
private property; and threatening and interfering with timber sale 
purchasers and timber operators. Since 1998, the Earth Liberation Front 
(ELF) has claimed responsibility for at least five such acts to Forest 
Service resources, facilities, or vehicles.
    Forest Service research programs have also been the targets of 
recent criminal acts. The Agency has an extensive research and 
development program that conducts basic and applied research on an 
array of subjects that complement the diverse mission of the Agency, 
including research on biological pathogens or forest genetics. In 
fiscal year 2000, two acts of vandalism resulted in damages to the 
Forest Service Research facilities in Minnesota and Wisconsin, 
estimated at over $1.3 million. Over 850 pine and broadleaf trees, and 
saplings from ``superior'' tree stock and cross-pollination research 
were cut down, ring-barked and trampled. ELF claimed responsibility for 
this act. In November of 2001, two explosive arson devices were planted 
near university and Forest Service research buildings at Michigan 
Technical University, but fortunately were located by security 
personnel prior to detonation. No one has yet been charged with this 
crime.
    Prevention is critical to the Agency's action plan against 
destructive criminal acts. Currently, the Forest Service is conducting 
facility security assessments to identify those facilities that are 
vulnerable. These assessments will address employee, facility, asset, 
transportation, special use permitting, and resource protection 
concerns.
Safety in the Workplace
    Since the mid 1990's, the number of threats and attacks on Forest 
Service employees have increased. Examples of these attacks include the 
bombing of an employee's residence and the complete destruction by 
arson of two Forest Service offices. These attacks have raised fears 
and concern among Agency employees for their personal safety. The 
Agency is addressing these concerns by securing government facilities; 
producing and distributing safety pamphlets, brochures, and videos; 
holding safety meetings; providing information to employees on steps 
that are being implemented to improve employee security; and providing 
violence awareness training. The Forest Service has an agreement with 
the Office of Inspector General (OIG) regarding investigations dealing 
with employee safety. The safety of Agency employees and the public on 
Forest Service lands is the top priority for the Forest Service.
Efforts to Ensure Coordinated Security
    In cases of domestic terrorism the FBI has primary jurisdiction. 
LEI assist the FBI by serving on the joint task force investigating 
domestic terrorism acts.
    Agency law enforcement officers and criminal investigators 
coordinate closely with line and staff officers to provide and 
implement security procedures for Forest Service facilities, resources, 
employees, and the public. Security measures undertaken by LEI include: 
conducting threat assessments; providing personnel and facility 
security details during protests or high risk events, providing first 
responders to incidents; responding to protest and civil disobedience 
activities; investigating criminal acts; conducting search and rescues; 
responding to shooting incidents and drug and alcohol possession and 
use problems; and responding and investigating all reported instances 
of intimidation, threat, or assault against agency employees.
    In investigating criminal acts, LEI has developed many cooperative 
agreements with other Federal, State, and local agencies for 
performance of routine law enforcement patrols, drug enforcement, 
timber theft investigations, and coordination of other enforcement 
activities. LEI participate in many task forces, particularly the FBI's 
counterterrorism taskforce mentioned above and the Office of National 
Drug Control Policy's (ONDCP) High Intensity Drug Trafficking Area 
(HIDTA) program.
Conclusion
    The Forest Service is committed to work with the FBI to combat acts 
of domestic terrorism. We also are committed to ensuring safety and 
security of the public and our employees. The job is immense, but we 
will continue to work at providing these services and expend resources 
consistent with this priority.
    This concludes my statement, I would be happy to answer any 
questions you or Members of the Subcommittee might have.
                                 ______
                                 
    Mr. McInnis. All right. Ms. Flora.

 STATEMENT OF GLORIA FLORA, PUBLIC EMPLOYEES FOR ENVIRONMENTAL 
                         RESPONSIBILITY

    Ms. Flora. Thank you, Chairman, members of the Committee. 
Thank you.
    My name is Gloria Flora, and I have had a 22-1/2 year 
public service career working for the U.S. Forest Service. I've 
occupied a number of positions including forest supervisor at 
the Humboldt-Toiyabe National Forest in Nevada, and the Lewis 
and Clark National Forest in Montana.
    I resigned from the Forest Service in 2000 to call 
attention to what we are terming here today as lawlessness, 
specifically harassment and intimidation of Federal employees. 
I have now started a nonprofit organization called Sustainable 
Obtainable Solutions, that is dedicated to ensuring 
sustainability of public land from the communities that depend 
upon them.
    I'm here today testifying on behalf of PEER, the Public 
Employees for Environmental Responsibility. PEER is a national 
service organization for scientists, land managers and law 
enforcement officers working on our state and Federal Public 
Lands. And speaking on behalf of the organization, PEER 
condemns any form of terrorism, as do I personally.
    I wanted to start today--and I will be as brief as 
possible--with a quote from Aldo Leopold. Aldo Leopold said, 
``There are two things that interest me. That is the 
relationship of people to each other and people to their 
lands.'' I ascribe to that myself.
    And my concern is what I have come to call ``Fed-bashing.'' 
You can call it whatever you want, County Supremacy, Sagebrush 
Rebellion, States' Rights, Home Rule. When it comes to 
harassment and intimidation of employees, these are the 
organizations that I have seen be the most vigorous and 
relentless.
    And the examples of this range from incivility to outright 
hostility. It is like eco-terrorism in the extent that there is 
a disregard for law, a disregard for property, and a disregard 
for the health and safety of citizens and Federal land 
managers.
    How it differs is that these activities are not taking 
place in the dark of night by anonymous people. These are in 
broad daylight often by public figures or well-known 
individuals in communities who actually take pride in the 
harassment and intimidation of Federal employees. And there is 
little public outcry in many cases.
    The discrimination that I have seen over the years extends 
not just to employees, but also to their families. We have 
harassment by law enforcement officials, local law enforcement 
officials. We have people who have been refused service in 
restaurants and gas stations and motels. People who have been 
treated very uncivilly in other places of business and 
commerce. We have children who have been castigated in their 
schools because of what their parents do, i.e., work for the 
Forest Service. There has also been systematic exclusion and 
public denigration at social events in communities. There have 
been veiled threats and not-so-veiled threats of violence and 
of destruction of Government property. There have also been 
bombings, as we have photographs here. Not only was the office 
at the Carson Ranger District bombed, but also the District 
Ranger's personal home was bombed, his wife and children 
narrowly escaping injury.
    And how do Forest Service line managers react? Well, so 
far, much of the reaction has been advising people not to wear 
their uniforms; do not drive Government vehicles that are the 
obvious green color of the Forest Service; do not go out in the 
field alone, particularly women, women in the field alone have 
been threatened with rape; to hide or run away if approached by 
an armed civilian such as several of my employees had to do 
when they returned to their vehicle at the end of a day of 
work, and there were armed citizens going through their 
vehicles, searching for what we don't know. We have asked them 
not to attempt to stop destructive acts, merely take notes and 
leave the scene as quickly as possible. And the U.S. Attorney 
has actually advised the employees of Nevada to not issue any 
tickets, even tickets for people not paying campground fees if 
the person makes any anti-Federal comments.
    I have a list of reasons why I think some of this is 
happening, and I also have some solutions, but I see the yellow 
light is on, and if you are interested in discussing those when 
we conclude the testimony of Dr. Pendleton, I will be here.
    [The prepared statement of Ms. Flora follows:]

     Statement of Gloria Flora, on behalf of Public Employees for 
                      Environmental Responsibility

    To spread their message and inflate their importance, ``eco-
terrorism'' groups must command a prominent public stage. 
Unfortunately, this subcommittee hearing is aiding these so-called eco-
terrorists by giving them the United States Congress as a forum.
    This craving for attention is illustrated in a recent self-
promoting report on the exploits of eco-terrorists that seeks to 
magnify the number and impact of their activities. This hearing serves 
the media agenda of these groups by assigning a greater importance to 
their role and by attempting to falsely suggest that they are a major 
force on the vast public lands within the National Forest System.
    If you ask Forest Service employees to rank the problems they must 
confront daily, ``eco-terrorism'' would not even make the chart. I know 
because for over 22 years, I was a Forest Service employee and have 
worked in national forests throughout the West.
    My name is Gloria Flora and, in my career in public service, I have 
occupied many positions including Forest Supervisor on the Lewis and 
Clark National Forest in north-central Montana and on the Humboldt-
Toiyabe National Forest in Nevada and eastern California. I resigned 
from the Forest Service in 2000 specifically to call attention to the 
far greater threat of harassment, intimidation and lawlessness that 
haunts Forest Service employees. I have started a non-profit 
organization, Sustainable Obtainable Solutions, dedicated to ensuring 
sustainability of public lands and the communities that depend on them.
    I am here today testifying on behalf of Public Employees for 
Environmental Responsibility or PEER. PEER is a national service 
organization for the scientists, land managers and law enforcement 
officers working on our state and federal public lands. Speaking on 
behalf of the organization, PEER condemns terrorism in any form as do 
I.
    There is a problem of lawlessness facing Forest Service employees 
and the citizens who visit, work within or live near national forests--
but it has little to do with eco-terrorism. This afternoon I would like 
to discuss the nature and extent of these challenges, outline the 
causative factors and conclude with steps we all need to take together 
toward solutions.
    Conflicts over public land management continue to escalate and 
challenge even the most innovative land stewards and community members. 
When values collide, the first casualty is the ability to communicate 
our views with civility and respect. Sometimes, and with a seemingly 
growing frequency, violence, or threats thereof results.
    Federal agents across the West deal with hostile, even dangerous 
working conditions fanned by the flames of anti-government sentiment.
    Each winter, California's Imperial Valley swarms with off road 
vehicle riders on long holiday weekends. As Bureau of Land Management 
agents struggle to mitigate the environmental damage caused by 
thousands of vehicles, more and more, they are forced to protect 
themselves from the ever-increasing incidents of violence against their 
ranks. In recent years, rangers have been attacked by mobs, run down by 
vehicles and assaulted with weapons by off-roaders yelling anti-
government epithets.
    This past Thanksgiving a record crowd of 200,000 off-roaders 
descended on the desert wilderness. By the end of the weekend, BLM 
agents had dealt with two deaths, 220 medical emergencies, 50 arrests, 
nearly one thousand citations, several shootings, and one ranger run 
over by an angry 3-wheeler.
    As reported in the New York Times on January 2nd, Forest Service 
managers voiced doubts about the safety of sending their own law 
enforcement personnel into certain areas of these public lands because 
the danger is too extreme. Internal agency memos describe the situation 
as near-riot conditions.
    Federal agents are often targets because it is their job to enforce 
environmental policies. In the California desert, some off-roaders 
resent federal decisions to close portions of the desert to vehicle use 
to allow the land to recover and protect the habitat of the threatened 
desert tortoise. As I have witnessed in other parts of the country, 
some people extend their anger about federal policy into violence 
against federal employees.
    While this annual chaos in the California desert is a dramatic 
example, it is certainly not an isolated case. According to agency 
records collected and tabulated by PEER, beatings, shootings, threats 
and other incidents of violence against federal resource managers, 
primarily in the West, rose sharply in 2000, and have risen in all but 
one year since the Oklahoma City bombing in 1995.
    Overall, attacks aimed at U.S. Forest Service employees and 
facilities rose by more than 20% in 2000, the latest year for which we 
have statistics. Incidents at Fish & Wildlife Service rose by half, 
while incidents at the Bureau of Land Management (BLM) rose by a third. 
For all three agencies combined, serious incidents rose by nearly a 
third in 2000.
[GRAPHIC] [TIFF OMITTED] T7615.002


    PEER assembles these numbers because the U.S. Department of Justice 
has yet to implement statutory requirements that it compile and report 
on attacks against government workers. PEER has established its own 
database on violence against federal resource agency employees using 
the Freedom of Information Act to collect incident reports.
    These numbers, however, do not begin to tell the story. Employees 
have reported to PEER many incidents not reflected in the official 
counts. The agencies have no incentive to aggressively monitor 
employees' working conditions. To some large extent, agencies often 
reflect a ``no news is good news'' attitude with regard to these 
incidents. As a result, PEER believes that the official numbers 
significantly understate the true number of events.
    Moreover, the bare numbers do not convey the impact even one 
incident can have on affected employees, agency operations and public 
perceptions. Take one case: Guy Pence who, until his transfer, was 
district ranger of the Carson District on the Toiyabe National Forest 
(before it was combined with the Humboldt National Forest), which 
includes Nye County, Nevada, the heart of the anti-environmental ``wise 
use'' movement.
    A Forest Service employee since he graduated college more than 25 
years ago, Pence started working on the Toiyabe in 1984, and he 
developed a reputation as a no-nonsense manager. He suspended or 
canceled the permits of grazers, loggers and miners who violated permit 
conditions and environmental laws. One of the users Pence cited for 
violation was Dick Carver, a Nye County commissioner, private rancher 
and an outspoken ``wise use'' leader. Carver gained national attention 
(including the cover photo of Time magazine) in the mid-90s when he 
drove a bulldozer towards Forest Service rangers in an attempt to open 
a road that had been closed by the agency. This act added to an already 
alarming level of tension surrounding public land management issues in 
Nevada.
    A few weeks before the tragedy in Oklahoma City, a bomb exploded at 
the Carson City ranger station. Fortunately, no one was in the office 
at the time. The bomb was set outside Guy Pence's office sending a 
clear signal as to who was the target. No suspects were ever arrested, 
and no group claimed responsibility.
    In August 1995 a bomb exploded under Pence's personal vehicle, 
which was parked in his driveway. Miraculously, no one was hurt. The 
blast destroyed the family van and blew out the front windows of the 
Pence home. Luckily, Pence's wife and daughters had just left the 
living room. Again, no arrests were ever made and the case remains 
unsolved.
    The Forest Service transferred Guy Pence to its Boise office where 
his new duties include aviation, fire, and law enforcement. The Forest 
Service says Pence's transfer was not a demotion, and it maintains that 
it did not move Pence out of fear. Most people, however, can read 
between the lines.
    Since Pence's transfer, the Boise office has been evacuated several 
times due to bomb threats. And the employees on the Carson District 
still fear another attack. They implemented security measures that are 
now commonplace for protection from terrorist attack.
    No matter where they are or how far they go, neither Pence, nor his 
family, will ever be able to forget what happened in Nevada. While 
Pence admits that the safety issue looms large, he is much more 
concerned about his family's safety than his own. He is worried more 
about the effect the move to Idaho has had on his wife and three 
daughters. His wife had to give up her teaching job, and his daughters, 
who grew up in Carson City, have lost life-long friendships. Pence 
said, ``The bombings really made us take stock of our life. Things that 
seemed routine or normal now seem so fragile and more precious than 
ever. Actions are so interconnected and their impact can ripple out to 
affect everyone involved.''
    The legacy of the Guy Pence was still very much alive when I became 
the Supervisor of the now-combined Humboldt-Toiyabe National Forest in 
1998. By the end of 1999, I resigned my position as Forest Supervisor 
in protest of the pervasive and escalating intimidation and harassment 
of Forest Service employees. Let me be clear that I did not allege that 
there were prosecutable threats of direct violence that were being 
ignored. In the previous 18 months, there were none of which I was 
aware. Rather it was the insidious and increasing acts of hostilities, 
fueled by media sensationalism, private vendettas and political 
posturing which made life extremely difficult for many Forest Service 
employees and their families--24 hours a day, 7 days a week.
    Instead, the legacy of the previous incidents contributed to 
something almost more insidious: a syndrome I came to call ``Fed-
bashing.'' Fed-bashing is a tough phrase. I define it as destructive 
actions or words meant to hurt and belittle federal employees, 
personally and/or collectively. It is not much different than racism. 
You pick a class of people, you decide they are the source of your 
problems and you proceed to systematically make them unwelcome in your 
community.
    I do not begrudge anyone for being upset with certain federal laws 
or policies but how we handle that dislike is measure of our own 
personal integrity and ultimately, the yardstick of a community. 
Because I resent a tax, I do not have the right to personally vilify 
the tax collector or members of his family.
    Some say that I over-reacted. In an atmosphere of hostility, how do 
you decide when your employees are truly at risk? How do you calculate 
how many insults, personal attacks in the media, refusal of service in 
public establishments, are ``acceptable'' and how many equal a 
precursor to violence? When actively hostile citizens threaten to break 
the law using ``Remember Waco'' as a rallying cry and the local 
sheriff, the FBI and the Justice Department warn you and your employees 
to stay 100 miles away instead of doing your job... is that the warning 
salvo that violence is just around the corner? The last time someone 
``remembered Waco'' in a very visible manner, over 180 people lost 
their lives in Oklahoma City. None of them reported a ``prosecutable 
threat'' prior to losing their lives.
    My point is simple. More than overt acts of violence should be of 
concern. When frustrations grow and dialogue becomes uncivil, nasty and 
personally demeaning toward individuals of a certain group of people, 
an unsavory element is attracted to the fray, like sharks to the smell 
of blood. There are far too many boastful threats about armed 
insurrection and civil uprising in the rural West to be sanguine about 
this situation.
    Perhaps my biggest frustration was the behavior of many public 
officials at all levels who either turn their backs or openly condone 
such behavior. In response to my expressed concerns about the treatment 
of my employees and their families in Nevada, a member of Congress, 
casually quipped, ``You're federal employees: What do you expect?''
    This phenomenon of elected officials egging on the tensions is 
certainly not confined to Nevada. Recently, an elected official in 
Montana likened a Forest Service manager to a Nazi for not openly 
opposing the roadless initiative.
    To evoke the image of fascism and compare it to contemporary public 
land management in America is at best delusional and, at worst, a 
disgrace to the memories of those who suffered unimaginable terror at 
the hands of the Nazi regime. Try to convince the relatives of millions 
of people who lost their lives that the situations that we face in the 
rural West are comparable.
    To my knowledge, all elected officials, as well as Forest Service 
employees sign an oath of office to uphold the Constitution and the 
laws of the United States. That oath should not be taken lightly. Those 
who wish to selectively support the laws, that is, only the ones that 
please them personally, should recognize that they are violating their 
oath of office and are doing a disservice to the public.
    No matter how disturbing, these events are only the symptoms of 
deeper causes. Federal resource employees are targeted because of 
conflicts surrounding those resources. While the acreage within the 
National Forest System is vast, the natural resources contained within 
it are finite.
    In many places, public lands are degraded: non-functioning, denuded 
riparian areas, dropping water tables, degraded water quality, sediment 
in streams, excessive fuel build-up, loss of biodiversity, and species 
heading towards extinction confront us. There are still hundreds of 
abandoned mines leaking acidic water with a pH of 2 and poisoning 
ground water, despite billions of dollars spent on clean up.
    Look at the cattle industry on public land, for example. Public 
land grazing is a struggling industry that produces less than 4% of the 
nation's beef supply. In many areas, the public range can no longer 
sustain traditional levels of grazing. Plant species are lost, riparian 
areas shrink. When the lands suffer from overgrazing, people get 
alarmed and demand that basic stewardship be enforced. The Forest 
Service re-evaluates the allotment management plan and reduces 
allowable numbers in some places. The result is that the range con and 
district ranger are cast as villains attacking custom and culture. 
Wrong. What is the real story?
    The real story is economic and social. The market for beef does not 
keep pace with inflation, production costs rise, and middlemen profit 
while price on-the-hoof plummets. Trade policies loosen. Cheap, 
subsidized beef from other countries flood the borders. People have 
grown concerned about their health; they no longer trust chemicals, 
they want less fat in their diet. Although they buy significantly less 
red meat, they are willing to pay more for chemical free, low-fat beef. 
In reality, these changes in public taste, market forces and 
international trade agreements affect ranchers' livelihood far more 
than the laws of Congress or Forest Service policies.
    Some ranchers understand that the Forest Service is not the enemy. 
Rather than attacking the Forest Service, ranchers figure out how they 
can use the research capabilities of the government and universities to 
help determine better techniques to graze cattle, improving weight gain 
while maintaining habitat diversity. They switch to lower fat breeds, 
and stop using chemicals. They find a niche market for the product in 
demand, sell directly to the retailer and get twice the price. These 
folks work with the agencies and organizations to develop a 
certification program for beef raised in environmentally sustainable 
methods, creating a cache for concerned consumers and higher demand. 
They sell a conservation easement on the ranch and keep it in the 
family. They thrive, the community thrives and so do their cattle and 
the wildlife.
    By contrast, some of their neighbors try a different approach. 
These ranchers make sure everyone in the community knows what ``those 
Forest Service bastards'' have done to them. They violate the 
commitments they signed off on in their grazing permit, overgraze the 
land and their cattle do not thrive. They mortgage the ranch to sue the 
Forest Service based on what they believe is a constitutional right to 
run as many cattle as they want, wherever they want on public land, 
because their grandfather did. They refuse to change. They lose the 
suit and the ranch is subdivided. They suffer and the community 
suffers. Whose fault is it?
    When seeking the roots of complex natural resource problems, I find 
it worthwhile to step back and look at the larger context. This often 
helps us to understand why we are where we find ourselves. We must look 
at local and regional history, social trends, and environmental 
changes, while examining the national and global trends that affect us.
    Looking at the social situation in the rural west, the operative 
word here is change. Life as we know it has changed dramatically and 
the pace continues to accelerate with every new technological 
development. Even during the recent period of broad national economic 
prosperity, there are plenty of pockets within the rural west with lots 
of folks still struggling to get by. The ``have's'' are getting richer 
while the ``have not's'' see their buying power and political influence 
waning.
    A shift in demographics is also evident; geography for many is no 
longer essential to job. Many people can work anywhere, and you know 
exactly the places they want to live'' where the air is cleaner, and 
the mountains tower majestically over their new home in the last, best 
place. Indeed local culture is changing: name a town that does not have 
at least one place to buy espresso.
    The population is shifting and growing. This requires a greater 
degree of tolerance and sharing; a greater degree of tempering 
individual demands for the sake of community. This means getting along 
with others by working out equitable solutions for sharing public 
resources.
    History is replete with examples of civilizations having to share 
or lose their ``traditional'' uses. It has only been a little more than 
100 years since this society appropriated all resources from the First 
Americans. Now, a century later, we are again thrusting massive change 
upon the western landscape, its people and what our culture considers 
``traditional use'' communities. There is much to value in these hard-
working decent communities and much we can do to ensure these 
communities continue to be viable.
    Any conservation plan or policy for public lands that does not 
consider the economic health of both the rural communities of the 
intermountain west and struggling tribal nations is woefully 
inadequate. It is not too much to ask for the world's wealthiest nation 
to have a sound economic transition strategy when we change the way we 
value and manage the resources on public land. We cannot throw people 
out of work with just a shrug and a brief apology. However neither can 
citizens expect that their chosen way of life is an inherent right that 
all others must protect regardless of the consequences.
    Life has never been easy for those who choose to make their living 
off the land. Prior to the Industrial Revolution, the vast majority of 
the population depended directly on natural resources for their 
livelihood. Since the Industrial Revolution, labor related to natural 
resources has been steadily declining. Now basic extractive industries 
account for less than 5% of our gross national product.
    This shift means that life keeps getting tougher for those who want 
to continue to make their living off the land while contesting the 
changes that society mandates. This shift is just as inevitable as the 
massive societal transformation of the industrial revolution, the 
invention of the computer and introduction of mass communication. We 
have accelerated the rate of change--change that is inevitable.
    It is not my intention to be harsh or cavalier. I have worked in 
small communities for over twenty years; I know how badly these 
dislocations can hurt. It is how we manage that change is critical for 
both the rural communities in the West and the surrounding landscapes. 
We, as a nation, cannot consume and waste, populate and communicate at 
this rate and expect that the rural west will be just like it was when 
we were growing up. There is no going back.
    So, what are the solutions? Civil discourse is step one. There is 
no bogeyman out there. We are all in this together, like it or not. 
Respectful civil dialogue is an essential tool in establishing and 
reaching long-term goals for the preservation of our nation's natural 
treasures. In my opinion, this approach is essential in convincing the 
American public that an investment in the health of their children's 
inheritance is wise--a sound fiscal strategy. Such an investment in 
restoration and natural wealth accumulation will also bring a 
sustainable prosperity to the communities previously dependent solely 
on extraction.
    The time is right for the nation and especially the Intermountain 
West to adopt a new strategy in the management of public lands through 
civil discourse because the alternative is a widening chasm between the 
majority of Americans and a shrinking but steadily more extreme 
collection of groups fighting to maintain a fading status quo of 
resource extraction at the expense of clean water, productive soil and 
vibrant wildlife.
    I recently read that a Montanan proclaimed that ``we, the people, 
will decide'' what uses will be permitted in a heated protest against 
the roadless initiative. He promised armed conflict and bloodshed if 
uses were restricted. He is right on the first item, the people will 
decide. And most of you know that ``We, the People...'' are the first 
words in the Constitution. It applies to all Americans. All the 
Americans who have been paying for the care and maintenance of the 
national forests, and subsidizing every use for more than 100 years 
will decide what we leave for the future.
    We are facing predicaments that can only be resolved by civil 
discourse. Through a series of events, natural and social, we are 
trying to make the land do more than it is capable of in terms of 
supporting us for the next hundred years.
    Clearly one of the least effective ways of seeking resolution is to 
vilify the federal employees who are stewards of this land we all 
share. What sense does it make to shoot the messengers?
    The second essential step is to end the Fed-bashing. Public 
officials at all levels need to provide moral and political support for 
the district ranger, field biologist, range conservationists and other 
professional struggling to faithfully execute the law and serve the 
public in trying circumstances.
    Politicians must resist the natural urge to ``pile on'' when the 
mob demands ``heads should roll.'' We need more rare acts of courage 
when public officials are willing to stake their own careers on telling 
people what is right when it is not popular. We need more leaders 
willing to stand shoulder to shoulder with embattled public servants, 
to let them know they are not alone and that someone in the public they 
serve appreciates the struggle.
    In my Forest Service career I met too few real leaders. In Nevada, 
when my staff really needed support from higher-ups in state and 
federal government, there was precious little. I resigned to draw 
attention to that lack of support and, in that I succeeded.
    What concerns me is what happens the next time? Will lessons have 
been learned? Are my successors in the Forest Service doomed to walk 
the same path, share the same frustrations and meet the same fate? I 
see signs and fervently hope that collaborative solutions are emerging 
not just on the Humboldt-Toiyabe but on the other challenging resource 
faults lines in national forests throughout the West.
    The final step is to look to the future. We cannot lose sight of 
our responsibility to leave a quality environment for the future. The 
superfund sites and abandoned mines that we spend billions on to 
stabilize and prevent further damage are perfect examples of waiting 
until the damage is done to face the issue--and then shifting the 
higher cost to the taxpayer and the legacy of pollution to our 
children.
    I do not mean to over-simplify, there are fundamental problems that 
even the hardest-working folks cannot easily overcome. One is the lack 
of market incentives to help transition to sustainable methods in 
industries. Shifting from dependence on non-renewable energy sources is 
one area that shows promise: fuel cell technology and solar 
advancements are emerging methods of providing energy, while reducing 
demand for a non-renewable resources, reducing air pollution and 
ultimately global warming, as well as providing jobs that can be 
located in rural areas. Organic agricultural products reduce ground and 
water pollution, bring higher prices and can be an economical small 
business in rural areas. There are many deteriorated landscapes and 
areas of poor forest health. Restoration using the equipment and skills 
of forest workers is a very viable idea that needs an influx of money 
and a change of perspective.
    A paradigm shift is required in the political leadership of the 
rural West. In making decisions, local leaders need to take natural 
capital, i.e., the real dollar value or replacement value for the goods 
and services that we get from the land, into account. The cost of 
restoring degraded landscapes frequently far exceeds the value of what 
has been extracted. But, a plan for managing public land as a long-term 
trust, ensuring we are living off the interest and not depleting the 
capital, is possible only with the willing, civil participation of all 
interested parties.
    We need to be willing to collaborate on solutions rather than 
wanting to overpower and win. Freedom to share and hear all viewpoints 
was clearly seen by the crafters of the Constitution as an imperative. 
We need to accept the fact that we do not know everything. There is a 
golden opportunity to learn from our neighbors and for us to share with 
them our experience and knowledge. The bottom line is showing respect 
and civility towards others despite what you think about their opinion 
or in how they express their relationship with their landscape.
    I suggest that our personal relationship with the land is an 
excellent barometer of how we relate to other people. I believe there 
are different levels of maturity in land relationships. A child-like 
attitude may lead one to take the land and its resources for granted, 
as if it will always be there and it will meet all of your needs. A 
mature attitude recognizes that you are much more transient than the 
land. With maturity comes the understanding that you must give and 
sacrifice for the sake of the relationship. What you take must be 
returned and never take more than you absolutely need for the sake of 
those who come after you.
    Solutions are tough. We need to recognize that no one is going to 
win it all. But I remind you, this is not about winning, it is about 
finding balance through sustainable practices. We are in this for the 
long-run.
    Demeaning each other will not bring about solutions, nor will it 
suggest to the rest of the nation that we in the West are thoughtful, 
reflective, inclusive individuals; people who can be trusted to make 
good choices and therefore deserve greater local control. If we can 
demonstrate to the rest of the nation that we collectively are far-
sighted, cooperative stewards, we will gain the support of the rest of 
the nation in our efforts to reach sustainable solutions to our 
considerable natural resource challenges...civilly.
                                 ______
                                 
    Mr. McInnis. Thank you very much.
    Ms. Flora. Thank you.
    Mr. McInnis. Mr. Pendleton, you may proceed.

     STATEMENT OF MICHAEL ROY PENDLETON, Ph.D., GOVERNMENT 
                     ACCOUNTABILITY PROJECT

    Mr. Pendleton. Thank you, Mr. Chairman, and Committee 
members, for inviting me here today.
    My name is Michael Pendleton, and I'm representing my work 
as a social scientist while at the University of Washington, 
specifically my published research on forest crime, enforcement 
and timber theft.
    But my testimony also reflects my experience as a grandson 
of a northwest logger, whose small logging business was 
bankrupted by strategic vandalism of his equipment, and also my 
service as a police officer in Oregon, where the importance of 
real enforcement was made apparent. This is my testimony.
    The hundreds of hours I have spent in patrol trucks with 
forest enforcement officers strongly indicate that public 
policy should reflect a broader understanding of crime and 
terrorism in our national forests. It isn't that your concern 
with eco-terrorism is wrong, rather it's incomplete. What I 
know and every on-the-ground forest office will tell you, the 
majority of property crime and violent acts are committed by a 
relatively small but known group of local residents that 
subscribe to a twisted view of wisdom and use. Events such as 
the drive-by shooting of a staffed ranger station, where the 
offenders emptied their automatic weapons only to stop and 
reload for a second pass, was explained upon arrest as their 
answer to Federal management of forest and park land. This is 
but one of many examples of blown gates, car bombings and 
arsons, where land management employees and Federal property 
were the clear targets of violence. The examples I cite are 
not, however, the work of eco-terrorists, but crimes committed 
to serve as a radical right agenda to take over national lands 
from Federal management and the American people. I would submit 
such a view is at least as worthy of a policy response as the 
one advanced by eco-terrorists.
    In spite of these well-known cases of domestic terrorism, 
little has been done to address these concerns. In fact, in the 
wake of the Oklahoma bombings Federal legislators actually 
advanced legislation to disarm Forest Service law enforcement 
officers. These are the same law enforcement officers who 
consistently encounter known local offenders who are armed, 
with astonishing criminal records.
    While the $40 million of damage attributed to eco-terrorist 
groups such as the Earth Liberation Front is clearly 
unacceptable and should be addressed, it pales in comparison to 
the $100 million annual estimates attributed to timber theft 
from national forests. Yet in spite of this chronic and well-
documented property crime, efforts to address the loss by 
enforcement officers have been overtly stopped.
    The disbandment of the Forest Service Timber Theft 
Investigations Branch in 1995 is perhaps the most visible 
effort to stifle meaningful enforcement. But others exist as 
well, such as the systematic dismissal of large timber theft 
cases, and the recent Presidential pardon of a convicted timber 
theft offender. These are clear messages.
    Ongoing efforts to defeat effective enforcement against 
timber theft occur as an outcome of a conventional view that 
timber theft is nothing but a folk crime committed by basically 
good people. Such a view empowers organizational practices that 
encourage officers to look the other way, or face 
organizational pressures to conform or get out. When combined 
with poorly equipped and funded enforcement programs, these 
practices effectively discourage meaningful pursuit of these 
criminals.
    The effect of systematically ignoring timber theft has been 
to create an uneven playing field in the timber industry for 
those who choose to play within the rules. More importantly, to 
ignore timber theft worth millions of dollars each year is as 
morally wrong as looking the other way while a corporation 
fixes to price of electricity, but also steals its employees' 
retirement. In both cases, future sustainability for the many 
is sacrificed for the greedy few. It is clear that meaningful 
policy to address terrorism and crime is long overdue in 
America's forests. The core of this effort should be built on a 
policy of blind justice. This policy would require the full 
enforcement of the law against all who offend, regardless of 
where on the political spectrum they might shop for their 
justification.
    Specifically, terrorists who offend in the name of 
environmental protection, or terrorists who offend in the name 
of the wise use movement, should be found and brought to 
justice. Those who steal trees should be treated in the same 
way as those who destroy property. They are both crimes. And 
those who do these things are criminals.
    Anything short of a policy of blind justice will be a 
policy that is based upon a distorted view of crime in our 
Nation's forests. At its worst such a policy will reveal biases 
it serves, and further undermines Americans' respect for the 
rule of law and their commitment to doing the right thing.
    I urge you to adopt and fully fund a policy of blind 
justice in our Nation's forests.
    And I thank you for myself and on behalf of many law 
enforcement officers for addressing this important issue.
    [The prepared statement of Mr. Pendleton follows:]

  Statement of Michael Roy Pendleton Ph.D., Representing My Role as a 
Social Scientist and the Research I conducted While a Professor at the 
                        University of Washington

    Thank you Mr. Chairman and committee members for inviting me here 
today. My name is Michael Pendleton and I am representing my work as a 
social scientist while at the University of Washington, and 
specifically my published research on forest based crime, enforcement, 
lawlessness and timber theft. I would like to add, however, that my 
testimony also reflects my experience as the grandson of a legendary 
North West Logger, whose small logging business was bankrupted by 
strategic vandalism of his equipment, and my service as a working 
police officer in the State of Oregon where the importance of real 
enforcement were made apparent. This is my testimony.
    The hundreds of hours that I have spent in patrol trucks with land 
management enforcement officers strongly indicates that public policy 
on these matters would be greatly enhanced were we to broaden our 
understanding of crime and terrorism in our national forests. It isn't 
that your concern with ``eco-terrorism'' is wrong. Rather, it is 
incomplete. What I know and every ``on the ground'' forest officer will 
tell you is that the vast majority of property crime and violent acts 
are committed not by ``eco-terrorist'', but by a relatively small but 
known group of local residents that subscribe to a twisted view of 
wisdom and use. The drive-by shooting of a ranger station where the 
offenders emptied their automatic weapons only to stop and reload for a 
second pass was explained by the offenders, upon arrest, as their 
answer to federal management of forest and parklands. In effect those 
inside the ranger station nearly gave their lives for performing their 
jobs. The drive-by shooting is but one among many examples of blown 
gates, car bombings and arsons where land management employees and 
federal property are the clear targets of violence. The examples I cite 
are not, however, the work of eco-terrorists but crimes committed to 
service a radical right philosophy that clearly advances the ``take 
over'' of national lands from federal management and the American 
people. I would submit that such a view is at least as worthy of a 
public policy response as the one advanced by eco-terrorists.
    In spite of these well known, and documented cases of domestic 
terrorism, little has been done to address these concerns. In fact, in 
the wake of the Oklahoma bombings, federal legislators actually 
advanced legislation to disarm land management officers to include 
Forest Service Law Enforcement Officers. In my article concerning 
crime, criminals and guns in these settings, I point out the 
nonsensical nature of this proposed policy. Documented crime in these 
settings has been escalating since 1990. During my research, 255 known 
offenders were identified of which 85% lived in close proximity to the 
National Forest under study. Forest Law Enforcement Officers, on 
average, contacted at least one individual during their daily patrol 
that was visibly armed. Of all the people encountered during this 
research by Forest Law Enforcement Officers, 37% were visibly armed. 
Criminal history research on weapons offenders encountered in natural 
settings reveal an astonishing profile where, on average, these 
offenders have 7.8 prior offenses of which half were felonies. One 
individual in this research accounted for 48 prior offenses. To 
actually suggest disarming Law Enforcement Officers in the face of this 
reality sent a strong message to those charged with land management.
    Other, very strong signals have been sent to Forest Service Law 
Enforcement Officers to suggest that addressing forest crime in a 
meaningful way will not be rewarded. While the $40 million dollars of 
damage attributed to eco-terrorist groups such as the Earth Liberation 
Front is clearly unacceptable and should be addressed, it pales in 
comparison to the $100 million dollar annual loss attributed to timber 
theft from National Forests. Yet in spite of this chronic and well 
documented property crime, efforts to address this loss by Forest 
Service Enforcement Officers have been overtly stopped. The disbandment 
of the Forest Service Timber Theft Investigations Branch in 1995, and 
the retaliation against its whistle blowers, was perhaps the most 
visible effort to stifle meaningful enforcement. But others exist as 
well such as the systematic dismissal of large timber theft cases, and 
the recent presidential pardon of a convicted timber theft offender.
    Even more profound efforts to limit a law enforcement response to 
timber theft occur as part of a complicated system of internal Forest 
Service practices based on the view that timber theft is nothing but a 
folk crime committed by basically good people. Such a view empowers 
organizational practices that encourage officers to ``look the other 
way'' or face real organizational pressures to conform or get out. Law 
enforcement officers consistently pointed to such practices as a 10% 
over-cut provision in timber sale contracts, known monetary thresholds 
of $50 thousand dollars below which there would be no follow-up 
investigation by central office investigators, and fatal flaws in the 
handling of cases submitted to law enforcement officers thus preventing 
prosecution. When combined with poorly equipped and funded enforcement 
programs these operational practices effectively discouraged meaningful 
pursuit of timber thieves.
    The effect of systematically ignoring timber theft has been to 
create an uneven playing field in the timber industry for those that 
choose to play within the rules. More importantly to systematically 
ignore the theft of trees worth millions of dollars each year is as 
blatantly wrong and immoral as looking the other way while a 
corporation fix's the price of electricity as it is also stealing its 
employee's retirement. In both cases greed promises to bankrupt the 
future lives of those to follow. If there is doubt about this, all one 
has to do is compare the impact of unsustained forests on a displaced 
logger, with the views of a 59 + year old Enron employee.
    Based upon my research and experience it seems clear to me that 
meaningful policy to address the full range of crime, terrorism and 
lawlessness is long overdue in America's forests. The first step is to 
empower and fully fund meaningful law enforcement in the National 
Forests. The core of this effort should be built around the policy of 
``blind justice''. This policy would simply require the full and 
effective enforcement of the law against ALL who choose to offend 
regardless of where on the political spectrum one might shop for their 
justification. Specifically, terrorists who offend in the name of the 
environmental protection or terrorist who offend in the name of the 
wise use movement should be found and prosecuted to the fullest. 
Criminals who steal trees should be treated in the same way as those 
criminals who destroy property. They are both crimes and those who do 
those things are criminals.
    Anything short of the policy of blind justice will reveal a policy 
that is at a minimum based upon a distorted view of crime and 
lawlessness in our nations forests. It follows that these distortions 
will promote irrelevant means to manage the full array of crime that 
exists, often vilifying some to the exclusion of others. At its worst, 
anything short of a policy of blind justice will lay transparent the 
bias's it serves and further undermine Americans respect and confidence 
in the rule of law and the commitment to doing the right thing. I urge 
you to adopt and fully fund a policy of ``blind justice'' in our 
nations forests.
    In support of my testimony I have requested that three of my 
articles be placed in the record. These articles are entitled:
    1. L``Crime, Criminals and Guns in Natural Settings: Exploring the 
Basis for Disarming Federal Rangers'', American Journal of Police, Vol. 
XV, No. 4, 1996.
    2. L``Looking the Other Way: The Institutional Accommodation of 
Tree Theft'', Qualitative Sociology, Vol. 20, No. 3, 1997.
    3. L``Taking the Forest: The Shared Meaning of Tree Theft'', 
Society and Natural Resources, Vol. 11, 1998.
    Thank you for your attention to this most important issue.
                                 ______
                                 
    NOTE: The following documents have been retained in the Committee's 
official files.
    <bullet> L"Crime, Criminals and Guns in Natural Settings: Exploring 
the Basis for Disarming Federal Rangers", American Journal of Police, 
Vol. XV, No. 4, 1996;
    <bullet> L"Looking the Other Way: The Institutional Accommodation 
of Tree Theft", Qualitative Sociology, Vol. 20, No. 3, 1997; and
    <bullet> L"Taking the Forest: The Shared Meaning of Tree Theft", 
Society and Natural Resources, Vol. 11, 1998.

    Mr. McInnis. Thank you, Mr. Pendleton.
    Well, our hearing has covered a broad area from tobacco to 
Enron, but the focus of course is the forests.
    Let me ask you, Mr. Pendleton, I am a little confused. When 
you talk about timber theft, are you also inferring or 
concluding within that definition a contract that you think is 
below cost, or tell me what you mean by it. I see timber theft, 
somebody pulling chain saw up and cutting down timber and 
putting it on timber trucks and hauling it off. Are we talking 
about the same thing on timber theft?
    Mr. Pendleton. Well, actually, in my article ``Taking the 
Forest: The Shared Meaning of Timber Theft,'' based on my data, 
came up with a spectrum of types of timber theft. And I'm sure 
those in the Forest Service that are here could probably 
elaborate on that. But basically I found three types, the kind 
that's affiliated with legitimate timber sale, and that's where 
boundaries are expanded, but within a contract, trees are taken 
beyond what is allowed. The second kind is where they come in 
and set up a logging show and take trees out of an area where 
there is no timber sale, just come in and take them, but they--
    Mr. McInnis. How do they get away with that?
    Mr. Pendleton. Well, I can give you a specific case that we 
found. They come in, and they set it up, and they log the 
trees, and they leave.
    Mr. McInnis. And the third?
    Mr. Pendleton. Yeah.
    Mr. McInnis. No, I mean, and the third?
    Mr. Pendleton. And the third is what I term tree poaching. 
This is when individuals go out, take trees, typically high-
value trees, cedar trees on the Olympic where we did most of 
our research. They'll high-grade them. They'll take the first 
40 feet of those trees, usually--or more, whatever they can 
get. Those type of offenders can range from somebody who's 
wanting to buy a new pickup to folks that are supporting a drug 
addict, and I have case samples of both.
    Mr. McInnis. And I have no tolerance for timber theft, and 
I just wanted to get the information. I might say to you that 
you said they looked the other way. I assume you are talking 
about the Federal employees?
    Mr. Pendleton. In my--
    Mr. McInnis. You say ``looked the other way.'' There are 
Federal employees that look the other way, or am I confused?
    Mr. Pendleton. No, you're not confused.
    Mr. McInnis. I might add that if that is true, then Ms. 
Flora might say that is kind of an aggressive act of Federal 
employees, accusing them of looking the other way. I mean are 
you suggesting the Forest Service intentionally looks the other 
way when somebody sets up a logging operation they are not 
entitled to do, and starts logging the forest?
    Mr. Pendleton. No. Actually, I will use the case of the 
middle ground. This is a Littleton crime, that it was called. 
It actually happened on the Olympic National Forest. There was 
an unwritten, as I'm told doing my research, agreement or 
understanding that any theft below $50,000 would not be 
investigated.
    Mr. McInnis. That is what you have been told, but you 
haven't seen policy or the forest supervisor hasn't told you 
that?
    Mr. Pendleton. There was no written policy on that, they 
made certain.
    Mr. McInnis. And I will be honest with you. Some of the 
complaints that I hear from some of our forest people are these 
kind of accusations. Those people, and Ms. Flora, I agree with 
you, I think that would be one of the toughest jobs in the 
world, working Forest Service in my area.
    By the way, I know of no one that, at least that I run 
around with, that is--won't just put their kids in school, I 
mean they still have a lot of respect. But they are constantly 
attacked from both sides, the environmental groups that are 
more activist don't think that they are doing enough. The other 
groups don't think they are doing enough. I think we have to be 
real careful about what somebody told you was the unwritten 
policy of the Forest Service. The people I deal with at the 
Forest Service try and stick by the book. They use a little 
common sense, which I am glad to see, but they appear to me to 
stick by the book pretty well, and they are very professional 
employees.
    Ms. Flora, let me ask a couple of questions. If in fact 
what you are saying is occurring--and I don't doubt that it is; 
I am just not aware of it--one of the obligations, I think of a 
Federal employee--now, remember we have police officers by the 
tens of thousands that take abuse every time they write a 
ticket. I used to be a cop. Mr. Pendleton used to be a cop. And 
I would have people call me names in the book and everything, 
that they were not speeding, et cetera, et cetera. That is part 
of the job. I mean you have got to put up with some of that. 
These people are angry. You are citing them, so you are going 
to have a certain amount of what you might call harassment. But 
the more serious stuff that you mentioned in your comments, 
some of the incidents that you came up with, for us to do 
something about it, I certainly encourage the Forest Service 
employees in my district, let us know about it. Give us 
specific times, incidents and who the individuals are who are 
involved, because I hear this from you, but in my 10 years 
representing one of the largest districts in the United States, 
and one of the largest districts with forest and Government 
land, I have yet to even have an entry-level Federal employee 
come to me and make some of these allegations. So I would 
certainly encourage specific information, because we shouldn't 
tolerate it. Go ahead.
    Ms. Flora. Thank you. You know, it's extremely 
unfortunate--and I am not coming here at all with the intent to 
castigate Members of Congress or politicians, but what I found 
in my experience in the State of Nevada, and I'm not going to 
extrapolate, although I've heard lots of hearsay from other 
rural areas, in Nevada it was largely elected officials at the 
State, local, and indeed the Federal level, who were 
encouraging this kind of behavior by statements they made.
    I certainly agree with you, as all Forest Service people 
do, yes, you will come across angry citizens who want to vent 
at you, and that is part of the job, and that's OK, as long as 
it doesn't get personal, and as long as it is not accompanied 
by threats. And yet, in the instance of the--of Nevada, when I 
brought to the attention of one of our congressional 
representatives the extent of the abuse in the media, of 
calling of--well, for instance, a letter published in the local 
newspaper that said, ``Kill the Fed Nazis before they murder 
your wife and children.'' I said that was an inappropriate 
remark. And he said, ``In the media, what do you expect? You're 
Federal employees.''
    Likewise, I could go on with a list of comments made by a 
lieutenant Governor, ``God bless these people. I'm behind them 
100 percent,'' when there was destructive acts proposed and 
indeed carried out by a county commission. A county commission 
gives their county road crew leader, not only the 
authorization, but the direction to plow up 900 feet of river 
that has the last southernmost population of bull trout in it, 
that to me is an act of eco-terrorism, and yet it was committed 
by a public official who bragged about it.
    Mr. McInnis. Well, I should tell you that public officials 
have no immunity, and I can tell you that I can open the news--
and I am not called a Nazi, because the papers don't print 
that, and I am surprised the paper printed the remark as you 
said. But you have got to have a certain amount of tough skin 
when you are public service. I mean, we face--there is not a 
day that I--probably 120 newspapers, not a day that I don't get 
some of what I consider abuse, but that goes with the 
territory.
    But there is a line upon which they cross that it is 
inappropriate, and I think the Nevada incidents that you 
mentioned cross that line.
    Ms. Flora. Thank you.
    Mr. McInnis. But I do want to point out that in my area, 
and I think through most of the country, the Forest Service, 
our Wildlife officer--and our Wildlife officer writes tickets 
to people, the ones I am thinking of, and people tell him 
``Thanks'' on the way out. I mean most of our communities have 
a lot of respect in the Federal employees, the Forest Service, 
BLM and fit in. That is not to say we don't disagree. I wrote 
my own forest plan because I disagreed with one, but we did it 
professionally.
    So I appreciate you coming here today and making that 
testimony, and I will turn it over to Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Chair.
    Ms. Flora, on behalf of all the Forest Service personnel, I 
want to thank you for your service and all Forest Service 
personnel. It is a very tough job for a lot of different 
reasons. We pass the laws, and you are on the firing line on 
implementing, very difficult.
    I read in your written testimony about Guy Pence, I believe 
a predecessor of yours in the forest where you worked, whose 
personal vehicle was bombed apparently. And was a suspicion 
that that was people who objected to his enforcing various 
environmental provisions, although I understand there was never 
any prosecution.
    What can we do, in your view, what is the best thing that 
Congress ought to think about doing to help people have greater 
confidence, Forest Service personnel, where the rubber meets 
the road. What is the best we can do to help you have 
confidence to deal with that kind of threat and others?
    Ms. Flora. Well, there is a number of things. One, and I'm 
sorry to harp on this, but it was a significant problem for me, 
and that is that as elected public officials, that you support 
the laws that are passed by Congress instead of attacking them 
or encouraging others to attack them.
    Second, support for Federal employees. Many of the comments 
that have been made at this hearing are music to my ears in 
terms of appreciating the hard work and the dedication of 
Federal employees, particularly in the Forest Service and other 
land management agencies. I think that providing as much 
support as possible for the law enforcement entity associated 
with Federal land management is extremely important. We have 
very few law enforcement officers on the ground, despite 
being--despite public claims again by elected officials that we 
have armed employees on every acre, I can tell you that I had 
one employee authorized to carry a gun, and he covered an area 
that was roughly from Raleigh, North Carolina to Philadelphia 
over to Pittsburgh, one person.
    I think that emphasizing and supporting community efforts 
at collaboration and consensus would be extremely important. We 
love to have that kind of support, because we find that when 
individuals do have a chance to get together in a room, get to 
know each other personally, that it is very hard to continue 
the vicious name calling that goes on when the person is only a 
name and not a face.
    And I think that we need to ensure that all activities that 
take place on public lands are indeed sustainable activities, 
activities that are not bankrupting the natural capital of our 
public lands. We tend to look at things very strictly from the 
economic standpoint, but we often fail to consider the 
environmental and social costs that are attendant to those 
activities further down the line.
    Those would be good starters.
    Mr. Inslee. Well, I thank you. That is a tall order. We 
will start at the beginning.
    Mr. Wasley, I was looking at some statistics that seem to 
indicate from '95 to the year 2000 the number of criminal 
incidents have gone up dramatically, and the numbers I am 
looking at are about 144,000 in '96, up to 285,000 in the year 
2000, a pretty significant increase. And yet I am told that the 
number of full-time equivalents in law enforcement since '95 
has basically been frozen in the Forest Service. Is that the 
situation out there?
    Mr. Wasley. That's pretty much the situation. I would say 
that in 1996 when I took over the job, I had to redo the 
computer system, so I can't verify the statistics beforehand, 
so I can't verify that in fact there was such a quantum leap 
from 145,000 to 280,000. I will tell you that there has been a 
significant increase in the number of incidents. But I would 
like to clarify also that an incident is not necessarily a 
criminal incident. An incident could be a traffic accident. It 
could be a search and rescue. It could be anything that 
happens, anything that triggers a law enforcement investigation 
involvement in that action.
    Mr. Inslee. Right. I was looking at--the investigations 
appear to have almost actually more than doubled from '95 to 
'99. It seems like we are stretching law enforcement in the 
forest pretty thin. Is that a fair assessment?
    Mr. Wasley. I think that's a very fair assessment. If you 
look at the numerical strength, we probably have one officer 
for every 650 square miles, and now we are down to something 
like 125 special agents. 75 or so are actually field going 
agents. But we are spread thin.
    Mr. Inslee. Dr. Pendleton, in your view, what is the most 
important thing on the timber theft issue? Is it to make it a 
more serious crime or to have better investigatory resources? 
You are probably going to answer both, but--
    Mr. Pendleton. Well, I think that having the investigatory 
resources is very important, but I think also creating 
incentives for that not to occur. Business incentives, this is 
a regulatory environment, and a lot of the theft that occurs, 
occurs around affiliated timber sale.
    The most expensive decision you can make is to arrest 
somebody. It's expensive. And we're working in a regulatory 
environment and not just a criminal environment here. And I 
think the policy and the law needs to be sensitive to the 
distinctions between the two.
    But those that are blatantly stealing trees, then I think 
you do two things. You first of all keep them from purchasing 
timber a second time, and the data that I was presented is that 
currently that does not exist.
    And finally, those that persist, and particularly those 
poachers, I think that they deserve a criminal experience, 
because that's what they are.
    I think the resources to the agency and a policy commitment 
go a long way toward beginning to address these issues.
    Mr. Inslee. Thank you.AFTER 6 P.M.
    Mr. McInnis. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Wasley, I am tempted to ask you if the revenue from 
timber sales has decreased significantly over the last few 
years, and consequently the revenue that goes through the 
Forest Service that supports the law enforcement efforts, but I 
am not going to ask that, so don't answer.
    I do appreciate your testimony, all of you, and I want you 
to know that whether these acts of violence or terrorism come 
from the right or the left or any other place, we need to fight 
them, and those people need to go to jail.
    And I understand what you are talking about, Ms. Flora. I 
have seen some of those things happen, as an example, with the 
Roadless policy when they closed--not the Roadless policy--when 
they closed roads in the Targe National Forest due to grizzly 
bear habitat. People up there were very upset. They went in and 
bulldozed the roads, made some tank traps and a few things like 
that. No public comment, no input. And consequently, there was 
a lack of communication between the Forest Service and the 
community about what they were doing and why they were doing 
it. And consequently, when that type of thing happens, you get 
some upset people. And they did some inappropriate things. 
Normal, every day citizens that would not have done it under 
circumstances I think had appropriate communication between the 
community and the Forest Service existed. So when you say 
collaborative efforts and community support, I think that is a 
big key into trying to get some of these things solved.
    But one of the things that you mentioned, Mr. Pendleton, I 
believe you said the radical right trying to take over 
management of our Federal lands. I guess you are aware that 
there is a legitimate debate going on in Congress, in the West 
where most of those public lands are, about the new type of 
land management, using local input and collaborative efforts. 
Mr. Kemmis, the former mayor of Missoula, has written a book 
called ``The Sovereign Land'', talking about the need for more 
local input and so forth and for actually local management 
people that have some attachment to the land, to help manage 
these things and draw up management plans. And that is a 
legitimate debate that ought to be going on. So when we talk 
about local communities and states and stuff trying to take 
over management of Federal lands, I hope you don't include the 
legitimate efforts as radical right trying to take over 
management of Federal lands.
    Mr. Pendleton. No. My frame of reference is really around 
the crimes that were committed and those kinds of activities.
    Mr. Simpson. I appreciate that. You stated that efforts to 
address timber theft, which quite frankly, I have never--I am 
glad to hear this--not glad to hear it, but I had never really 
heard that it goes on that much. But you have stated that 
efforts to address timber theft by Forest Service law 
enforcement officers have been overtly stopped. You cite as an 
example the disbandment of the Forest Service Timber Theft 
Investigations branch in 1995. As I understand it, this task 
force was established to be a 3-year task force to make 
recommendations to the Forest Service. They submitted the 
report. Many of the recommendations, as I understand it, have 
been implemented, including a training model for law 
enforcement officers, and group coordination between law 
enforcement and land managers, and a data base linked for GIS 
for tracking incidents.
    How does the establishment of task force and the 
implementation of the recommendations equate to overtly 
stopping enforcement against timber theft?
    Mr. Pendleton. The disbandment of this task force?
    Mr. Simpson. Yes.
    Mr. Pendleton. Because it has eliminated an outside entity 
from coming in and examining these issues and pushing forward 
with an investigation without the burden of local pressure.
    What we have found, what is consistently reported, that it 
is not the culture in the Forest Service or in these 
communities to encourage meaningful investigation and 
enforcement of timber theft law.
    Mr. Simpson. Are you suggesting then that the 
recommendations of the task force, after their 3 years of study 
and input, that the recommendations are not being implemented 
by the Forest Service?
    Mr. Pendleton. I don't have any information about that. I'm 
sorry.
    Mr. Simpson. Well, I thank you. And I do thank you for your 
testimony, and I want you to know that if there are things 
going on, I don't care who they are from, right, left, in 
between, up or down, we need to know about it because I am 
willing to take whatever action is necessary to try and stop 
that. I know that some of--not some of--our public employees, 
quite frankly, are our greatest asset. Sure there are times 
when some of them get out of hand. There are some times when 
actually congressmen get out of hand. But I do appreciate your 
efforts and look forward to working with you to try to address 
some of these problems, because it ought to be a safe 
environment for our Forest Service, BLM people and others to 
work in.
    Mr. McInnis. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Thanks to the witnesses for your testimony.
    Dr. Pendleton, I think I heard you say that you are 
estimating $100 million in timber theft. Did you say that?
    Mr. Pendleton. I used that figure that--the range has been 
between 10 million and 100 million over quite an extended 
period of time. The fact of the matter is that we have no solid 
data on this.
    Mr. Nethercutt. And you also indicated there has been some 
dismissal of timber theft cases and a pardon of timber thief or 
thieves? Did I hear you right?
    Mr. Pendleton. Yes. It seems that President Clinton 
pardoned a person that had been convicted of, or been involved 
and I guess convicted of timber theft or some involvement 
therein. I use that because I don't believe that the Federal 
enforcement employees are encouraged, and when they see 
something like that, it discourages them.
    Mr. Nethercutt. I appreciate that. I think that was wrong 
to do that. And we shouldn't. I agree with my colleagues that 
this is serious, whether it is right or left, that criminal 
acts ought to be prosecuted.
    I am on the Appropriations Committee, Mr. Wasley, and the 
Interior Subcommittee that deals with the Forest Service and 
the funding for the Forest Service. Are you aware what the 
budget request might be for this year in terms of prosecuting 
timber theft or other actions as Dr. Pendleton has testified 
to?
    Mr. Wasley. To my knowledge, there is no specific budgetary 
request for such prosecutions.
    Mr. Nethercutt. Is it adequate in your current budget for 
you to pursue the timber theft cases as you would want to, or 
is the funding inadequate in your budget for that purpose?
    Mr. Wasley. Well, I deal with the budget as given to me. We 
have competing priorities. We don't just do, as you well know, 
just timber theft. We do Archaeological Resource Protection Act 
violations. We do cannabis suppression. We have a whole range 
of stuff. So we make do with what we get.
    Mr. Nethercutt. I understand, and it is never enough, I 
know, in some of these agencies.
    Dr. Pendleton, I want to ask you another question about 
terrorism. Is it your--we have had testimony here today about 
eco-terrorism and agroterrorism and so forth, acts that were 
identified as terrorism by the FBI agent who testified.
    Is it your judgment that the timber theft problem fits the 
definition of terrorism that has been used here today as it 
relates to ALF and ELF and others that we have discussed?
    Mr. Pendleton. No, no.
    Mr. Nethercutt. It does not?
    Mr. Pendleton. No. I was asked to come here to talk to you 
about my research around timber theft, but no.
    Mr. Nethercutt. I understand. Let me ask Ms. Flora. If you 
in your experience with the Forest Service, with government 
service, or you, Mr. Wasley as well, have experienced or had 
any of your people experience the consequences of tree spiking 
or other terrorist acts in the forest, as they have been 
discussed today? Does that affect your people?
    Ms. Flora. I'm not sure I understand the question.
    Mr. Wasley. Well, I think I can answer some of that. It 
inspires me to proceed more vigorously for those people who 
perpetrate such acts. I'm a policeman, and that's what I get 
paid to do is lock the people up.
    Mr. Nethercutt. Yes, sir. Let me ask you, if you could, Mr. 
Wasley, to rank the top four criminal activities investigated 
on U.S. Forest Service lands?
    Mr. Wasley. Far and away, the most significant financial 
impact would be from cannabis or marijuana production. Arson, 
well, then arson certainly is huge, especially given last 
year's terrible, terrible fires. And then it goes down from 
there. Timber theft is up there. I would take some disagreement 
or have some disagreement with some of the colleagues here on 
thwarted efforts. I have never been thwarted in any 
investigation in my 34 years of service, ever. And woe be unto 
somebody that tries to thwart me in a criminal investigation.
    But criminal timber theft is--mostly for us is firewood 
theft. It is dealt with by citation. Don't forget also the 
timber harvest of the Forest Service is down dramatically. 
Hence the amount of theft on large contracts is going to go 
down proportionately.
    Mr. Nethercutt. I some of that theft, Dr. Pendleton, or the 
exceeding of the boundaries of a timber sale, due at all to a 
diseased forest? In other words, my understanding is you are 
going to--if you are going to harvest a diseased forest, you 
have got to go beyond the boundaries in order to stop the 
beetle infestation, for example. Are you referencing in terms 
of your exceeding of boundaries of timber sales, or does that 
include it or is it something different?
    It seems to me that that would be a legitimate harvest of 
tress that would be approved by the Forest Service, so I 
wouldn't think that that would be tree theft. I think that the 
definition of tree theft is when trees are taken that is not 
authorized, in the context of a sale or some kind of an 
environmental issue or whatever it would be.
    Mr. Nethercutt. I thank you all. Thank you especially for 
your University of Washington connection, and we are glad you 
are here. Thank you.
    Mr. McInnis. Mr. Wasley, I need to do a couple quick follow 
ups to clarify something. To be honest, before I heard Mr. 
Pendleton's testimony, and I was pretty surprised by the number 
he gave us, I was trying to think of timber theft. I think I 
can understand somebody going outside the boundaries, whether 
there is intent or not, but the only thing I can really think 
of that I have ever seen is firewood, where they use firewood, 
and you have clarified that.
    And I want to clarify these statements, because these 
statements go on the record. Mr. Pendleton has said--and I 
quote from his statement. ``Such few empowers organizational 
practices that encourage officers to look the other way.'' In 
your law enforcement practice with the Forest Service, have you 
ever investigated a case of an officer looking the other way, 
or a Forest Service employee looking the other way?
    Mr. Wasley. No. If I found one, I would fire him 
immediately.
    Mr. McInnis. Have you ever fired anybody immediately for 
looking the other way?
    Mr. Wasley. No.
    Mr. McInnis. Thank you.
    And finally, Mr. Pendleton, I am very concerned about your 
statement, based on the question that you just gave to Mr. 
Nethercutt. Your statement says, and I would like you to 
clarify it, because I think it is important, and I am quoting 
exactly: ``It pales in comparison to the $100 million annual 
loss attributed to timber theft from the national forest.''
    Now, that is the number, when I was listening to you, and 
you go through for--I was a little stunned by that number. I am 
trying to figure out who sets up an operation and steals $100 
million. Now, in response to Mr. Nethercutt's question, you 
said that there is no data kept in regard to that, that over a 
long period of time it could range from 10 to $100 million. 
Now, I am not sure which is accurate, whether your last 
statement is accurate or your first. I don't want you 
submitting a statement here alleging $100 million theft if in 
fact you don't have the data to support that.
    Could you clarify that for me?
    Mr. Pendleton. Sure, I'd be happy to. What I said exactly 
is it pales in comparison to the $100 million annual 
estimates--
    Mr. McInnis. It says ``annual loss.'' It doesn't say 
``estimate.'' I am reading your statement right here in front 
of me.
    Mr. Pendleton. Well, OK.
    Mr. McInnis. Loss attributed, $100 million annual loss. 
This is your statement on page 3, about three-fourths of the 
way down. I am not trying to put you on the spot. I am just 
trying to say--
    Mr. Pendleton. No, I'm--
    Mr. McInnis. $100 million a year.
    Mr. Pendleton. That's a lot of money.
    Mr. McInnis. You are darn right it is a lot of money. And I 
want to know--but you said there wasn't data that could support 
that number.
    Mr. Pendleton. What I'm repeating is a figure that's been 
used over a period of years, that--
    Mr. McInnis. OK. So it is a number, that as the earlier one 
you said--
    Mr. Pendleton. Well, actually I think--
    Mr. McInnis. Let me clarify. You said earlier in your 
statement, you clarified for me that in fact you had heard that 
it was an unspoken policy of the Forest Service to look the 
other way. Now you are clarifying further in your statement 
that this is a number that you have heard around the 
communities--
    Mr. Pendleton. No, I didn't say I heard it around the 
communities, sir. This number was actually in congressional 
testimony by a former head of the Forest Service, Mr. Robinson, 
gave that exact estimate. I believe it was in 1992. It's a 
number that's been repeated.
    Mr. McInnis. This says annually. Do you have hard data? And 
I am not trying to harangue you. Mr. Pendleton, let me ask you 
this. Do you have hard data that supports $100 million a year 
timber theft from the national forests?
    Mr. Pendleton. I do not.
    Mr. McInnis. Thank you.
    Mr. Inslee, you can do some follow up, and then we will 
wrap it up.
    Mr. Inslee. Thank you. I have heard that number, and the 
source of that is the congressional research service report to 
Congress entitled ``Forest Service Timber Sale Practices and 
Procedures Analysis of Alternative Systems'', which said, as I 
read it, stolen timber could be worth as much as $100 million a 
year. I mean is that the source of the information?
    Mr. Pendleton. It is, but it has been repeated in other 
settings as well. I mean, I think that probably the important 
policy question is here, why is it we don't have an accurate 
number? Because I think that one of the issues that we 
certainly confronted when we were doing our research was that 
the data collection system in the Forest Service was woefully 
inadequate.
    Mr. Inslee. I have a question just to the whole panel, and 
if Mr. Nethercutt could help us too, I would appreciate it. Mr. 
Nethercutt has proposed some legislation, and I am wondering if 
any of you have looked to see to what extent it may help in 
reducing the occurrence of the crimes we have talked about 
here, either assaults on personnel, or timber theft, or bombing 
of Federal offices by folks who are against environmental 
protection. Do you know, would Mr. Nethercutt's legislation 
help in any of those regards? I am happy to hear from anyone on 
that.
    Mr. Wasley. I, unfortunately, only got the legislation last 
night. I haven't had a chance to review it in depth, but I will 
say that anything that provides for information sharing and 
two-way flow of information, not just into some black hole that 
would never get out again, I would say would definitely be of 
value.
    Ms. Flora. I'd certainly concur with that. Any action that 
can curb uncivilized, hostile, violent behavior is excellent. 
The problem that still faces us are these unprosecutable 
threats and harassment and intimidation. I don't know that 
there is a legislative answer to that. There is a social 
behavioral answer to it, but I don't know that one can 
legislate civility.
    Mr. Pendleton. I have not had a chance to see the 
legislation, but I do know that just the fact that this hearing 
has occurred and legislation is proposed, will go a long way to 
send a message to the people in the Forest Service that in fact 
there is a strong interest in these issues, and that's a good 
thing.
    Mr. Inslee. Mr. Nethercutt, could you help us on that? 
Would your legislation apply to these types of crimes?
    Mr. Nethercutt. It may, Mr. Inslee, because it would 
provide information, and it would provide research assistance 
in terms of preventing agroterrorism. The reason I asked Dr. 
Pendleton the question about whether a timber theft rises to 
the level of terrorism as identified by the FBI, was--I was 
trying to ascertain whether his concern about timber theft and 
other activities that he is testifying about would come under 
the definition. And I am not so sure it would under the 
definition of terrorism, because there has got to be some 
political purpose and long-term strategy to accomplish it.
    But my sense is--and I would be happy to work with you, 
amend your legislation, to make sure that the FBI has a chance 
to get the timber thieves or any kind of activity that is 
illegal that is within their jurisdiction in order to prevent 
it.
    Mr. Inslee. Well, perhaps we can talk about that. Thank 
you. Thank you.
    Mr. McInnis. Mr. Inslee, I just want to clarify that the 
CRS report that you have, the beginning of the sentence or the 
beginning of the paragraph that you extrapolated from starts 
with, ``The extent of theft is unknown.''
    Second of all, Ms. Flora, I am trying to remember the 
organization--but on an unrelated matter, but a matter that is 
related to this Committee, we are going to have the lynx 
hearings coming up, and I think--we had some biologists who 
have admitted planting lynx here and so on. And I took that 
issue on, as did a number of my colleagues, and I believe there 
was a press release of an organization that accused me then of 
breaking the law because I questioned the biologists. I am not 
sure if that is your organization or not.
    But let me clarify one thing. I think it is important 
that--because there were a number of references made about 
elected officials, I don't think any elected official or any 
individual has a right to be derogatory in the sense of a 
verbal assault, but I think it is our responsibility to 
question Federal employees if we think that a policy is 
incorrect, if we think a Federal employee has misbehaved. I 
mean we get questioned every day. But I want to make sure that 
there is clarification here that we in Congress, just like Mr. 
Wasley has an obligation to question actions of their employees 
as kind of the check and balance there.
    Anyway, I would invite you to that hearing next week.
    I want to thank the panel very much for your cooperation.
    Mr. Nethercutt. Mr. Chairman--
    Mr. McInnis. We had better wrap it up here. Yes?
    Mr. Nethercutt. May I just ask one quick follow-up question 
that went to Mr. Inslee's question?
    Mr. McInnis. Yes.
    Mr. Nethercutt. Mr. Wasley, is there any good starting 
point in the Forest Service for information collection as it 
relates to theft or exceedences on timber sales or any of that? 
Is there any mechanism or system in place that we might start 
from in order to address this problem as well as the eco-
terrorism problem that we are so concerned about?
    Mr. Wasley. That is a complex question, and I am not going 
to try to beg it, but I think we would do better to discuss it 
with our timber management folks and get you a written answer 
on it.
    Mr. Nethercutt. Yes, sir. No, that is fine. We are going to 
look at it in Interior Appropriations and funding of programs. 
So it might be something we might want to think through and 
address. But thanks so much.
    Thanks, Mr. Chairman.
    Mr. Inslee. Mr. Chair, I would ask unanimous consent to 
present Representative Acevido-Vila's statement and a statement 
from the Klamath Tribes regarding some incidents. And one more 
that I am looking for. A statement from Robert Elde, Dean of 
College of Biological Sciences from the University of 
Minnesota. Thank you.
    Mr. McInnis. No objection, so ordered.
    [The prepared statement of Mr. Acevedo-Vila follows:]

 Statement of The Hon. Anibal Acevedo-Vila, Resident Commisioner from 
                    the Commonwealth of Puerto Rico

    I thank Chairman McInnis, Ranking Member Inslee, the witnesses here 
today, and my colleagues for focusing on eco-terrorism and lawlessness 
on the National Forests. My district plays host to the Caribbean 
National Forest (CNF), a 28,000-acre treasure that is the only tropical 
forest in the U.S. National Forest System. While the CNF (commonly 
known as El Yunque) provides a unique and lasting experience to its 
visitors and plays an important role in our National Forest System and 
for the environment of Puerto Rico, it is far from immune to 
lawlessness and eco-terror.
    Over the past 50 years, visitations to the CNF have continued to 
escalate. More than 850,000 people visit the CNF annually and over half 
of these visitors are from the 50 states. Additionally, there is an 
increasing human population living within the urban interface between 
municipalities CNF lands. These factors have created an almost 
insurmountable challenge when faced with having to provide protection 
and safety of visitors and Forest Service employees, compliance with 
regulations and protection of Government property and National Forest 
resources.
    Today there are two full time Law Enforcement Officers (LEOs) and 
one full time resident supervisor expected to cover a 28,000-acre area 
that receives intense visitation and must be protected and patrolled on 
a 24-hour basis. The CNF LEOs not only have to combat crimes against 
persons, they also enforce regulations and laws relating to forest 
product theft, destruction of Government property, sanitation, 
encroachments, closure orders, traffic, occupancy and use, off road 
vehicles, and regulations for developed and undeveloped recreation 
areas.
    The fact that we are here today focusing on eco-terror and 
lawlessness on National Forest Lands shows that this problem is clearly 
not unique to the Caribbean National Forest. This issue has become a 
national problem. Staff levels that once proved capable of deterring 
crimes associated with National Forest System lands are no longer 
sufficient.
    The National Forest System has more acreage and visitations than 
the National Park System (NPS) and the Fish and Wildlife Service 
(USFWS) combined. Reported criminal activity is significantly higher on 
National Forest System lands too, yet there are some six times the 
number of LEOs serving under the NPS and USFWS than serving under the 
FS. Furthermore, each FS LEO is responsible for patrolling an average 
area of 591 square miles, while an NPS LEO patrols an average area of 
56 square miles and an USFWS LEO patrols an average area of 151 square 
miles.<SUP>1</SUP>
---------------------------------------------------------------------------
    1 These numbers are based upon a 1997 U.S. Marshall Service survey.
---------------------------------------------------------------------------
    In fiscal year 2001, there were 751 reports of criminal activity in 
the CNF, 244 warning notices issued, and 413 documented incidents left 
unresolved. Many of these crimes are considered serious and violent. To 
exemplify the lawlessness and eco terrorism in the CNF, I have listed 
below some recent examples of the crimes we face in El Yunque. They 
include:
    <bullet> LFebruary 1, 2002 - Forest visitors were robbed at 
gunpoint while visiting the Big Tree Trail. A stolen Lexus vehicle 
occupied by three suspects was identified as responsible for the 
incidents. After a chase involving FS Law Enforcement and 
Investigations personnel, two suspects were apprehended and the Lexus 
vehicle was recovered.
    <bullet> LNovember / December, 2001 - Two illegal alcohol 
production facilities that were operated on FS lands were found and 
destroyed.
    <bullet> LJuly 2001 - Two forest visitors were victims of a car 
jacking on Hwy. 191. Their vehicle was stolen at gunpoint by two 
suspects.
    <bullet> LForest visitors were robbed at gunpoint while they were 
parked at the Las Cabezas overlook. Credit cards, cash, and other 
belongings were stolen.
    <bullet> LApril 2001 - Endangered Puerto Rican Parrots stolen. 
USFWS Parrot aviary is burglarized. Suspects removed 2 endangered 
Puerto Rican Parrots and 8 Dominican Parrots. The case is still under 
investigation by USFWS and FS.
    <bullet> LStream Poisoning and Illegal Shrimp Harvesting on the 
Caribbean National Forest - The Caribbean National Forest currently 
does not allow fishing in the Forest. Yet, illegal shrimp harvesting 
has been an on-going issue on the CNF for many years. One method of 
illegal shrimp harvesting is adding chemicals streams which cuts off 
the source of oxygen, causing the shrimp to rise to the surface where 
they are then caught in nets. The illegal use of chemicals such as 
bleach and pesticides has been increasing over the years.
    <bullet> LRecently, a man with a criminal record was detained by 
citizens who found him within the Caribbean National Forest using a 
dangerous pesticide known as cypermethrin which can affect the central 
nervous system of humans and is highly toxic to fish and aquatic 
invertebrates.
    <bullet> LDuring the last year the number of official and 
unofficial reports of these incidents have been increasing 
considerably. Within a one-month period, five incidents were reported. 
Lack of specialized law enforcement personnel in the Forest make the 
detection of these violations difficult.
    Mr. Chairman, these examples represent only a few of the recent 
crimes committed in the CNF. I believe this committee must work to 
provide adequate resources to our law enforcement personnel in the 
Forest Service. Too much is at stake to let these problems go 
unchecked. The Forest Supervisor in the CNF, Mr. Pablo Cruz, has made 
clear that he and the LEOs face incredible challenges with very limited 
resources. We, as Members of this Subcommittee should focus on 
authorization legislation that will provide adequate and necessary 
resources to the Forest Service to protect both the visitors and the 
cherished natural resources of these important lands.
    I look forward to working with the Subcommittee to find necessary 
and lasting relief to the problems caused by lawlessness and eco-
terrorism in the National Forest System.
                                 ______
                                 
    [The statement of Mr. Elde submitted for the record 
follows:]

    Statement of Robert Elde, Dean, College of Biological Sciences, 
                        University of Minnesota

    Mr. Chairman:
    Thank you for the opportunity to present this testimony on a recent 
eco-terrorism incident at the University of Minnesota.
    On Tuesday, January 28, the Earth Liberation Front (ELF) claimed 
responsibility for a fire set at the construction site of the 
University of Minnesota Microbial and Plant Genomics Building early on 
the morning of Saturday, January 26. The fire was started with 
incendiary devices placed in a construction trailer, a bulldozer, and 
other equipment. It spread from the construction trailer to the Crops 
Research Building, where it destroyed a soil testing laboratory not 
related to genomics research. Preliminary cost estimates of the damage 
were $250,000, but that is expected to be much higher after costs of 
lost research are calculated.
    Also damaged were important laboratory instruments related to plant 
breeding and a large amount of graduate thesis research, much of it 
irreplaceable.
    Fortunately, there were no deaths or injuries, but there could have 
been. It is not uncommon for faculty or graduate students to work in 
labs after hours on evenings and weekends. Moreover, the site is 
adjacent to a fuel tank. If the fire had spread to the tank, there 
could have been a huge explosion with massive damage and loss of life. 
This incident goes far beyond malicious mischief or vandalism. It is, 
in fact, domestic terrorism.
    In issuing a communique taking credit for this terrorist act, ELF 
disclosed information that only someone with first-hand knowledge of 
the arson would know, lending credibility to its claims of involvement.
    This is not the first time ELF has struck here at the University of 
Minnesota. Two years ago, the group attempted to ``free the seed'' by 
setting fire to a greenhouse which destroyed projects involving 
genetically altered oats.
    Perhaps most disturbing is that the ELF's actions were based on 
inadequate information. The group targeted our building because they 
believe our research is harmful to the environment; in fact, the 
opposite is true. The purpose of our genomics program is to understand 
how genomes enable and perpetuate all life on the planet. This basic 
research could lead to ways to reduce use of pesticides and fertilizers 
in agriculture, find renewable alternatives to fossil fuels, identify 
new strategies for cleaning the environment, and preserve ecosystems.
    The most critical problems the human race faces are biological. 
There will be nine billion people on earth in 50 years. With current 
practices we cannot provide the food, clothing, and fuel for this 
population. Ecosystems will be destroyed by this growth and the 
pollution it causes. These problems will be solved by biologists using 
biotechnology, not terrorists with matches and inflexible views.
    At the College of Biological Sciences, researchers have developed 
methods for engineering bacteria to consume pesticide spills in soil. 
And the University is home to the Department of Evolution, Ecology, and 
Behavior, one of the leading ecology departments in the United States. 
These ecologists, who help shape national environmental policy, are 
interested in working with biotechnologists to find ways to restore 
ecosystems. They do not support ELF.
    Genomics research is being conducted at virtually all public and 
private research universities and is supported by the federal 
government. Universities are the place where this kind of research 
should be developed because we can ask the hard questions. The 
University of Minnesota is a place where all points of view can be 
expressed. There is no need for terrorism. Ironically, the Microbial 
and Plant Genomics facility was designed to provide an open environment 
for genomics research where everyone and all points of view would be 
welcome. But as a result of this incident, we may be forced to secure 
the building and restrict access.
    In fact, the University of Minnesota formally asked the Minnesota 
state legislature for an emergency appropriation of $4 million to help 
us increase security at all our facilities in the wake of September 11. 
While taxpayers might be better served in having $4 million invested in 
the provision of need-based financial aid, the hiring of top-notch 
faculty, or the funding of intriguing and beneficial research, today's 
post-September 11 reality is that security is now a top priority. 
Unfortunately, the ELF terrorism only underscores that need.
    Ironically, we have never received any communication from ELF 
inquiring about our research or asking to speak with us to explain 
their concerns. It's curious that they destroy without asking 
questions. As scientists and teachers, it is our job to educate the 
public about the value of our research. We welcome the opportunity to 
educate members of this group and to listen to their views. Instead, 
they seem only interested in perpetrating acts of terrorism.
    In the letter claiming responsibility for the arson, ELF stated 
that the Microbial and Plant Genomics Building was targeted partly 
because it was funded by Cargill Corporation. Cargill provided half of 
the funding; the state of Minnesota provided the other half. The 
Cargill gift, which was contingent upon a matching gift from Minnesota, 
was designated for construction of a microbial and plant genomics 
research building. Cargill does not have rights to intellectual 
property that results from research conducted in the building.
    There is great value in private-public partnerships. Industry and 
academia need to work together. Academics are good at identifying 
approaches to solving problems, but not delivering the products. 
Companies deliver the goods. The involvement of food, chemical, and 
drug companies is essential.
    Cargill-Dow, a spin-off of Cargill, has developed a way to make 
biodegradable plastic from corn. They will soon begin manufacturing 
this material for use in packaging, disposable plates and utensils, 
fabric, and carpeting. Their slogan is ``Our goal is to change the 
world by not changing it at all.'' Their work will make a far more 
meaningful contribution to protecting the environment than ELF will 
ever make.
    I appreciate the opportunity to comment and look forward to working 
with the committee as you look into this serious threat to academic 
research.
                                 ______
                                 
    Mr. McInnis. Again, I want to thank all that have been 
present here today. It has been a long hearing, but it is an 
issue that is very important to all of us.
    Thank you very much and have a nice evening.
    Mr. McInnis. The Committee is adjourned.
    [Whereupon, at 6:20 p.m., the Subcommittee was adjourned.]

    [Additional materials submitted for the record follow:]
    <bullet> LConn, P. Michael, Ph.D., Associate Director for 
Research and Development, Oregon Regional Primate Research 
Center, Oregon Health Sciences University, Letter and statement 
submitted for the record
    <bullet> LKerr, Jeffrey S., General Counsel and Director of 
Corporate Affairs, PETA Foundation, Letter submitted for the 
record
    <bullet> LNichols, Nick, Chairman and Chief Executive 
Officer, Nichols-Dezenhall Communications Management Group, 
Statement submitted for the record 
[GRAPHIC] [TIFF OMITTED] 77615.001

 Statement by P. Michael Conn, 26 SEPT, 2001 Before the City Council, 
                            Portland, Oregon

    Your Honor and Members of the Council:
    My name is Dr. Michael Conn. I work as Special Assistant to the 
President of Oregon Health and Sciences University and as Associate 
Director of one of its Institutes, the Oregon Regional Primate Research 
Center. I also have a research program that has contributed to the 
development of treatments for breast and prostate cancer, endometriosis 
and problems of infertility.
    Because of what I have to tell you today, it is important that you 
understand that my own research program does not currently use animals, 
although we have in the past. Like most Americans, I understand the 
value of animal research in basic science--so important for development 
of treatments for both human and animal disease. Therapies for 
diabetes, AIDS, Alzheimer's, cancer, along with antibiotics, vaccines 
and surgical techniques--to name just a few things--all had origins in 
animal research. I have spoken and written about the importance of 
humane animal research and how it benefits humans and animals.
    Recently, I was invited to visit the University of South Florida, 
located in Tampa, Florida. Shortly before this trip, I was alerted that 
a mid-west activist had announced my visit to Florida on an e-mail 
listserve. This person, who, I later learned--and I am quoting here--, 
``believes we must be willing to do whatever it takes to gain animals 
freedom,'' even if that means the killing of a so-called ``animal 
abuser,'' solicited letters to the university administration and to my 
academic colleagues. I also received an email from the educational 
coordinator of Florida Voices for Animals detailing my ``ignominy,'' 
and telling me that I was unwelcome in Tampa. I responded, explaining 
that although I support the humane use of animals in medical research, 
I do not, myself, use animals in my research projects.
    Let me step out of the sequence of events just for a moment. One of 
the largest animal extremist organizations in the world, ``People for 
the Ethical Treatment of Animals, ``PeTA'' subsequently picked up on 
the midwest and Florida postings and created a page for me on their 
website, also soliciting e-mails and letters. I learned that PeTA, 
which has helped fund one of the mid-west activist's advertising 
campaigns, is focusing not on my own work but, on the fact that I work 
for an institution that conducts animal research. PeTA never mentions, 
however, that my institution is fully accredited and compliant with all 
federal and state laws.
    Back to the sequence of events: My plane was met at the Tampa 
airport by animal extremists who tried to engage and film me. 
Exercising their rights, under a Florida open meetings law, they were 
present at virtually all of my scheduled meetings with USF committees. 
Some stood outside meeting room doors, distributing fliers that made 
outlandish claims and lobbying attendees. Others, wearing t-shirts that 
said, ``keep primate tester Dr. P. M. Conn out of USF,'' made 
derogatory comments. Still others asked me why I was lying about using 
primates in my program--a question that a sympathetic faculty member 
turned into an accusation, insisting in obscene language that I was 
lying about not using animals in my current research program.
    In one meeting, news media with video cameras burst into the room. 
They never interviewed me, choosing to accept unchallenged the claims 
made by the extremists and identifying me simply as a ``vivisector,'' a 
term of opprobrium used by extremists.
    The campus was plastered with handbills, full of absurdly incorrect 
information. There was no way for me to reach out and dialogue with 
those who were responsible for this campaign of mis-information. 
Naively, I did try on one occasion to talk with one of the extremists, 
but he showed no interest in meaningful discussion.
    I received threatening calls at the hotel and knocks on the door in 
the middle of the night. I never knew who was going to be coming 
through the door of a meeting room. This put me in a constant state of 
fear to the degree that, at one point, when a casually dressed faculty 
member, whom I did not know, entered from the door behind me, I jumped 
out of the way in fright, later, apologizing to her.
    It got so bad that an armed state police officer was assigned to 
look after me.
    The constant presence of an armed guard made me recognize that I 
was a ``sitting duck'' to anyone with a weapon. At one point, after 
being accused of telling lies, cursed at, and in constant fear for my 
well being--all the while trying to meaningfully address the academic 
concerns and questions of my USF colleagues--I considered returning 
home to Portland for reasons of personal safety. Though my nerves were 
shot, I decided to remain in this incredibly stressful situation for 
the planned two days.
    At a little after 4 a.m. on the day of my departure, the police 
officer met me in the lobby of the hotel, escorted me to a taxi and 
followed me for a few miles before waving goodbye and turning off to 
another road. I thought it was over, and with a tremendous sense of 
relief I checked in and passed through security. Suddenly, as I was 
about to step onto an escalator, I became aware that some of the 
extremists--muttering ``we came to say goodbye,'' and ``we were afraid 
we missed you'' ``had physically surrounded me. I managed to step aside 
so that I could descend the escalator several steps behind them. An 
alert gate agent, noting the message on their t-shirts, phoned airport 
police, and I was quickly boarded onto an empty plane.
    I was to learn, however, that it still wasn't over. Now, back in 
Portland, animal extremists have shouted at me from the road above at 
my home, and I have found that someone has been ransacking my garbage.
    All this terrorism is new to me. Remember, I do not work with 
animals. I work at a university that does, a university, I remind you, 
that is fully compliant with all laws and measures up to the highest 
standards of animal care.
    I believe that the events I have recounted were meant ``to 
terrorize,'' a verb that Webster defines as ``to coerce by filling with 
terror as by the use or threat of violence.'' But some animal 
extremists say, ``We do not use violence. We demonstrate and destroy 
property, but we never injure or kill persons.''
    What are we to think of that?
    Maybe we should ask the four scientists at my institution who 
received letters armed with razor blades set to cut the hand of the 
opener--I think that they would call that the use of violence.
    Maybe we should ask the center administrators who have received 
anonymous telephone calls and unsigned mail, and e-mails, which all but 
threatened them with death--the callers or writers expressing such 
wishes as that the scientists soon suffer in hell. Even if these 
communications carefully stopped short of illegal death threats, the 
administrators felt the force of their violence.
    Or maybe we should ask the scientist at another University who has 
been warned that his children's pictures would be put up on the 
internet--hostages, in other words--until he stops research on animals. 
Surely he feels this as both a threat and an experience of violence.
    The leaders of the animal extremist movement say that they are non-
violent in the tradition of Gandhi and Martin Luther King and Rosa 
Parks. They point out that unlike some of their colleagues in England, 
who recently took a baseball bat to the head of a researcher, they 
haven't physically assaulted or killed anyone--at least, not yet.
    But that fact doesn't qualify them as non-violent, or put them in 
league with Gandhi and King and Rosa Parks. Gandhi and King and Rosa 
Parks appealed to the consciences of their adversaries; animal 
extremists, on the other hand, bully and intimidate. Gandhi and King 
and Rosa Parks chose to suffer themselves; animal extremists, on the 
other hand, set out to inflict suffering on us. Gandhi and King allowed 
themselves to be arrested for their cause, while animal terrorists set 
fires in the night, phone anonymously, send unsigned e-mails and post 
outright lies and half-truths on their web sites.
    A little over one year ago, the FBI found my name and home address 
written on a file card in the home of the former national spokesman for 
the Earth Liberation Front. Mr. Rosebraugh has been arrested for 
trespassing at the primate center, publishes a web site on how to make 
firebombs and distributes a video called ``Igniting the Revolution,'' 
which urges people to burn homes and businesses.
    You can be assured that when I learned of the FBI discovery, I felt 
not just the threat of violence, but something more, something that 
violated my person, something that felt very much like violence. Most 
certainly I was then, as I was in Florida last month, a target of 
terrorists.
    Painful as it is to be in the cross hairs of terrorists, neither my 
colleagues nor I will bow to their force or be deflected from our 
course of discovery that leads to cures of human and animal disease. I 
challenged those who taunted me in Florida to tell the parents of a 
critically-ill child that research is not important. The only time 
these terrorists did not follow me was when I passed through the Cancer 
ward at Florida's Moffitt hospital. Go figure.
    I am pleased to answer any questions.
                                 ______
                                 
    (A letter submitted for the record by Jeffrey S. Kerr, 
General Counsel and Director of Corporate Affairs, PETA 
Foundation, follows:]

                             March 14, 2002

The Honorable Scott McInnis
Chairman, House Resources Subcommittee
on Forests and Forest Health
U.S. House of Representatives
320 Cannon Building
Washington DC 20516-0803

Dear Congressman McInnis:

    I am general counsel to People for the Ethical Treatment of 
Animals, Inc. (PETA). Your letter dated March 4, 2002 to PETA's 
president, Ingrid Newkirk, has been referred to me for response. PETA 
appreciates the opportunity to respond to the attempted smear campaign 
perpetrated by the vested interests opposed to its animal protection 
efforts. Please note that I submitted written testimony on PETA's 
behalf to the House Resources Subcommittee on Forests and Forest Health 
relating to the February 2002 hearing referenced in your letter. Some 
of your inquiries are addressed by that testimony and I trust my 
testimony has been made part of the hearing's public record. I 
appreciate your pledge to make this letter part of that record.
    PETA respects the Congress, the proper use of government for the 
benefit of the nation's citizens, and, most importantly, the 
fundamental liberties guaranteed by the Constitution and the Bill of 
Rights. It is in that spirit that PETA is pleased to respond to your 
inquiries. However, in light of the lies and half-truths that have been 
leveled against PETA by industry-funded front groups like the 
misleadingly-named Center for Consumer Freedom (CCF) and Center for the 
Defense of Free Enterprise (CDFE), both during the February hearing and 
afterwards, the public has a right to a response that places this 
matter in the proper perspective. Toward this end, this letter will 
address your inquiries by discussing the following issues:
    1. LPETA's international charitable programs to expose and end 
animal abuse and suffering wherever it occurs.
    2. LThe true agenda of CCF, CDFE, and the industries arrayed 
against the animal protection and environmental protection movements.
    3. LThe circumstances surrounding the February hearing and the 
release of your letter of inquiry.
    4. LThe extent of contributions to your campaign committee by the 
very industries opposed to PETA, animal protection and environmental 
protection, and that fund the CCF, CDFE, and others in their avowed 
campaign to destroy environmental and animal activism.
    5. LPETA's expenditures in defense of fundamental constitutionally-
guaranteed liberties.
    Due to the timing of your inquiry, this response was prepared 
during the 6-month anniversary of the September 11th attacks that took 
the lives of 3,000 of our fellow citizens, and changed the lives of all 
Americans. That anniversary should serve as a reminder that there is 
true terrorism afoot and should shame people and groups using the 
attacks on our nation as an opportunity to further their own financial 
and political goals by using ugly rhetoric to hijack true concerns of 
their legitimate opponents.
PETA's Exemplary Charitable Animal Protection Programs

    ``The conventional view serves to protect us from the painful job 
of thinking.''
                                  -- John Kenneth Galbraith

    Allow me to set the record straight again. PETA does not provide 
financial or any other assistance to any person or group for the 
purpose of so-called terrorist activities. Any suggestion to the 
contrary is simply wrong, defamatory, and the product of lobbyists, 
public relations consultants, and other paid spokespeople for animal-
exploitive industries.
    As explained in my testimony, everything PETA does is public. 
Unlike its opponents, it does not hide behind front groups with ever-
changing names and hidden agendas. As a 501(c)(3) organization, PETA's 
financial records are audited annually by an independent certified 
public accounting firm, its annual Form 990 tax returns are publicly 
available from the Internal Revenue Service and, in accordance with 
applicable law, PETA makes those returns available upon request. PETA 
also publishes an annual review of its program accomplishments in 
accordance with all reasonable standards of charity oversight, and 
makes its audited financial statements available even though there is 
no requirement for it to do so.
    PETA maintains several web sites that describe in detail each of 
its campaigns to expose and end animal abuse, including PETA.org, 
GoVeg.com, Circuses.com, CowsAreCool.com, MilkSucks.com, 
FishingHurts.com, StopAnimalTests.com, and FurIsDead.com. These sites 
demonstrate PETA's true animal protection mission through the use of 
hard-hitting public education campaigns, protests, street-theatre-type 
demonstrations with naked activists or activists dressed up as giant 
rabbits or chickens to protest their suffering in the meat, leather, 
fur, entertainment, and animal testing industries.
    The following list of recent PETA accomplishments discloses PETA's 
effectiveness in fighting for the animals:
    <bullet> LPETA convinced fast-food giants McDonald's, Burger King, 
and Wendy's to improve living conditions for the animals provided by 
their suppliers. These were immense steps forward that greatly reduce 
the suffering of billions of animals raised to become hamburgers and 
chicken nuggets.
    <bullet> LPETA released details of shocking cruelty to pigs found 
during an investigation of the third-largest pig farm in the U.S., 
Oklahoma's Seaboard Farms, Inc. One manager has been charged with four 
counts of felony animal cruelty--only the second time in U.S. history 
that a factory farm employee has been charged with felony animal abuse. 
(The first time was a PETA case involving a North Carolina pig farm in 
2000).
    <bullet> LPETA convinced international retail giants like Nike, 
Gucci, Eddie Bauer, Nordstrom, Reebok, Kenneth Cole, The GAP, and L.L. 
Bean to boycott Indian leather after PETA exposed the immense animal 
abuse in the Indian leather industry, including breaking animals' tails 
and rubbing hot peppers into their eyes in order to force them to march 
long distances to slaughter.
    <bullet> LPETA convinced the U.S. Department of Transportation to 
stop painful tests in which corrosive chemicals were poured onto 
rabbits' shaved backs, burning holes into their skin. PETA successfully 
argued that the D.O.T. should use a modern, non-animal test that had 
already been approved by the government.
    <bullet> LPETA convinced Sears, Roebuck & Company to cancel its 
sponsorship of Ringling Bros. & Barnum and Bailey Circus after 
explaining Ringling's deplorable record of repeatedly violating the 
federal Animal Welfare Act in which they have failed to satisfy even 
minimum standards for the animals beaten and forced to perform 
degrading tricks in its tawdry circus.
    <bullet> LPETA saved more than 800,000 animals from painful 
poisoning tests slated for the U.S. government's high production volume 
(HPV) chemical program designed to test thousands of chemical 
substances on animals. The government agreed to replace many of the 
tests with non-animal methods, delay some of the tests for two years to 
allow for the development of non-animal tests, and to dedicate $5 
million to fund non-animal methods.
    <bullet> LPETA's SNIP (Spay and Neuter Immediately Please)-mobile, 
a new mobile spay-neuter clinic serving mostly low-income families, 
sterilized more than 3,000 animals for those people who could not 
otherwise afford the procedures and for shelter cats and dogs prior to 
adoption.
    <bullet> LPETA staff and dedicated volunteers traveled to one of 
the country's poorest communities in North Carolina to deliver more 
than 400 doghouses hand-made by PETA to exacting specifications for 
animals exposed to the elements at the city's rundown animal shelter 
and for ``backyard dogs'' huddled under card tables, inside rusting 
cars, and in mud holes, unable to get away from searing summer heat and 
freezing winter cold.
    <bullet> LPETA continues to distribute, free of charge, a kit which 
helps people transition to a healthy vegan diet as a critical part of 
reducing the monumental animal suffering inflicted on cows, pigs, 
chickens, fish, and others raised for slaughter in the animal-food 
industry.
    <bullet> LPETA has convinced almost 600 companies, including 
Gillette, Colgate-Palmolive, Mary Kay, L'Oreal, and many others, to 
stop testing their products on animals.
    Occasionally, PETA members engage in acts of peaceful civil 
disobedience in the greatest traditions of the Boston Tea Party, 
Harriet Tubman, Mahatma Gandhi, Susan B. Anthony, Cesar Chavez, and 
Martin Luther King, Jr. Indeed, our sacred Declaration of Independence 
is a document of peaceful civil disobedience against the tyranny of the 
British crown. These acts are undertaken only after animal exploitive 
companies and government agencies refuse to end their cruel practices 
and all other avenues of discourse are effectively foreclosed.
    PETA members may briefly chain themselves to a company or 
government office door, or they may interrupt a meeting or fashion show 
to protest the genital electrocution and neck-snapping of animals 
raised for fur. They may dump make-believe ``urine'' (colored water) on 
the doorstep of Wyeth-Aherst to protest the collection of urine from 
constantly impregnated mares for the production of its drug Premarin 
and the slaughter of worn-out mares and their offspring when they are 
no longer ``useful.'' They may, on occasion, lob a bit of tofu cream 
pie at a corporate big-wig who refuses to discuss ending painful animal 
tests in pursuit of a new shampoo or mascara. Or they may climb a flag 
pole to unfurl a banner exposing the cruel beating of elephants and 
other animals to perform degrading acts in circuses after they have 
been ripped away from their mothers.
    But by no stretch of the imagination do any of these acts 
constitute terror or violence. For anyone to suggest otherwise is an 
insult to the victims of September 11th, and the suffering and loss 
borne by their families and our fellow citizens generally in the wake 
of those attacks. Stated plainly, it is reprehensible for PETA's 
opponents to equate peaceful and lawful animal protection with al-
Quaida or any other type of terrorism, and to exploit that tragedy for 
expedient political gain.
The True Agenda of Industry-Funded Front Groups CCF and CDFE
    ``[We have] to shoot the [animal and environmental protection] 
messenger.''
             -- Richard Berman, Center for Consumer Freedom
    ``[F]ear, hate, and revenge go a long way.''
   -- Ron Arnold, Center for the Defense of Free Enterprise
    Unlike PETA's entirely open charitable mission and programs, those 
groups and individuals spreading libelous statements against PETA hide 
behind industry-funded front groups with ever changing names and hidden 
agendas. The Center for Consumer Freedom (CCF), and its lobbyist 
Richard Berman, and the Center for the Defense of Free Enterprise, with 
its founder, convicted tax felon Alan Gottlieb and executive director 
Ron Arnold, are paid mouthpieces of the industries staunchly opposed to 
even modest animal and environmental protections. CCF and CDFE are just 
the latest incarnation of the cunningly named ``Wise Use'' movement and 
the misleadingly-named ``Guest Choice Network.'' None of the 
information they ``expose'' has ever been hidden. Some is made up, some 
is half-truth, and all that is real (yet mischaracterized by them) is 
available in public reports, press accounts, and Internal Revenue 
Service filings of non-profit organizations.
    It is not surprising that CDFE and CCF would attempt to inhibit 
PETA's vital work for animals. These are front groups for loggers, 
cattle ranchers, tobacco interests, alcohol companies, and factory 
farmers who writhe when PETA reveals documentation that bulls are 
castrated without anesthesia and dismembered at slaughterhouses while 
still conscious, or when we write about yet another scientific study 
linking animal fat with cancer and heart disease, or when we attack 
decades-long smoking experiments on animals. Alarm bells must have 
really gone off in their heads when PETA's hard-hitting campaigns 
persuaded McDonald's, Burger King, and Wendy's to make unannounced 
visits to their slaughterhouses to ensure humane killing and other 
improvements in animal treatment. These campaigns have caused a ripple 
effect throughout the factory-farming industry. Corporations know they 
are going to have to change the way they do business in order to adhere 
to fast food companies' new rules. These corporations want nothing more 
than to maintain the status quo. Indeed, CDFE was formed with the 
express purpose of opposing all regulation in business. But they cannot 
silence the cries of animals suffering at their hands or the demands 
for change from the compassionate citizens of this nation.
    The following list of facts about CCF and CDFE illuminates their 
true agendas.
Center for Consumer Freedom
    <bullet> LCCF was founded by Berman, a Washington, D.C. lobbyist 
who represents the tobacco industry, alcohol distributors, taverns, and 
restaurant chains. Until January 2001, CCF was known as The Guest 
Choice Network, funded by the Philip Morris tobacco company to the tune 
of nearly $1 million.
    <bullet> LIn addition to CCF, Berman runs the following 
organizations out of the same Washington, D.C. building that houses CCF 
and his lobbying firm, Berman & Co.:
      * LThe Employment Policies Institute whose mission is to oppose 
any increase in the minimum wage so his restaurant clients can continue 
to pay their workers as little as possible.
      * LThe American Beverage Institute which represents restaurants 
and retailers that sell alcohol. ABI's arch enemy is Mothers Against 
Drunk Driving (MADD) and it fights all attempts by MADD to reduce the 
legal blood alcohol limit for improved driver safety.
    <bullet> LBerman was the protege of Norman Brinker, chairman and 
CEO of Brinker International, the founder of the Steak & Ale restaurant 
chain, and a former chairman of Burger King.
    <bullet> LBerman also operates ActivistCash.com in which he spreads 
his industry-funded campaign of hate against non-profit groups, like 
PETA. Hypocritically, however, ActivistCash conceals its own finances 
from the public, surely because it would be exposed as the mere front 
group it is.
Center for the Defense of Free Enterprise
    <bullet> LWhile making defamatory claims about PETA's entirely 
open, publicly disclosed finances, CDFE founder Gottlieb is a convicted 
tax felon who spent ten months in a federal prison.
    <bullet> LAccording to ``The Merchant of Fear,'' an article for 
which Gottlieb reportedly provided some sixteen hours of interviews, 
Gottlieb and Arnold are closely tied with the following ultra right-
wing organizations:
      * LThe Second Amendment Foundation and the Citizens' Committee 
for the Right to Keep and Bear Arms. These groups opposed federal 
legislation to outlaw hollow-point, Teflon-coated ``Cop Killer'' 
bullets for the protection of law enforcement officers, and the Brady 
Bill, calling Sarah Brady, whose husband was permanently disabled in 
the 1981 assassination attempt on President Ronald Reagan, a liar.
      * LIt has been reported that Gottlieb is, or has been, a member 
of the board of governors of the ultra-secretive Council for National 
Policy (CNP), known to be the central leadership network of the far 
right in the U.S. True to form, CNP membership is secret, but it is 
reported to include such right-wing stalwarts as former Attorney 
General Edwin Meese, Holland Coors, Jerry Falwell, Pat Robertson, and 
Oliver North.
    <bullet> LGottlieb reportedly showed his true colors in his conduct 
during the Vietnam War. First, he opposed students protesting against 
the war at the University of Tennessee. However, he had no intention of 
fighting and his father pulled strings to get him into the National 
Guard, where he reportedly served only one weekend per month and an 
annual two-week training period at a missile site on Long Island. In 
the height of hypocrisy, in 1969, Gottlieb joined William F. Buckley's 
Young Americans for Freedom and reportedly organized support for the 
very war he had no intention to fight in himself.
    <bullet> LDuring the 1980's Gottlieb had office buildings housing 
two of his supposedly non-profit front groups transferred into his and 
his wife's name. Those non-profits then leased the office space from 
the Gottliebs for about $4,000 per month. Quite a cozy arrangement for 
someone ostensibly so concerned about non-profit financial 
arrangements.
    <bullet> LThe so-called ``Wise Use'' Movement was founded and is 
sustained primarily by the west's big-four natural resource exploitive 
industries who are regular contributors to your campaign chest--
logging, mining, energy, and ranching, including The American Mining 
Congress, the National Cattlemen's Association, DuPont, Exxon Co., USA, 
Louisiana Pacific, Northwest Independent Forest Manufacturers, 
Willamette Forestry Council, and the Timber Association of California.
    <bullet> LGottlieb was a director and Arnold was the first 
president and registered agent of the American Freedom Coalition, a 
political action group for the Rev. Sun Myung Moon's right-wing 
extremist views. Moon is the notorious leader of the Unification Church 
that accords him divine status and who has been quoted as saying he 
wants to establish a theocratic empire to rule the world.
    These few points give a clear picture of the unreliable, biased 
interests that underlie the CCF's and CDFE's smear campaign against 
animal and environmental protectionists. In stark contrast, PETA works 
to expose and end illegal and cruel treatment of animals perpetrated by 
the industries that exploit other species for profit, fund CCF and 
CDFE, and want nothing more than to keep the suffering of animals 
hidden away from the light of public scrutiny.
The February Hearing and the Release of Your Letter of Inquiry
    Despite Berman's obvious bias, he was permitted to ``testify'' at 
the February hearing by spewing lies and half-truths about PETA. 
Although his appearance and expected testimony were likely confirmed 
with the subcommittee staff well in advance, not a single subcommittee 
member or staff person contacted PETA prior to his appearance to check 
on the falsity of his allegations. Similarly, PETA's request to appear 
before the subcommittee was refused when it learned of his expected 
testimony the day before the hearing. With all due respect to the 
members of the subcommittee, such conduct undermines the subcommittee's 
credibility and exemplifies the all too prevalent partisan posturing 
the citizens of this country hold in such disregard. Fortunately, 
Congressman Inslee, in the limited manner he was afforded, exposed 
Berman as the paid mouthpiece of big business that he is.
    Regrettably, the first PETA heard of your letter to Ms. Newkirk was 
from media representatives who confirmed that the letter was already 
posted on CDFE's web site. It is troubling that the letter was first 
released to the same industry fear-monger that represents the special 
interest groups that contribute large amounts to your election 
committee (see below), rather than to the charity to which the letter 
is ostensibly addressed. Such tactics are counterproductive to a fair 
and objective analysis of the facts.
Campaign Contributions to You by Industries Opposed to PETA
    Consistent with its protection and aggressive exercise of its own 
freedom of speech, PETA supports the right of every person or 
organization to contribute funds to the political party or candidate of 
their choosing (although PETA does not engage in such conduct as a non-
profit organization). However, PETA also believes that the public has a 
right to be told about such contributions on the public record during 
Congressional hearings when the interests of those donors are directly 
implicated in those hearings. Sadly, that did not happen in this case.
    A review of political action committee (PAC) contributors to your 
campaign during the 1999-2000 and 2000-2001 election cycles, as 
disclosed in Federal Election Commission reports, reads like a ``Who's 
Who'' of corporate special interests opposed to animal and 
environmental protectionists, or that fund the CCF and CDFE, including 
the following:
    American Forest and Paper Association, American Meat Institute, 
Anheuser-Busch, Ashland, Associated Builders and Contractors, 
Associated General Contractors of America, Association of Commercial 
Real Estate Development, Association of American Railroads, Aventis 
Pasteur, Beef-PAC (Beef PAC of Texas Cattle Breeders Association), BP 
Corporation of North America, Brinker International (see discussion 
above regarding ties to CCF, Berman, and other animal exploitive 
interests), Bristol-Myers Squibb, Burlington Northern Santa Fe RailPAC, 
Chevron Texaco, Chicago Mercantile Exchange, Conagra Foods, Cyprus Amax 
Minerals, Dairy Farmers of America, DuPont, EnPAC (KN Energy), Enron 
(see below), Exxon Mobil, Food Marketing Institute, General Electric, 
Ice Cream, Milk & Cheese PAC, Johns Manville, Louisiana Pacific, 
Marathon Oil, Merck, MinePAC (National Mining Association), National 
Beer Wholesalers, National Cattlemen's Beef Association, National 
Restaurant Association, Newmont Mining Corporation, NRA, Peabody 
Energy, Pfizer, Philip Morris, PAC by Coors Employees, RAG American 
Coal Holding, Safari Club International, Safeway, SmithKline Beecham, 
Southern Company, Suiza Foods, Sunbelt (Winn-Dixie stores), Union 
Pacific, Vermont Yankee Nuclear Power, Warner-Lambert, and Zeneca.
    These contributions, totaling hundreds of thousands of dollars, 
were not disclosed on the record of the February hearing so far as PETA 
is aware. Even if current congressional rules do not require it, 
fairness dictates such disclosures so the public can see the source and 
amount of contributions from people or industries having an interest in 
the subcommittee's business.
    In addition, you received five contributions totaling $3,000, twice 
the amount of PETA's proper donation discussed below, from executives 
of a company called Vail & Associates, including a man named Porter 
Wharton. One of the witnesses who appeared at the February hearing was 
Porter Wharton III, Senior Vice President of Public Affairs for Vail 
Resorts, Inc. The apparent connection between Porter Wharton the donor 
and Porter Wharton III the witness was not disclosed or discussed on 
the hearing's public record. Confirmation of whether the two Mr. 
Whartons are the same person, or if they are related in any way, and 
the relationship between Vail & Associates (for whom your donors work), 
and Vail Resorts, Inc. who employs Mr. Wharton III seems warranted.
Your Enron Contributions
    According to Colorado's own The Daily Camera, since 1993 you have 
received political contributions totaling $6,000 from Enron. Enron's 
recent bankruptcy has left its employees' retirement plans in ruin, and 
has disclosed the extreme riches enjoyed by its executives while the 
company was heading for disaster. As The Daily Camera correctly stated 
on March 8th regarding these contributions:
        It is no more fair to suggest that PETA supports eco-terror 
        than it is to imply that [Congressman] McInnis profits from 
        corporate terror. When he stops grandstanding, maybe 
        [Congressman] McInnis will admit this.
PETA's Expenditures in Defense of Liberty
    On very rare occasions during its two decades of operation, PETA 
has proudly provided financial assistance to help protect the 
fundamental constitutional rights of people targeted by grand juries or 
accused of actions relating to animals. Each of those instances has 
been widely reported and disclosed in PETA's publicly available 
financial reports. In this country, every person is presumed innocent 
and has the right to effective assistance of counsel and a fair trial, 
no matter what the allegations are against them. Likewise, individual 
citizens targeted by grand jury investigations are entitled to legal 
representation. It is simply wrong and inexcusable for anyone to 
suggest that such assistance in any way constitutes support for the 
underlying actions with which they were charged, subsequently 
convicted, or which were the subject of investigation.
    Protection of those freedoms is entirely consistent with PETA's 
charitable animal protection mission when the issues involved concern 
the treatment of animals in our society. Such assistance plays an 
important role in helping to ensure that people speaking out to expose 
animal abuse will not be chilled in exercising their equally 
fundamental rights to free speech and free association. Without those 
rights, real social change for the protection of animals, or any other 
purpose, will be stifled. The animal protection movement is merely the 
latest social change movement to face such opposition from the multi-
billion dollar special interests arrayed against it. PETA will not be 
deterred in its mission.
    The case of Rodney Coronado is an appropriate example of PETA's 
defense of constitutionally-guaranteed rights. PETA knew Mr. Coronado 
to be a dedicated Native-American activist, as well as an animal 
protection advocate and a committed teacher in the Native American 
community. Following his arrest, PETA provided financial assistance for 
his legal defense, including a loan to his father in the amount of 
$25,000 to assist in posting bond pending his trial (Mr. Coronado fully 
honored his bail, properly appearing for every required court 
appearance), and payment of his legal fees. Contrary to Berman's 
testimony at the February hearing and erroneous published reports, the 
$25,000 loan was repaid to PETA in full.
    The case of Roger Troen is equally illuminating. According to 
published reports, in 1986, Mr. Troen was a 56 year-old Air Force 
veteran and former elementary school teacher known for his compassion 
toward animals in his Bellevue, Washington community. One night he 
received an anonymous telephone call asking him to care for two rabbits 
badly in need of a home. Rather than turn his back on the animals, he 
took the animals in, no questions asked. A few weeks later, the 
veterinarian to whom Mr. Troen had taken the animals for treatment led 
police to him. It turned out that the animals had been removed from the 
horrific University of Oregon (U.O.) testing laboratory.
    PETA agreed to pay Mr. Troen's legal fees, which resulted in the 
exposure of the torture and suffering perpetrated against these animals 
by so-called ``scientists.'' His trial disclosed that two U.O. 
experimental psychologists, Richard Marrocco and Barbara Gordon-Lickey, 
neither of whom had any medical or veterinary training, and their 
unsupervised students, performed complicated surgeries on improperly 
anesthetized animals in taxpayer-funded experiments. Gordon-Lickey 
sewed kittens' eyes shut, rotated kittens' eyeballs in their heads, and 
made them perform feats like jumping from a high platform into a pan of 
water. Marrocco played with the vision of macaques who had electrodes 
implanted into their skulls. Their work had no established link 
whatsoever to human health. Their colleague, Gregory Stickrod, who also 
had no medical or veterinary training, performed surgeries on pregnant 
rats and other animals as part of his own psychology experiments. For 
his own amusement, Stickrod terrorized a baby monkey, while casually 
smoking a cigarette and drinking a beer, and kept a photograph of the 
episode along with his training slides. Incredibly, Stickrod was the 
director of animal care for all of U.O. Not surprisingly, the trial 
exposed U.O.'s failure to provide even basic veterinary care for the 
20,000 animals on its campus. The judge presiding over the trial, and 
an U.O. alum, expressed his disgust and embarrassment at being 
associated with the University.
    Had PETA not provided funds for Mr. Troen's defense, none of these 
startling revelations would ever have come to light. The animals simply 
would have continued to suffer at the hands of their torturers, and 
their cries would have gone unheard. For merely receiving the animals, 
and despite his compassion in caring for animals removed from that 
living hell, Mr. Troen was fined $34,900 and given five years' 
probation. PETA never paid a single penny of that fine.
    As disclosed in its public tax returns, PETA also assists hundreds 
of organizations and individuals around the world in their efforts to 
educate people about the plight of animals. Each of those donations is 
identified in PETA's reports as being made to ``support their program 
activities;'' that is, their lawful, charitable, animal protection 
program activities. It was in furtherance of this mission that PETA 
lawfully and properly gave $1,500 to the North American Earth 
Liberation Front Press Office.
    In April 2001, PETA sent a check in the amount of $1,500.00 to the 
North American Earth Liberation Front Press Office to assist Craig 
Rosebraugh with legal expenses related to free speech activities 
regarding animal protection issues. Mr. Rosebraugh is known in the 
animal protection community for his legal, educational work fighting 
horrifying and cruel experiments on primates in Oregon. The check was 
made payable to ``North American Earth Liberation Front, C 
Rosebraugh.'' The endorsement signature on the cancelled check appears 
to be that of ``Craig Rosebraugh,'' although I am not familiar with his 
signature. PETA has provided no other funds to the North American Earth 
Liberation Front Press Office.
    PETA has no involvement with the ALF or ELF direct actions
    PETA has no involvement with or connection to Animal Liberation 
Front (ALF) or Earth Liberation Front (ELF) actions. PETA does not 
provide any funds to the ALF, ELF, or any person or organization for 
use in any ALF or ELF direct action. In fact, according to the Federal 
Bureau of Investigation, it is unknown whether any such 
``organizations'' exist to which funds could be provided. Contrary to 
incorrect published reports, PETA does not and will not pay any 
criminal fines assessed against any person.
    PETA believes that ALF and ELF actions occur when so-called 
``proper channels'' of change are effectively blocked by people with 
vested interests and even moderate legislation is stalled by those 
profiteers. As President John F. Kennedy said so eloquently forty years 
ago, ``Those who make peaceful revolution impossible will make violent 
revolution inevitable.'' PETA urges Congress to pass meaningful, 
enforceable legislation to stop the abject cruelty perpetrated against 
animals every day in this country.
Conclusion
    It is unfortunate, but all too predictable, that the 21st century 
still finds social change movements and organizations like PETA and so 
many others subjected to defamatory attacks by industries that exploit 
those weaker than themselves for financial gain. Undoubtedly, the 
agents of this new ``McCarthyism'' will be viewed with the same 
revulsion expressed for the original. It is PETA's fervent hope, for 
the welfare of this nation, that such tactics, whether launched from 
the right or the left, will be relegated to history's trash heap, for 
they have no place in any rational vision of this nation's future.
    I trust this letter addresses your inquiries. Thank you again for 
the opportunity to respond to your inquiries and for your 
consideration.

Very truly yours,

Jeffrey S. Kerr
General Counsel and
Director of Corporate Affairs
PETA Foundation

cc: Members
   U.S. House of Representatives
   Committee on Resources
   Subcommittee on Forests and Forest Health

   Commissioner Charles O. Rossotti
   Internal Revenue Service
                                 ______
                                 
    [The statement submitted for the record by Mr. Nichols 
follows:]

   Statement of Nick Nichols, Chairman and Chief Executive Officer, 
 Nichols-Dezenhall Communications Management Group, submitted for the 
                                 record

Introduction
    Mr. Chairman and Members of the Subcommittee, my name is Nick 
Nichols. I am the Chairman and Chief Executive Officer of Nichols--
Dezenhall Communications Management Group, headquartered in Washington, 
D.C. Thank you for giving me the opportunity to submit testimony to the 
Subcommittee. I speak in two capacities: as an author of a recently 
published book dealing with attacks by eco-terrorists, animal rights 
terrorists, and others on America's free enterprise system and American 
corporations; and as the chairman of a crisis management firm that has 
helped corporations and individuals respond to attacks, including 
violent terrorist acts.
    My testimony today is designed to deliver one central message: 
Congress and the Executive branch should investigate and prosecute eco-
and animal rights terrorism with the same vigor and intensity as 
directed against foreign terrorists. This is a matter of homeland 
security. I hope I can be helpful to the Subcommittee in casting light 
on the seriousness of these attacks by domestic terrorists, and on the 
need for action by our government to protect the safety, the jobs and 
the way of life of the American people.
    I have spent years studying environmental and animal rights 
terrorists because I came to the conclusion, long before September 11, 
that these domestic terrorists posed a serious and growing danger to 
our nation. September 11 only strengthened my belief that if we don ``t 
act to stop our home-grown terrorists they will follow in the footsteps 
of their more deadly counterparts from abroad, escalating their 
activities and moving beyond crimes that destroy property to crimes 
that destroy human lives.
Terrorism Is Not Free Speech
    We can all agree that the First Amendment to the Constitution is 
the foundation of our freedom and democracy, and is the basis of our 
long and proud tradition of peaceful protest, free speech and a free 
press. If someone wants to advocate, raise funds, and campaign 
peacefully to demand that we never cut down a single tree, never kill a 
single animal and never drill for a drop of oil, I will tell you that 
the person is advocating nonsense--but I ``ll defend his or her right 
to do so. But when extremists use the First Amendment as a cloak to 
break the law, commit violent acts and terrorize others--no matter how 
noble their justification--they become criminals and terrorists. 
Breaking into university research labs to release animals being used 
for medical research, burning down buildings, vandalizing a facility 
for sick children and their families, driving spikes into trees and 
injuring loggers, and setting bombs in truck dealerships are not 
protest actions protected by the First Amendment--they are terrorist 
acts.
    The Patriot Act of 2001 defines terrorism in great detail. More 
broadly, the FBI defines terrorism as ``the unlawful use of force and 
violence against persons or property to intimidate or coerce--the 
government or civilian population. I use the same definitions. I don 
``t use the term ``terrorist--lightly, or as some kind of broad brush 
attack on the majority of environmentalists or advocates of animal 
rights. Millions of people--myself among them--are sincere advocates of 
protecting our environment, and differ peacefully on what actions are 
needed and how much governmental regulation is required to accomplish 
that goal. People can have an honest and non-violent debate over 
whether we should halt medical research on animals that is being 
conducted to find cures for cancer, heart disease, AIDS, and many other 
illnesses. But when someone goes beyond words and advocacy and moves on 
to violence and threats of violence, that person becomes a terrorist. 
These terrorists are a small minority of people concerned with the 
environment and with the welfare of animals, just as the terrorists of 
al Qaeda are a small minority of the world's Muslims. But ignoring 
these dangerous people can be a fatal mistake. As we saw on September 
11, a small group of terrorists can cause an enormous amount of death 
and destruction.
    For too long, eco-and animals rights terrorists have been portrayed 
in the media as warm- hearted, well-meaning folks who are dedicated to 
good causes like preserving and cleaning up the environment, protecting 
public health, preventing cruelty to animals, and ensuring that 
corporations and the government operate in a responsible manner that 
benefits society. The prevailing wisdom has gone like this: perhaps a 
few of these sincere people--motivated only by the public interest--get 
a bit overenthusiastic at times. But they mean well, and the best way 
to deal with them is to give in to as many of their demands as 
possible--even when the demands have no basis in sound science, 
economics or social policy. But that prevailing wisdom is about as 
accurate as the view that Osama bin Laden is a sweet and loving man of 
God, and the al Qaeda and the Taliban are peaceful religious scholars 
seeking to establish a utopian society.
    Eco-and animal rights terrorists, along with the foreign terrorists 
of al Qaeda, have a lot in common. All are certain that they are 
morally superior to their opponents and are fighting for virtuous goals 
that justify criminal conduct. All are disdainful of fundamental 
American values, including the rule of law, private property rights, 
free enterprise and democracy. All operate in cells or ``sleeper--
groups, which makes detection very difficult. All operate globally. And 
many receive encouragement, support and funding from groups that are 
perceived to be legitimate charities.
    In the United States, charitable groups classified as 501 
(c)(3)groups under the tax code benefit from taxpayer subsidies, 
government grants and foundation philanthropy. This classification can 
bring enormous financial benefit to extremist groups. For example, Mike 
Roselle, the co-founder of the radical group Earth First!, which has 
been linked to and has taken credit for many acts of violence, has 
served on the boards of Greenpeace and the Rainforest Action Network. 
He also founded the Ruckus Society, which has organized so-called boot 
camps that have trained protesters to engage in ``direct action--
demonstrations at events that have turned violent, including the World 
Trade Organization meeting in Seattle. The Ruckus Society is a tax-
exempt, 501 (c)(3), organization that has received funding from the 
Turner Foundation and is, in effect, subsidized by U.S. taxpayers.
Examples of Domestic Terrorism
    No one has compiled a complete list of eco-and animal rights 
terrorist attacks, since these incidents are usually handled by local 
law enforcement authorities. But to illustrate the seriousness of this 
problem, let me give you a few examples:
    <bullet> LOne of the most active eco-terrorist groups--the Earth 
Liberation Front ((ELF)'' boasts on its website 
``www.earthliberationfront. com--that ``in North America alone since 
1997, the ELF has caused over $40 million in damages--in its attacks. 
ELF says proudly that it is responsible for a $12 million arson at a 
Vail, Colorado ski resort; a $1 million arson at the Boise Cascade 
lumber company in Monmouth, Oregon; a $5. 4 million fire last year at 
the University of Washington's Center for Urban Horticulture in 
Seattle; a fire that destroyed a U.S. Forest Service Ranger Station in 
Eugene, Oregon; a $700, 000 arson at a cotton gin in Visalia, 
California; a fire at a federally owned wild horse barn in Susanville, 
California; a $1 million fire at a meat-packing plant in Redmond, 
Oregon; a fire in January at a University of Minnesota greenhouse in 
St. Paul; a $1. 5 million fire at a U.S. Department of Agriculture 
facility in Olympia, Washington; plus the burning of homes, sport 
utility vehicles, logging trucks and many buildings around the country. 
ELF's website even carries a ``helpful--instructional manual for 
terrorists titled: : ``Setting Fires With Electrical Timers--an Earth 
Liberation Front Guide.--The FBI considers ELF one of the nation's 
leading domestic terrorist threats.
    <bullet> LA Year-End Direct Action Report for 2001 issued by the 
Animal Liberation Front (ALF)states that ALF, ELF and their 
sympathizers committed at least ``137 illegal direct actions in North 
America in 2001.--ALF claims responsibility for attacking 10 fur 
stores, seven bank offices, 13 fast food restaurants, five research 
labs, four animal breeders, four meat stores, and numerous other 
targets. ALF is classified by the FBI as a terrorist organization. The 
group even took credit on September 11 for torching a McDonald's 
restaurant in Tucson, Arizona, causing about $500, 000 damage. The 
attackers announced: ``This action is meant to serve as a warning to 
corporations worldwide: You will never be safe from the people you 
oppress.--Less than two weeks later, attackers spray-painted swastikas, 
obscenities, and the initials ALF and ELF on a Ronald McDonald House in 
Tucson. Ronald McDonald Houses are charitable facilities that provide 
over 3, 000 rooms in 19 countries to house families of children 
hospitalized nearby with serious illnesses.
    <bullet> LAnimal rights terrorists have ``liberated--thousands of 
animals from fur farms and medical research labs, including university 
facilities, in recent years. Encouraging these efforts, Ingrid Newkirk, 
President of People for the Ethical Treatment of Animals, said at the 
National Animal Rights Convention in 1997: ``I wish we all would get up 
and go into the labs and take the animals out or burn them down.--Most 
of the ``liberated--animals have wound up as road kill or have died of 
starvation. People will die as well, because the terrorists have set 
back medical research designed to find life-saving cures for deadly 
diseases.
    Thankfully, nothing these domestic terrorists have done even comes 
close to the terrible toll of death and destruction caused by the 
hijackers who flew airliners into the World Trade Center, the Pentagon 
and rural Pennsylvania. But home-grown terrorism has caused plenty of 
harm. Authorities fear it is only a matter of time before fires set by 
these terrorists destroy lives as well as property--either as 
accidental ``collateral damage,--or in a deliberate escalation of 
violence.
    Firebombs don ``t check for innocent bystanders before going off, 
and it's a wonder that more injuries and even deaths have not taken 
place in eco-and animal rights terrorist attacks. In one incident, 
unidentified animal rights terrorists mailed razor-rigged letters, 
designed to cut fingers, to fur industry officials and scientists 
conducting experiments with animals in 1999--hardly a non--violent 
action. In another, law enforcement officials in Houghton, Michigan 
disarmed two bombs at Michigan Tech University last November--and said 
students walking nearby could have been maimed or killed if the bombs 
had gone off. Injuries were also averted when eco-terrorists attacked a 
car dealership in Eugene, Oregon and set up jugs of camp fuel and 
gasoline around a fuel truck belonging to an oil company. Fortunately, 
the effort to start a massive and potentially deadly explosion failed. 
Arsonists later destroyed 30 sport-utility vehicles in a blaze at the 
dealership.
    Imagine what would have happened if--on September 10--someone had 
testified before Congress that Osama bin Laden was on the verge or 
murdering thousands of Americans, causing billions of dollars in 
property damage, plunging the United States into war, and forcing our 
country to spend billions of dollars in extra funds on homeland 
security. Most people would have called this person an alarmist at 
best--or just plain crazy at worst. A lot of people probably have the 
same reaction to warnings like those I am giving you today about eco-
terrorists and animal rights terrorists. But my warnings aren't based 
on alarmism or hysteria. They are based on the record of domestic 
terrorism that these groups have built up so far, and the fact that 
many of these groups are promising to escalate their activities in the 
future.
Surrender Is Not a Winning Strategy
    Capitulation counselors have been telling us for years to pursue 
surrender to terrorist groups as a winning strategy, just as Neville 
Chamberlain told the world in 1938 that appeasement was a winning 
strategy to deal with Adolf Hitler. In our own country, we have been 
advised to give in to nonsensical radical demands by eco-and animal 
rights fanatics that would cost families and government huge sums of 
money, would condemn millions of people to death by interfering with 
vital medical research on animals, and would prevent advances in 
agriculture that could save millions of people from starvation. On the 
foreign front, we have been advised to understand the ``root causes--of 
terrorism, and work to ``tell our story better--and empathize with poor 
and oppressed people struggling for dignity, self-determination and the 
right to follow their religious beliefs. Like flight attendants before 
September 11, we have been told that by being passive and cooperative 
with our attackers at home and abroad, we could persuade them to put 
down their weapons and do us no harm.
    Unfortunately for thousands of innocent people, the well-meaning 
strategy of passivity made September 11 their last day on earth. And 
just as this strategy failed on September 11 with al Qaeda terrorists, 
it is a failure when dealing with eco-and animal rights terrorists. A 
much better strategy is to acknowledge the threat we face and say 
``let's roll. ``
    Winston Churchill, who succeeded Chamberlain as Prime Minister and 
fought Hitler ferociously, was right when he said: ``An appeaser is one 
who feeds a crocodile, hoping it will eat him last.--The fact is that 
when criminals and terrorists enjoy success and go unchallenged they 
grow stronger, become even more contemptuous of the rule of law, and 
commit ever more damaging crimes and acts of terror. Appeasement 
encouraged Hitler to become more aggressive and dangerous, and led to 
World War II and the Holocaust. In the same way, toleration of previous 
terror attacks only strengthened Osama bin Laden and his followers, 
emboldening them to carry out the atrocities of September 11. And now 
appeasement of eco-and animal rights terrorists is only encouraging 
them to become more violent and more dangerous.
President Bush Has Shown Us How To Deal With Terrorists
    The vast majority of Americans and the vast majority of Members of 
Congress, regardless of political party, stand solidly behind President 
Bush in his tough, principled and effective response to terrorism from 
abroad. Like millions of other Americans, I ``m grateful to see the 
bipartisan unity and patriotism sweeping across our nation and 
strengthening our homeland security. Unfortunately, even as our nation 
is at war with al Qaeda and other foreign terror groups, eco-and animal 
rights terrorists in our country continue to wage their own war against 
America.
    Former ELF spokesman Craig Rosebraugh, who was subpoenaed to appear 
at today's hearing by this Subcommittee, issued a statement November 1 
saying he would not cooperate with Congress in its ``attempts--to stop 
the work of the brave, heroic, individuals in the ELF who are trying to 
end the destruction of life.--Mr. Rosebraugh said in the statement: 
``In light of the events of September 11, my country has told me that I 
should not cooperate with terrorists. I therefore am refusing to 
cooperate with members of Congress who are some of the most extreme 
terrorists in history. Currently they are responsible for allowing the 
slaughter of now over an estimated 1, 500 Afghanistan civilians. They 
are responsible for the Sept. 11 attacks due to horrendous U.S. foreign 
policies of imperialism and they are responsible for the current 
ongoing genocide against the innocent people of Afghanistan. ``
    ALF said in its 2001 annual report: ``Since Sept. 11 there has been 
no ceasing of animal abuse, animal torture, and animal killing. The 
destruction of our natural environment in the name of progress or 
development and greed hasn't stopped. In the face of this continuous 
onslaught it would be irresponsible for animal and earth warriors to 
abandon their campaigns and actions at this time. In fact, it is 
imperative that direct action activists continue, and indeed step up 
their actions in this late hour on our planet. ``
    I have nothing against reasonable compromise with reasonable 
people. But the conduct and statements of ELF, ALF, and similar 
extremist groups shows they are unwilling to make reasonable 
compromises. Trying to negotiate and compromise with them today would 
make as much sense as negotiating and compromising with Osama bin 
Laden.
    After September 11, President Bush didn't call for dialogue, 
sympathy and empathy with the butchers of al Qaeda and the Taliban. And 
he didn't call for surrender to bin Laden's wild demands. Instead, 
President Bush made some sensible and non-negotiable demands of his 
own. When those demands were rejected, the United States responded with 
military action. Of course, I don ``t advocate--and don ``t know of 
anyone who advocates--sending bombers and Special Forces after the eco-
and animal rights terrorists in our midst. But we should send police 
and prosecutors. Our laws must be enforced and action must be taken to 
protect America against a domestic terrorist assault that has already 
caused tens of millions of dollars in property damages, forced 
institutions to spend precious funds on increased security, and 
threatens to cause more injuries and even deaths in the future.
Suggestions For Congress And The Executive Branch
    I respectfully submit the following suggestions for Subcommittee 
consideration to protect our nation against eco-and animal rights 
terrorists:
    1) LCreate a clearinghouse within the FBI for the collection of 
information about eco-terrorist and animal rights terrorist events. 
Historically, many of these terrorist incidents have been investigated 
by local law enforcement. There's nothing inappropriate about that, but 
there has been no centralization of information about these incidents. 
This may have compromised law enforcement's ability to follow the trail 
of these extremists. Terrorists move around, frequently crossing state 
and municipal lines. Authorities in one jurisdiction need to know about 
suspects and activities in other jurisdictions.
    2) LReview and consider tightening the criteria for the 
distribution of government grants to non-profit organizations. New 
criteria could require grant recipients to be completely transparent 
about their operations, policies and financial transactions. This would 
enable donors, the public and the authorities to know if money 
contributed for ostensibly good causes was really being used for crime 
and terrorism.
    3) LReview and consider tightening and clarifying the criteria for 
granting tax- exempt status [501 (c)(3)] to organizations seeking that 
privilege. New criteria could require the recipients of 501 
(c)(3)status to be completely transparent about their operations, 
policies, financial transactions, advocacy and lobbying activity. It is 
perfectly reasonable to require more public disclosure before granting 
the valuable privilege of a tax exemption.
    4) LReview and consider further clarifying the statutory definition 
of terrorism to include actions designed to intimidate individuals 
through the explicit or implicit threat of violence and/or property 
destruction. Historically, animal rights and eco-terrorist 
organizations have published the names, photos, home addresses and 
telephone numbers of targeted individuals, such as corporate 
executives, researchers and scientists. The groups have encouraged 
their followers to harass, intimidate, and attack these individuals, 
their family members and/or their property. Unabomber Theodore 
Kaczynski testified in court that he targeted and subsequently killed 
one of his victims because the individual's name appeared on a hit list 
put out by the group Earth First!
Conclusion
    Our home-grown terrorists detest America's businesses, our free 
enterprise system, our environmental policies, our use of animals for 
food and medical research, our judicial system, our elected officials, 
and many other American institutions and values. They use arson and 
other weapons to wage war against our economy and our freedom. They 
think they are heroes and crusaders for justice, just as the September 
11 hijackers thought of themselves in this way.
    But terrorism is terrorism, not heroism, no matter how noble the 
cause in the terrorist's fanatical mind. Just as President Bush has 
responded to Osama bin Laden by saying his brand of murderous terrorism 
is intolerable, our government must tell law-breaking eco- terrorists 
and animal rights terrorists that their brand of fiery terrorism is 
intolerable as well. Our laws need to be enforced fairly and without 
prejudice against anyone who breaks them, regardless of the cause the 
lawbreakers espouse. These include local laws against crimes like 
trespassing, vandalism and malicious mischief. Too often, law 
enforcement ignores these infractions--encouraging violators to 
escalate their activities. When someone commits such violations, or 
moves on to burning down buildings and more serious crime, he or she 
should be punished whether the burning was in support of ELF, ALF, the 
Nazi Party, al Qaeda, the Boy Scouts, the Red Cross, the American 
Cancer Society or any religious group. The worthiness of the cause in 
the mind of the criminal should be irrelevant.
    For too many years, the United States failed to devote the 
necessary attention and dedicate the necessary resources to fighting 
terrorism originating abroad. We shouldn't make the same mistake when 
fighting the home-grown variety. We can ``t afford to let our inaction 
today give American terrorists the green light to escalate their terror 
tactics to horrifying proportions tomorrow.
    Once again, Mr. Chairman and Members of the Subcommittee, I thank 
you for giving me this opportunity to submit this testimony.

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
